<html>
<title> - OVERSIGHT OF THE INVESTIGATION OF THE NASA INSPECTOR GENERAL</title>
<body><pre>[Senate Hearing 110-434]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-434
                                                          Serial 110-37
 
                     OVERSIGHT OF THE INVESTIGATION
                     OF THE NASA INSPECTOR GENERAL

=======================================================================

                             JOINT HEARING

                               before the

                  SUBCOMMITTEE ON SPACE, AERONAUTICS,
                          AND RELATED SCIENCES

                                 of the

                              COMMITTEE ON
                 COMMERCE, SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                                and the

                     SUBCOMMITTEE ON INVESTIGATIONS
                             AND OVERSIGHT

                                 of the

                              COMMITTEE ON
                         SCIENCE AND TECHNOLOGY
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   on

                               __________

                              JUNE 7, 2007

                               __________

 Printed for the use of the Senate Committee on Commerce, Science, and 
    Transportation and the House Committee on Science and Technology

                     U.S. GOVERNMENT PRINTING OFFICE
41-101 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

BILL NELSON, Florida, Chairman       KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MARK PRYOR, Arkansas                 JOHN E. SUNUNU, New Hampshire
               HOUSE COMMITTEE ON SCIENCE AND TECHNOLOGY

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

BART GORDON, Tennessee, Chairman     RALPH M. HALL, Texas, Ranking 
JERRY F. COSTELLO, Illinois              Republican Member
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER, JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois, Vice      FRANK D. LUCAS, Oklahoma
    Chairman                         JUDY BIGGERT, Illinois
NICK LAMPSON, Texas                  W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JO BONNER, Alabama
JERRY McNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL E. KANJORSKI, Pennsylvania      BOB INGLIS, South Carolina
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
BEN CHANDLER, Kentucky               BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri              ADRIAN SMITH, Nebraska
CHARLIE MELANCON, Louisiana          PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           ROBERT J. WITTMAN, Virginia
CHARLES A. WILSON, Ohio
                                 ------                                

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

BRAD MILLER, North Carolina,         F. JAMES SENSENBRENNER, JR., 
    Chairman                             Wisconsin, Ranking Republican 
JERRY F. COSTELLO, Illinois              Member
EDDIE BERNICE JOHNSON, Texas         DANA ROHRABACHER, California
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
STEVEN R. ROTHMAN, New Jersey        PAUL C. BROUN, Georgia
BRIAN BAIRD, Washington              RALPH M. HALL, Texas, Ex Officio
BART GORDON, Tennessee, Ex Officio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 7, 2007.....................................     1
Statement of Representative Feeney...............................     7
Prepared statement submitted by Representative Feeney for Hon. F. 
  James Sensenbrenner, Jr., U.S. Representative from Wisconsin...     7
Statement of Representative Gordon...............................     3
Statement of Senator Hutchison...................................     6
Statement of Senator McCaskill...................................    42
Statement of Representative Miller...............................     4
Statement of Senator Nelson......................................     1

                               Witnesses

Brian, Danielle, Executive Director, Project On Government 
  Oversight (POGO)...............................................    29
    Prepared statement...........................................    31
Carrington, Lance, Deputy Assistant Inspector General 
  Investigations, Office of the Inspector General, U.S. Postal 
  Service and Former Assistant Inspector General for 
  Investigations, NASA...........................................    21
Carson, Kevin J., Assistant Inspector General for Audits and 
  Inspections, Office of Inspector General, Government Printing 
  Office and Former Deputy Assistant Inspector General for 
  Audits, NASA...................................................     9
    Prepared statement...........................................    13
Cobb, Hon. Robert W., Inspector General, NASA....................    53
    Prepared statement...........................................    55
Herzog, Debra, Senior Attorney, Office of Inspector General, U.S. 
  Postal Service, and Former Deputy Assistant Inspector General 
  for Investigations, NASA.......................................    17
    Prepared statement...........................................    19
Light, Dr. Paul C., Paulette Goddard Professor of Public Service, 
  Robert F. Wagner School of Public Service, New York University.    24
    Prepared statement...........................................    25

                                Appendix

Donohue, Hon. Kenneth M., Inspector General, Department of 
  Housing and Urban Development, prepared statement..............    79
Excerpts from Record of Investigation of Hon. Robert W. Cobb, 
  Office of Inspector General dated August 30, 2006..............   116
Excerpts from Semiannual Report, Office of Inspector General, 
  NASA, dated April-September 30, 2004...........................   112
Excerpts from transcript of interview of Hon. Robert W. Cobb, 
  conducted by Office of Inspector General, Department of Housing 
  and Urban Development, dated June 27, 2006.....................   113
Grassley, Hon. Chuck, U.S. Senator from Iowa, prepared statement.    77
Letter, dated August 15, 2003, from Hon. Robert W. Cobb to Hon. 
  Sean O'Keefe entitled ``Subject: Observations on the 
  Independence of the Columbia Accident Investigation Board''....    84
Policy and Procedures for Exercising the Authority of the 
  Integrity Committee of the President's Council on Integrity and 
  Efficiency, dated April 24, 1997...............................    89
Quality Standards for Federal Offices of Inspector General, dated 
  October 2003...................................................    94
Report in the form of a letter, dated January 22, 2007, from 
  James H. Burrus, Jr., Chair, Integrity Committee to Hon. Clay 
  Johnson III, Chairman, Integrity Committee, President's Council 
  on Integrity and Efficiency....................................   136
Response to written questions submitted by Hon. Bill Nelson to 
  Hon. Robert W. Cobb............................................    81


                     OVERSIGHT OF THE INVESTIGATION
                     OF THE NASA INSPECTOR GENERAL

                              ----------                              


                         THURSDAY, JUNE 7, 2007

                               U.S. Senate,
   Subcommittee on Space, Aeronautics, and Related 
                                          Sciences,
        Committee on Commerce, Science, and Transportation,
             U.S. House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 2:09 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Senate Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon.
    Welcome to this hearing, on a matter of serious concern to 
the respective committees on the misconduct, or alleged 
misconduct, of the NASA Inspector General. We want to make a 
special welcome to our colleagues from the House Science 
Committee and its Subcommittee on Oversight and Investigations: 
Chairman Bart Gordon, the Chairman of the full committee, 
Chairman Miller, the Chairman of the Subcommittee. I want to 
welcome our colleague from Florida, Congressman Feeney, who is 
sitting in for the Ranking Member, Jim Sensenbrenner; and, of 
course, our colleague here, Senator Hutchison, the Ranking 
Member on this subcommittee.
    In April, we received the results of the Integrity 
Committee's investigation of the NASA Inspector General, Robert 
Cobb. That independent panel found that Mr. Cobb had abused his 
office and failed to maintain the appropriate appearance of 
independence from the agency he is charged with monitoring. 
Those are the conclusions of the Integrity Committee.
    Based on these conclusions of the Integrity Committee, I 
joined Chairman Gordon and Chairman Miller in calling on 
President Bush to remove Mr. Cobb from office. My position has 
not changed. However, some of the conduct described in the 
Integrity Committee's report is so disturbing that it warrants 
additional investigation. I am particularly concerned with 
several specific instances of Mr. Cobb's misconduct:
    First, in 2002, foreign computer hackers gained access to 
sensitive information on a NASA computer, including NASA's most 
advanced rocket engine designs, the worth of this information 
is estimated to be worth $1.9 billion. In such situations, 
Federal export control laws require notification to the U.S. 
State Department, but Mr. Cobb ignored the advice of his staff 
and repeatedly blocked attempts to notify the State Department, 
for fear that the disclosure would be embarrassing to NASA.
    As Exhibit 3 shows, when the Department of Defense was 
finally asked about the impact of this incident, they reported 
that the information disclosed may allow our adversaries to 
develop larger and more accurate ballistic missiles. Who are 
those adversaries? Adversaries with regard to rocket design are 
almost any country, not the least of which are Russia, China, 
North Korea, and now Iran. You get the picture.
    The second incident, in December 2004, and again in 2005, 
Mr. Cobb delayed execution of search warrants in criminal 
investigations after those warrants had been sworn by an 
assistant U.S. Attorney and were signed by a Federal judge. The 
question of obstruction of justice arises.
    The third example, in June 2002, the Space Shuttle Endeavor 
was launched with one of the two required range safety systems 
inoperative. In order to launch, the launch criteria is that 
both must be operative. Despite the critical safety 
implications for NASA and the public, Mr. Cobb blocked a NASA 
OIG investigation of the incident, deferring, instead, to the 
Air Force, even when it became clear that the Air Force was not 
thoroughly investigating the matter.
    NASA is unique among Federal agencies, its mission is to 
expand the boundaries of exploration, push the limits of 
technology, and broaden our understanding of our own planet and 
the universe. All of these activities carry considerable risk. 
In many cases risk that can jeopardize the lives of NASA 
employees, and, with regard to the range safety concerns, could 
jeopardize the populations of nearby cities on the east coast 
of Florida.
    We've had too much experience with this, with mistakes in 
the past, and we have lost two Shuttles and 14 astronaut lives. 
First in 1986 and again in 2003. Investigators from those 
tragic events determined that a key contributor to the death of 
those 14 astronauts was a culture that discouraged employees 
from raising safety concerns.
    With this history in mind, it's particularly important for 
NASA employees to know about concerns about safety, waste, 
fraud, and abuse, to know that all of that can be reported to a 
trustworthy inspector general, and have the full confidence 
that that watchdog will pursue each case thoroughly, 
professionally, and independently.
    The investigations of the two Shuttle tragedies found that, 
instead of communication being a two-way street, it was from 
the top, down; and the top management was not receiving the 
information from the bottom, going up.
    Under Mr. Cobb's leadership, the Office of Inspector 
General at NASA has become dysfunctional. Fear and mistrust 
permeate the office. More than half of the experienced 
professionals in the office have left since Mr. Cobb's arrival. 
The boundaries, or the firewalls, between the IG and the 
agency's management have been trampled. The evidence shows us 
that these are not isolated instances, but that a pattern of 
misconduct continues even today. As recently as April the 10th, 
OIG employees raised new concerns about Mr. Cobb's independence 
from NASA management, and the NASA general counsel destroyed 
government records in a bungled attempt at damage control 
related to the Cobb investigation.
    Whistleblowers, who rely on the OIG to voice concerns about 
agency operations, are unwilling to come forward, knowing that 
this IG will not respond favorably, and may even allow 
retaliation from management against them.
    Congress depends on inspectors general as the first line of 
oversight at government agencies. That's the law. Without an 
effective inspector general at NASA, we have no choice but to 
increase the frequency and intensity of our own oversight 
activities.
    With each new revelation, I am more convinced that the 
current dysfunction in the NASA OIG is unrecoverable under the 
current leadership. I am hopeful that the information learned 
today will be helpful in reconstituting an effective OIG at 
NASA after Mr. Cobb's departure.
    Now, under the procedures that we have set up, each of the 
respective leaders here will have an opening statement, and I 
would turn to Chairman Bart Gordon, of the House Science and 
Technology Committee.

                STATEMENT OF HON. BART GORDON, 
               U.S. REPRESENTATIVE FROM TENNESSEE

    Chairman Gordon. Thank you, Chairman Nelson. You know, it 
was 22 years since I was able to call you that, when you were 
Chairman of the Space Subcommittee in the House of 
Representatives. And so, I'm glad to refer to you as that 
again.
    And, although this is not unprecedented, it's certainly 
unusual to have a joint hearing, which I think demonstrates, to 
the public and to NASA, that this a very serious issue, and 
that we take it very seriously, and we are very concerned that 
NASA is being compromised.
    In 2002, Mr. Cobb took on a very difficult job when he 
agreed to sign up to be Inspector General. IGs are probably 
held to the highest standard of any office in government. The 
expectations of integrity are so high because the job we set 
for IGs is so challenging.
    The purpose of the IGs, as stated in the 1978 Inspector 
General Act, is to act as effective watchdogs on agencies from 
the inside by creating independent and objective offices. Those 
offices are charged with recommending policies to promote 
efficiency and effective administration of government, and 
preventing--detecting fraud, waste, and abuse. It was expected 
that they would leave no stone unturned in searching for 
improper behavior.
    It's impossible to do that job if there is even a hint of 
misconduct on the part of the IG. And the lack of independence 
is a sure sign of a lack of objectiveness. If you view yourself 
as part of an agency's management team, you can't be an 
effective check on that management team. And it's very clear 
that, from the very beginning, Mr. Cobb saw himself as a part 
of Sean O'Keefe's team.
    Senator Grassley was to testify here today, and I would 
like to quote, at some length, from his testimony. Senator 
Grassley noted this, ``I'm alarmed by the evidence uncovered by 
the PCIE investigation. In fact, it appears that Mr. Cobb did 
not act in a manner consistent with the spirit and intent of 
that statute. According to the evidence, he was used--he has 
used this important position to interfere in the activities and 
conduct conducted by the investigative and audit divisions 
within his office for reasons that appear, at the very least, 
improper. In fact, Mr. Cobb repeatedly told employees that one 
of his priorities was to avoid embarrassing NASA. Evidence also 
indicates that he shied away from bringing investigators 
against--investigations against high-level NASA officials.''
    Senator Grassley continues. This is Senator Grassley, ``It 
is clear to me that our ability to trust Mr. Cobb to 
effectively manage the Office of Inspector General and the 
vital functions that it seeks to carry out is in question. It 
seems that Mr. Cobb may care more about protecting NASA from 
embarrassment than he does about performing the critical 
functions of his office. An Inspector General must possess 
temperance, high ethical standards, and a firm understanding of 
the independent nature of that office. From the evidence 
presented, Mr. Cobb does not appear to possess those 
attributes.''
    I want to concur, today, with Senator Grassley's comments. 
An IG has to conduct himself or herself in a way--in a fashion 
that Congress trusts them, that IG staffs believe in them, and 
that the whistleblower community relies on them. The current 
NASA IG has failed on every account.
    Mr. Cobb, you've--you were chosen Inspector General not for 
your management skills or your experience in auditing, 
investigations, financial analysis, public administration, or 
any of the other skills that IGs, by statute, are supposed to 
possess; you were chosen to play ball with Sean O'Keefe. 
Because of that and your own actions, you have been highly 
unsuccessful as an Inspector General. I hope you will consider 
this, and, for the sake of yourself and for NASA, you will do 
the right thing, and you will resign.
    I yield back.
    Senator Nelson. Chairman Miller--and, of course, each of 
our statements will be put in, in full, in--your prepared 
statement, for the record, it will be a part of the record.
    Chairman Miller?

                STATEMENT OF HON. BRAD MILLER, 
            U.S. REPRESENTATIVE FROM NORTH CAROLINA

    Representative Miller. Thank you, Senator Nelson. Good 
afternoon.
    In January, the Integrity Committee of the President's 
Council on Integrity and Efficiency completed its investigation 
of allegations of misconduct by Robert ``Moose'' Cobb, the 
Inspector General of NASA. After a 6-month investigation, the 
PCIE found that Mr. Cobb had abused his authority and exhibited 
the lack of independence, or had exhibited the appearance of a 
lack of independence from NASA management. Those are violations 
of the quality standards for Federal Offices of the Inspector 
General established under an executive order. The Integrity 
Committee said that discipline up to, and including, removal 
was appropriate.
    After receiving the report, the majority leadership of the 
Senate Subcommittee on Space, Aeronautics, and Related 
Sciences, Senator Nelson, as well as the Chairman of the House 
Committee on Science and Technology, Mr. Gordon, and I all--
called upon the President to remove Mr. Cobb as Inspector 
General of NASA.
    Mr. Cobb remains in office. The findings of abuse of 
authority by the PCIE involve Mr. Cobb's abusive and degrading 
treatment of his staff resulting in massive staff turnover and 
affecting productivity. Mr. Cobb referred to his professional 
staffs as ``Burons,'' Mr. Cobb's shorthand for ``Bureaucratic 
Morons,'' and by other vulgar terms that I will not repeat 
here.
    Rather than dwell on the abusive atmosphere created by Mr. 
Cobb and its effect on productivity, I want to make sure that 
the second finding, regarding the appearance of a lack of 
independence, receives the attention that it requires.
    According to the official standards, inspectors general and 
their staff ``have the responsibility to maintain independence 
so that opinions, conclusions, and recommendations will be 
impartial, and will be viewed as impartial by knowledgeable 
third parties.'' Mr. Cobb has utterly failed to do that.
    Perception that Mr. Cobb lacked independence was set in 
motion during Mr. Cobb's hiring. Shortly after Sean O'Keefe 
moved from the Office of Management and Budget to NASA, Mr. 
O'Keefe, NASA's former Administrator, decided that he didn't 
like the previous NASA Inspector General. He went to the White 
House and demanded a new one. How Mr. Cobb was selected is not 
entirely clear, but what is clear is that Mr. O'Keefe 
personally chose his new Inspector General and established a 
regime in which Mr. Cobb was part of Mr. O'Keefe's team, and 
not the independent Inspector General required by law. As Mr. 
Cobb described it, ``Mr. O'Keefe reached a conclusion that I 
would be the perfect person to conduct the independent Office 
of Inspector General activities.''
    Once at NASA, Mr. Cobb called Mr. O'Keefe his ``boss,'' and 
said he was afraid he would be fired if he displeased Mr. 
O'Keefe. And why shouldn't he think that, since Mr. O'Keefe had 
been able to fire the previous NASA Inspector General and pick 
the new one?
    According to some interviewed by the HUD IG staff, who 
carried out the PCIE investigation, Mr. Cobb was warned, from 
the beginning, about lacking an appearance of independence, but 
he ignored those warnings, and the Integrity Committee's record 
of investigation is full of evidence of his failure to maintain 
any shred of an appearance of independence.
    Mr. Cobb asked NASA officials how to design the IG 
projects. A December 12, 2002, e-mail, for instance, asked NASA 
officials to discuss two proposed projects, ``so we can take 
your views into account in designing our activities.''
    After the Columbia accident, there are questions about the 
independence of the O'Keefe-appointed Accident Investigation 
Board. Chairman Gordon was one of those asking questions. Mr. 
Cobb provided an unsolicited personal letter to Congress--
unsolicited by Congress, at least--saying that, based on his 
observations, the Board was independent. But, before sending 
the letter to Congress, Mr. Cobb sent a draft to Mr. O'Keefe 
for his review and comment. Mr. O'Keefe liked the letter a lot.
    I could go on and on with more examples of the ways in 
which Mr. Cobb tried to make himself useful to his friends at 
the top of the agency, especially Mr. O'Keefe. But what is most 
important here is that Mr. Cobb is now totally ineffective in 
his job, and trusted by no one.
    As he has made clear in his testimony today, his written 
testimony submitted in advance, Mr. Cobb has learned nothing 
from the PCIE investigation. He admits no wrong, he blames 
others for all of his problems. Mr. Cobb said, in this 
deposition, that if the current NASA Administrator, Mike 
Griffin, invited him to go play golf, he would love to go, ``By 
all means, I'm going to go play if he asks. If he wants to 
invite me out to dinner, I think it would be perfectly 
appropriate for me to do so.'' He wants the same kind of 
relationship that he had with Mr. O'Keefe. Dr. Griffin, to his 
credit, apparently does not.
    Mr. Cobb, you must leave. You have two clients: NASA and 
Congress. That is clear from the statute, from the Inspector 
General Act of 1978. That is clear from the quality standards 
for Federal Offices of Inspector General, which I hope every 
Inspector General would keep on their desk. Congress is your 
client, one of only two. It is apparent that Congress does not 
trust you.
    The Committees of the House and the Senate that are 
responsible for oversight of NASA are sitting before you. All 
of us have called upon the President to fire you.
    You have told our staff that you are afraid to talk to your 
own staff, because they twist your words. So, you are hiding 
from your own staff. As one of our witnesses said in written 
testimony, ``Each IG must be willing to accept responsibility 
for his or her behavior, and acknowledge when their 
independence has been comprised, fairly or unfairly, and exit 
office gracefully.''
    Mr. Cobb, the work of the NASA IG is important. Mr. Cobb, 
you must leave to preserve what is left of the integrity of 
your office.
    Senator Nelson. Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman.
    I certainly am pleased to be here with our House colleagues 
for this joint hearing.
    I want to say that I have not called for Mr. Cobb's 
resignation, because I haven't heard from Mr. Cobb. And I do 
think that, regardless of how one feels about the allegations 
made against the NASA Inspector General, or the process by 
which the allegations were investigated, or the conclusions 
reached, the hearing certainly has been brought about because 
of a failure somewhere. The only thing that is--that we can say 
is that the hearing is part of examination and accountability 
that can help us find where the problems exist within our 
jurisdictional areas of responsibility, and how they can be 
addressed.
    I have made no prejudgment. I am, of course, I have to say, 
very concerned about the nature of the allegations made against 
the Inspector General of NASA. Some of them, if true, represent 
conduct that I find objectionable, and should be changed. 
However, I also believe it is only fair that the oversight 
hearing include Mr. Cobb. I think that it is going to be very 
important to hear the allegations, and then to allow him to 
respond.
    Most of all, I have to say that this subcommittee must 
ensure that nothing within the NASA institutional structure, 
including the Office of Inspector General, is allowed to have a 
negative effect on the ability of NASA to carry out its 
programs efficiently and safely.
    Those would be the primary concerns that I have. I have to 
apologize right now and say that I'm already late for a meeting 
that I cannot miss, so I will have to leave. But I will get all 
of the testimony of this hearing, and then will certainly be 
part of the collaboration about what should be done about it.
    I've talked to Senator Nelson about the issue several 
times, and I appreciate that he postponed the hearing to try to 
make sure that we did have all the sides fairly represented, 
including Mr. Cobb.
    So, thank you for that. And I will certainly look forward 
to our--exercising our responsibility for oversight correctly.
    Thank you.
    Senator Nelson. Congressman Feeney, standing in for 
Congressman Sensenbrenner.

                 STATEMENT OF HON. TOM FEENEY, 
                U.S. REPRESENTATIVE FROM FLORIDA

    Representative Feeney. Well, I'm not sure anybody can stand 
in for Congressman Sensenbrenner under any circumstances, but 
it's a pleasure to be here with my Senator, Mr. Chairman, and 
also Chairman Miller and Chairman Gordon.
    I'll be very brief. I want to echo Senator Hutchison's 
remarks that I have not prejudged this case. I'm interested in 
hearing from the witnesses, including the expert, Dr. Light, as 
to the appropriate role of Inspectors General, and look forward 
to hearing and reviewing the response from Mr. Cobb.
    With that, I would like to ask for permission to enter into 
the record an opening statement from Congressman Sensenbrenner.
    Senator Nelson. So ordered.
    [The information previously referred to follows:]

          Prepared Statement of Hon. F. James Sensenbrenner, 
                   U.S. Representative from Wisconsin

    There is a line between good governance and interference, and I 
think we may have crossed it. Without commenting on the merits of any 
of the investigations, I note that Robert Cobb is one of four 
inspectors general (IGs) currently under investigation. These 
investigations are in addition to three investigations that recently 
forced IGs to resign. All seven of these investigations are in addition 
to the countless investigations of Executive Branch officials outside 
of the IG community. The current culture in Washington is becoming one 
of overzealous oversight.
    Inspectors General are our agency watchdogs. Of course, these 
watchdogs need to be watched--accountability is a hallmark of good 
government--but when holding officials accountable is more about press 
releases than it is about fear of wrongdoing, oversight becomes more 
interference than benefit.
    Endless investigations have consequences, even beyond the 
unnecessary expense to taxpayers. Congressional investigators demand 
that IGs act independently, but constant investigations undermine that 
independence. In drafting the Inspector General Act, Congress gave IGs 
substantial freedom to develop audits and conduct investigations. 
Congress clearly expected IGs to act independently and rely on their 
own judgment to determine an effective agenda. Constant investigations 
undermine that independence. It is as if we have placed our IGs in 
front of a firing squad and told them to ``speak freely.''
    One of today's witnesses, Professor Paul Light from New York 
University, recognized this problem and argued that IGs' agendas were 
detrimentally influenced by outside powers:

        Compliance monitoring not only generates a much greater volume 
        of findings of failure . . . and thus more opportunities for 
        credit claiming by the Congress and the Administration, but 
        also produces recommendations for actions that are less 
        expensive, more politically palatable, cleaner 
        jurisdictionally, and faster to implement.

    Frederick M. Kaiser, Paul C. Light, Monitoring Government and the 
Search for Accountability 23 (1993).
    IGs already have the unenviable task of criticizing powerful agency 
heads, Congressional leaders, and the President, himself--this 
minefield is inherent in the geography of the IG Act--but the 
difficulty is compounded if we continue to perpetuate this culture of 
overzealous oversight.
    Beyond the systemic damage it causes, investigations cripple the 
individual offices under investigation. Robert Cobb was under 
investigation by the Investigative Committee (IC) of the President 
Council for Integrity and Efficiency (PCIE) for over a year. As soon as 
that investigation was behind him, Congressional investigators began 
their own investigation. Throughout this entire period, NASA's Office 
of the Inspector General (OIG) has been in a state of uncertainty. 
Congress and the public have been unsure of whether the office is 
reliable, OIG staff has been unsure of the future of the office, and 
Mr. Cobb, himself, has been uncertain of his own future. Some 
investigations are, of course, necessary, but there are drawbacks, so 
they should not be undertaken lightly, and the conclusions should not 
be preordained.
    Who would willingly enter this landscape? Endless investigations 
will, if they have not already, discourage public service. Congress 
demands that only the most highly qualified individuals serve as IGs, 
but constant investigations are making the positions ones that 
qualified individuals are wise to avoid. The job is simply too 
political and too unstable.
    The balance between good Congressional oversight and overzealous 
investigations should be struck by examining the Executive Branch's 
processes for holding IGs accountable. Robert Cobb was not exonerated 
by the IC, but neither did the IC recommend his removal from office. 
The Subcommittee's Majority has been critical of NASA for discounting 
the IC's conclusions and formulating its own course of action, but the 
Majority has done the same thing. While the IC stopped short of 
recommending Mr. Cobb's removal from office, the Majority has ignored 
that recommendation and has been demanding his removal for months.
    The Majority's second-guessing of the Administration's 
investigation is especially problematic because, while today's hearing 
is setting out to prove that Cobb must be removed from office, it is 
not examining the process that determined that he should not be. The 
Executive Branch should be given some leeway over its personnel. In the 
present case, the Administration conducted a costly and thorough 
investigation of Robert Cobb, NASA's Inspector General. A hearing that 
condemns the results of a decisionmaking process without considering 
the process itself, is fundamentally flawed. A hearing that examined 
the process by which IGs are investigated would have global benefits to 
the IG community and would eliminate many of the detriments caused by 
overzealous investigations. Examining the process may not produce bold 
headlines, but it does produce good government.

    Senator Nelson. Now, as we have said, Senator Grassley had 
asked to be the first witness. And, at precisely the time this 
committee kicked off, he was called to a meeting with the 
minority leader, and, therefore, he cannot be here. His lengthy 
statement will be entered into the record.
    But I would just read his concluding paragraph. And this is 
Senator Grassley, ``So, in conclusion, I have some questions 
that I would like to pose to Mr. Cobb. In answering them, I 
hope he honestly places the mission of his office ahead of his 
self-interest. Mr. Cobb, do you believe that an Inspector 
General can continue to serve if he has lost the confidence of 
his staff and of Congress? Do you believe an Inspector General 
can continue to serve who has been found, by an independent 
investigation, to have abused his authority? Do you believe an 
Inspector General can continue to serve if he is perceived as 
`in the pockets' of the people he is supposed to investigate? 
Do you believe an Inspector General can continue to serve if he 
has acknowledged verbally abusing staff on numerous occasions? 
These would be my questions to Mr. Cobb. The honest answering 
of those questions should lead him to make a decision as to 
what is best for NASA and the American people.''
    Likewise, Mr. Kenneth Donohue, the Inspector General of the 
Department of Housing and Urban Development, who conducted the 
factual investigation into the allegations against Mr. Cobb, is 
unable to be with us today. He has submitted his written 
testimony, and, without objection, it will be entered into the 
record.
    Finally, a procedural note for all the witnesses. It is the 
custom of the House Subcommittee that is represented here today 
to require sworn testimony from witnesses in oversight 
hearings. This is not our practice in the Senate Commerce 
Committee. However, witnesses are reminded of their 
obligations, under 18 U.S.C. 1001, to provide truthful 
testimony, and the penalties for failing to do so.
    With that, if we could ask the first panel to come up, 
please, to the witness table.
    The panel consists of Ms. Debra Herzog, Senior Attorney, 
Office of Inspector General, U.S. Post Office, former Deputy 
Assistant Inspector General for Investigations at NASA; Mr. 
Kevin Carson, Assistant Inspector General for Audits, Office of 
Inspector General, the Government Printing Office, former 
Assistant Inspector General for Audits in NASA; Mr. Lance 
Carrington, Deputy Assistant Inspector General of 
Investigations, Office of Inspector General, U.S. Postal 
Service, former Assistant Inspector General for Investigations 
at NASA; Ms. Danielle Brian, Executive Director, Project on 
Government Oversight; Dr. Paul Light, the Paulette Goddard 
Professor of Public Service, Robert Wagner School of Public 
Service, at New York University.
    So, welcome, all.
    Mr. Carson, we will start with you. All of your written 
statements will be entered into the record. We would like to 
have you give us your five-minute statements, and then we can 
get into the questions.
    Mr. Carson?

        STATEMENT OF KEVIN CARSON, ASSISTANT INSPECTOR 
         GENERAL FOR AUDITS AND INSPECTIONS, OFFICE OF 
INSPECTOR GENERAL, GOVERNMENT PRINTING OFFICE AND FORMER DEPUTY 
          ASSISTANT INSPECTOR GENERAL FOR AUDITS, NASA

    Mr. Carson. Mr. Chairman, Members of the Committees, thank 
you for the opportunity to be here today to discuss my 
experiences while employed in the NASA Office of Inspector 
General.
    Since March 2005, I have been employed as the Assistant 
Inspector General for Audits and Inspections at the U.S. 
Government Printing Office, Office of Inspector General, in 
Washington, D.C. Previously, I worked over 15 years, between 
August 1989 and March 2005, for the NASA OIG. While with the 
NASA OIG, I held a variety of audit positions, including Deputy 
Assistant Inspector General for Audits, Director of Audit 
Quality, Program Director for Safety and Security Audits. 
Including my employment with the NASA OIG, I've spent 
approximately 27 years of my career in various Federal audit 
organizations.
    I've been invited here today to provide testimony related 
to my time and experience in the NASA OIG, while working under 
the direction of NASA Inspector General Robert Cobb.
    I request that my full statement be submitted for the 
record, and will answer any questions related to its contents.
    In early 1999, the previous NASA Inspector General, Roberta 
Gross, upon the NASA Administrator stating that the agency's 
number-one priority was safety, appointed me to form a 
directorate whose specific mission was to audit safety and 
security issues within NASA. While forming the directorate with 
a small staff of auditors, the directorate quickly performed a 
series of audits and issued reports addressing various safety 
issues, primarily at NASA's manned spaceflight centers. Among 
the first reports issued by the directorate included safety 
concerns with Kennedy Space Center's payload ground operations, 
contractor safety requirements at Kennedy Space Center or 
Marshall Space Flight Center, Space Shuttle Program management 
safety observations, controls over the use of plastic films, 
foams, and adhesive tapes used in and around the Space Shuttle 
Orbiter vehicles, safety of lifting devices and equipment at 
Stennis Space Center.
    The report on safety of lifting devices and equipment at 
Stennis resulted from a request by the NASA Associate 
Administrator for Safety and Mission Assurance. The audit 
identified significant safety issues related to lifting devices 
and equipment, and found that Stennis did not safely perform 
critical lifts of high-dollar items, such as space hardware, 
one-of-a-kind test articles, major facility components, or 
personnel. In addition, we found that operators and riggers 
were not properly trained and certified, operators used cranes 
with safety deficiencies, and crane maintenance and inspections 
were inadequate.
    At the request of the House Science Committee, we performed 
an audit of safety related to Kennedy Space Center's payload 
ground operations, and found various materials used in 
processing facilities at the Kennedy Space Center consistently 
failed required tests for flammability resistance, and 
electrostatic discharge. These potentially hazardous materials 
included plastic films, foams, adhesive tapes used by payload 
processing personnel under the Center's payload ground 
operations contract. These materials have been used without 
approval of the Kennedy Safety Office since 1992. We also found 
that NASA had not identified, documented, and appropriately 
mitigated the risks of using these potentially hazardous 
materials, exposing personnel and flight hardware to increased 
risks. We also reviewed USA's controls over the plastic films, 
foams, and adhesive tapes used in and around Orbiter vehicles 
and other segments of the Space Shuttle, such as the solid 
rocket boosters, main engines, and found similar problems.
    Each of the highlighted reports addressed potentially 
serious safety issues within NASA and within the Manned 
Spaceflight Program. I believe that the success of the safety 
and security directorate was directly attributable to the 
outstanding professionalism and work ethic of the managers and 
staff, and their collective dedication to the NASA mission. It 
also helped that the directorate's work was always supported by 
then-Inspector General Roberta Gross. Although we issued some 
controversial reports that were not always accepted by the 
agency, I always felt the directorate had the complete support 
of senior OIG management, including Ms. Gross.
    On two occasions, in 1999 and 2001, the directorate 
received the OIG Audit Report of the Year Award. One of these 
reports, related to contractor safety requirements, was 
transmitted by the NASA Administrator to every NASA center 
director, who was directed by the Administrator to implement 
the recommendations at their respective centers.
    In April 2002, Robert Cobb was appointed the NASA Inspector 
General. Although the Office of Audits initially continued to 
operate as previously, within 3 to 4 months there was a 
noticeable change. Specifically, there was considerably more 
involvement in writing, rewriting, and revising a lot of 
reports by the Inspector General. There was also considerable 
questioning of the audit results, with Mr. Cobb frequently not 
agreeing with the conclusions and recommendations in audit 
reports.
    There was also what I would say was a general disrespect 
shown by Mr. Cobb, for auditors in particular. Mr. Cobb would 
often make comments like, ``Anybody can perform an audit,'' or, 
when an auditor would mention something like ``compliance with 
government audit standards,'' he would make the statement that, 
``The standards were only something for auditors to hide 
behind.''
    He also, on more than one occasion, mentioned to me that 
the safety audit directorate had produced nothing of value to 
the agency, that our audits were archeological digs, or that we 
were too far in the weeds.
    It was also during this time period that Mr. Cobb appeared 
to be providing our reports to agency officials for review and 
comment, prior to official draft release, in order to determine 
whether the agency would agree with our findings and 
recommendations. One such occasion--on one such occasion, a 
proposed draft audit report on the International Space Station 
was provided to the NASA general counsel to review prior to 
official release. The NASA general counsel did not agree with a 
conclusion in the report related to the potential for NASA 
noncompliance with various international agreements on the ISS. 
Prior to the release of the report, the audit team was 
instructed to remove this section from the report, or the 
report would not be issued.
    In instances like the previous one, if any of the senior 
audit managers were to disagree with Mr. Cobb or try to defend 
our conclusions and recommendations, we were subject to severe 
berating and profane language by Mr. Cobb.
    In 2003--in January 2003, the Office of Audits was advised 
by Mr. Cobb that it would be merged with the Office of 
Inspections, and that all senior management positions in the 
reorganized office would be moved to NASA headquarters so that 
there could face-to-face accountability. Mr. Cobb frequently 
stated that he wanted these senior managers in Washington so 
that he could personally ``choke them.''
    In February 2003, the Office of Audits was merged with the 
Office of Inspections into a new Office of Audits. As part of 
the reorganization, I was transferred to NASA headquarters and 
reverted to my former position as director of safety and 
security audits. It was made clear to me, by both the new AIGA 
and his deputy, that Mr. Cobb never expected any of the senior 
managers, like me, who were located at field centers, to accept 
the transfer to headquarters. The new AIGA even mentioned that 
Mr. Cobb now had me where he could ``choke me.''
    After arriving at headquarters in April 2003, I had even 
more contact with Mr. Cobb. It was also during this time that 
the Columbia accident occurred, and the investigation of its 
cause had begun. As the Director of Safety and Security Audits, 
my directorate assumed a large role in directing the work of 
the OIG related to the recommendations of the Columbia Accident 
Investigation Board, which published its final report in August 
2003. In response to the CAIB report, I compiled a plan to 
review the agency's implementation of most of the 
recommendations. In addition, I was authorized to hire 
additional technical staff to assist with the work to be 
performed.
    It was also during this period that Mr. Cobb began further 
interference with the work of the directorate through either 
constant rewriting of products or attacking the work of the 
staff and technical experts, to the point where findings and 
recommendations were either never officially issued to the 
agency or were issued unofficially by Mr. Cobb to various 
agency officials, and, thus, never posted publicly to the NASA 
OIG website.
    I have provided examples of such issues in my prepared 
statement, including findings developed, but never issued, 
related to the organizational safety recommendations of the 
CAIB and the failure of the backup Command Destruct System 
during a 2002 Space Shuttle launch. In response to these 
issues, Mr. Cobb made statements such as, my staff had spent 
almost a year reviewing the independent technical authority and 
safety organizational recommendations of the CAIB, ``yet had 
nothing to show for it,'' or, with respect to the Command 
Destruct failure, that it ``was the Air Force's problem.'' 
There were numerous other----
    Senator Nelson. Mr. Carson, I need you----
    Mr. Carson. I'm sorry.
    Senator Nelson.--to wrap up.
    Mr. Carson. In summary, by constantly rewriting and--
writing and rewriting audit reports, not allowing audits of 
potentially controversial issues to be performed or reports of 
completed audits to be publicly issued, constantly denigrating 
the audit staff in public and in private, intimidating auditors 
and staff through the use of verbal threats, foul language, and 
intimidating gestures, Mr. Cobb showed that he lacked 
independence from agency officials and was willing to go to any 
length not to issue audit reports that would embarrass the 
agency. In my opinion, he clearly created and endorsed a 
hostile work environment.
    Thank you. And I would be pleased to answer any questions.
    [The prepared statement of Mr. Carson follows:]

Prepared Statement of Kevin J. Carson, Assistant Inspector General for 
  Audits and Inspections, U.S. Government Printing Office and Former 
          Deputy Assistant Inspector General for Audits, NASA
    Mr. Chairmen and Members of the Committees:
    Thank you for the opportunity to be here today to discuss my 
experiences while employed in the NASA Office of Inspector General 
(OIG).
    Since March 2005, I have been employed as the Assistant Inspector 
General for Audits and Inspections at the U.S. Government Printing 
Office, Office of Inspector General in Washington, D.C. Previously, I 
worked over 15 years (August 1989 to March 2005) for the NASA OIG. 
While with the NASA OIG, I held a variety of audit positions including 
Deputy Assistant Inspector General for Audits, Director of Audit 
Quality, and Program Director for Safety and Security Audits. Including 
my employment with the NASA OIG, I have spent approximately 27 years of 
my career in various Federal audit organizations.
    I have been invited here today to provide testimony related to my 
time and experience in the NASA OIG while working under the direction 
of NASA Inspector General Robert Cobb. In order to talk about this time 
period, I must first discuss my experience with the organization prior 
to Mr. Cobb's appointment in April 2002.
NASA OIG Prior to 2002
    In early 1999, the previous NASA Inspector General Roberta Gross, 
upon the NASA Administrator stating that the agency's Number One 
Priority was ``Safety,'' appointed me to form a directorate whose 
specific mission was to audit safety and security issues within NASA. 
While forming the directorate with a small staff of auditors, the 
directorate quickly performed a series of audits and issued reports 
addressing various safety issues primarily at NASA's manned space 
flight centers. Among the first reports issued by the directorate 
included:

  <bullet> IG-00-028 Safety Concerns with Kennedy Space Center's 
        Payload Ground Operations, March 30, 2000;

  <bullet> IG-00-035 Contractor Safety Requirements at Kennedy Space 
        Center and Marshall Space Flight Center, June 5, 2000;

  <bullet> IG-01-017 Space Shuttle Program Management Safety 
        Observations, March 23, 2001;

  <bullet> IG-01-034 Controls Over the Use of PFA's In and Around the 
        Space Shuttle Orbiter Vehicles, August 31, 2001; and

  <bullet> IG-01-042 Safety of Lifting Devices and Equipment at Stennis 
        Space Center, September 28, 2001.

    During the first 2 years the directorate was in existence, we also 
issued several other reports related to issues such as controls over 
Foreign National Visitors at NASA Centers, Management and 
Administration of International Agreements at NASA, and NASA Oversight 
of Contractor Exports of Controlled Technologies. The directorate was 
also responsible for audits of classified NASA Programs and Projects.
    Some of the highlights of the reports issued included the report on 
Safety of Lifting Devices and Equipment at Stennis which resulted from 
a request by the NASA Associate Administrator for Safety and Mission 
Assurance. The audit identified significant safety issues related to 
lifting devices and equipment and found that Stennis did not safely 
perform critical lifts of high-dollar items such as space hardware, 
one-of-a-kind test articles, major facility components, or personnel. 
In addition, we found that operators and riggers were not properly 
trained and certified, operators used cranes with safety deficiencies, 
and crane maintenance and inspections were inadequate.
    At the request of the House Science Committee, we performed an 
audit of safety related to Kennedy Space Center's Payload Ground 
Operations and found that various materials used in processing 
facilities at the Kennedy Space Center consistently failed required 
tests for flammability resistance and electrostatic discharge. These 
potentially hazardous materials included plastic films, foams, and 
adhesive (PFAs) tapes used by payload processing personnel under the 
center's Payload Ground Operations Contract. These materials had been 
used without approval of the Kennedy Safety Office since 1992. We also 
found that NASA had not identified, documented, and appropriately 
mitigated the risks of using these potentially hazardous materials, 
exposing personnel and flight hardware to increased risks.
    On the audit of the United Space Alliance's (USA's) safety 
procedures under NASA's Space Flight Operations Contract (SFOC), we 
reviewed the oversight of USA's safety procedures for the Space Shuttle 
Program at the Lyndon B. Johnson Space Center (Johnson). We found that 
the Johnson Safety, Reliability, and Quality Assurance Office (Johnson 
Safety Office) was not providing the required support to the Space 
Shuttle Program Safety Manager, for oversight of USA's safety 
activities. We also found that NASA's contractor surveillance plans do 
not address all SFOC requirements for safety; and USA's reporting to 
NASA of close calls and mishaps needed improvement. We concluded that 
NASA did not have adequate management controls in place to ensure (1) 
effective oversight of USA's safety operations under the SFOC, (2) 
better control over $13 million in annual Space Shuttle Program funds 
provided to the Johnson Safety Office, and (3) that adequate corrective 
actions are taken on all safety mishaps and close calls. This report 
and its results were discussed in the August 2003 Report of the 
Columbia Accident Investigation Board in Chapter 7, ``The Accident's 
Organizational Causes.''
    We also reviewed USA's controls over the use of plastic films, 
foams, and adhesive tapes (PFA's) used in and around the Orbiter 
vehicles and other segments of the Space Shuttle such as the solid 
rocket boosters and main engines. We found that USA was routinely using 
in and around the Space Shuttle Orbiter vehicles, PFA's that had no 
record of being tested to ensure that the PFA's met NASA standards for 
flammability resistance, electrostatic discharge (ESD) rate, or 
compatibility with rocket fuel. In addition, neither Kennedy Space 
Center nor USA safety personnel had approved the use of these 
materials, thereby creating a potential safety hazard to personnel, the 
Orbiter vehicles, and other flight hardware and equipment.
    Each of the highlighted reports addressed potentially serious 
safety issues within NASA and within the manned spaceflight program. I 
believe that the success of the Safety and Security Directorate was 
directly attributable to the outstanding professionalism and work ethic 
of the managers and staff and their collective dedication to the NASA 
mission. It also helped that the directorate's work was always 
supported by then-Inspector General Roberta Gross. Although we issued 
some controversial reports that were not always accepted by the agency, 
I always felt that the directorate had the complete support of senior 
OIG management including Ms. Gross. Further highlights from the initial 
years of the directorate included on two occasions, in 1999 and 2001, 
the directorate received the OIG Audit Report of the Year Award. One of 
these reports related to Contractor Safety Requirements and was 
transmitted by the NASA Administrator to every NASA Center Director, 
who was directed by the Administrator to implement the recommendations 
at their respective centers.
    In late 2001, I was selected to be the Deputy Assistant Inspector 
General for Audits. In this position, I had four audit directorates 
that reported to me including the Safety and Security Directorate. The 
directorate continued to produce high-value audit products.
April 2002 to March 2005
    In April 2002, Robert Cobb was appointed the NASA Inspector 
General. Although the Office of Audits initially continued to operate 
as previously, within 3 to 4 months there was a noticeable change. 
Specifically, there was considerably more involvement in writing, 
rewriting, and revising audit reports by the Inspector General. There 
was also considerable questioning of the audit results with Mr. Cobb 
frequently not agreeing with the conclusions and recommendations in 
audit reports. There was also what I would say was a general disrespect 
shown by Mr. Cobb for auditors in particular. Mr. Cobb would often make 
comments like ``anybody can perform an audit'' or when an auditor would 
mention something like compliance with government audit standards, he 
would make the statement that he had read the government audit 
standards and that all they were was ``something for auditors to hide 
behind.'' He also on more than one occasion mentioned to me that the 
safety audit directorate had ``produced nothing of value to the 
agency,'' that our audits were ``archaeological digs'' or that we were 
``too far in the weeds.''
    It was also during this time period that Mr. Cobb appeared to be 
providing our reports to agency officials for review and comment prior 
to official draft release in order to determine whether the agency 
would agree with our findings and recommendations. On one such 
occasion, a proposed draft audit report on the International Space 
Station (ISS) was provided to the NASA General Counsel to review prior 
to official release. The NASA General Counsel did not agree with a 
conclusion in the report related to the potential for NASA 
noncompliance with various international agreements on the ISS. Prior 
to release of the report, the audit team was instructed to remove this 
section from the report or the report would not be issued.
    In instances like the previous one, if any of the senior audit 
managers were to disagree with Mr. Cobb or try to defend our 
conclusions and recommendations, we were subject to severe berating and 
profane language by Mr. Cobb. During these tirades about audits and 
auditors, I never once saw Mr. Cobb's Deputy Inspector General ever 
support the audit staff or the rationale for their conclusions even 
though they were clearly supported by audit evidence. In fact, Mr. 
Cobb's Deputy often made matters worse for the Office of Audits despite 
having been an auditor himself for many years.
2003 Audit Reorganization
    In January 2003, the Office of Audits was advised by Mr. Cobb that 
it would be merged with the Office of Inspections and that all senior 
management positions in the reorganized office would be moved to NASA 
Headquarters so that there could be ``face-to-face accountability.'' 
Mr. Cobb frequently stated that he wanted these senior managers in 
Washington so that he could personally ``choke them.''
    In February 2003, the Office of Audits was merged with the Office 
of Inspections into the Office of Audits. The new Assistant Inspector 
General for Audits (AIGA) selected to head up the new organization was 
the previous Assistant Inspector General for Inspections who had no 
experience either performing audits or managing any type of audit 
organization. The previous AIGA was placed in the position of Deputy 
AIGA.
    As part of the reorganization, I was transferred to NASA 
Headquarters and reverted to my former position as Director of Safety 
and Security Audits. It was made clear to me by both the new AIGA and 
his deputy that Mr. Cobb never expected any of the senior managers like 
me, who were located at field centers, to accept the transfer to 
Headquarters. The new AIGA even mentioned that Mr. Cobb now had me 
where he could ``choke me.''
    After arriving at Headquarters in April 2003, I had even more 
contact with Mr. Cobb. It was also during this time that the Columbia 
accident occurred and the investigation of its cause had begun. As the 
Director of Safety and Security Audits, my directorate assumed a large 
role in directing the work of the OIG related to the recommendations of 
the Columbia Accident Investigation Board (CAIB) which published its 
final report and recommendations in August 2003. In response to the 
CAIB report, I compiled a plan to review the agency's implementation of 
most of the recommendations. In addition, I was authorized to hire 
additional technical staff to assist with the work to be performed.
    It was also during this period, that Mr. Cobb began further 
interference with the work of the directorate through either constant 
rewriting of products or attacking the work of the staff and technical 
experts to the point where findings and recommendations were either 
never officially issued to the agency or were issued unofficially by 
Mr. Cobb to various agency officials and thus never posted publicly to 
the NASA OIG website.
CAIB Organizational Recommendations
    There are several instances of the stifling or covering up of audit 
results by Mr. Cobb that I can provide. For example, my staff and I 
were responsible for reviewing all agency actions and plans related to 
the organizational safety recommendations of the CAIB, specifically, 
(1) the establishment of an Independent Technical Engineering Authority 
(ITEA), and (2) straight line authority and funding for the Space 
Shuttle Program safety organization.
    On at least three different occasions beginning in December 2003, 
my staff prepared audit reports basically concluding that NASA was not 
establishing the ITEA or Space Shuttle Program safety organization in 
the manner intended by the CAIB. Specifically, we stated that NASA had 
not fully achieved the reporting and funding independence for either 
function recommended by the CAIB. We concluded that Technical Warrant 
Holders--those individuals the NASA Chief Engineer empowered to ensure 
compliance with technical standards and requirements, lacked 
independence from major program influences. We further stated that 
NASA's plans to strengthen safety functions did not provide for a 
safety official at the centers to be accountable to the head of safety 
at NASA Headquarters. Based on the structure the agency was proposing, 
we concluded that the individuals ultimately held accountable for ITEA 
and safety would be subject to cost, schedule, and other pressures from 
the same program they would be responsible for independently assessing.
    Despite drafting three reports with basically this same message 
over a period of 15 months, Mr. Cobb refused to release any of them. On 
a couple of occasions, these issues were addressed in either a letter 
signed by Mr. Cobb or an e-mail sent by Mr. Cobb to selected NASA 
officials.
    On October 6, 2004, during my monthly Directorate briefing, the 
subject of this review was brought up and Mr. Cobb stated that my staff 
had spent almost a year reviewing the ITEA and Safety recommendations 
of the CAIB yet ``had nothing to show for it.'' When I reminded Mr. 
Cobb that my staff had prepared three separate audit reports that he 
chose not to issue, he stated that he was not satisfied with the 
message of the reports. I defended the work of my staff and stated that 
the reports were right on the issue and that they should be issued. I 
subsequently have been told that the current NASA Administrator made 
several of the organizational changes with safety and the ITEA that we 
had recommended in our reports despite the fact that they were never 
issued.
Cape Canaveral Air Station Command Destruct
    During October 2004, my Directorate also received a referral from 
the NASA OIG Office of Investigations concerning a ``potential safety 
issue involving command destruct'' at the Eastern Test Range of Cape 
Canaveral Air Station. The allegation concerned a possible safety 
violation that occurred in conjunction with a launch of the Space 
Shuttle in 2002. Specifically, that during the June 5, 2002 launch of 
the Space Shuttle, the Commander of the Eastern Range overruled the 
``No-Go'' recommendations of the Air Force's Mission Flight Control 
Officer (MFCO) and Chief of Safety and proceeded to declare the range 
``Go'' for launch of the Space Shuttle. The reason for the ``No-Go'' 
recommendations of the MFCO and Chief of Safety was that there was a 
failure of the backup Command Destruct System which was not certified 
as mission capable prior to launch as required. The original allegation 
had been referred to the NASA OIG by the U.S. Air Force Inspector 
General in August 2003. After reviewing the allegation for any 
potential criminal violations, the Office of Investigations referred it 
to audits and my directorate because of the potential safety issues 
involved with the allegations.
    Upon assigning this issue to a member of my staff, who was an Air 
Force officer with an extensive safety background, it quickly became 
apparent that there was substantial merit to the allegation and that 
the sequence of events, where the Range Commander overruled the MFCO 
and Chief of Safety and declared the range go for launch despite a less 
than fully certified Command Destruct System, was unprecedented. To 
verify that this situation did in fact occur, a total of 9 witnesses 
were interviewed who were present on console for the launch. We also 
reviewed various launch-related records. Since the NASA firing room and 
the range control center are not co-located, the NASA Launch Director 
and Mission Management Team Chair at the time relied solely on the Go 
recommendation of the Eastern Range Commander without any NASA 
independent verification. Both of these individuals also stated that 
they would not have launched had they known that the Air Force MFCO and 
Chief of Safety were ``No-Go'' for launch.
    Upon completion of our preliminary work, my staff and I arranged to 
brief Mr. Cobb on February 23, 2005 on the results of our review to 
include the work remaining to complete the review and what our 
preliminary recommendations to NASA would be. The staff and I had 
previously met with Safety Officials at Kennedy in January 2005 and had 
obtained their agreement with our proposed recommendations. We received 
complete concurrence with our primary recommendation that NASA Safety 
must positively verify the Eastern Range status and range configuration 
prior to every launch. At the briefing on February 23, 2005, I was 
promptly told by Mr. Cobb at the completion of the briefing that this 
situation ``was the Air Force's problem.'' While reporting of this 
situation would have been controversial to the agency, it was not a 
surprise to me that Mr. Cobb would not allow any further work on this 
assignment to be performed. I am unaware whether this situation 
concerning launches has ever been addressed or corrected.
Other Instances
    While I have discussed the above two instances where my directorate 
was either interfered with by Mr. Cobb, not allowed to complete work, 
or not allowed to issue reports, there were numerous other examples of 
this type of behavior throughout my directorate or throughout the 
Office of Audits. For example, despite allegations of the possible NASA 
misuse of funds appropriated by Congress for security at Federal 
Agencies subsequent to September 11, I was told by the Assistant 
Inspector General for Audits that Mr. Cobb would not allow an audit of 
that area because it would only serve as an ``archaeological dig'' and 
would be embarrassing to NASA.
    In another instance, an audit report was drafted by my Directorate 
addressing noncompliance at Kennedy Space Center with the Occupational 
Safety and Health Administration's (OSHA) Process Safety Management 
(PSM) standard. The draft report discussed the lack of PSM procedures 
for the transportation of highly hazardous chemicals via the Kennedy 
railroad. Specifically, neither the United Space Alliance (USA) nor 
Space Gateway Services (SGS) had developed PSM procedures for the 
railroad transportation of Space Shuttle solid rocket motor segments 
(which contain ammonium perchlorate) and nitrogen tetroxide (which was 
transported on behalf of the U.S. Air Force). Neither contractor 
believed that they were responsible for the PSM program of the railroad 
and neither believed that the PSM standard applied to Kennedy railroad 
operations. The report illustrated the need for PSM procedures related 
to the railroad by discussing several railroad mishaps that had 
occurred over the previous 3 years. After reviewing the report, Mr. 
Cobb stated that the report was ``based on a flawed premise'' and 
directed that the report be rewritten to address the need for improved 
oversight and safety procedures for the KSC railroad itself, including 
inspections and maintenance of the railcars and the track. This 
direction required additional work by the audit team despite the fact 
that sufficient work related to the PSM issued had already been 
performed. Due to the change in direction of the assignment by Mr. 
Cobb, the OIG was not involved in any further actions related to PSM as 
it applies to the Kennedy railroad.
Conclusion
    In summary, by constantly writing and re-writing audit reports, not 
allowing audits of potentially controversial issues to be performed or 
reports of completed audits to be publicly issued, constantly 
denigrating the audit staff in public and in private, intimidating 
auditors and staff through the use of verbal threats, foul language and 
intimidating gestures, Mr. Cobb showed that he lacked independence from 
agency officials and was willing to go to any length not to issue audit 
reports that would embarrass the agency. In my opinion, he clearly 
created and endorsed a hostile work environment. Thank you, and I would 
be pleased to answer any questions.

    Senator Nelson. Ms. Herzog?

   STATEMENT OF DEBRA HERZOG, SENIOR ATTORNEY, OFFICE OF THE 
   INSPECTOR GENERAL, U.S. POSTAL SERVICE AND FORMER DEPUTY 
                ASSISTANT INSPECTOR GENERAL FOR 
                      INVESTIGATIONS, NASA

    Ms. Herzog. Good afternoon. Messrs. Chairmen and Members of 
the Committees, I appreciate the opportunity to be here today 
to share my experiences on--as former Deputy Assistant 
Inspector General for Investigations under Inspector General 
Robert Cobb.
    I began my Federal career 20 years ago--over 20 years ago, 
in 1983, as an assistant U.S. Attorney. I served in U.S. 
Attorneys' offices in such positions as chief of the narcotics 
section, regional coordinator of the Organized Crime Drug 
Enforcement Task Force, public corruption and white-collar 
crime chief, chief of major investigations. I also served on 
details with the Department of Justice and with the United 
States Customs Service. In the 4 years before joining NASA, I 
was Senior Advisor to the Assistant Commissioner in the Office 
of Internal Affairs at the United States Customs Service.
    In November 2004, I was selected by Inspector General 
Robert Cobb as the Deputy Assistant Inspector General for 
Investigations at the NASA OIG. I served in that position until 
December of 2005, when I joined the U.S. Postal Service Office 
of Inspector General as a senior attorney.
    My testimony today summarizes my experiences and 
observations during my tenure at the Office of the Inspector 
General at NASA.
    During my pre-employment interview with Mr. Cobb, he 
expressed his unhappiness with management in the Office of 
Investigations, stating, ``The investigators needed a grownup 
to supervise.'' I accepted the position, with the impression 
that Mr. Cobb wished to improve the quality of work at the NASA 
OIG, and believed that I would be instrumental in that effort.
    One of my early experiences with Mr. Cobb was so disturbing 
that I considered leaving the OIG almost immediately 
afterwards. At a scheduled weekly meeting, Mr. Cobb, in front 
of his deputy and my supervisor, berated me concerning a word 
in a letter. In an ensuing monologue, loudly peppered with 
profanities, Mr. Cobb insulted and ridiculed me. After the 
meeting, I told Mr. Cobb, one-on-one, that I did not expect my 
superior to use profanity, that the use of profanity was 
unacceptable, and I would not tolerate profanity. Mr. Cobb 
listened and gave me no indication if he agreed or disagreed. 
In the months to come, however, I regularly observed and heard 
of Mr. Cobb using profanity to berate and demean employees.
    Mr. Cobb also exhibited a consistent lack of understanding 
of Federal law enforcement. In two cases approximately 6 months 
apart, Mr. Cobb was notified several hours before NASA OIG 
agents and FBI agents were to execute search warrants at NASA 
properties. Mr. Cobb said he would not allow the warrants to 
proceed before reading the affidavits, despite the fact that 
the responsible OIG supervisor had approved the warrants. The 
assistant United States Attorney assigned to the case thought 
the warrants were fine, and the warrants were signed by a 
United States magistrate judge. After reading the warrants, Mr. 
Cobb's opinions included: there was no probable cause, the 
assistant U.S. Attorney was stupid, and the NASA agents must 
have hoodwinked the magistrate. Mr. Cobb was also overly 
concerned about the possible reaction of NASA senior 
management. Finally, after much discussion, Mr. Cobb 
reluctantly allowed the agents to execute the warrants.
    During my short tenure at NASA, at least five other 
warrants were issued and executed in locations other than NASA 
properties. Mr. Cobb did not express any interest in those 
affidavits or warrants.
    The incident that convinced me that I could no longer be 
effective in my job occurred in August 2005. Mr. Cobb directed 
a case accepted for civil prosecution by the United States 
Attorneys Office in the Central District of California be 
withdrawn pending a review of the investigation at OIG 
headquarters. In my 17 years as a Federal prosecutor, I had 
never seen that done. Mr. Cobb claimed he was not aware that 
the case had even been presented to the U.S. Attorneys Office; 
however, a biweekly reporting document provided to Mr. Cobb in 
June proves otherwise.
    Subsequently, Mr. Cobb claimed that the NASA special agent 
in charge of the case who wrote the withdrawal letter was 
trying to ``set him up.'' The assistant U.S. attorney, however, 
had endorsed the work of the case agent, the case preparation, 
and the investigative report. Yet, in a subsequent meeting 
about the case, Mr. Cobb leaned over his desk, just feet from 
my face, his face red, his fists clenched, and screamed, at the 
same time slamming his hand down on the desk so hard that I 
jumped. ``You know as well as I do that this report is a 
blanking piece of blank.''
    In closing, Mr. Cobb's arrogance, bullying style, and 
questionable independence limit his ability to lead the NASA 
OIG, and, in turn, has demoralized the NASA workforce. As an 
example, a recently hired employee, after only 2 days at the 
NASA OIG, called the agency she left, requesting her old job 
back, because most of her staff spent a good portion of the 
workday looking for a way out.
    I would be pleased to answer any questions you may have.
    [The prepared statement of Ms. Herzog follows:]

    Prepared Statement of Debra Herzog, Senior Attorney, Office of 
  Inspector General, U.S. Postal Service and Former Deputy Assistant 
               Inspector General for Investigations, NASA

    My testimony relates to my experiences and observations while in 
the employ of the NASA Office of the Inspector General (NASA OIG). I 
was the Deputy Assistant Inspector General (DAIGI) for Investigations 
at the NASA OIG from November 29, 2004 through December 11, 2005. For 
more than half that period, I was Acting Assistant Inspector General 
(DAIGI) for Investigations.
    I began my Federal career in 1983 at the U.S. Attorney's Office in 
the Eastern District of Missouri. In 1986, the U.S. Attorney appointed 
me to the position of Chief of the Narcotics Section and Regional 
Coordinator for the Organized Crime Drug Enforcement Task Force; one of 
thirteen regional coordinators nationwide. I held that dual position 
until my transfer to the Southern District of Florida in July 1990.
    I transferred into the Southern District of Florida as a 
Supervisory Assistant U.S. Attorney. During my 8 years there, I held 
several supervisory positions in the Ft. Lauderdale Branch Office, 
including White Collar Crime/Public Corruption Chief, Chief of Major 
Investigations and Acting Managing Assistant U.S. Attorney. I 
supervised anywhere from 6 to 12 attorneys as a section chief, and 
approximately 40 attorneys and 20 support staff personnel while 
Managing Assistant.
    In 1998, I accepted a one-year detail to the Department of Justice 
Campaign Financing Task Force in Washington, and then another year's 
detail to the Office of Internal Affairs at the United States Customs 
Service. At the conclusion of that detail, I accepted the position of 
Senior Advisor to the Assistant Commissioner, Office of Internal 
Affairs. As such, I assisted in supervising investigative activity of 
over 120 Federal agents in up to twenty field offices. The agents 
investigated allegations of criminal conduct and serious administrative 
misconduct by Customs employees.
    I am currently a Senior Attorney at the U.S. Postal Service Office 
of Inspector General.
    Mr. Cobb selected me as the Deputy Assistant Inspector General 
(DAIGI) for Investigations in late 2004. When I began working at the 
NASA OIG, Lance Carrington was Assistant Inspector General (AIGI) and 
my immediate supervisor. During my pre-employment interview Mr. Cobb, 
the Inspector General (IG) expressed his unhappiness with management in 
the Office of Investigations (OI), stating, ``They need a grown-up back 
there.'' I accepted the position with the impression that Mr. Cobb 
wished to improve the quality of the work and believed I would be 
instrumental to that effort.
    During my first weeks at the NASA OIG, I endured an episode so 
disturbing that I considered leaving the OIG. At a regularly scheduled 
weekly meeting among Mr. Cobb, his deputy and my supervisor, Mr. Cobb 
berated me, reacting to a word in a letter I'd edited. In the ensuing 
monologue, which was loudly peppered with profanities, he insulted and 
ridiculed me. I advised him after the meeting that I had never been 
spoken to like that in the workplace, that it was unacceptable, and 
that I did not expect my boss to use profanity, and I would not 
tolerate profanity in the workplace. I told him I could not continue to 
work there if it persisted. During the following months, I observed or 
learned that Mr. Cobb directed profanity at and humiliated and demeaned 
other employees. Gradually, I and many other employees as well as 
others involved in law enforcement lost all respect for Mr. Cobb.
    Mr. Cobb exhibited a consistent lack of understanding concerning 
Federal law enforcement. This became most apparent in two cases, 
approximately 6 months apart, in which he clearly failed to recognize 
the propriety and value of Federal search warrants.
    In the first case, Mr. Cobb was notified that search warrants were 
to be executed by NASA OIG agents and FBI agents at NASA's Stennis 
Space Center. I was not involved in the matter in anyway until I was 
called into a meeting regarding the warrant. Mr. Cobb apparently 
received the information that a warrant was to be executed at the 
Stennis Space Center within hours of the planned execution. Mr. Cobb 
said he would not allow the warrants to proceed before he read the 
warrant, despite the fact that NASA OIG agents and FBI agents were 
poised to execute the warrant, a NASA OIG supervisor approved the 
warrant and it was signed by a United States Magistrate Judge. Yet, 
after reading the affidavit in support of the warrant, Mr. Cobb opined 
that there was no probable cause established and maintained his 
position that the NASA agents should not execute the warrant. When 
reminded that an Assistant United States Attorney believed the warrant 
was sufficient and that a United States Magistrate Judge signed the 
warrant--his response was essentially that: (1) the Assistant United 
States Attorney involved was stupid, and (2) that the assigned NASA 
agents must have ``hoodwinked'' the Magistrate. He actually said, ``Who 
knows what our guys (the investigating agents) told the judge.''
    After much discussion, Mr. Cobb reluctantly allowed the agents to 
execute the warrant. However, his arrogance appeared to have interfered 
with any possibility of educating him in the matter. Six months later, 
the scenario was repeated.
    On Monday, June 27, 2005, while I was Acting Assistant Inspector 
General for Investigations, the Resident Agent in Charge (RAC) at 
NASA's Marshall Space Flight Center e-mailed me. His e-mail informed 
that agents in his office were working with an Assistant United States 
Attorney on a search warrant for an NASA employee's office at the 
Marshall Center. The e-mail noted that the agents wanted to execute the 
warrant by Thursday, June 30, as the employee was about to be 
reassigned and they were concerned about losing evidence.
    On Wednesday, June 29, the RAC called and advised that the 
Assistant United States Attorney approved the warrant and wanted to 
take it to the Magistrate Judge forthwith. I hadn't finished reading 
the affidavit, but as I am intimately familiar with the warrant review 
process in U.S. Attorneys offices and the in the courts, I advised the 
agents to proceed to the Magistrate as requested by the AUSA. After the 
warrant was signed by the U.S. Magistrate Judge, I e-mailed Mr. Cobb 
(who was out of town) advising that a warrant would be executed the 
following day at Marshall. I advised the Deputy Inspector General by e-
mail and in person and provided a copy of the warrant and affidavit to 
him.
    Mr. Cobb asked that I call him that evening. I did, and was greeted 
by his loudly-voiced accusations that there was no probable cause for 
the warrant; an interesting position as he had yet to see the affidavit 
in support of the warrant. I had sent it to him in encrypted form as 
required by agency policy and he was unable to open it on his 
Blackberry. As with the earlier warrant, Mr. Cobb was primarily 
concerned with first, why he I did not tell him about it earlier, and 
second, with the fact that it was a warrant at a NASA Center. He 
directed me to tell the agents they could not to execute the warrant 
(despite the fact he had not seen the warrant or affidavit). They in 
turn, had to advise the FBI agents working with them that they could 
not participate in the warrant execution the following day. The warrant 
allows for execution within 10 days of the date the U.S. Magistrate 
Judge signs it. I advised the agents not to tell the U.S. Attorney's 
Office, of Mr. Cobb's decision as I hoped to persuade Mr. Cobb to 
change his mind when I had an opportunity to speak with him in person. 
The FBI agents, however, said they would proceed with the warrant alone 
if the NASA OIG agents were not permitted to participate.

------Original Message------
From: Herzog, Debra (HQ-WRH10)
To: Cobb, Robert W. (HQ-WAH10)
CC: Howard, Thomas J. (HQ-WAH10)
Sent: Wed Jun 29 19:21:18 2005
Subject: Search warrant

    Moose:

    If, after reading the affidavit you still believe that the warrant 
should not be executed, Jim Haughton is prepared to walk you through 
the case in D.C. on Friday. I want to reiterate, however, that I am 
fully responsible for authorizing this warrant.
    I believe that using criminal processes in a criminal 
investigation, particularly this one, is appropriate and acted 
accordingly. I also believe that everyone else involved acted with the 
same sincere belief.
    Jim had the affidavit faxed this evening so it should be at KSC in 
the morning.
    My Palm is not receiving/sending mail again, so I am working from 
my laptop. I have a medical appointment tomorrow afternoon so will be 
out of the office after 2. You can reach me on my cell. Feel free to 
call me at home if you need to.

    Debbie

    When Mr. Cobb arrived back in the office on July 1, 2007, I met 
with him and the Deputy Inspector General for several hours. The 
meeting was lengthy, and at times, Mr. Cobb called in his counsel. Mr. 
Cobb's expressed concerns were: (1) the NASA Center Director's reaction 
to OIG executing a warrant and what he would say when the Center 
Director called asking why the OIG was at his center. (2) that the 
Assistant United States Attorney didn't know what he was doing and by 
implication, as the warrant was signed by a U.S. Magistrate Judge, that 
he did not either, and (3) the agents were only undertaking this 
warrant because they were ``out to get him.''
    In both of these search warrant matters, it was Mr. Cobb's position 
that everyone supporting the warrant--the agents, the prosecutor, me, 
the U.S. Magistrate--were either wrong, out to get him, stupid, or all 
of the above. Throughout this episode, Mr. Cobb kept referring back to 
the first warrant and its issues and accused me and the agents of 
pursuing this warrant ``to rub his face in it.''
    In my short tenure at NASA, at least 5 other warrants were issued 
and executed at locations other than NASA property. Mr. Cobb did not 
express any interest in those affidavits or warrants.
    The last incident and the one that convinced me I could no longer 
be effective in my job, occurred just 2 months later. In June 2005, 
agents in the field office presented a case to the Civil Frauds 
Division of the U.S. Attorneys Office for the Central District of 
California. The case was accepted for civil prosecution. A letter 
outlining the case and containing a number of attachments was provided 
to the Assistant U.S. Attorney assigned to the matter.
    On Tuesday, August 23, 2005, en route to conduct in-service 
training for the NASA OIG Western Field Office, I received an e-mail 
from Mr. Cobb regarding a case. The e-mail began:

        I would like [the Western Field Office Special Agent in Charge] 
        to send (ASAP) a letter to the U.S. Attorney withdrawing the 
        August 1 report on the Genesis investigation pending a review 
        of the investigation at OIG headquarters.

    I took the opportunity to consult with the Western Field Office 
Special Agent in Charge and Counsel to the Inspector General the next 
morning as we were all at the same training. I wanted to see if they 
knew of any reason why Mr. Cobb would direct this withdrawal. When I 
determined they did not, I e-mailed Mr. Cobb. In my e-mail I asked Mr. 
Cobb if there was any urgency to the request as the Western Field 
Office Special Agent in Charge and I wished to speak with him or in the 
alternative, have him speak with the AUSA before this ``withdrawal'' 
was undertaken. He directed me to do as previously instructed. The 
Western Field Office Special Agent in Charge wrote the letter and 
delivered it to the U.S. Attorney's Office.
    After reviewing the letter, Mr. Cobb told me he thought the Western 
Field Office Special Agent in Charge was trying to ``set him up.'' He 
said he only meant to withdraw the document, not the case. That was 
simply not true. His e-mails made it quite clear that he thought the 
case should be re-evaluated to determine if it should have been 
referred to the U.S. Attorneys Office in the first place. He also 
claimed he was not advised the case had been presented, but a bi-weekly 
case reporting document provided to Mr. Cobb in June unmistakably 
contradicts his claim.
    The Assistant United States Attorney assigned to the matter, a 10-
year veteran of her office and Deputy Chief of the Civil Frauds 
Division, wrote a letter applauding the efforts of the agents on the 
case, expressed her support for the case and outlined potential legal 
theories. At a meeting between the two of us, Mr. Cobb insinuated to me 
that we ``had'' the AUSA write the letter. He leaned over his desk, 
just feet from my face, his face red, and his fists clenched and 
screamed at the same time slamming his hand on his on desk so hard I 
jumped. ``. . . you know as well as I do that this report is a fucking 
piece of shit'' (or ``crap'').\1\
---------------------------------------------------------------------------
    \1\ I am unsure which at this time which of these words he used.
---------------------------------------------------------------------------
    Mr. Cobb's arrogance, his abusive, bullying style, absence of 
managerial experience, limited understanding of investigative 
processes, egotism and misplaced sense of self-importance make it 
impossible for him to successfully manage and lead an organization.
    Many employees left, many are trying to. As recently as last week, 
a newly-hired employee who took the job because it was a promotion, 
called the agency she left requesting her old job back after only 2 
days at the NASA OIG. The new hire said that much of the staff spent a 
good portion of the workday looking for a way out.

    Senator Nelson. Mr. Carrington?

        STATEMENT OF LANCE CARRINGTON, DEPUTY ASSISTANT 
        INSPECTOR GENERAL INVESTIGATIONS, OFFICE OF THE 
 INSPECTOR GENERAL, U.S. POSTAL SERVICE; AND FORMER ASSISTANT 
           INSPECTOR GENERAL FOR INVESTIGATIONS, NASA

    Mr. Carrington. Mr. Chairman and Members of the Committees, 
I appreciate the opportunity to appear today to share my 
experience as the former NASA Assistant Inspector General for 
Investigations.
    Senator Nelson. Pull that microphone a little closer.
    Mr. Carrington. Yes, sir.
    My professional life is one of public service, starting 
with over 6 years of active duty in the United States Army and 
12 years in the Army Reserve. I spent 17 years with the NASA 
Office of Inspector General, and the last 2 years with the 
Postal Service Office of Inspector General. In 25 years of 
public service, I have served as a Federal law enforcement 
officer, manager, and executive.
    When I became the NASA OIG Assistant Inspector General for 
Investigations, in September 2002, Mr. Cobb told me his 
expectations of my performance included being responsible for 
everything that happened in the Office of Investigations, and 
he further expected me to know every detail on every case at 
all times. We had over 400 open cases. It was an impossible 
expectation for anyone.
    Mr. Cobb complained that agents couldn't write, and he 
referred to their work as ``crap,'' regardless of case 
successes. He also referred to the agents as ``knuckle-
draggers.'' He would disparage agents in front of the rest of 
the office. To help mitigate Mr. Cobb's negative attitude about 
the agents, I personally reviewed and edited every 
investigative report or document that Mr. Cobb would see.
    I repeatedly asked Mr. Cobb what his expectations were and 
what we could do better. He always replied that he didn't know, 
but, when he saw it, he would tell me.
    Other than Mr. Cobb telling me to keep him informed of 
anything and everything, he never told me what he wanted, in 
the 3 years I was there.
    Mr. Cobb became upset because the agents worked criminal 
and civil cases under the direction of the U.S. Attorneys 
Office. He would tell me, and other senior managers, that 
agents don't work for the U.S. Attorney, and for us to make 
sure the agents knew their boss was the IG.
    Mr. Cobb's personal interaction with the staff consisted of 
yelling and demeaning. And the more it affected them, the more 
he did it. In one instance, Mr. Cobb had asked an attorney for 
a legal opinion, but, after he heard her opinion, he told her 
her legal opinion didn't count, that his legal opinion was the 
only one that counted. He then proceeded to demean and ridicule 
her in front of the group.
    Mr. Cobb routinely used profanity when he spoke to me and 
other employees, stating, ``F them'' and ``GD them.'' It was a 
regular occurrence that offended many people in the office. On 
one occasion, Ms. Debra Herzog, my deputy, was trying to make a 
legal point with Mr. Cobb from her perspective as a former 
Federal prosecutor. Mr. Cobb did not agree with her, so he 
leaned forward and yelled and cussed at her. As tears began 
welling in her eyes, I changed the subject so we could leave 
the room.
    At my performance review sessions, Mr. Cobb would say he 
wasn't happy. When I asked him for details, he would say that 
everything was wrong, and I had better fix it. He never 
provided me with any specific examples.
    Once, I showed Mr. Cobb a $3.94 million settlement check 
payable to NASA, we had just received. Mr. Cobb's response was, 
it didn't mean anything to him. I asked him why, and he said, 
``Because I had nothing to do with it.'' I explained that it 
was representative of our office. He told me it didn't matter, 
because he didn't have anything to do with it.
    Mr. Cobb appeared to have a lack of independence when NASA 
officials were the subjects of investigation or if arrests or 
search warrants were obtained for NASA facilities. Mr. Cobb 
would question every aspect of these cases, much more than the 
non-NASA-subject cases. It gave us the appearance that he 
wanted to derail them before the agents were given adequate 
time to investigate the allegations. There were cases where 
search warrants were obtained for NASA offices and computers, 
but Mr. Cobb declared that there was no probable cause, and he 
didn't want the NASA agents executing the warrants. I explained 
to Mr. Cobb that the cases were joint with the FBI, and the 
searches would be executed anyway. He then allowed us to 
participate.
    Our Houston office was asked by the NASA--the Johnson Space 
Center Legal Office to assist the Texas Rangers with their 
ongoing investigation into an alleged missing ring, property of 
one of the female Columbia astronauts. The Rangers had 
exhausted all leads attempting to determine if the ring existed 
and whether it was stolen. As a last resort, the Rangers 
drafted a Crime Stoppers Alert they planned to distribute to 
the media, and, as a courtesy, asked the OIG to review it. I 
provided Mr. Cobb a copy of the draft alert. Mr. Cobb became 
very upset, lost his temper, and yelled and cussed at me, 
saying that if the media got a hold of it, he would have to 
resign. I reminded him that it was not our case, and that we 
were merely assisting the Rangers, at the request of NASA. 
Later that evening, Mr. Cobb called me at home and proceeded to 
yell and use profanities at me again. Mr. Cobb was so loud, I 
had to go into the garage so my family would not hear him. Mr. 
Cobb would not listen or try to understand it was the Rangers 
decision. He continued to yell and use profanities, saying that 
he would have to resign if the alert was released.
    I didn't understand why Mr. Cobb was so upset about the 
alert, until weeks later, at an OIG senior staff meeting. Mr. 
Cobb mentioned the NASA Administrator had previously ordered 
him and all NASA senior staff not to speak or do anything with 
the Columbia astronaut families. I then realized that if the 
OIG was associated with the Rangers' Crime Stoppers Alert, Mr. 
Cobb considered himself to be in direct violation of the order 
from the NASA Administrator.
    Mr. Cobb told me he didn't like the special agent in charge 
at Goddard Space Flight Center, and directed me to get rid of 
him. I asked Mr. Cobb why, because he was doing a good job. Mr. 
Cobb said he didn't want him around. I told the special agent 
in charge if he was offered an opportunity elsewhere, he should 
take it, because Mr. Cobb did not want him around. About a 
month later, he left to take a job with the Transportation 
Security Administration.
    A short while after the special agent in charge departed, 
Mr. Cobb told me he wasn't happy with me, but this time he 
threatened to make me the special agent in charge at Goddard. I 
asked Mr. Cobb for specific reasons, and he said he was just 
not happy. I told him I had done everything he had asked me to 
do.
    Mr. Cobb was never happy with anything we did in the Office 
of Investigations. I finally asked him if he even wanted us 
working cases. He told me, ``No.'' And I said if that was the 
situation, then he didn't need me around. He agreed. So, I told 
him I would seek employment elsewhere. Two weeks later, I gave 
him my 2-weeks notice.
    I will be pleased to answer any questions you may have.
    Senator Nelson. Dr. Light?

       STATEMENT OF DR. PAUL C. LIGHT, PAULETTE GODDARD 
PROFESSOR OF PUBLIC SERVICE, ROBERT F. WAGNER SCHOOL OF PUBLIC 
                  SERVICE, NEW YORK UNIVERSITY

    Dr. Light. It's a pleasure to be here today. I'm not going 
to talk about this particular case. What I'd like to do is give 
you a little background on the expectations of Congress in 
enacting the 1978 Act regarding the kind of person they hoped 
would serve as Inspector General.
    I should note that Congress, in passing the 1978 Act, had 
many options for creating a much closer relationship between 
the Inspector General and the head of the establishment, be it 
a Secretary or an Administrator. Congress did not accept that 
alternative vision of the Inspector General, despite uniform 
opposition from the Executive Branch and from the President of 
the United States; they eventually worked toward an agreement 
to create a quasi-independent Inspector General in order to 
assure the kind of safe harbor, if you will, for investigations 
and auditing that we see in the statute now.
    In terms of expectations from the Inspector General in 
behavior and operations, I'm going to highlight five specific 
areas.
    The first is that Congress expected, and demanded in 
statute, that there be expertise in the Inspector General, that 
the individual appointed as Inspector General have specific 
skills that would allow him or her to effectively discharge 
their duties. The primary focus of this list of expertise was 
on auditing investigations, a set of skills that would allow 
the Inspector General to discharge his or her duties 
effectively.
    In reading through the legislative record on the history of 
the statute, and also the precedent set in the early 
appointments, we see that there is also an expectation that the 
Inspector General be a strong manager of the office. Congress 
understood that the Office of Inspectors General would--Offices 
of Inspectors General would be small, that they would have 
relatively meager resources in the grand scheme of things, and 
that they would have to be well managed to produce the highest 
level of productivity possible. Therefore, Congress expected 
that the individuals would be of the highest caliber possible, 
including expertise in management.
    They also expected, for a second characteristic, that the 
Inspector General be a leader who was a wise steward of the 
resources at his or her disposal. The Offices of Inspectors 
General are fragile entities. They are not particularly popular 
within their agencies. It's not that individuals run from them, 
but it is rare that the Office of Inspector General employees 
are greeted with great friendship and glory when they enter to 
make their investigation or audit presence known.
    Number three, Congress expected that the Inspectors General 
be assertive. The mandate in the statute is actually extremely 
broad, in terms of what the Inspector General--Inspectors 
General are allowed to do. They're to inspect and audit and 
examine, for the purpose of improving the economy and 
efficiency of government, not just piling up statistics about 
small-caliber fraud, waste, and abuse. They're to reach toward 
the broadest agenda possible and maximize their impact 
through--their activities through the powers that they were 
given in the statute, which are significant.
    Number four, the Congressional designers expected maximum 
independence. This is, in fact, a lonely job. The individual 
who serves as Inspector General must, at the--on the one hand, 
have a strong relationship with the Administrator, but it must 
be independent. Sad to say, there are very few ways in which 
the Inspector General can forge the kind of close friendships 
that we sometimes see envisioned without compromising the 
appearance and/or substance of his or her behavior. And we have 
to be careful about that. You might wish to play golf with the 
Administrator, but you create the appearance, in doing so, of a 
compromised freedom of investigation. And once that compromise 
occurs, you can never get it back.
    Number five expectation is integrity, that the individual 
who serves has an impeccable reputation, that he or she is the 
source of strong morale, a sense of esprit de corps within the 
office, and a strong commitment to the most effective operation 
possible. Through the exercise of independence, through the 
assertiveness in using the wide range of responsibilities 
embedded in the statute, this integrity becomes the essential 
coin of the realm in the IG's performance.
    I'd be delighted to talk with you further about these 
expectations and how we get them through the appointments 
process, or not, and will look forward to receiving your 
questions.
    Thank you very much.
    [The prepared statement of Dr. Light follows:]

Prepared Statement of Dr. Paul C. Light, Paulette Goddard Professor of 
  Public Service, Robert F. Wagner School of Public Service, New York 
                               University

    Thank you for the opportunity to appear before this joint hearing 
on the controversies surrounding the National Space and Aeronautics 
Administration's Inspector General (IG), Robert Cobb. I am not an 
expert on his case, but have studied the IG concept for twenty years, 
and hope to provide a brief overview of the authorities and 
expectations embedded in the 1978 Inspector General Act.
    The current controversy surrounding Robert Cobb stems from 
authorities and expectations embedded in that act. Passed against 
nearly uniform Executive Branch opposition, the bill created Offices of 
Inspector General (OIGs) in 12 departments and agencies, adding to the 
two statutory OIGs that already existed--one in Health, Education, and 
Welfare (about to be divided into the departments of Health and Human 
Services and Education) and the other in Energy. By 1988, the concept 
had been expanded to include the rest of the Federal Government, 
including 33 small-entities. Subsequent expansions have created either 
OIGs in 57 Federal establishments, some headed by Senate-confirmed IGs 
and others led by Presidentially-appointed IGs.
    The basic thrust of the IG Act, under which Mr. Cobb serves as a 
Senate-confirmed appointee, was remarkably simple. On one level, it 
consolidated what were then dozens of separate, often scattered audit 
and investigation units into single operations headed by a Presidential 
appointee. On another level, it created new expectations for economy 
and efficiency in government through the appointment of IGs with 
impeccable integrity and thoughtful leadership. Being an IG was always 
to be an exceedingly difficult post, placing the occupant in the 
sometimes precarious position of speaking truth to power at both ends 
of Pennsylvania Avenue. But given enough resources and integrity, the 
OIGs were to help rebuild trust in government through their aggressive 
pursuit of accountability in all corners of their establishment.
Authorities
    Compared to most of the bills that passed in 1978, the Inspector 
General Act was almost invisible. Reorganizing the varied audit and 
investigation units into single-headed Offices of Inspector General was 
hardly the stuff of which major controversies are made. Nor was the IG 
statute particularly complex--it lays out the responsibilities and 
authorities of each OIG with clarity.
    Yet, whatever its legislative history or complexity, there is no 
question Congress gave the IGs unmistakably broad authorities. Under 
statute, the IGs to provide direction for conducting audits and 
investigations both including and relating to the programs and 
operations of their establishments, they had a long list of ancillary 
duties: review existing and proposed legislation and regulations for 
impacts on economy and efficiency, coordinate relationships between the 
department or agency and other Federal agencies, state and local 
governments, and non-governmental entities, and, most importantly, 
promote the general economy, efficiency, and effectiveness of their 
establishments.
    Broad as this invitation is, what made the IG concept much more 
significant was the decision to protect those new units through at 
least three devices.
    First, even though each IG was to be a Presidential appointee and 
removable without cause, each was to be selected ``without regard to 
political affiliation and solely on the basis of integrity and 
demonstrated ability in accounting, auditing, financial analysis, law, 
management analysis, public administration, or investigations.'' 
Further, each IG, not the President nor the head of the establishment, 
was to appoint an Assistant IG for Audit and an Assistant IG for 
Investigations, and each IG was given full authority to undertake 
whatever audits and investigations he or she each deemed necessary to 
improve economy and efficiency. There was to be no interference from 
Congress or the President on the OIG's workplan or agenda.
    Second, every IG was to have access to all ``information, 
documents, reports, answers, records, accounts, papers, and other data 
and documentary evidence'' needed for an audit or investigation, the 
right to request assistance from within the agency and information from 
across government, the authority to subpoena documents (but not 
witnesses or testimony), the right to hire and fire staff, and ``direct 
and prompt'' access to the Secretary or Administrator whenever 
necessary for any purpose. Moreover, neither the head of the 
establishment nor the second in command was to prevent or prohibit the 
IG from ``initiating, carrying out, or completing any audit or 
investigation, or from issuing any subpoena during the course of any 
audit or investigation.''
    Third, every IG was bound by a two-fold, dual-channel reporting 
requirement. One was a relatively simple semi-annual report to the head 
of the department or agency. Automatically forwarded unchanged to 
Congress within 30 days, each report was to include a description of 
every significant problem, abuse, and deficiency the IG encountered in 
the previous 6 months, as well as lists of recommendations and results. 
The other was a so-called ``7 day letter'' report to the head of the 
department or agency to be used only in the event of ``particularly 
serious or flagrant problems, abuses, or deficiencies.'' This much 
shorter report was also to be transmitted unchanged to Congress, but 
within 7 days.
Expectations
    As one might expect, Congress did not give these substantial 
authorities without a strong sense that the IGs would be above reproach 
in using them. Members of Congress spoke frequently about the need for 
the highest commitment to faithful execution of the IG mandate, and the 
hope that Presidents would take that faithful execution seriously in 
the appointment of each IG, whether subject to Senate confirmation or 
Presidential appointment without confirmation.
    Reading through the record accompanying the Act and its twenty-five 
years of implementation, one can discern at least five qualities that 
Congress expected the IGs to meet:

        1. Expertise: Congress clearly expected each IG to have 
        substantial knowledge of auditing and investigations, and made 
        that expectation clear in the demand for significant experience 
        in these areas. Although the list of qualifications allows for 
        the appointment of individuals who clearly share the 
        President's philosophical agenda, the focus was to be on 
        expertise in actually executing the duties of the office. 
        Simply put, Congress expected the IGs to be experts in their 
        field. For the most part, it is an expectation well met over 
        the years, in part due to consultation with leading IGs on 
        potential replacements. Under no circumstances was the IG post 
        to be a destination for the hard-to-place or under-qualified. 
        Although Congress did not expect the IGs to be rocket 
        scientists, whether literally or figuratively, it did expect 
        the IGs to be above reproach in their ability to direct the 
        high-impact work of their offices.

        2. Leadership: Despite the substantial authorities for audit 
        and investigation, Congress understood that the OIGs would not 
        be the largest units in their establishments. Therefore, 
        Congress expected that the IG would provide the kind of 
        managerial leadership to generate the highest productivity and 
        esprit de corps from what would, and have been, relatively 
        small units. Under no circumstances would Congress have 
        embraced the appointment of an IG who would undermine the 
        productivity of his or her unit through employee abuse or 
        practices that in any way created a hostile work environment. 
        Members wanted the IGs to strengthen their offices, create 
        healthy working conditions, and build units stronger than the 
        sum of their parts. If the IGs encountered employees who were 
        under-performing, Congress expected the IGs to take direct 
        action to remove them from their posts. But above all, the IGs 
        were to leave their units stronger when they moved on to other 
        assignments. A hostile work environment was not just anathema 
        to effectiveness in the search for improved performance, it 
        would set an example for other units in the establishment. The 
        IG simply cannot create a situation in which his or her 
        employees lost faith in their leadership due to managerial 
        practices that undermine productivity.

        3. Assertiveness: Congress clearly wanted the IGs to have 
        substantial freedom to follow their instincts in developing an 
        independent audit and investigation agenda. Toward that end, 
        they expected the OIGs to pursue any and every lead they wish, 
        allocate personnel where they felt the greatest returns would 
        be harvested, and be aggressive in tackling problems from the 
        top to the bottom of the establishment. Hence, they gave the IG 
        substantial authority to launch any audit or investigation 
        deemed responsible, and expected the IG to use his or her 
        judgment, and his or her judgment alone, to determine the OIGs 
        agenda.

        These authorities were to be used to build an agenda that would 
        improve the economy and efficiency of the establishment. 
        Although the IGs must make tough choices about how to deploy 
        their OIG resources, they were to create the broadest impact 
        possible, including programmatic evaluations if necessary. They 
        were not to be mere fraud busters, though attacking fraud, 
        waste, and abuse was to be part of their agenda. They were also 
        to ask tough questions that others could or would not. Under 
        all circumstances, the OIGs were to be a safe harbor for 
        speaking truth to power on the broadest possible agenda. They 
        were not to be lapdogs, but watchdogs.

        4. Independence: The IGs are not just any Presidential 
        appointees. Although they do serve at the pleasure of the 
        President, they are given substantial independence in their 
        work. Congress expected this independence to be guarded 
        aggressively. Under no circumstances was the IG to compromise 
        his or her independence by giving others in the establishment, 
        Congress, or the White House a determining voice in setting the 
        audit and investigation agenda. Thus, Congress expected the IGs 
        and their offices to be astutely independent. Although the OIGs 
        would clearly need the cooperation of the senior leadership of 
        their establishments to implement their recommendations for 
        improvement, they were not to create the appearance or reality 
        that the head of their establishment was somehow altering or 
        setting the course of the OIGs workplan.

        Although this expectation clearly has costs to the IGs, not the 
        least of which is a degree of isolation from the senior 
        leadership team, most IGs have been able to handle the 
        expectation with ease. This has meant that the IGs must 
        maintain a sense of distance from any hint that the head of the 
        establishment has a direct say in the OIGs workplan--no golf 
        games, intimate lunches, even team-building retreats. And, in 
        the same spirit of independence, the senior leadership team 
        must maintain its distance from the OIG--no all-staff meetings 
        to scold the office, no memoranda outlining what the head of 
        the establishment wants in or out of the workplan, no sense 
        that the OIG is somehow beholden to the head of the 
        establishment or that it will be punished through staff and 
        budget cuts if it adopts a particular audit or investigation 
        strategy.

        In a very real sense, IGs must isolate themselves from the 
        senior leadership team even as they try to cultivate a working 
        relationship that will allow them access when needed to assure 
        that the senior leadership team follows their recommendations 
        for action. After all, the vast majority of IG recommendations 
        involve administrative, not legislative action. Hence, the job 
        has been described as like straddling a barbed wire fence. But 
        this access cannot be distorted in such a way as to create the 
        appearance that the head of the establishment is somehow ``the 
        boss'' of the OIG, especially, but not exclusively, in setting 
        the OIGs agenda. That responsibility belongs to the IG, whose 
        ultimate boss is the taxpayer.

        Presidents can remove IGs without cause, of course, implying 
        that Congress expected them to always remove IGs with cause, 
        including instances when the IG cedes his or her independence 
        to another actor. IGs are free to listen to all opinions 
        regarding their agenda perhaps, but not to create the 
        impression or reality that they are taking direction. To do so 
        would create an impossible dependence and cooptation that would 
        undermine their presence as an independent source of 
        recommendations to Congress and the President. It would also 
        severely compromise the IG's ability to investigate upward into 
        the executive suite of the establishment.

        5. Integrity: Congress expected the IGs to be men and women of 
        impeccable integrity and honesty. Along with the exhortation to 
        maintain full independence, Congress hoped that the President 
        would make every effort to find individuals for appointment who 
        could be trusted with the authorities and mandate embedded in 
        statute. Although Congress did not create a special appointment 
        mechanism (such as the one used for the appointment of the 
        Comptroller General) or term of office (such as the fifteen 
        year term also governing the Comptroller General), it merely 
        assumed that Presidents would understand that the IGs had to 
        bring both the reputation and substance of integrity to their 
        posts. After all, they would be under constant watch by the 
        establishments they would audit and investigation, and could 
        not tolerate even the hint that they played favorites or 
        curried favor in their work. They had to be more than just 
        experts in auditing and investigation, they had be exemplars in 
        their behavior. Under no circumstances did Congress expect that 
        the IGs could be effective under a cloud of suspicion regarding 
        their integrity.

        6. Courage: Finally, Congress expected the IGs and their 
        offices to be courageous in their work. The IGs and OIGs were 
        never going to be the most popular employees in their 
        establishment--Congress knew that many in their establishments 
        would oppose them, fear them, and work to undermine them. They 
        also knew that many in their establishments would fashion 
        arguments against OIG findings using every tool at their 
        disposal, sometimes stonewalling the OIG, other times using 
        gossip to undermine the IG as somehow less than effective or 
        independence.

        Thus, the IGs had to show the courage of their convictions in 
        stating their intention to use their authorities to take any 
        course in meeting their mandate, even if that course led upward 
        to the highest levels of the agencies. Toward this end, the IGs 
        and their offices had to draw a bright line between informing 
        the head of the establishment of their workplan and letting the 
        head of the establishment determine their workplan. Under no 
        circumstances was the IG to create even the slightest 
        appearance that he or she had somehow delegated their 
        authorities upward for any reason.

    As with so much that occurs in organizations, appearance is often 
just as important as reality in affecting these kinds of expectations. 
It may be that an IG can be best friends with the head of the 
establishment, and still maintain independence, but the appearance is 
created that the head of the establishment has a special voice in 
setting the workplan. It may also be that the head of the establishment 
can have a brass-tacks meeting with the OIG staff to explain what he or 
she wants in or out of the workplan, and not intimate the office into a 
cowering compliance, but the appearance is created that the head of the 
establishment again has a special voice in determining the workplan.
    In this regard, Congress clearly understood that the IG's 
effectiveness would be determined in part by the head of the 
establishment who could bully, intimate, cajole, and otherwise attempt 
to influence the IG into following some leads and not others. Congress 
also understood that some IGs might be tempted by the opportunity to 
socialize with the head of the establishment as part of the normal give 
and take of life in a highly stressful environment. But by NOT 
insulating the appointments process with a special appointment 
mechanism or term of office, Congress seemed to be saying that such 
behavior would never occur if the basic qualifications for IG 
appointment were meant. After all, what kind of auditor or investigator 
would curry favor or socialize with those who might be committing 
fraud, waste, and abuse? Not one who would be given the enormous 
authorities and independence embedded in a statute such as the 1978 
Inspector General Act.
    Later Congresses also understood that the IG's effectiveness would 
also depend on the protection of the Deputy Director for Management at 
the Office of Management and Budget. This individual would act as a 
buffer during moments of intense conflict between the IG and his or her 
establishment, assure that appointments were the highest quality, 
coordinate the IG community, protect budgets and employment, and serve 
as a ``court of last resort'' in particularly difficult cases involving 
questions regarding the competence and behavior of individual IGs. As 
long as the Deputy Director for Management took these assignments 
seriously, Congress saw no need for a government-wide inspector general 
or new appointment mechanism. But, to the extent that the Deputy 
Director of Management might be conflicted in this role--for example, 
by playing a significant role in the selection of an IG in a previous 
post--or ignore the role altogether, Congress may yet have to revisit 
its earlier decisions.
    Ultimately, however, the quality of an IG's work depends on his or 
her own willingness to stand independent and courageous in the face of 
inevitable opposition. Each IG must be willing to accept responsibility 
for her or her behavior, and acknowledge when their independence has 
been compromised, fairly or unfairly, and exit office gracefully, even 
if the President of the United States has expressed support. It is up 
to the IG to be a wise steward of the mandate and office he or she 
oversees, and a wise steward of the tremendous authority he or she 
wields. Absent a sense of personal integrity that might eventually lead 
to his or her resignation, an IG cannot provide the leadership needed 
to make the IG concept a success. Integrity simply cannot be legislated 
or demanded through executive order. It must come from the individual 
IG in those quiet moments of self reflection about duty. That is the 
ultimate protection of the independence that is so essential for the 
faithful execution of the 1978 Act.

    Senator Nelson. Ms. Brian?

  STATEMENT OF DANIELLE BRIAN, EXECUTIVE DIRECTOR, PROJECT ON 
                  GOVERNMENT OVERSIGHT (POGO)

    Ms. Brian. Chairmen Nelson, Gordon, and Miller, thank you 
so much for inviting me to testify today.
    My name is Danielle Brian, Executive Director of the 
Project On Government Oversight, or POGO.
    POGO is an independent nonprofit that has, for 25 years, 
investigated and exposed corruption and misconduct in order to 
achieve a more accountable Federal Government.
    The subject of this hearing raises a number of very timely 
issues. Inspector General offices play a tremendously important 
role in advancing good government practices, but only if 
they're led by independent and qualified IGs.
    Next year will be the 30th anniversary of the 1978 
Inspector General Act. This is the perfect time to 
demonstrate--to determine the strengths, and possible 
weaknesses, of the IG system, given the current investigations 
into several IGs.
    It is the independence from the agency the IG is overseeing 
that gives the office its credibility. Not only the actual 
independence, but also the appearance of independence, allows 
the IG's stakeholders, including the Administrator, Congress, 
the IGs, auditors and investigators themselves, and potential 
whistleblowers, to have faith in the office. In this case, it 
appears Inspector General Robert Cobb no longer enjoys that 
credibility with any of the constituencies, other than the 
Administrator's office.
    Mr. Cobb disputes the basic facts in both cases that are 
focused on by the PCIE. However, even if one were to discount 
the two cases as inconclusive, there remains indisputable 
evidence that Mr. Cobb simply does not understand the need to, 
or even how to, remain at arm's-length from NASA's 
Administrator. For example, he defends himself in his testimony 
for today's hearing against these findings by, incredibly, 
citing NASA Administrator Michael Griffin's approval of his 
work as proof he should remain the NASA IG. That, in itself, 
indicates how insensitive Mr. Cobb is to the problem. In fact, 
Administrator Griffin should be the very last person he cites 
as evidence of his independence.
    Much has been made in the press of Mr. Cobb's golfing and 
lunches with former NASA Administrator Sean O'Keefe, which are 
disturbing, but are really just atmospherics if they are, by 
themselves, the only instances of possible lack of 
independence. But what you see, given the testimony you've 
heard today and all the other pattern of behavior, is simply 
breathtaking. It's untenable that, according to the PCIE 
report, that Mr. Cobb has conferred with NASA's Administrator 
and General Counsel on the scope and finding of his audits, 
that he has, at least twice, delayed the execution of search 
warrants, expressing concerns that NASA managers, or the staff 
or vendors who were the targets, would be unhappy. He's even 
asked, ``Are we going to be apologizing to them?''
    In addition, while quantity does not equal quality, a 
reduction of nearly 50 percent in the number of reports, audit 
reports, means many topics are not receiving the attention they 
would have under past NASA IGs. One possible reason for this 
drop is the fact that Mr. Cobb disbanded the IG's Safety Audit 
Team in the fall of 2005, only 2 years after the Columbia Space 
Shuttle tragedy. The PCIE report indicates, and we heard 
further testimony today to confirm this, that Mr. Cobb made it 
clear to his staff he didn't believe they had the technical 
knowhow to challenge NASA's engineers, despite the fact that 
engineers were members of his staff. Given that the Columbia 
Accident Board concluded that NASA's safety culture has eroded, 
there may be no more important task for NASA's IG than safety 
audits to prevent future tragedies.
    A final example of Mr. Cobb's inability to protect the NASA 
IG office from the appearance of a lack of independence is the 
now-infamous all-hands meeting of all-IG staff held by 
Administrator Griffin. Not only should the head of an agency 
play no role in determining the work scope of the IG, but the 
fact that the IG himself did nothing to stop him is further 
evidence that Mr. Cobb clearly does not understand what it 
means to be an IG. I can only imagine the impact on the morale 
of the IG staff, and in particular on those whistleblowers who 
were sitting in the room.
    With this atmosphere, you can imagine the reception NASA 
whistleblowers met when they go to the IG for help. Now, as 
nearly half of the IG staff have left or were removed from 
office, those whistleblowers, as well as staff leaving, have 
come forward to Senator Nelson and the PCIE, revealing the 
deeply troubled inner workings of their office, and alleging 
that Mr. Cobb was turning a blind eye to the concerns of 
external whistleblowers, as well as internal staff. Senator 
Nelson should be congratulated for stepping in to assist these 
insiders.
    So, what should be done? The record reflects Mr. Cobb's 
overriding sense of loyalty to NASA's image above a sense of 
duty to the public and the Congress. POGO agrees with Chairmen 
Nelson, Gordon, and Miller, as well as the PCIE, that Inspector 
General Cobb has clearly demonstrated an appearance of a lack 
of independence from NASA. It is because of this behavior that 
I believe Mr. Cobb is unable to fulfill his role as an 
Inspector General.
    An opportunity will be missed, however, if Congress does 
not look at this case in the broader context. During the Reagan 
Administration, a small group of IGs from the PCIE recruited 
and screened IG nominees. They then supplied lists of 
candidates from which the White House could select. This peer 
review was an important way to ensure that unqualified or 
partisan people were not placed in the role of IG. The Congress 
should consider recreating that model. Ultimately, however, it 
is essential that Congress play a more active role in 
overseeing the IGs the way these two committees are doing 
today.
    POGO is also beginning an investigation into the IG system 
to determine if there are other ways to ensure these important 
offices can meet their mission, and we look forward to 
providing you with our findings when our investigation is 
complete.
    [The prepared statement of Ms. Brian follows:]

 Prepared Statement of Danielle Brian, Executive Director, Project On 
                      Government Oversight (POGO)

    Chairmen Nelson and Miller, thank you for inviting me to testify 
today. My name is Danielle Brian, Executive Director of the Project On 
Government Oversight (POGO). POGO is an independent nonprofit that has, 
for over 25 years, investigated and exposed corruption and misconduct 
in order to achieve a more accountable Federal Government.
    The subject of this hearing raises a number of timely issues. 
Inspector General (IG) offices play a tremendously important role in 
advancing good government practices, but only if they are led by 
independent and qualified IGs. Next year will be the 30th anniversary 
of the 1978 Inspector General Act. This is the perfect time to 
determine the strengths and possible weaknesses of the IG system given 
the current investigations into several IGs.
    The intent of Congress in creating these watchdogs was to have an 
office within agencies that would balance the natural inclinations of 
agency or department heads to minimize bad news, and instead give 
Congress a more complete picture of agency operations. That intention 
is clearly shown by Congress' decision to break with tradition, and 
create a dual-reporting structure where IGs would report not only to 
the agency head but also directly to Congress itself.
    It is this independence from the agency the IG is overseeing that 
gives the office its credibility. Not only the actual independence, but 
also the appearance of independence allows the IG's stakeholders, 
including the Administrator, Congress, the IG's auditors and 
investigators, and potential whistleblowers, to have faith in the 
office. In this case, it appears Inspector General Robert W. Cobb no 
longer enjoys that credibility with any of the constituencies other 
than the Administrator's office.
    Over the past year, POGO has held monthly bipartisan Congressional 
Oversight Training Sessions for Capitol Hill staff. We regularly tell 
participants that the IGs at agencies within their jurisdiction can be 
important allies and sources of honest assessments. Unfortunately, we 
also have to point out that not all IGs are qualified and independent.
    In the case of NASA IG Cobb, current and former IG staff allege, 
and the President's Council on Integrity and Efficiency (PCIE) 
confirms, an abuse of power and the appearance of a lack of 
independence. Mr. Cobb disputes the basic facts in both cases cited by 
the PCIE.\1\ However, even if one were to discount the two cases as 
inconclusive, there remains indisputable evidence that Mr. Cobb simply 
does not understand the need to, or even how to, remain at arms length 
from NASA's Administrator. For example, he defends himself against 
these findings by citing NASA Administrator Michael Griffin's approval 
of his work as proof he should remain the NASA IG. That, in itself, 
indicates how insensitive Mr. Cobb is to the problem. In fact, 
Administrator Griffin should be the last person he cites as evidence of 
his independence.
---------------------------------------------------------------------------
    \1\ One of the cases Mr. Cobb disputes involves the hacking of 
sensitive computer data regarding NASA rocket engines, know as the ITAR 
case. It is worth noting that, whether or not he was required to report 
to the State Department in the ITAR case, numerous IG staff stated he 
aggressively undermined the issuance of a report on it. Their 
impression was that Mr. Cobb did not want to embarrass NASA. As a point 
of comparison, the Department of Energy's Inspector General has issued 
numerous reports about cases similar to the NASA computer hacking case.
---------------------------------------------------------------------------
    Much has been made in the press of Mr. Cobb's golfing and lunches 
with former NASA Administrator Sean O'Keefe, which are somewhat 
disturbing. But those are really just atmospherics. From POGO's 
perspective, there are far more troubling problems. It is untenable 
that, according to the PCIE report, Mr. Cobb has on occasion conferred 
with NASA's Administrator and General Counsel regarding the scope and 
findings of his audits. Furthermore, Mr. Cobb at least twice delayed 
the execution of search warrants approved by law enforcement, 
expressing concerns that the NASA managers whose staff or vendors were 
the targets would be unhappy. Mr. Cobb reportedly even asked, ``Are we 
going to apologize to them?'' In response to questions from 
investigators, Mr. Cobb confirmed that he would give the NASA 
Administrator a heads up regarding impending search warrants. There is 
no way of knowing what impact the disclosure of secret warrants had on 
investigations.
    Another problem is that, although IGs are given a wide latitude to 
staff their offices, Mr. Cobb's frequent reorganization of the audit 
section has made his office anything but more productive. Since he took 
office, the number of audit reports has plummeted from an average of 51 
reports annually to only 26 annually. While quantity does not equal 
quality, a nearly 50 percent reduction in the number of reports means 
many topics are not receiving the attention they would have in the 
past. One possible reason for this drop is that Mr. Cobb disbanded the 
IG's safety audit team in the fall of 2005--only 2 years after the 
Columbia Space Shuttle tragedy. The PCIE report indicates that Mr. Cobb 
made it clear to his staff that he did not believe they had the 
technical know-how to challenge NASA's engineers, despite the fact that 
engineers were members of his staff. Given that the Columbia Accident 
Board concluded that NASA's safety culture has eroded, there may be no 
more important task for NASA's IG than safety audits to prevent future 
tragedies.
    A final example of Mr. Cobb's inability to protect the NASA IG 
Office from the appearance of a lack of independence is the infamous 
all-hands meeting held by Administrator Griffin. At this meeting, 
Administrator Griffin spoke to IG employees, with Mr. Cobb present, and 
allegedly rebutted the findings of the PCIE report--findings based on 
the allegations made by numerous IG employees. NASA Assistant IG for 
Investigations Evelyn Klemstine testified before the House Science 
Committee that Administrator Griffin's inappropriate directions to the 
IG staff regarding the types of investigations and audits they should 
be performing was in no way protested by Mr. Cobb. Administrator 
Griffin allegedly went on to inform the IG staff that they shouldn't 
bother with work that involved less than $1 billion in NASA funds--an 
extraordinary threshold under any circumstances. Not only should the 
head of an agency play no role in determining the work scope of the IG, 
but the fact that the IG himself did nothing to stop him is further 
evidence that Mr. Cobb clearly does not understand what it means to be 
an IG--independence and the appearance of independence are everything. 
I can only imagine the impact on the morale on the IG staff, and in 
particular on those whistleblowers who were sitting in the room.
    With this atmosphere, you can imagine the reception NASA 
whistleblowers meet when they go to the IG for help. One whistleblower, 
a NASA research pilot, refused to fly what he believed was an unsafe 
aircraft, and was then was reassigned and grounded in apparent 
retaliation. He reported his experience to the IG, only to be met with 
inaction. Others found the same lack of action, or were simply 
forwarded without investigation by the IG to the Office of Special 
Counsel to be sentenced to a bureaucratic black hole.\2\ As nearly half 
of the NASA IG staff left or were removed from the office, some of them 
came forward to Senator Nelson and the PCIE revealing the deeply 
troubled inner workings of their office, and alleging that Mr. Cobb was 
turning a blind eye to their concerns. Senator Nelson should be 
congratulated for stepping in to assist these insiders.
---------------------------------------------------------------------------
    \2\ While it may be appropriate to refer a whistleblower case to 
the Office of Special Counsel to determine whether a prohibited 
personnel practice has occurred, it is also necessary for an IG 
themselves to investigate whether there is a need for corrective action 
regarding the underlying problem at the agency.
---------------------------------------------------------------------------
    So what should be done? The record reflects Mr. Cobb's overriding 
sense of loyalty to NASA's image above a sense of duty to the public 
and Congress. POGO agrees with Chairmen Nelson and Miller, as well as 
with the President's Council on Integrity and Efficiency (PCIE), that 
Inspector General Cobb has clearly demonstrated an appearance of a lack 
of independence from NASA. It is because of this behavior that I 
believe Mr. Cobb is unable to fulfill his role as an Inspector General.
    An opportunity will be missed, however, if Congress does not look 
at this case in the broader context. During the Reagan Administration, 
a small group of IGs from the PCIE recruited and screened IG nominees. 
They then supplied lists of candidates from which the White House could 
select. This peer review was an important way to ensure that 
unqualified or partisan people were not placed in the role of IG. The 
Congress should consider recreating that model. Ultimately, however, it 
is essential that the Congress play a more active role in overseeing 
the IGs.
    POGO is beginning an investigation into the IG system to determine 
if there are other ways to ensure those important offices can meet 
their mission. We look forward to providing you with our findings when 
our investigation is completed.

    Senator Nelson. Thank all of you for your testimony.
    The House has a vote in progress. So, we're going to be 
switching out. I want to call on Chairman Gordon, so that he 
can ask a couple of questions, and then run to vote.
    Chairman Gordon. Thank you, Mr. Chairman. It'll only be 
one.
    Ms. Brian and Mr. Light, we appreciate you being here, and 
your good testimony. I have but one question for you.
    One of the facts that's clear from the sworn testimony 
taken during the investigation of Mr. Cobb is that Sean O'Keefe 
was allowed to make the decision to get rid of his old 
Inspector General and choose his new one. He also had two key 
staffers, including his chief of staff, brief Mr. Cobb on the 
problems between his office and the Inspector General's office 
that he wanted fixed. Mr. Cobb actually testified that he 
thought, ``Hey, this was easy. You don't need to convince me.''
    Professor Light and Ms. Brian, is that the way a President 
should choose an Inspector General?
    Ms. Brian. Certainly not. The entire purpose of the 
Inspector General is that they are supposed to be there both to 
oversee the agency on behalf of the Congress, and to make the 
place honest and more accountable. And the fact that they're, 
sort of, handpicked, and with those kinds of criteria, is 
utterly unacceptable.
    Chairman Gordon. It was widely understood, at the time, 
that the decision to remove the incumbent Inspector General was 
driven by a desire for more compliance among the future 
Inspector General. The incumbent, at that time, was removed 
summarily from office, which sent a signal that the 
Administrator was looking for somebody more compliant. That 
signal was well sent. Whether or not that signal was followed 
is a subject for this group to examine, this combination of 
committees to examine. But the way in which the outgoing IG was 
fired, and the new IG was hired, create, in part, a sense that 
this was all about getting somebody into the job who was 
compliant. And that starts the appearance ball rolling.
    Representative Feeney. Mr. Chairman, I'll probably be 
leaving in a moment or two, but--I don't have any pressing 
questions, but if it pleases the Chairman, I'd be happy to ask 
one or two.
    Senator Nelson. Please go ahead.
    Representative Feeney. Well, thank you very much. And I 
appreciate your hospitality, as my senior Senator.
    Mr. Carrington, one of the incidents that is referred to is 
the Texas Rangers' investigation into a missing ring. In his 
testimony--in his written testimony, Mr. Cobb suggests that, 
after some investigation, it turns out that there was never a 
ring to be missing in the first place. Were you aware that--is 
that the case, to your knowledge? Were you aware of this 
investigation, about whether or not there was a ring that, in 
fact, was missing?
    Mr. Carrington. Yes, sir, I'm aware of it. The ring was 
never conclusively established to not exist. I mean, there were 
medical reports that determined--made a--made an assumption 
that the item on the hand was not a ring. However, there were 
witnesses that gave sworn statements to the Rangers that 
reported that they found the--or they observed a ring on the 
hand. How--so, it was never conclusive, either one way or the 
other. But, again, it wasn't our investigation. We were 
assisting them with coordinating with NASA and assisting them 
with other matters. So, I was never--I felt at--based on what I 
had seen, I wasn't sure whether or not it--they did or did not 
have a ring.
    Representative Feeney. You--so, you--to this day, based on 
your review of the facts, you don't know whether there was a 
ring in the first place, one way or the other.
    Dr. Light, both you and Ms. Brian have been very consistent 
in describing the appropriate role of the IGs, and how they 
should be appointed, and how they should conduct themselves. 
One thing that we haven't talked a lot about here is that in 
your testimony you indicate that the IG should be independent 
of influence--``any influence from above,'' is the way Ms. 
Brian talks about, but you also talk about independent of any 
pressure from the White House or, for that matter, from 
Congress. And I guess the question is, What's the appropriate 
role in Congress's oversight? Ms. Brian suggests we need to be 
a lot stronger in overseeing all sorts of Inspector General 
issues throughout the Government. Is there a danger, in your 
opinion, that Congressional oversight of IGs, in and of itself, 
if it's overzealous, could put some inappropriate pressures on 
IGs in their role, and, in essence, sacrifice their 
independence?
    Dr. Light. It depends on the nature of the investigation. 
An investigation of this nature, where you're examining the 
independence of the IG, can only reinforce and strengthen IG 
timber in making recommendations to you and the Administration 
for action. There's intimidation of all kinds. If Congress were 
to bring an IG in front of a subcommittee or a committee to 
berate that IG for undertaking an audit or investigation, that 
would have a chilling effect on the IG's independence. But I 
don't see a history of that having been done.
    Representative Feeney. Thank you.
    And, with that, I really appreciate the Chairman's 
indulgence, and, again, his hospitality. Thank you.
    Ms. Brian. Sir, could I also--could I respond to the point 
you were making there? I just wanted to make the point----
    Senator Nelson. Please.
    Ms. Brian.--of course, if there were overzealous oversight, 
that would be a problem. I don't know that--I was not 
suggesting overzealous oversight at all. And I do think it's 
important--as Dr. Light was just suggesting, there's a big 
difference between oversight of the quality of the work of an 
office, rather than trying to direct a particular finding by an 
IG, which, I think, of course, would be totally inappropriate 
interference on the part of the Congress.
    Senator Nelson. And I recall that one of you testified that 
you think that some statutory change with regard to the initial 
selection, so that it's a selection based on merit, as opposed 
to personal friendship, would be appropriate. That is your 
testimony.
    Ms. Brian. That's right. That was the informal arrangement 
during the Reagan Administration; and sometime, I think, in the 
early 1990s, that fell out of practice, and I think that's 
something important for the Congress to reconsider.
    Dr. Light. There has been a proposal pending, before the 
Homeland Security and Government Affairs Committee, for a term 
of office for the Inspectors General, which would be mainly 
hortatory. I think the 30-year anniversary is an opportunity 
for Congress to take a look at this concept and see whether 
we've gone too far in the appointments process, politicized it 
too much, what can we do to reverse it, so I encourage you to 
encourage your colleagues on that committee to engage that 
issue.
    Senator Nelson. Ms. Herzog, you described two occasions 
when Mr. Cobb asked you to delay the service of a search 
warrant, once in December 2004, regarding a case at Stennis, 
and again in June 2005, in a case at Marshall. Would you 
describe those two incidences?
    Ms. Herzog. Certainly.
    In the instance in December 2004, I had just been at NASA 
for a matter of weeks, if not days, and was more of an observer 
than a participant until the discussion arose about whether or 
not there was probable cause contained in the warrant. I came 
into the situation at a time when Mr. Cobb had decided that the 
agents should hold off on executing the warrant. He read the 
affidavit, and, even after reading the affidavit, said, ``I 
don't think there's a crime here.'' At that point, based on my 
past experience--I have handled and litigated literally 
countless search warrants--I tried to explain to Mr. Cobb that 
an assistant U.S. Attorney, who was going to be responsible for 
the prosecution of the case and litigating the search warrant, 
reviewed the warrant, seemed--clearly was happy with the 
warrant, and a magistrate judge signed it. I mean, a magistrate 
judge found there was probable cause. And he asked his counsel 
whether or not he thought there was probable cause, and his 
counsel said, ``No, I don't think so.'' And, with all due 
respect to his counsel--he's a very smart and learned man--he 
has never litigated a search warrant or prepared a criminal 
case in his life. It's kind of like asking an eye doctor to do 
heart surgery. I mean, I don't answer questions I don't know 
anything about. I believed, at the time, that I was the expert 
in the room on criminal process and procedure. I thought that's 
why I was hired, to deliver that--those skills to the office. 
And, after a lot of conversation, Mr. Cobb finally allowed the 
agents to go ahead.
    It was embarrassing for the agents, because they were 
conducting this investigation in concert with the FBI, and 
there they were, you know, standing literally with a foot out 
the door, ready to go execute the warrant, and they had to tell 
the FBI agents, ``Our boss says we can't do this.''
    The second instance was much more troubling. That search 
warrant came in several days before Mr. Cobb saw it. At the 
time that I finally had an opportunity to review it, he was out 
of town. I had not even quite finished reviewing the warrant 
when I got a call from the agent assigned to the case, saying 
that the Assistant U.S. Attorney wanted to bring it to the 
magistrate right then. There was an issue of timeliness in that 
warrant, because the fellow's office that was going to be 
searched was going to be changing jobs, and the agents wanted 
to get into the office before he started packing up boxes and 
perhaps destroying documents.
    I personally delivered a copy of the warrant and affidavit 
to the Deputy Inspector General, who was in town, and e-mailed 
a copy to both he and Mr. Cobb. Mr. Cobb was out of town, and 
could not open the warrant on his BlackBerry, because it was 
sent encrypted. He and his deputy apparently had a rather 
lengthy telephone conversation, and I was advised by his deputy 
to expect a phone call at home that evening. I did--or, 
actually, to call Mr. Cobb, which I did. And we had a rather 
contentious telephone conversation about whether or not there 
was probable cause for that warrant.
    In both cases, one of his concerns was--and it's almost a 
direct quote, ``What am I going to tell the center director 
when he asks me what our guys are doing down there?'' And my 
response is, ``How about, `Our job--we're doing our job,' and 
it's really none of their business what we're doing there. It's 
an enforcement activity.'' I asked if he was concerned that 
these guys--you know, going in, in raid jackets and big guns. 
It was clear he didn't know how search warrants were executed 
when they were done on business premises in offices. I said, 
``These guys are going to be going in plain clothes, maybe even 
suits and ties, knocking on a door, `Here we are. We've got a 
warrant to execute. Please remain outside while we do that.' '' 
I mean, it was--it was, kind of, you know, Search Warrant 101.
    The second instance, it appeared, in addition to Mr. Cobb's 
concern that, you know, the agency might have trouble with the 
warrant, ``Well, what if he's innocent?'' Well, that happens. 
That's what happens in the criminal justice system. That's why 
we have all of the safety and the controls that we have over 
the system. It happens. ``Are we going to apologize to this 
man?'' Well, no, we don't do that. Do U.S. Attorneys offices 
apologize to people when they're acquitted? I don't think so.
    At one point, I said to Mr. Cobb, ``Listen, this search 
warrant doesn't say you can do this if you want to, do this if 
you feel like it. It says, `You are commanded to execute this 
warrant. This is a court order.' ''
    Senator Nelson. Signed by a Federal magistrate judge.
    Ms. Herzog. Signed by a Federal magistrate judge. At which 
point, he said to me, ``You're telling me that there is never 
an occasion when a warrant is not executed?'' And I said, 
``Absolutely not.'' I mean, there are times--I've been involved 
in cases, for example, when an informant has popped up at the 
last minute, and the investigators have decided to stay covert, 
so they go and explain that to the magistrate, and they say, 
``Listen, you know, we've decided to stay covert, we're not 
going to execute the warrant.'' Short of a situation like that, 
I'm not aware of an agency just, you know, willy nilly yanking 
a warrant.
    When I described that process, Mr. Cobb said, ``Well, then 
I want you to call the assistant U.S. Attorney and have the 
assistant U.S. Attorney get that warrant pulled.'' He left the 
room to go into his office. I don't know for what. When he came 
back, he was off that topic, luckily for me, because that would 
have been my last act there.
    It was one of the most exhausting and painful conversations 
I have had in my professional life. It was just a horrifying 
exercise, and----
    Senator Nelson. In your experience, as a prosecutor or in 
an office of an inspector general, is it a practice that you've 
seen before for management to delay action on a search warrant 
after the warrant has been signed by a judge?
    Ms. Herzog. I have personally never known that to happen, 
at--you know, other than the exceptions I've described.
    Senator Nelson. Is it common practice for search warrants 
to require approval by the IG himself? Is that a common 
practice?
    Ms. Herzog. It's not a practice at the agency I currently 
work at, which is an Inspector General's office, and I don't 
know whether it's a practice at other IGs. And, up until these 
two instances, it was not a practice at the NASA Inspector 
General's office.
    Senator Nelson. Putting on your prosecutorial hat, as an 
assistant U.S. Attorney do you think that Mr. Cobb's actions 
could be construed as obstruction of justice?
    Ms. Herzog. I think, particularly with regard to the second 
warrant, but for my involvement in the case, the warrant would 
not have proceeded, and that would have been an obstruction of 
justice.
    Senator Nelson. Did the delay in serving those warrants 
affect either of the cases being investigated?
    Ms. Herzog. It definitely did not affect the first case, 
and I do not believe it affected the second case, but I'm not 
sure.
    Senator Nelson. In one of the incidences, someone was 
moving out of their office, that search warrant, if it had been 
delivered immediately, would have prevented those records from 
being packed up?
    Ms. Herzog. Yes. Well, because we don't know what--if 
anything else was there 3 days earlier, when the warrant should 
have been executed, we really don't know whether we lost 
anything. It's a possibility, but I don't think the agents ever 
determined whether or not they actually missed anything.
    Senator Nelson. Do you have an opinion as to why Mr. Cobb 
wanted to block those search warrants?
    Ms. Herzog. I think primarily--he was primarily concerned 
with the reaction of the center directors at the centers where 
those warrant were to be executed. That was an overriding 
concern. He also, with the second warrant, believed that 
somehow this was an exercise wherein people were out to get 
him, ``They're rubbing this in my face,'' he said, 
``They're''--you know, ``They're doing this again to rub it in 
my face.'' And he thought that I delayed telling him about the 
search warrant for the same reason.
    Chairman Miller? And then I will go to you, Senator 
McCaskill.
    Representative Miller. Thank you, Mr. Chairman.
    The House is having two votes, and I believe that they will 
be the first two. They're both procedural issues. I think 
they'll be the first two that I will have missed, this 
Congress, but I wanted to stay here for this. I may need you to 
sign a note to my constituents, however.
    [Laughter.]
    Representative Miller. I do ask unanimous consent to enter 
a packet of documents into the record.
    Senator Nelson. Without objection.
    Representative Miller. OK.
    [The information previously referred to follows:]

    The following documents are in the Appendix of this Hearing:
    1. August 15, 2003, letter from Hon. Robert W. Cobb to Hon. Sean 
O'Keefe entitled ``Subject: Observations on the Independence of the 
Columbia Accident Investigation Board.''
    2. Policy and Procedures for Exercising the Authority of the 
Integrity Committee of the President's Council on Integrity and 
Efficiency, April 24, 1997.
    3. Quality Standards for Federal Offices of Inspector General, 
dated October 2003.
    4. Excerpts from Semiannual Report, Office of Inspector General, 
NASA, September 30, 2004 (pp. 1-5).
    5. Excerpts from transcript of interview of Hon. Robert W. Cobb, 
conducted by Office of Inspector General, Department of Housing and 
Urban Development, June 27, 2006 (pp. 40, 44, 54, 78, 94, 98, 104, 106, 
114, 125).
    6. Excerpts from Record of Investigation of Hon. Robert W. Cobb, 
Office of Inspector General, NASA, August 30, 2006 (pp. 49-54, 59, 140-
142, 195-197, 206-217, 222-225, 231, 266-271).
    7. Report in the form of a letter dated January 22, 2007, from 
James H. Burrus, Jr., Chair, Integrity Committee to Hon. Clay Johnson 
III, Chairman, Integrity Committee, President's Council on Integrity 
and Efficiency.

    Representative Miller. They have been reviewed by both the 
majority and the minority staff.
    First, Ms. Herzog, Mr. Carson, Mr. Carrington, Mr. Cobb has 
said in his testimony that the HUD Inspector General invited 
anyone to come forward who had anything bad to say about Mr. 
Cobb. He complained bitterly about the procedures of the HUD 
Inspector General, and the PCIE report, generally. Were you 
invited to come forward and make complaints, or did you step 
forward on your own?
    Mr. Carson. I was contacted by the HUD OIG, and mentioned 
that they wanted to interview me as part of--that my name had 
come up in several conversations with other people that had 
been interviewed, and they wanted to talk to me as part of the 
investigation.
    Representative Miller. OK.
    Mr. Harrington--Carrington? Excuse me.
    Mr. Carrington. Yes. No, sir, I was not invited. I was 
contacted and asked to speak.
    Representative Miller. OK.
    How about you, Ms. Herzog?
    Ms. Herzog. The HUD investigators contacted me.
    Representative Miller. OK.
    Mr. Cobb also says that the staff was unhappy with him 
because he was insisting upon higher standards for the Office 
of the Inspector General. Do you agree with that? Do you agree 
that the standards set by Mr. Cobb were higher?
    Ms. Herzog?
    Ms. Herzog. No. I don't think they were higher at all, and 
I'm not sure what the standards were. In fact, whenever reports 
or documents were prepared, and Mr. Cobb was unhappy with them, 
if any of us tried to get from him what it was he was looking 
for--you know, ``What is it you want?''--his response was, 
``I'll know it when I see it.''
    Representative Miller. OK.
    Mr. Carson and Mr. Carrington, did you think the standards 
in the OIG's office were higher under Mr. Cobb, or lower under 
Mr. Cobb?
    Mr. Carson. Having spent almost 16 years there in a very--
the organization was very professional, very responsive to the 
concerns of the Congress when we had special requests--I 
believe the standards were lowered.
    Representative Miller. OK.
    Mr. Carrington. Yes, sir.
    Representative Miller. Mr. Carrington?
    Mr. Carrington. I think that--I recall that he did have 
high standards. I won't doubt him there. He--but the 
standards--the bar was set so high, it was impossible to reach, 
to the point where things didn't happen. I recall him saying, 
``I don't go into a--any type of issue without four aces in my 
hand.'' And so, we were never going to reach the standard that 
he had set for me.
    Representative Miller. OK.
    A lot of the testimony from the three of you in particular 
has been with--going to the personal abusive relationship that 
Mr. Cobb had with his staff. There are people like that in the 
world. Some of them become bosses. Many people have worked for 
bosses who appear to go through life on full flame, as appears 
to be the case with Mr. Cobb, but are still able to get their 
work done. Was this different? Were you able to get your work 
done, or did his conduct interfere with getting the work done? 
And how?
    Ms. Herzog, you can start.
    Ms. Herzog. I think, at least, I was able to get my work 
done eventually. I did find those occurrences disturbing, and, 
at times, particularly on the last occasion, when he 
practically came across the table at me, I took the next day 
off of work. I mean, I was shaking when I walked out of his 
office. It was horrible. And I have to say, I've been yelled at 
by the best of them. You know, I have appeared in Federal court 
before judges who, lawyers like to commonly say, think they're 
the closest thing next to God, maybe other than Congresspeople.
    [Laughter.]
    Representative Miller. We don't hold a candle to judges.
    [Laughter.]
    Ms. Herzog. And, you know, I've had my life threatened, 
I've been in protective custody, I've been stalked by a man 
that I prosecuted. I have been under all kinds of stress and in 
stressful situations. I have never experienced anything like 
what I experienced when Mr. Cobb went on one of his--I hesitate 
to call them ``rampages,'' but----
    Representative Miller. OK. I know my time is about to 
expire, but Mr. Cobb apparently told the staff, and told the 
HUD IG, and has told our staff, in looking into this matter, 
that he wanted a collaborative relationship with the management 
of NASA, that he believed he would get the recommendations of 
the IG's office implemented--he'd be more likely to get them 
implemented if he had a cooperative, collaborative 
relationship, if he were a part of the team. Then that seems to 
be very much contrary to what Ms. Brian and Dr. Light have said 
is what Congress intended in the Inspector General Act of 1978, 
but was it your experience that the recommendations of the IG's 
office got implemented more readily because of Mr. Cobb's good 
relationship with Mr. O'Keefe or others?
    Mr. Carson. In my case, in the safety directorate, our 
reports were being rewritten, changed, revised; rewritten, 
changed, revised. The process was to the point of being insane. 
We couldn't even get recommendations or reports out the door 
that we had previously never had an issue with, as I mentioned 
in my statement. Two times, Report of the Year, special 
requests from the Safety and Mission Assurance Associate 
Administrator, from this committee, from the House Science 
Committee, and we couldn't even get reports out the door.
    Representative Miller. OK.
    Mr. Carrington?
    Mr. Carrington. The--ours was a little different, and I 
used a different process when getting reports out. The IG Act 
required us to notify the Department of Justice, the Attorney 
General. So, when allegations came in, we immediately started 
working with them and in joint cases with the FBI. And so, our 
cases took a little different--our reports took a little 
different road. So, anything that did come through, you know, 
the--it was very difficult to get the report out in any 
possible timeframe.
    Representative Miller. Ms. Herzog?
    Ms. Herzog. I, for most of the time I was there, worked for 
Mr. Carrington. And, at the time he left and I was acting, I 
tried to implement some procedures that made it a little easier 
and may--actually ended up over-complicating things, because 
they were not quite accepted at face value. I really don't have 
an answer to that question.
    Representative Miller. OK.
    Just one more--Mr. Carson, in your testimony before the HUD 
IG, you described the relationship with Mr. Cobb, Mr. O'Keefe, 
and Mr. Pastorek----
    Mr. Carson. Yes.
    Representative Miller.--as the ``Holy Trinity.'' What was 
the origin of that phrase? Was that your phrase?
    Mr. Carson. No, it wasn't my phrase. It was a phrase that I 
had heard used by various officials and employees in NASA 
headquarters that referred to those three as the ``Holy 
Trinity.''
    Representative Miller. What----
    Mr. Carson. No, I did not originate that. That was just 
something I had heard numerous times.
    Representative Miller. What did it mean?
    Mr. Carson. What did it--it meant that basically everything 
in the agency went through those three individuals.
    Representative Miller. OK.
    Mr. Carson. The--you know, that the--it was inferred that 
they ran the agency.
    Representative Miller. Mr. Herzog, did you hear that 
phrase? And what did you understand it to mean?
    Ms. Herzog. Well, I never actually knew what the ``Holy 
Trinity'' was. I'm Jewish.
    [Laughter.]
    Ms. Herzog. It wasn't in my repertoire. But I did 
understand that it meant--I believed it meant the people in 
power, and aligned in power.
    Representative Miller. OK.
    Mr. Carrington?
    Mr. Carrington. Yes. I'm Catholic, so I----
    [Laughter.]
    Representative Miller. You know very well what it means.
    Mr. Carrington.--I know what it means. And it was a--I had 
heard the reference before, and it was not by our people at the 
IG's office. I heard it from NASA employees. I had a large 
source network of NASA employees, and they would refer to the 
group, the three, as the ``Holy Trinity,'' because they had 
such a close relationship that if you talked--if one said 
something, the other one would know immediately.
    Representative Miller. OK.
    Mr. Carrington, you mentioned frequently working with the 
FBI and U.S. Attorneys office as part of your role in the IG's 
office. Did the assistant U.S. attorneys that you were working 
with come to different conclusions about the same information 
in the course of those investigations?
    Mr. Carrington. Different conclusions than the Inspector 
General--than Mr. Cobb?
    Representative Miller. Right.
    Mr. Carrington. Yes. Mr. Cobb had--has a lot of experience 
in the area of conflict of interest and ethics, from his 
background, and so, he knows that pretty well, and probably 
better than a lot of prosecutors, because those cases don't 
really get prosecuted that often. And I recall one instance in 
Norfolk, down there, where Mr. Cobb actually felt that there 
was a violation--a technical violation, and the U.S. Attorney's 
office didn't agree with him, and--because they were looking at 
it from a prosecutor perspective. So, in that instance, there 
were disagreements. He--on other areas, where he didn't have 
that background or expertise, he didn't see things the same way 
as the prosecutors, so there were a lot of differences. And, in 
some instances, he would say, ``Get him on the phone, let me 
talk to him right now.'' And--which, you know, my experience 
with IGs, is not a normal thing that happens.
    Representative Miller. Did he ever say he could, or did, go 
over their heads?
    Mr. Carrington. Yes, sir. He--in particular, the one in 
Norfolk, he told the senior prosecutor there, the supervisor, 
that he could go over his head, he could go to the U.S. 
Attorney in the Eastern District of Virginia. And the 
prosecutor said, ``Yes, you can. And what's going to happen is, 
the U.S. Attorney's going to call me, and I'm going to tell him 
the same thing, and that's going to be the end of it.''
    Representative Miller. How about to Mr. Gonzales? Did he 
ever say he could call Alberto Gonzales?
    Mr. Carrington. He would just make references, that I 
recall, that, you know, he had worked for Mr. Gonzales, and 
then this--Mr. Gonzales was a friend of his, and that he could 
call--you know, go all the way to the top in the Department of 
Justice.
    Senator Nelson. Senator McCaskill?
    Senator McCaskill is the former elected auditor of the 
State of Missouri.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman. And thank you 
for calling this hearing today.
    I just don't know where to start. I've spent all of my 
adult life as either a prosecutor or an auditor, and I 
understand the difference between the two roles. It doesn't 
appear to me that Mr. Cobb understood the difference between 
the two roles, and that an auditor's job--I just can't fathom 
an auditor second-guessing a court order of a search warrant. 
You cooperate with law enforcement. Your job is to provide them 
information. Your job is never to try to second-guess 
professional law enforcement work.
    In the time I have with this panel, there are so many 
questions I would like to ask all of you, but I'd like to focus 
for a minute on Mr. Carson. You remind me of some of the career 
auditors that I was fortunate enough to encounter when I took 
the job as State Auditor. You've been--27 years, you've been 
doing this, under a variety of different administrations, and 
I'm willing to bet, knowing auditors like I know auditors, that 
you saw your job as your job, regardless of who is in charge in 
Washington, at that given moment in time.
    I want to congratulate you on the work you did as it 
related to safety. I can imagine no higher calling as an 
auditor than to be tasked with the responsibility of safety 
audits as it relates to the NASA program. I have such respect 
for the Chairman because of the work he's done in this area, 
and the heart of this Nation breaks when we lose people in the 
NASA program because of safety issues. And so, I congratulate 
you on that work.
    And I would like to specifically ask you that, in your 
testimony--and I'm sorry I missed it; I was on the floor, on 
the immigration bill--but you quote, several times, some 
things, and I'm curious if these are your recollections or if 
you took notes, as it related to some of the things that Mr. 
Cobb said to you, relating to his refusal to issue audit 
reports that you had done in this important area.
    Mr. Carson. Personal notes--I had notes, but when I left 
NASA, I basically left everything in my office. I wasn't about 
to take anything out of there, except for some copies of 
documents that, you know, I thought may come in handy one day.
    The workpaper files for these audits, I believe the staff 
of--my staff papered the files with reports that weren't 
issued, review comments, you know, information like that, that 
would support everything I've said, as far as not issuing 
reports.
    Now, some of the comments, no, they're just things I'll 
never forget.
    Senator McCaskill. Well, obviously, ``Anybody can perform 
an audit'' is one that would stick in my mind.
    Mr. Carson. Right. And that was a common--that was a common 
statement. And----
    Senator McCaskill. ``Something for auditors''--I mean, 
calling the Yellow Book ``something that auditors can hide 
behind''----
    Mr. Carson. Right.
    Senator McCaskill.--is jaw-dropping, from an IG.
    Mr. Carson. And we were----
    Senator McCaskill. That, in and of itself, is absolutely 
completely incomprehensible, that an IG in the U.S. Government 
would call the Yellow Book something for auditors to hide 
behind. Are you confident that that is what he said, Mr.----
    Mr. Carson. Oh, absolutely.
    Senator McCaskill.--Carson?
    Mr. Carson. Absolutely.
    Senator McCaskill. And him saying that, ``Your safety 
audits had produced nothing of value to the agency''--I look 
forward to reviewing those audits in detail. I have not. And, 
you know, one of the frustrating things for auditors is when 
they do good work, is worrying if anybody ever reads the whole 
thing. And I know you all relate to that.
    I'm particularly concerned by his unilateral decision to 
not issue audit product. That is a huge decision for the head 
of an audit agency to make. First of all, it wastes taxpayer 
dollars, because when the audit work has been done, the 
taxpayers have spent a lot of money. So, if in fact, there is 
some reason for an audit report not to be issued, there should 
be some documentation of that by the head of that audit agency 
as to why that audit was not issued. Were you ever given, or, 
to your knowledge, did Mr. Cobb ever prepare, a written 
document that laid out why an audit report that had been 
completed was not issued by your agency?
    Mr. Carson. No. But there is--there would be evidence in 
the working-paper files of what--like in my written testimony, 
I talked about the audit reports that became e-mails or 
unofficial e-mails to NASA officials late at night. We do have 
that. But, no, never any written reason why. That's why, in 
my--in my testimony, when I talk about, a year into the review 
of the organizational recommendations of the Columbia Accident 
Investigation Board, my staff had written three reports 
addressing the way NASA was going about implementing straight-
line safety and mission assurance, straight-line funding, and 
independent technical engineering authority, and I go to a 
monthly directorate update with Mr. Cobb, and he says to me, 
``You've worked on this for over a year, and you've got nothing 
to show for it.'' And, I'm sorry, but, at that point, I had to 
defend the work done by my staff, and I said, ``We've 
issued''--or, ``We've written three different reports, 
talking--making recommendations about that, and they were never 
issued.''
    Senator McCaskill. And let me also follow up on that, 
because I understand, from your testimony, that you believe, or 
you have knowledge, that he was calling the administrators of 
your agency prior to a draft of the report? So, this wasn't a 
review of a draft, but that he was checking in with the top 
management of the----
    Mr. Carson. Well, that----
    Senator McCaskill.--agency----
    Mr. Carson.--was the general counsel, yes.
    Senator McCaskill.--with the general counsel.
    Mr. Carson. Yes. On----
    Senator McCaskill. In your 27 years of working as an 
auditor, have you ever known of the head of an audit agency to 
call the auditee with feedback prior to a draft of the audit?
    Mr. Carson. No. No, absolutely not.
    Senator McCaskill. I mean, that is a violation of Yellow 
Book government auditing standards, isn't it?
    Mr. Carson. Well, it's definitely a violation of the 
independence standard, I would say.
    Senator McCaskill. Absolutely. Absolutely. Was there ever 
any attempt on the part of Mr. Cobb to understand that he was, 
should be subjected to the Yellow Book standards part of an 
audit organization? Did he understand that, in his role as head 
of the audit organization, that he was, in fact, an auditor, 
himself?
    Mr. Carson. Early on, we did try to--and I know my boss at 
the time did try to bring up--you know, in our senior staff 
meetings on the audit side, he would talk about expressing 
concern about Yellow Book and professional audit standards. 
And, you know, it was relayed to all the managers in the 
organization, that we ``use that as a crutch to hide behind.''
    Senator McCaskill. Dr. Light, is there anything specific 
that exempts IGs from Yellow Book? For people who don't know 
the Yellow Book is, in fact, like the Code of Professional 
Responsibility for government auditors. Is there anything that 
exempts IGs from having to respect the provisions of the Yellow 
Book standards of government auditing?
    Dr. Light. Nothing whatsoever.
    Senator McCaskill. And is there anything that specifically 
directs them to be subject to the Yellow Book standards of 
professional government auditing?
    Dr. Light. Highest professionalism possible. It's embedded 
in, and applied in, the statement of qualifications in the IG 
Act itself. I don't think Congress felt, at the time, that it 
had to say ``abide by the Yellow Book.''
    Senator McCaskill. Right.
    Dr. Light. That's just--you know, beyond required.
    Senator McCaskill. Kinda like brushing your teeth.
    Dr. Light. Yes.
    Senator McCaskill. Yes.
    Dr. Light. ``The sun will come up in the morning'' kind 
of----
    Senator McCaskill. All right. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Dr. Light, in Exhibit Number 2, which is 
the Integrity Committee's finding with respect to the abuse of 
authority, what effect does such conduct have on the 
effectiveness of an Inspector General?
    Dr. Light. You know, I've been thinking about this as we've 
been going through the--this conversation today. The most 
powerful product of an IG and the OIG is the deterrence effect 
of their work. That's where the independence and the integrity 
really works its will so that people understand that there is 
an independent place to go, a safe harbor for whistleblowers, 
and that there is a consequence for malfeasance and 
misfeasance. This is where this kind of behavior would have had 
its most pernicious impact, in reducing the sense, among NASA 
employees and contractors--and if you have to decide what that 
exposure is, in terms of risk--their sense that they would be 
held accountable for what they did or did not do. I think 
that's where the effect is most pronounced.
    Senator Nelson. Mr. Carson, I have a series of questions 
for you.
    On the Space Shuttle, there is a Destruct System that is 
redundant, so there are two. And it is the awesome 
responsibility of an Air Force officer at the Cape Canaveral 
Air Force Station, should that Space Shuttle go off of its 
intended trajectory and head toward a populated area, such as 
very nearby Cocoa Beach or Titusville, Daytona Beach, that that 
safety officer has the responsibility of destructing. The 
launch criteria is, both the primary and the backup have to be 
working. That's the launch criteria.
    Now, you handled an investigation into the status of the 
Range Safety Systems during the June 5, 2002, launch of the 
Space Shuttle. What did your inquiry determine?
    Mr. Carson. Senator, I received the--it was actually a 
referral. The Air Force had looked into it, and then had 
referred it to the NASA OIG, our Office of Investigations, and 
it was a potpourri of issues about the Command Destruct System, 
the procurement of the Command Destruct System, but they 
referred it over to us after closing it out. They gave it to 
our Office of Investigations, who determined there was no 
criminal activity. And Lance--Mr. Carrington's group referred 
it to me as a safety issue, because of the--the Command 
Destruct System was nonoperational.
    I had an Air Force officer assigned to my safety group who 
had been an investigator on the Columbia Accident Investigation 
Board, came to work for me after the Board had released its 
final report, and spent a 2-year detail. We got the referral in 
2004, and the officer who worked for me started doing some 
interviews, investigating down at the Cape. He and I went down 
in January 2005; we met with NASA, determined that everything 
we heard, that the mission flight control officer and the chief 
of safety for the Air Force were both no-go for that launch, 
and were overruled by the range commander.
    Senator Nelson. That was as a result of a 2-year 
investigation, and that's what the report stated.
    Mr. Carson. No, the 2-year--no. We only had it for a couple 
of--we got it 2 years after--NASA OIG got involved with it 2 
years after the actual incident itself. But nothing had been 
done, apparently, to that point. The Air Force gave it to us 
and said, ``You may want to look at the launch safety issues.''
    Senator Nelson. OK. So, what happened?
    Mr. Carson. We investigated. The Air Force officer working 
for me and I went down to Cape in--to the Cape in January 2005. 
We met with NASA safety officials, we--everyone we talked to, 
it was unprecedented that a chief of safety and a mission 
flight control officer would be--were no-go for launch, but 
were overruled. So, we talked to the NASA folks. NASA folks had 
a representative in the range. The NASA firing room and the 
range are two different facilities. NASA had a safety official, 
knew something was going on, but never communicated to the 
launch control center that there was an issue with the go--the 
Command Destruct System on the range. When it--when the final 
poll came around, the range commander said they were go for 
launch, overruling the two safety officials, and the launch 
took place, with an--with a nonoperational backup Command 
Destruct System.
    We came back. We met with NASA officials. We told them what 
the issue was. They agreed. We said we were going to make a 
recommendation that NASA put a safety official on the 
communication link in the range operations control center. That 
was going to be our recommendation. We came back--NASA was in 
complete agreement with us, the safety folks down at Kennedy. 
We came back in February 2005, we briefed Mr. Cobb, and, at 
that meeting, he said, ``Let the Air Force handle it.''
    Senator Nelson. So, at the end of the day, did NASA's 
Office of the Inspector General release any report on the 
findings to NASA management?
    Mr. Carson. Senator, I left NASA about 3 weeks later, and, 
to my knowledge, I have never seen anything related to that 
issue.
    Senator Nelson. Did your organization conduct an audit of 
NASA's compliance with the recommendations of the Columbia 
Accident Investigation Board report?
    Mr. Carson. Yes, we did. We conducted a number of audits 
and inspections related to all the recommendations in the 
Columbia accident report.
    Senator Nelson. And what was the ultimate disposition of 
that case?
    Mr. Carson. I've--I left the NASA--I left NASA before the 
final report was ever issued, if there was a final report ever 
issued.
    Senator Nelson. So, we don't know if the findings that NASA 
was not--you do not have personal knowledge that NASA was not 
implementing the Columbia Accident Investigation Board's 
recommendations.
    Mr. Carson. No, I don't.
    Senator Nelson. OK.
    Let me flip it to you, Chairman Miller.
    Representative Miller. Thank you, Chairman Nelson.
    Senator McCaskill asked about Yellow Book standards, which 
I'm not sure the average person would know anything about, but 
Senator McCaskill, based on her professional background, knows 
very well, and is shocked by, the deviation--the flagrant 
deviation from those standards, and asked if the standards for 
the Inspector General were different from those standards 
expected of auditors, generally.
    Are any of you familiar with the Quality Standards for 
Federal Offices of Inspector General, which I held up before, 
in the opening statement?
    Ms. Herzog. Yes, sir.
    Representative Miller. OK. And these standards are issued, 
pursuant to an executive order, to provide professional 
standards, standards of conduct, for an Inspector General. Is 
that correct? The statute itself has the purpose of 
establishing independent and objective units within each 
agency, the Inspector General's office. These standards say 
that, ``objectivity imposes an obligation to be impartial, 
intellectually honest, and free of conflicts of interest. 
Independence is a critical element of objectivity. Without 
independence, both in fact and in appearance, objectivity is 
impaired.'' Is that your understanding, all of you, of the 
obligations of an Inspector General?
    Ms. Brian. Yes, sir.
    Mr. Carrington. Yes, sir.
    Mr. Carson. Yes, sir.
    Ms. Herzog. Yes, sir.
    Representative Miller. OK. Under the provisional 
independence, again, it says that, ``the opinions, conclusions, 
judgments, and recommendations of an Inspector General should 
be impartial, and be viewed as impartial, by knowledgeable 
third parties.'' And then it discusses impairments, what may 
detract from the independence, both actual and apparent, and it 
says that, ``personal impairments--personal impairments of 
staff members result from the relationships and beliefs that 
cause OIG staff members to limit the extent of an inquiry, 
limit disclosure, or weaken the--or slant their work in any 
way. OIG staff are responsible for notifying the appropriate 
officials within the organization if they have any personal 
impairments to independence.''
    Now, we've heard testimony from the three of you with 
respect to this particular case. We've got a voluminous record 
from the IG of HUD. We've had staff interviews. And what we 
understand is that Mr. Cobb met or played golf frequently with 
the NASA Administrator, Sean O'Keefe, met him in his office for 
drinks, went to lunch with him on a regular--on a weekly basis, 
frequently in the NASA cafeteria, so other employees saw them 
there, the three of them--Mr. O'Keefe, Mr. Pastorek, and Mr. 
Cobb--and that he sent audits, reports, to Mr. O'Keefe and 
others for their review before issuing them, and changed things 
that they didn't like.
    Does that meet the requirement of independence? Is that a 
personal impairment?
    Ms. Brian?
    Ms. Brian. Yes, it certainly is an impairment.
    Representative Miller. Does it violate these standards, in 
your judgment?
    Ms. Brian. I don't think there's any question that it does.
    Representative Miller. Dr. Light?
    Dr. Light. Same. Same answer. It is an impairment, and it 
violates those standards.
    Representative Miller. The standards of professional 
conduct----
    Dr. Light. Right.
    Representative Miller. And these are issued by the PCIE 
which includes all the Inspectors General, themselves. So, this 
is the view of Inspectors General of what their professional 
obligations are. Is that correct?
    Dr. Light. That's correct. I mean, you know, on one level 
it seems so small. You know, lunch at the cafeteria, or maybe 
the Administrator gives the IG a couple of mulligans on the 
golf course, whatever. It seems so small. But the appearance 
effect in the agency as a whole, to whistleblowers and others, 
that there may be some sort of clear relationship between the 
agenda for auditing and investigation and the personal 
relationship is enough to destroy the integrity of the office, 
in terms of its creating the deterrent effect that it aims to 
create.
    Representative Miller. Ms. Brian, you're shaking your head.
    Ms. Brian. No, and I--and I'm just thinking, that, 
certainly in the context of all the other activities, of 
checking with them--if the staff were aware that he's checking 
with them on the scope of what audits should be even before 
they're begun, I mean, those kinds of things are just 
unimaginable to professional staff at IGs.
    Representative Miller. OK.
    To the ordinary person without a professional background, 
there probably is a sense of, ``What's the problem with going 
to play golf with someone? What's the problem with meeting 
someone from work for drinks? What's the problem with going to 
dinner with someone, or lunch with someone, from work?'' But 
that's not the expectation of the Inspector General.
    Ms. Brian. That's correct. And, as I said in my testimony, 
those are, sort of, atmospherics. At one level, if that were 
the only thing happening, I think the golf may not have 
happened all that often--I think, a couple of times--but if 
that's all that had happened, that may not merit the kind of 
concern that the Congress has, at this point. But, when you put 
it in the context of all the other activities, that's when I 
think it becomes overwhelming.
    Dr. Light. One IG once described this job as being like 
straddling a barbed-wire fence, it's extremely difficult to do. 
And it does impose on the auditor or the IGs, you know, an 
isolation, a posture that is not comfortable at all in one's 
day-to-day work, but that requires a courage and perseverance 
that goes beyond, sort of, the personal gratifications of 
socializing and so forth. You just have to keep that in mind as 
you look at these things, as the effect on the professionalism 
of the staff.
    Representative Miller. OK. And the description that Mr. 
Cobb made of wanting to have a good relationship, wanting to 
ingratiate himself with Mr. O'Keefe so that he could get his 
recommendations accepted and implemented, is that consistent 
with these standards and your understanding of what the 
professional obligations of an Inspector General are?
    Dr. Light. It is the IG's ultimate goal to see the 
recommendations of audits and investigations turned into 
action. That does not require ingratiation. That requires 
respect and integrity among all parties. One of the people 
we're not talking about at depth here is the Administrator and 
what he sought to accomplish through this relationship. We 
haven't talked about the deputy director of OMB for management, 
who has a role, governmentwide, to protect the Inspectors 
General from undue influence. So, you know, there is a desire 
to have your recommendations adopted, and you want to have a 
good professional relationship with the leadership team, but, 
under no circumstances do you give away your independence. Your 
recommendations are adopted because they're the right thing to 
do, not because you're friends or pals with the Administrator.
    Representative Miller. OK.
    Ms. Brian. I would concur. I mean, basically, you get your 
recommendations implemented because of the strength, the power 
of the information that you have, and the respect you have for 
it, not because of your friendship.
    Representative Miller. In these standards, there is also a 
discussion of external impairments. External impairments to 
independence occur when the OIG staff is deterred from acting 
objectively and exercising professional skepticism by 
pressures, actual or perceived, from management and employees 
of the reviewed entity or oversight organizations.
    Impairments include external interference or influence that 
could improperly or imprudently limit or modify the scope of 
OIG work, or threaten to do so, including pressure to reduce, 
inappropriately, the extent of work performed in order to 
reduce costs or fees.
    Again, asking the management what they want to investigate, 
running drafts by them before publishing drafts, editing it 
based upon their concerns, is that an external impairment?
    Ms. Brian. There's no doubt. And the fact that, even after 
the Congress has begun its investigation, to allow the 
Administrator to come in and speak to the----
    Representative Miller. Well----
    Ms. Brian.--entire IG staff, and----
    Representative Miller. That was my----
    Ms. Brian.--during that conversation, minimize the findings 
of the PCIE, which is problematic in itself, but then starts--
tells them what he thinks they should do, including only doing 
investigations that involve $1 billion of savings, with the IG 
sitting there, and allowing it, to me, is absolute evidence 
that he simply doesn't really understand the problem at all.
    Representative Miller. OK. That was actually my next 
question, but that's OK.
    Dr. Light, would you agree with Ms. Brian's----
    Dr. Light. I think we're in close agreement on pretty much 
everything here.
    Representative Miller. OK. With respect both to asking in 
advance, exchanging e-mails----
    Dr. Light. You know----
    Representative Miller.--sending e-mails about----
    Dr. Light.--you develop your agenda for the office from 
conversation and from observation. It's not, you know, 
unacceptable to talk to the Administrator about what you intend 
to do, and to have the Administrator say to you, ``Well, I'd 
sure like you to focus on X or Y.'' But, at no point does the 
IG give the control of the agenda to someone other than him- or 
herself. That is just not acceptable. It's a bright line. So, 
can you have a conversation with the Administrator about what 
you're going to do, you know, where things are going. That's 
fine. You know, can you use that information to circumscribe or 
to somehow curtail your activities? Absolutely not. You have to 
follow the statute's direction, which is extremely broad, 
broader than many people recognize, in its intent.
    Representative Miller. I don't think you've spoken directly 
to the mandatory meeting that--as Ms. Brian did--of the staff 
of the OIG, the Office of the Inspector General, and NASA with 
Dr. Griffin, in which he addressed the PCIE report with respect 
to Mr. Cobb and basically said, ``Moose is my boy.''
    Dr. Light. That is a meeting that should never have 
occurred, in my judgment. It reflects a lack of understanding 
somewhere about the nature of the relationship between the 
Administrator and the Office of Inspector General. Should never 
have happened. Tremendous chilling effect on the independence 
of the OIG.
    Representative Miller. OK.
    Thank you.
    Senator Nelson. Senator McCaskill?
    Senator McCaskill. I, unfortunately, am going to have to 
preside over the Armed Services hearing at 4:30, so I'm going 
to have to leave to do that in just a few minutes, so I will 
not be here for the next witness's testimony.
    But I do want to speak to the auditors on the panel a 
little bit about the nature of audit reports, in terms of how 
conservative they are. And I notice that Mr. Cobb, in his 
testimony, wants to diminish the fact that this report that was 
issued by the HUD IG, by the President's Council on Integrity 
and Efficiency. Could you speak briefly about the requirements 
for every finding an in audit to be referenced, and how strict 
the requirements are in government auditing, in terms of 
nothing is put in a report that cannot be documented by direct 
reference. And that's when you refer to your ``workpapers,'' 
obviously, that's the guts of an audit that is used to glean 
the information that is reviewed and reviewed and reviewed for 
references. You know his testimony about this report, and the 
fact that it didn't show any illegality, and you know this is a 
bruising report, since this is a peer review, in essence. Am I 
correct, that, for Mr. Cobb, the Integrity Committee's report 
is his peers passing judgment on his ability to do this job? 
And could any of you reference the conservative nature of you 
guys? In my experience, it's very hard to ever question an 
audit, because of your training and the way you view what you 
do, in terms of the documentation.
    Mr. Carson. Well, just to speak for audits--not 
investigations, but for audits, like you mentioned, I mean, we 
have a very thorough--every organization I've ever belonged to, 
we have a very thorough--what we call ``referencing process,'' 
where an audit report is referenced back to supporting work, 
supporting documents, interviews, what have you, and then a 
third party, not even associated with the audit, will usually 
come in and do a--what we call an ``independent referencing,'' 
checking the facts and figures in every report, someone who 
wasn't even involved with the job----
    Senator McCaskill. Clean read.
    Mr. Carson. Yes, ma'am.
    Senator McCaskill. And when he took some of these reports 
and wanted to change findings, wanted you to change findings, 
did you explain to him about referencing, and that this was not 
a matter of him waving a magic wand and the audit report 
changing, that every finding has to be referenced? Did he 
understand that concept?
    Mr. Carson. We--the auditors--we auditors, the management 
team, we argued those things constantly, but--towards the end, 
I mean--I mean, it shows, by the number of people that have 
left, we just refused to go along with it, at some point. Yes, 
I mean, we only tried to publish what we could support. I can't 
say we published anything that wasn't supportable, but mostly 
it was things being taken out of reports.
    Senator McCaskill. How many auditors have left NASA OIG 
since Mr. Cobb has taken over?
    Mr. Carson. I have no idea, but it's quite a few. All I 
know is, the entire senior management team that I worked with, 
upon his arrival, of probably 15 to 17 senior auditors, there 
may be one left.
    Senator McCaskill. And what about the number of audits that 
have been performed? I realize that in a couple of instances he 
took audits and made them e-mails to management, or he took an 
audit and changed it into a letter, so there was never any 
public document issued----
    Mr. Carson. Right.
    Senator McCaskill.--that the public would know that he was 
doing his job as an independent IG on these operations. How 
many times did that occur? And what about the product, in terms 
of the number of audits that were issued under his tenure?
    Senator Nelson. Senator McCaskill, if you'll look at that 
chart, and if you all will put that chart up on the easel, 
you'll see the number of audits and the terms of the two 
previous IGs----
    Senator McCaskill. Yes.
    Senator Nelson.--in NASA.
    Senator McCaskill. Thank you, Mr. Chairman.
    Did you have a severe staff shortage that occurred under 
Mr. Cobb that would have accounted for this kind of reduction--
--
    Mr. Carson. No, not at----
    Senator McCaskill.--in the number of audits?
    Mr. Carson.--not at all. I can attribute it to--I think we 
were doing just as much work, but the reporting process was 
so--the process was: there was no process. We couldn't get 
anything out. It was more painful--it was more painful to the 
audit teams to try to issue a report than to just look the 
other way at issues. That's how bad it got toward the end.
    Senator McCaskill. So, it was easier to start another audit 
even though I'm sure it took a lot longer, under Mr. Cobb, to 
complete audits, it was easier just to not fight it, and go on? 
I mean----
    Mr. Carson. Well, or not--or not----
    Senator McCaskill. Fewer starts?
    Mr. Carson. No.
    Senator McCaskill. Did he approve the starts? Did he 
approve the initial starts?
    Mr. Carson. Some, yes. I mean, we--it was talk--we were 
talking, earlier, about planning and the influence of the 
agency over planning. I mean, there were several--I had 
security as a responsibility, also, and, after 9/11, the agency 
received quite a large appropriation for security--supplemental 
security funding. And that was my number-one security priority 
audit, and I was never allowed to start--and I had allegations 
from sources throughout the agency that some of that money may 
have been misspent, and I was never allowed to start that 
audit.
    Senator McCaskill. I noticed, also in his testimony, and 
I've got to get this in now, because I have to leave, I found a 
certain irony, Mr. Chairman, that Mr. Cobb, in one instance, 
defended himself by saying that he had done something better 
than the Department of Justice, which is a little ironic, in 
light of the current situation that we have at the Department 
of Justice. I thought that was an interesting defense of his 
behavior, that he would draw that comparison.
    And, I've got to say, before I leave, and thank you, to all 
of you, for being here, I don't know why we're here, because 
it's obvious to me that this Inspector General doesn't ``get 
it.'' And it seems to me that his resignation should have 
occurred a long time ago. And the fact that he hasn't resigned 
is an insult, I believe, to Inspectors General throughout 
government that are doing their jobs with independence and 
integrity and courage, and to all the auditors that are out 
there working in the Federal Government, doing the best they 
can to hold our Government accountable.
    Our job--your job is not to make the people you work for 
look good. Your job is to reassure the taxpayers that we're 
doing our best.
    And clearly, this is an Inspector General that doesn't 
understand that obligation. And, to me, it is a vaulted and 
honorable obligation that one should relish and embrace. And I 
want to go on record as saying I believe that if Mr. Cobb does 
not resign immediately, that I certainly hope other Senators 
will join me in recommending that he be removed from his 
position. And I thank all of you for being here today.
    Senator Nelson. Thank you, Senator McCaskill.
    And if your Armed Services meeting concludes, if you would 
come back, your expertise is certainly valuable and has lent 
great credibility to the questioning today, from the depth of 
your experience as a prosecutor and as an auditor.
    Dr. Light, I wanted to clear up just a couple of little 
loose threads here, and then, if Chairman Miller doesn't have 
any more questions, we'll proceed.
    Representative Miller. I don't, of this panel. A vote has 
just been called in the House that is one I can't explain 
missing, back home. In fact, it has to do, particularly, with 
North Carolina, and it's a bill that I've cosponsored in three 
Congresses now, and it's going to a vote for the first time. 
So, I really do need to go vote on that, but I will be right 
back.
    Senator Nelson. OK.
    All right. Dr. Light----
    Representative Miller. It hasn't been called yet. It'll be 
called shortly.
    Senator Nelson. OK.
    In this case, the head of the PCIE elected to send the 
Integrity Committee's findings to the NASA Administrator, which 
we've already discussed, for him to take corrective action. In 
a case like this, where, the independence of the IG is at 
issue, how much sense does it make that the agency's management 
would decide his punishment?
    Dr. Light. I think the finding should go to the deputy 
director for management of the Office of Management and Budget. 
However, in this particular case there is a conflict of 
interest, in that the current deputy director for management 
was the director of the Office of Presidential Personnel, which 
selected the Inspector General for appointment. Therefore, you 
would move this up a notch, and the findings would go to the 
deputy director of the Office of Management and Budget. And 
that's where it should reside, and then be discussed in the 
councils of the White House to decide what to do with this 
particular appointee; but not to the head of NASA, I'm afraid.
    Senator Nelson. At NASA, the ultimate disposition of the 
Cobb case was determined after a review by NASA's general 
counsel, and the general counsel admits, in some of the 
testimony that these committees have received, to a sort of 
mentoring relationship with Mr. Cobb, and that he had discussed 
the investigation with Mr. Cobb at weekly intervals throughout. 
How credible is the NASA general counsel's review and 
recommendations in this case?
    Dr. Light. Well, I don't think they're particularly 
credible, are they? You have the substance of the argument in 
the cases, as I understand it through brief exposure, that the 
IG has been compromised due to his relationships with the 
Administrator and senior leadership team, of which he is a 
part, and wants to be a part, wants to ingratiate himself, and 
you would not have your general counsel involved in that 
conversation.
    The instinct of the administrators and general counsels all 
across government are, to some extent, not to have a strong 
inspector general. It's an uncomfortable thing to have in your 
midst. And you would not look to them to make the decision on 
whether a friendly inspector general would stay in office or 
not.
    Senator Nelson. Well, thank you, Ms. Herzog, Mr. Carson, 
Mr. Carrington, Ms. Brian, Dr. Light. Thank you for your 
testimony.
    The first panel, we will dismiss, and we will call up Mr. 
Cobb.
    Representative Miller. And, Chairman Nelson, I 
misunderstood. I will probably have a vote in about half an 
hour, but, when I get called, I will have to go to that.
    Senator Nelson. OK. All right.
    [Pause.]
    Senator Nelson. Mr. Cobb, your written statement has been 
received. It is a part of the official record. We would like 
for you to summarize it for us, and then we will have some 
questions. You may proceed.

               STATEMENT OF HON. ROBERT W. COBB, 
                    INSPECTOR GENERAL, NASA

    Mr. Cobb. Thank you, Chairman.
    My name is Robert Cobb. I am the Inspector General at NASA.
    Today, I respond to unjustified allegations against me, as 
reported by the Integrity Committee. The Integrity Committee 
found that I did not break any laws or act illegally.
    Senator Nelson. Pull it a little closer.
    Mr. Cobb. Turning it on is helpful, also. Thank you.
    The Integrity Committee found that I did not break any laws 
or act illegally. Moreover, the Integrity Committee did not 
suggest that any matter covered in the wide-ranging 
investigation was mishandled by the NASA OIG. However, the 
Integrity Committee did reach certain other conclusions which 
are demonstrably invalid.
    Anyone seeking to learn the truth about the Integrity 
Committee's finding should examine my written statement, which 
makes clear that the findings are a travesty.
    Failing to find actual lack of independence, the Integrity 
Committee asserts an appearance of lack of independence in, 
specifically, two instances, one involving a proposed Crime 
Stoppers notice, and the other relating to the investigation by 
my office into the illegal copying of International Traffic in 
Arms Regulations designated materials. I prove in my written 
statement that these assertions are utterly devoid of merit.
    As regards independence, the Inspector General Act, its 
legislative history, and PCIE guidance mandate a good working 
relationship between an Inspector General and the agency head. 
The Inspector General Act states that the Inspector General is, 
``to report to, and be under the general supervision of, the 
agency head.'' The agency head, under the Inspector General 
Act, is ``required to render assistance to the Inspector 
General in the Inspector General's execution of his 
responsibilities.'' And the Inspector General is, among other 
things, ``required to keep the agency head currently informed 
of problems and to recommend policies to promote the economy 
and efficiency of the agency.''
    The legislative history of the Inspector General Act--in 
particular, the report of the Committee on Governmental 
Affairs, U.S. Senate, Report Number 95-1071, to accompany H.R. 
8588, which I request be added to the record, states 
emphatically, quote, ``The Committee believes that Inspector 
General's efforts will be significantly impaired if he does not 
have a smooth working relationship with the Department head.'' 
The Committee continued, quoting the ATW Inspector General, 
``To be truly effective, the Inspector General must have a 
close relationship with the Secretary, enjoy his confidence and 
respect, and be responsive to his concerns, both as to his 
specific assignments and as to the Inspector General's overall 
function in the agency.''
    The Committee continued, ``The Inspector General can be the 
agency head's strong right arm in rooting out fraud, abuse, and 
waste, while maintaining the independence needed to honor his 
reporting obligations to Congress. The Committee does not--the 
Committee does not doubt that some tension can result from this 
relationship, but the Committee believes that the potential 
advantages far outweigh the potential risks.''
    The chair of the PCIE has issued guidance in 2004, and 
again in 2006, that encourages productive and respectful 
working relationships between agencies and Inspectors General. 
I also request that that guidance be submitted for the record.
    I gained the confidence of Administrator O'Keefe, and I 
have the confidence of Administrator Griffin. This is not 
because of lack of independence. In fact, there's been any 
number of instances when my view of matters differed from the 
Administrator or his senior staff, or when OIG investigations 
have related to the most senior officials of the agency. It is 
because of my demonstration of independence that these 
Administrators express confidence in me, so the relationship 
has been exactly as anticipated by Congress when it enacted the 
Inspector General Act.
    I'm proud of the management initiatives that have been 
executed during my tenure as Inspector General which have 
ensured that those matters most significant to NASA are well 
resourced and managed. Our investigation into improprieties by 
the Boeing Corporation which resulted in the recovery to NASA 
of over $100 million last summer was an example of a matter 
that benefited from substantial OIG management involvement, 
including substantial attention from me.
    At NASA, I have taken the responsibilities of office under 
the Inspector General Act seriously and without compromise to 
root out and prevent fraud, waste, and abuse, and to promote 
the economy and efficiency of the agency. I have worked with 
NASA management in the manner contemplated by the Inspector 
General Act. I have upheld my oath to support and defend the 
Constitution of the United States. My staff and I have worked 
very hard to gain respect by building expertise in the areas in 
which we conduct our work, by ensuring that our work is 
performed in a fair and balanced manner, by making sure that 
the work is supported by law and relevant facts, and by making 
sure that NASA OIG organization reflects the economy and 
efficiency of operations that we demand of the agency we 
oversee. As a result of this dedicated effort, I proudly stand 
behind the work of the NASA OIG. I believe the NASA OIG to be a 
much stronger organization today than when I became the NASA 
Inspector General.
    Thank you.
    [The prepared statement of Mr. Cobb follows:]

   Prepared Statement of Hon. Robert W. Cobb, Inspector General, NASA

    Chairmen, Members of the Subcommittees, my name is Robert W. Cobb. 
I am the Inspector General at NASA, having been appointed to that 
position by President George W. Bush on April 16, 2002, after 
confirmation by the U.S. Senate. Prior to that, from January 2001, to 
April 2002, I was an Associate Counsel to the President, with primary 
responsibility for handling ethics program matters for the White House 
and the financial disclosure process for nominees to Executive Branch 
positions requiring Senate confirmation. For 9 years, from 1992 to 
2001, I was a staff attorney at the Office of Government Ethics, and, 
from 1986 to 1992, I was an attorney in private practice.
    Today, for the first time, I am responding publicly to unjustified 
allegations against me. Until now, I have deferred to the process of 
the Integrity Committee (IC) of the President's Council on Integrity 
and Efficiency (PCIE); that process is now concluded.
    The IC opened an administrative investigation of my activities as 
Inspector General in December 2005, purportedly pursuant to its 
authority under Executive Order (EO) 12993, and closed the 
investigation in April of 2007. The Inspector General of the Department 
of Housing and Urban Development (HUD OIG) conducted the investigation 
at the request of the IC. The results of the investigation reflect that 
I did not break any laws or act illegally. [Exhibit A] The IC did not 
suggest that any matter covered in the wide-ranging investigation was 
mishandled by the NASA OIG. But the conclusions the IC did reach were 
as flawed as the investigation on which they were based, and are 
demonstrably invalid. The IC acknowledged the weakness of its own 
conclusions by not submitting any recommendation to the PCIE Chair, 
even though EO 12993 mandates such a submission. I attach Exhibit B, an 
annotated version of the IC's January 22, 2007, letter, detailing the 
IC's false and misleading recitation of facts and law and the broken 
and dysfunctional process pursuant to which the IC's conclusions were 
reached. My concerns about the investigative process are catalogued in 
my correspondence with the IC, with relevant correspondence being 
attached. [Exhibits C-R] For just one example, while I was notified by 
the IC that the investigation concerned safety matters, to my 
knowledge, none of the witnesses I identified at the outset of the 
investigation were interviewed. [Exhibit D]
    The Chair of the PCIE decided that the results of the investigation 
did not warrant a referral to the White House for further action. 
Instead, the PCIE Chair forwarded the report to Michael Griffin, the 
NASA Administrator, to consider ``what actions, if any, you propose to 
take.'' [Exhibit S] Upon review of the IC's report, the NASA 
Administrator concluded that the Report of Investigation (ROI) ``does 
not contain evidence of a lack of integrity on the part of Mr. Cobb, 
nor is there support in the ROI for any actual conflict of interest or 
actual lack of independence on his part.'' [Exhibit T] The NASA 
Administrator has publicly stated that I did not abuse the power of my 
office, that there has been no action on my part to compromise safety, 
and that my independence is not in question.\1\ Nevertheless, 
Administrator Griffin committed to arranging for me, with the 
concurrence of the PCIE Chair, management training and coaching to 
address management concerns raised by the IC investigation. [Exhibit U] 
I have agreed to receive the executive training and coaching, and I 
have already begun to implement these measures.
---------------------------------------------------------------------------
    \1\ Michael Griffin C-SPAN Newsmaker interview on April 8, 2007.
---------------------------------------------------------------------------
    In his review of the IC's report, Administrator Griffin observed:

        In the 2-years that I have [been NASA Administrator], I have 
        seen a high quality work product from the OIG reflective of a 
        staff and its leadership dedicated to carrying out the mission 
        entrusted by law to the IG. IG Cobb is technically sound, 
        highly conscientious, fully engaged in his work, and he brings 
        rigorous analysis to the OIG work product. [Exhibit V]

    That the PCIE Chair determined the matter did not warrant referral 
to the White House and that NASA, in contemplating whether any action 
should be taken, would challenge conclusions of the IC is not 
surprising because the IC's negative conclusions do not withstand 
reasonable examination. This is fundamentally because the IC's 
criticisms are not based on facts or law and are wrong. They are wrong 
as the result of an investigation flawed in design and execution and 
without respect for even the most basic notions of due process and 
fairness--or compliance with law and procedural requirements. [See 
Exhibit B for detail]
    Notwithstanding thousands of hours of investigation by the HUD OIG, 
including eleven hours of my interview, neither the HUD OIG nor the IC 
could find a single instance where some action or non-action on my part 
during the previous 5 years evidenced lack of independence. Indeed, 
Alan Li, former Director, Acquisition and Sourcing Management at the 
Government Accountability Office (GAO), who was responsible for 
handling NASA issues for GAO, stated before a group of Congressional 
staff I was briefing that I was the most independent IG he had ever 
seen. (Despite being advised of this, the IC and the HUD OIG did not 
interview Mr. Li.) Failing to find actual lack of independence, the IC 
asserts an appearance of lack of independence in specifically two 
instances, one involving a proposed Crime Stoppers notice and the other 
relating to the illegal copying of International Traffic in Arms 
Regulation (ITAR) designated materials, which I will prove in this 
Statement (and Exhibit B in greater detail) are utterly devoid of 
merit. In the Crime Stoppers matter, the IC gets the facts wrong, and 
any action other than that I took would have been reprehensible. In the 
ITAR matter, there was no action I should have taken that I did not, 
and the actions I am alleged to have failed to take were not necessary, 
not required, and not the subject of any serious recommendation or 
discussion. Yet the IC relies on this house of sand to conclude that I 
caused a perception of lack of independence.
    In connection with the Crime Stoppers notice, the IC first ignores 
the reality that by virtue of NASA OIG senior management involvement, a 
serious mistake was averted. One year after the Space Shuttle Columbia 
accident, members of the NASA OIG staff had proposed that the OIG join 
the Texas Rangers in announcing that the public's help was needed in 
connection with the alleged theft of a ring from the finger of a 
deceased astronaut. After consultation with senior OIG staff, I 
directed that additional investigation be conducted to determine 
whether a ring actually had been on the astronaut's finger at the time 
of the tragedy. It became clear that there was no ring on the finger of 
the astronaut, and, therefore, there was no credible evidence of a 
theft. Public suggestion that persons involved in the recovery effort 
were involved in such a heinous crime would have been most 
inappropriate. Again, to be clear, there was no ring on the remains of 
the astronaut and, therefore, there could not have been a theft of a 
ring from those remains.
    In its review, the IC misleadingly omits any reference to the 
compelling photographic evidence that belies any notion that issuing a 
Crime Stopper notice might be appropriate. Compounding the unfairness 
of ignoring critical contrary evidence, the IC overreaches to find an 
appearance issue where there was none by relying on nonsensical HUD OIG 
reports of witness testimony. So, for example, the IC recounts in its 
January 22 letter that:

        According to [redacted], IG Cobb said the whole NASA Columbia 
        investigation was not going well, NASA wanted it finished, and 
        for the outcome to reveal nothing that would make NASA look bad 
        or shake the public's trust in NASA.

    The relevant discussion from which this account derives took place 
in April 2004, 8 months after the NASA Columbia accident investigation 
had been concluded (in August 2003). The idea that I would say the 
investigation was not going well 8 months after it was finished is 
facially incredible. Yet the IC relies on this obviously mistaken 
statement to reach its conclusion on appearance of lack of 
independence, notwithstanding that the endorsement of the proposed 
Crime Stopper notice would have been a dereliction of my duty.
    The IC recounts that:

        The Texas Ranger involved in the investigation informed [the] 
        HUD OIG that he believed someone at NASA wanted the 
        investigation shut down because if it got out that the ring was 
        stolen, questions would be asked as to the conduct of the whole 
        NASA investigation into the Columbia accident.

    Reliance on this statement reflects the IC's stubborn persistence 
to make something out of nothing. As there was no stolen ring, the 
premise for the belief stated is nonsense. Moreover, the statement 
reflects an overall ignorance of the Columbia Accident Investigation 
Board's report issued in August 2003, known for its thorough 
examination of both the immediate and root causes of the Columbia 
accident. Inclusion of the statement and presumptive ratification by 
the IC of its relevance to the analysis of an ``appearance'' issue 
again reflects the IC's own total lack of understanding of relevant 
facts. It also shows that the IC's determination in this matter is 
based more on whatever anyone would say rather than whether there was 
any justification or credibility to his or her statements. The IC's 
methodology for determining an ``appearance'' problem allows it to make 
a negative finding when there are no facts to support it other than 
what some person, not in a position to know, says.
    The IC also recounts that:

        Another NASA employee . . . recalls IG Cobb saying, ``Can you 
        believe how embarrassing that would have looked for the agency 
        [NASA] if that [Crime Stoppers report] went out?''

    Obviously, there would have been embarrassment if the OIG were to 
endorse publication of a false allegation that authorities 
participating in the recovery process robbed an astronaut's remains of 
jewelry. This incident should have resulted in a finding that senior 
staff properly avoided the loss of public confidence that would have 
resulted from issuing a misguided and false public cry for help. 
Instead, the IC relies on this statement in finding lack of 
independence. Again, there was no ring on the remains, and therefore no 
theft. Interestingly, after the NASA OIG declined to participate in the 
Crime Stopper report, the Texas Rangers, who had been investigating the 
matter for a year without the help of the NASA OIG, apparently decided 
themselves not to issue the Crime Stopper notice.
    The IC's conclusion on the ITAR incident is similarly flawed. As a 
starting point, the ITAR matter was one the IC had previously 
considered and, after seeking and obtaining relevant information on the 
allegation, determined that ``IG Cobb's response substantially 
demonstrated that IG Cobb had not engaged in any wrongdoing . . . the 
IC will take no further action concerning this matter and has placed 
this file in a closed status.'' [Exhibit W] EO 12993 specifically 
precludes further review by the IC of a closed matter.
    The IC got the ITAR complaint right the first time, but in 
reopening the matter, the IC exhibits the same illogical approach and 
persistence in the face of the evidence that led to its invalid Crime 
Stoppers conclusion.
    Again, the IC repeats allegations and treats them as true without 
any factual or legal analysis. The IC states, for example, ``[t]he 
theft of ITAR matter must be reported to the Department of State.'' No 
legal support is cited for this statement and, in fact, I believe that 
there is none. Once this initial legal pillar is taken away, the rest 
of the house of cards falls away.
    Moreover, as a factual matter, the theft of ITAR from the Marshall 
Space Flight Center was indeed informally discussed with the Department 
of State very soon after the illegal downloading of data occurred. The 
director of NASA's export control office informed me that the 
Department of State told him when he notified it of the intrusion that 
it had already seen the press report about the intrusion and that no 
voluntary disclosure of the loss was required because NASA had not 
violated the ITAR. Department of State reporting requirements relating 
to violations of ITAR and those regulations do not address theft of 
ITAR information from a Government agency. For voluntary disclosure 
provisions, see ITAR at 22 CFR 127.12.
    Having overlooked the substantive rules that apply, the IC then 
goes on to ignore the vast bulk of the factual evidence relevant to its 
conclusion. The IC states that witnesses questioned my decision not to 
report the matter to the Department of State. However, all of the 
contemporaneous documentation of the investigation and related matters 
demonstrate that no recommendation to report was made. Documents in the 
investigative file consider the question of whether there may be a 
reporting requirement, but then reflect that if there is, NASA will 
take care of it. Regarding the Department of State, NASA had already 
informed them of the illegal access to NASA's systems at Marshall, even 
though no requirement to do so existed.
    After the intrusion was identified in the press, as the index to 
the case file reflects, the NASA OIG worked in concert, from the very 
beginning of the investigation, with the Defense Criminal Investigative 
Service. Soon thereafter, the Federal Bureau of Investigation and the 
National Infrastructure Protection Center (NIPC) were aware of the 
matter. (Under Presidential Decision Directive 63, the NIPC was an 
interagency operation located at the FBI. Created in 1998, the NIPC was 
the focal point for the Government's efforts to warn of and respond to 
cyber attacks and served as the national critical infrastructure threat 
assessment, warning, vulnerability, and law enforcement investigation 
and response entity.) Appropriate international authorities were 
consulted. The Department of Justice was involved. The ITAR 
investigation has been ongoing for more than 4 years and has involved a 
substantial amount of NASA OIG resources. The idea that the NASA OIG 
failed to report anything or mishandled the matter is simply false, yet 
the IC restates unsupported allegations and accepts them prima facie in 
order to substantiate its notion of ``appearance'' of lack of 
independence.
    This investigation was not about finding the truth. The 
investigators contented themselves with collecting isolated allegations 
from disgruntled persons who were invited to offer personal opinions 
and speculate about irrelevant matters. No effort was made to discover 
the truth of the underlying facts upon which these allegations were 
based--with the result that many of the allegations repeated in the IC 
letter are based on false premises and should have been (as was in the 
ITAR case) dismissed long ago.
    The failure of the IC to follow the EO and its procedures in this 
case inevitably led to an investigation conducted without any 
applicable legal standards. Without specific guidance from the IC, the 
investigators simply invited people to make complaints, without regard 
to whether the complaints were a proper area of inquiry or had any 
basis in fact. The result was that the vast bulk of the investigation 
is unusable for any proper purpose, because it concerned matters 
outside the scope of the IC's jurisdiction and involved matters that 
amounted to nothing more than idle gossip. In the end, because of the 
IC's departure from established procedures, a great deal of time and 
money was utterly wasted.
    In stark contrast to the IC's investigation, which proceeded 
without any apparent concern for due process, compliance with the 
controlling EO, and other legal requirements, I have worked very hard 
to ensure that NASA OIG operations, audits and investigations have been 
conducted in accordance with the Constitution and laws of the United 
States. For this, I have occasionally met resistance from a few staff 
members and now have been investigated for these same acts. In one 
instance, I asked a question about the validity--the 
Constitutionality--of a search warrant and was told by a member of my 
staff that my very asking the question amounted to an obstruction of 
justice, notwithstanding that counsel to the IG also questioned whether 
the facts on which the warrant were based constituted a crime. And it 
is interchanges in which I displayed passionate insistence on 
compliance with the Constitution and laws of the United States, in the 
face of unjustifiable recalcitrance on the part of a member of my 
staff, which was at the heart of the IC conclusion that I created a 
hostile work environment as to one employee. Somehow, by taking 
appropriate actions pursuant to the available facts and law, I engaged 
in what amounts to the legal impossibility of interfering in 
investigations for which I am by law and position accountable.
    Just one example of my ensuring that our Office's operations are 
conducted in strict conformity with the law occurred in March 2004. I 
was presented with a letter by my staff to use new Patriot Act 
authority to engage in computer monitoring that required my signature 
to proceed. After I inquired into the facts, I determined that the 
statute did not authorize the OIG to monitor activity in the instance 
presented. I therefore refused to sign the letter. No illegal 
monitoring occurred as a result. Contrast this with the March 2007 
audit report by the Department of Justice IG concerning the FBI's 
issuance of National Security Letters. That audit established that 
there was a systemic failure at the FBI to provide adequate assurance 
that the Patriot Act requirements were being observed in connection 
with the letters. Matters involving the use of investigative power 
require management, oversight, and strict abidance with legal 
requirements, and they have at the NASA OIG under my leadership.
    The road to producing disciplined work at the high standard I 
demand has resulted in some discord. Some employees have not 
appreciated having their work tested inside the office to make sure it 
is founded in fact and law rather than personal opinion. Some have 
chafed at my direction that when we conduct investigations we have a 
clear understanding of possible wrongdoing based on law and regulation 
rather than supposition and personal notions of right and wrong. This 
imposition of rigor has resulted in the NASA OIG getting the work 
right. The exhaustive investigation of the IC notwithstanding, there 
has been no credible suggestion of any defect in OIG work product. As a 
result of the NASA OIG work product, real attention is being paid at 
NASA to perennial challenges in financial management, information 
technology security, and in areas relating to critical mission 
execution. Our investigative work product in administrative cases 
(where the benefit of an Assistant United States Attorney or other 
prosecutor is absent) is taken seriously and acted upon by NASA 
management. In contrast, when I began serving as the Inspector General 
at NASA, the agency's record in taking appropriate disciplinary actions 
based on IG investigations was inconsistent, at best. As for audits, 
the agency faced an inventory of approximately 400-500 outstanding 
audit recommendations that the OIG had made but the agency had not 
implemented. [See Exhibit L, specifically attachment 2 to Exhibit a, of 
that Exhibit]. While the OIG was making recommendations, they were not 
being implemented, in contrast to what has occurred during my tenure as 
IG.
    In addition to the discomfort associated with the high standards 
for NASA OIG work that some employees might have felt, there was 
resistance to changes I directed to address what I perceived to be 
weaknesses in the organization and operations of the NASA OIG at the 
beginning of my tenure. Some of the most important changes were 
unpopular, but needed. While I have been subjected to criticisms 
relating to management, actually, the management steps taken under my 
leadership have been necessary to execute the OIG mission more 
effectively and efficiently. Attached as Exhibit X is a list of some of 
the management initiatives that have been executed during my tenure as 
IG. These initiatives have led to an organization that approaches 
issues systemically rather than ad hoc, with mature quality control, 
accountability, and focus on the future as well as the present. The 
management strategy has focused on ensuring that we have those matters 
that are most significant to NASA well resourced and managed. Our 
investigation into improprieties by the Boeing Corporation, which 
resulted in the recovery to NASA of over $100 million last summer, was 
an example of a matter that benefited from substantial OIG management 
attention, including from myself. I believe the NASA OIG to be a much 
stronger organization today than when I became the Inspector General.
    One might ask why the IC would engage in the type of far-flung, 
undisciplined, proceeding it has conducted. When investigations are not 
conducted with due process and compliance with legal and procedural 
requirements, when false and misleading information is leaked from the 
investigation to the press to try to create a negative perception about 
a public servant's integrity, and when the results of the investigation 
are characterized in a manner to support the objective of elected 
officials and those making the complaints, an inference may be drawn 
that the investigation is not being conducted with independence. 
Ironically, the IC investigation is exactly the type of gross misuse of 
investigative power that I have taken careful steps to ensure does not 
occur at the NASA OIG.
    Complainants and persons associated with the investigation have 
used the press to impugn my reputation. Because I was not notified 
until April 26, 2007, that the IC investigation was closed [Exhibit R], 
because the press is not the proper forum for addressing ongoing 
investigative matters (and because releasing information about 
investigations or complainants may be inappropriate), I have not 
publicly offered any rebuttal to the allegations against me. So 
naturally, news reports have been inherently one-sided. For example, 
The Washington Post, on February 3, 2006, in a front page story 
reported a number of allegations about my purported failure to 
investigate a number of safety issues. None of these allegations have 
been substantiated because no impropriety occurred.\2\ The Post issued 
no follow up article to its front page story.
---------------------------------------------------------------------------
    \2\ One of the matters, involving pilots at the Langley Research 
Center who claimed they had been retaliated against for raising issues 
about safety matters, led to an earlier call for an investigation. [See 
Exhibit Y, and my response at Exhibit Z.] Two reviews of the matter, 
one conducted by a senior staff member at NASA Headquarters and one 
conducted under the auspices of the Aerospace Safety Advisory Panel, a 
statutory NASA advisory committee, agreed with the report of the NASA 
OIG.
---------------------------------------------------------------------------
    In November 2006, the Orlando Sentinel published information leaked 
from the investigation. (To its credit, the Sentinel subsequently 
reported information from NASA's former Administrator and General 
Counsel substantially debunking certain aspects of the leaked 
information.) Defending oneself during the course of an investigation 
invariably leads to the claim of interference with an investigation, 
and I have avoided that by giving the investigation my full cooperation 
and by saying almost nothing to the press. Now I am told by a lead 
Congressional investigator that the truth of matters is irrelevant and 
only perception matters: a perception engineered by those with agendas 
having nothing to do with truth. However, under the present 
circumstances and my steadfast belief that investigations should be 
conducted fairly and legally, I am compelled to state my views publicly 
in the hope that greater appreciation for the principles of due process 
prevail among those who are charged with the responsibility to carry 
out investigative activities.
    Given the great lengths the HUD OIG went to try to establish a 
suggestion of wrongdoing and the extent of the overreaching of the IC 
to find, if not wrongdoing, appearance of it, and the absolute failure 
of both of them, in light of the truth, to show any wrongdoing or even 
appearance of it, the IC letter, with all its foibles and falsities 
stands, in contrast to its intent, as a complete and de facto 
exoneration of me and the NASA OIG.
    At NASA, I have taken the responsibilities of office under the 
Inspector General Act seriously and without compromise to root out and 
prevent fraud, waste and abuse and to promote the economy and 
efficiency of the agency. I have upheld my oath to support and defend 
the Constitution of the United States. My staff and I have worked very 
hard to gain respect by following the Constitution and laws of the 
United States, by ensuring that our work is performed in a fair and 
balanced manner, by building expertise in the areas in which we conduct 
our work, by making sure the work is supported by law and relevant 
facts, and by making sure that NASA OIG organization reflects the 
economy and efficiency in operations that we demand of the agency we 
oversee. As a result of this dedicated effort, I proudly stand behind 
the work of the NASA OIG.
    All exhibits are in the Committee files of the Senate Committee on 
Commerce, Science, and Transportation and can be downloaded from the 
following URL: http://oig.nasa.gov/congressional/Exhibits060707.pdf
List of Exhibits
    A. Letter to James H. Burrus, Jr. from Clay Johnson, March 29, 2007 
and Letter to Clay Johnson from James H. Burrus, March 29, 2007
    B. Annotated letter to Clay Johnson from James H. Burrus, Jr., 
January 22, 2007
    C. Letter to Hon. Robert W. Cobb from Chris Swecker, January 9, 
2006
    D. Letter to James Burrus from Robert W. Cobb, February 16, 2006, 
with Enclosures
    E. Letter to Hon. Robert W. Cobb from James H. Burrus, Jr., 
February 22, 2006
    F. Letter to James H. Burrus, Jr., from J. Sedwick Sollers, III, 
June 28, 2006
    G. Letter to Robert Mueller from Hon. Robert W. Cobb, July 17, 2006
    H. Letter to James Burrus from Hon. Robert W. Cobb, July 17, 2006, 
with Enclosures
    I. Letter to Hon. Robert W. Cobb from James H. Burrus, Jr., August 
8, 2006
    J. Letter to James H. Burrus, Jr. from Hon. Robert W. Cobb, August 
23, 2006
    K. Letter to Hon. Robert W. Cobb from James H. Burrus, Jr., August 
30, 2006
    L. Letter to Integrity Committee from Hon. Robert W. Cobb, 
September 7, 2006, with Exhibits
    M. Letter to Robert Mueller from Hon. Robert W. Cobb, November 17, 
2006
    N. Letter to James H. Burrus, Jr. from Hon. Robert W. Cobb, 
November 20, 2006
    O. Letter to Hon. Robert W. Cobb from James H. Burrus, Jr., 
November 21, 2006
    P. Letter to James H. Burrus, Jr. from Hon. Robert W. Cobb, 
December 18, 2006
    Q. Letter to Hon. Robert W. Cobb from James H. Burrus, Jr., January 
21, 2007
    R. Letter to Hon. Robert W. Cobb from James H. Burrus, Jr., April 
26, 2007
    S. Letter to Michael D. Griffin from Clay Johnson, February 15, 
2007
    T. Letter to Clay Johnson from Michael D. Griffin, March 14, 2007
    U. Memorandum to Hon. Robert W. Cobb from Administrator, March 30, 
2007
    V. Letter to Clay Johnson, III from Michael D. Griffin, March 29, 
2007
    W. Letter to Clay Johnson, III from Chris Swecker, October 29, 
2004, with Enclosures
    X. Examples of Management and Organizational Changes and 
Initiatives at the NASA OIG (2002-2007), and Memorandum to the AIG for 
Audits and AIG for Inspections and Assessments from the Inspector 
General, January 17, 2003
    Y. Letter to Michael D. Griffin from Senator Bill Nelson, May 12, 
2005
    Z. Letter to Senator Bill Nelson from Hon. Robert W. Cobb, May 13, 
2005, with Enclosures
    AA. Letter to Kenneth M. Donohue from Chris Swecker, January 6, 
2006

    Senator Nelson. Mr. Cobb, I'm going to ask you the 
questions that Senator Chuck Grassley had stated in his 
statement that has been made a part of the record since he was 
not able to be here.
    And I quote, ``Mr. Cobb, do you believe that an Inspector 
General can continue to serve if he has lost the confidence of 
his staff and of the Congress?''
    Mr. Cobb. There are two parts to that question. The first 
is the confidence of his staff. I do not believe that I have 
lost the confidence of my staff. As to Congress, I believe if 
Congress, and those in Congress, review the work of the Office 
of Inspector General, and take that work that that--that the 
work is credible, and it's excellent work, and I stand behind 
all of it.
    Senator Nelson. His second question is, ``Do you believe an 
Inspector General can continue to serve who has been found by 
an independent investigation to have abused his authority?''
    Mr. Cobb. My statement--my written statement is clear on my 
views on the Integrity Committee's findings. I stand behind my 
written statement. And if the findings of the Integrity 
Committee are falsely based, then I don't see any problem with 
continuing to serve, under those circumstances.
    Senator Nelson. Well, now, are you disputing the findings 
of the Integrity Commission as an independent investigation, 
that you have abused your authority?
    Mr. Cobb. Yes.
    Senator Nelson. You're disputing that.
    Mr. Cobb. Yes.
    Senator Nelson. You acknowledge that that's what the 
Committee report said.
    Mr. Cobb. The Committee report said I abused my authority 
insofar as--and I'm not quoting it exactly--that I created a 
hostile work environment as to one employee.
    Senator Nelson. So, you think you can continue to serve, 
even though the independent investigation says that you abused 
your authority.
    Mr. Cobb. Yes. And I think the Integrity Committee itself 
recognized that by not making a recommendation regarding its 
findings to the PCIE chair.
    Senator Nelson. Senator Grassley's third question is, ``Do 
you believe an Inspector General can continue to serve if he is 
perceived as in the pockets of the people he is supposed to 
investigate?''
    Mr. Cobb. I guess it--from my perspective, it depends on 
whose perception that is. The reality, to me, is important, and 
there is no work in our office that has been compromised in any 
way, shape, or form. So--I'd be interested in discussing the 
work of our office, which I think has been outstanding during 
my tenure.
    Senator Nelson. The next question from Senator Grassley is, 
``Do you believe an Inspector General can continue to serve if 
he has acknowledged verbally abusing staff on numerous 
occasions?''
    Mr. Cobb. Again, I think that the premise of the question 
is--I don't accept the premise of the question. There hasn't 
been ``numerous occasions of berating of staff.'' There are a 
few instances.
    Senator Nelson. So, all of the testimony brought forth in 
the Integrity Committee's report, do you dispute that?
    Mr. Cobb. I believe, as my statement indicates, that the 
HUD Inspector General's recitation of facts reflects a--an 
attempt to obtain the opinions of many persons who did not like 
the accountability that I brought to the NASA Office of 
Inspector General with respect to the work of that office, and 
there was no effort by the HUD Office of Inspector General to 
produce a balanced report regarding relevant evidence.
    Senator Nelson. Well, let's forget then, what the Integrity 
Commission report has stated, and let me ask you, Did you use 
profanity in front of your employees?
    Mr. Cobb. Yes, I have.
    Senator Nelson. Did you use profanity in front of women?
    Mr. Cobb. Yes, I have.
    Senator Nelson. The statements that were made by the 
previous witnesses, are those true with regard to the use of 
profanity and the gestures that you had made?
    Mr. Cobb. There were many statements made. Certainly as 
regards to the testimony of Debra Herzog, there was at least 
one instance where I used profanity in her presence in an 
aggressive way, and I pounded the table. And I regret that.
    Senator Nelson. Do you consider that verbally abusing 
staff?
    Mr. Cobb. I think that the characterization that that was 
verbally abusive is a fair characterization with respect to 
that one incident.
    Senator Nelson. But no other times.
    Mr. Cobb. No, I didn't say that. I believe that there were 
three or four other times, in the 5 years that I've been the 
Inspector General, where, when I believed that either the 
activity of a particular person as regards me was disrespectful 
or was--and I don't use this in a legal sense--insubordinate, 
but, nonetheless, where a disregard for a determination or a 
decision that I had made was shown, and that occurred with Ms. 
Herzog.
    Senator Nelson. I want to remind you of your obligations 
under the United States Code, number 18 U.S.C. 1001, to answer, 
truthfully, the questions propounded in a Congressional 
hearing. And what we're trying to do is to get your perspective 
with regard to a series of allegations that are quite serious, 
and are extensive.
    So, Senator Grassley's concluding statement in his 
testimony, ``The honest answering of these questions should 
lead you to make a decision as to what is best for NASA and the 
American people.'' And so, your conclusion is that you should 
stay as the Inspector General?
    Mr. Cobb. My conclusion is that I should stand up against 
an investigation that disregards the Constitution and due-
process concepts that are built into it. And I believe that 
when our Government operates in a way that is abusive, that 
people should stand up against it.
    Senator Nelson. And, in your opinion, for you to remain as 
Inspector General, that's in the best interest of NASA and the 
American people?
    Mr. Cobb. Yes.
    Senator Nelson. Chairman Miller?
    Representative Miller. Thank you. My vote has begun, but I 
do want to get in a few questions.
    Mr. Cobb, the Inspector General Act provides that, or the 
purpose of the Act is to provide a means for keeping the head 
of the establishment--in this case, NASA--and Congress fully 
and currently informed about problems and deficiencies. And I'm 
sure you're familiar with the Quality Standards for Federal 
Offices of Inspector General, which says that, ``Inspectors 
General report both to the head of the respective agencies and 
to the Congress. This dual reporting responsibility is the 
framework within which Inspectors General perform their 
functions. Unique in government, dual reporting is the 
legislative safety net that protects the Inspector General's 
independence and objectivity.''
    Do you agree with that requirement, that you report both to 
the head of the agency and to Congress?
    Mr. Cobb. Yes, I do.
    Representative Miller. OK. Now, Senator Grassley's question 
was, ``Can an Inspector General serve effectively if the 
Inspector General has lost the confidence of Congress?'' And 
your response, basically, was that you didn't think you had 
lost the confidence of Congress. Without regard to your 
personal circumstances, can an Inspector General serve 
effectively if Congress has concluded that they cannot rely 
upon that Inspector General's work?
    Mr. Cobb. The Inspector General can continue to do the 
work, and there has been--and let me make absolutely clear that 
there has been no suggestion that the work of our office----
    Representative Miller. Well----
    Mr. Cobb.--is anything other than first-class.
    Representative Miller. I really thought that----
    Mr. Cobb. So----
    Representative Miller.--that question could have been 
answered ``yes'' or ``no.''
    Mr. Cobb. We've--we put out a first-class work product, 
and----
    Representative Miller. So, your----
    Mr. Cobb.--will continue to do so until such time--we will 
just continue to do--we have--there is no problem with the 
credibility of the work. And whether Congress chooses and 
elects to pick it up and read it is really up to Congress. We 
will keep Congressional staff informed of our activities, as we 
have throughout my tenure----
    Representative Miller. But your answer is, if we've lost 
confidence in you, it's our fault, not yours.
    Mr. Cobb. It's your decision. It's not--that's not anyone's 
fault. It may--if it's your decision----
    Representative Miller. But----
    Mr. Cobb.--there's not much I can do about that.
    Representative Miller.--in your----
    Mr. Cobb. I can just do my job.
    Representative Miller. In your written testimony, you 
questioned whether the PCIE report and their recommendations 
were within the authority of the PCIE. And, again, the PCIE is 
composed of all the Inspectors General, I believe. This 
particular report was reviewed by six Inspectors General as 
informed--as we've been informed by the Inspector General of 
HUD. Is that correct?
    Mr. Cobb. It's close. It's not exactly right. There's an 
Integrity Committee. It has several members, three of whom are 
Inspectors General. There are three other members. One of the 
head of the Office of Government Ethics, the head of--the 
Office of Special Counsel. There's--the chair is the FBI chief 
of the Criminal Division. And there are others, ex officio 
members, who sit in it--in on committee meetings.
    Representative Miller. Mr. Cobb, 2 weeks ago the 
Subcommittee on Investigations and Oversight in the House, 
Science and Technology Committee, had a hearing about this, 
all-hands--mandatory all-hands meeting of the Inspector 
General's Office. Two witnesses from the agency, the chief of 
staff and the current counsel, Mr. Wholley. Mr. Wholley 
testified that the chief of staff handed him a stack of DVDs 
and said, ``These DVDs should never have been made. You decide 
what to do with them,'' or some words to that effect. And he 
decided that he would destroy them, because, if he did destroy 
them, we would probably ask for them.
    Now, in ordinary circumstances--and this was the meeting 
where Administrator Griffin talked to the OIG staff, to your 
staff, about the finding of the PCIE committee with respect to 
your conduct and the recommendations of the PCIE Committee, and 
why he was not adopting those recommendations, but doing 
something much less.
    Now, in ordinary circumstances, some kind of conduct like 
that, we would turn to the Inspector General, and ask the 
Inspector General to look into it. Can we ask you to look into 
that?
    Mr. Cobb. Well, you certainly can ask.
    [Laughter.]
    Mr. Cobb. And whether we would undertake an investigation, 
I have staff reviewing our role and what role we might have in 
connection with that particular activity. But, as you say, 
under normal circumstances--that was a very unusual meeting. 
Part of the problem that we would have, from my perspective in 
connection with conducting an investigation in that case, is 
all of the witnesses with respect to what occurred during that 
session are Office of Inspector General employees. Furthermore, 
there were several Office of Inspector General employees who 
were in possession of copies of the activity, and volunteered 
to give them back, in fact, knowing that they were going to be 
destroyed. And so, there are a number of issues associated with 
whether or not it would be appropriate for our office to be 
involved in an investigation of that activity.
    Representative Miller. All right----
    Mr. Cobb. But, the matter is under review.
    Representative Miller. Mr. Cobb, you heard me read aloud, 
to the previous panel, from the Quality Standards for the 
Offices of Inspector General, the provisions on personal 
impairments and external impairments. You said that you thought 
you were supposed to maintain a close relationship with the 
Administrator of NASA and the leadership of NASA. This 
provides, ``Personal impairments to staff members result from 
relationships and beliefs that might cause OIG staff to limit 
the extent of an inquiry, limit disclosure, or weaken or slant 
their work in any way.''
    The testimony, which I think--some of which you have not 
disputed, or some of it is written, and is beyond dispute--is 
that it was frequently the case that you would ask in advance 
what you wanted the management to have you look at; you would 
send them findings before you issued them; you would edit, 
based upon their recommendations; and that you met Mr. O'Keefe 
and Mr. Pastorek weekly for lunch, frequently in the dining 
room of NASA, where every employee in the place could see you 
there together; you met Mr. O'Keefe for drinks in his office; 
you played golf with him, on and on. You heard both Ms. Brian 
and Dr. Light say that that was a flagrant violation of the 
requirement that an Inspector General avoid personal 
impairments to their objectivity and independence. But you 
disagree with their conclusion.
    Mr. Cobb. I don't disagree with the conclusion or the tenor 
of the guidance that's in the Quality Standards. I don't accept 
all of the premises of the question that you asked.
    And I would like to say that glaringly absent from all of 
the testimony that occurred earlier today is the fact that I do 
work with my senior staff in an extraordinarily collaborative 
way. So, for example, when I was asked whether I could go 
play--whether I would be playing golf with Mr. O'Keefe, I ran 
that by the 27-year counsel to the Office of--counsel to the 
Inspector General, and I discussed it at great length with my 
deputy, Tom Howard. Tom Howard's name hasn't been mentioned. 
He's been with our office for five years--for four and a half 
years, or four and three-quarters years--a 33-year veteran of 
the Government--or 24 years at Government Accountability 
Office, five years at the DOT IG, intimately familiar with all 
the Yellow Book standards. He's been in the auditing business 
for, now, 33 years. There wasn't a decision that was discussed 
earlier today that I didn't have Tom Howard closely involved 
in, in terms of analyzing the issues that were present.
    Senator Nelson. Mr. Cobb, doesn't all of this testimony 
bother you? Doesn't the Integrity Committee, made up of other 
professional IGs, doesn't this bother you? Doesn't it give you 
some pause to think that you might not be right all the time?
    Mr. Cobb. There are a couple of questions you've asked. I'm 
certainly not right all the time. I make mistakes routinely. 
And that's why I have a very collaborative method of dealing 
with issues in our office involving, as I just mentioned, Tom 
Howard, very closely, and other members of the senior staff.
    As for pause, as you know, Senator, you have sought 
investigation of me for more than 2 years now. And I've been 
under investigation, investigation that's been extraordinarily 
costly, involving more than a dozen HUD OIG investigators, 
looking through all of my e-mail, basically looking for 
anything that can be used to stain my reputation. So, yes, I 
have had substantial pause in connection with that activity.
    Senator Nelson. Since you raise the issue, I want the 
record to reflect that one of the roles of an elected official 
is, when constituents refer complaints, to have those 
complaints referred to the proper authorities. You just made a 
statement that I had made an investigation on you. That's not 
true. The Integrity Commission, which is a lawfully constituted 
body, is the one who made the investigation. The complaints 
that this office and other members of this committee have 
received have been referred to them, and that's what started 
this whole process.
    Mr. Cobb. May I address my comment and your response to it?
    Senator Nelson. Please.
    Mr. Cobb. What I referred to was a May 12, 2005, letter 
from you to Administrator Griffin asking for an investigation 
of work of the NASA Office of Inspector General in connection 
with a pilot matter down at the Langley Research Center.
    Senator Nelson. That's correct.
    Mr. Cobb. And----
    Senator Nelson. And that was----
    Mr. Cobb. And that's what I was referring to.
    Senator Nelson. OK. Those were the first complaints that we 
were getting. And then, as the complaints continued to come in, 
then it was clear that there was a legally constituted 
authority in order to do the investigation. The investigation 
hasn't been done by this committee.
    Mr. Cobb. No, I understand that.
    Senator Nelson. All right. Let me go over a number of 
issues. And, at the end of the day, I think what we're trying 
to get here is what's good for NASA. NASA is this little agency 
that's on the cutting edge, that's running a high-risk 
operation, and they certainly don't need any side distractions, 
like what's been going on. So, let's further explore.
    On December 8, 2004, a team of your investigators, working 
with the FBI and an assistant U.S. Attorney, obtained a search 
warrant that was signed by a U.S. magistrate, Federal judge. 
The next day, the investigation team assembled at the Stennis 
Space Center as they prepared to serve the search warrant in 
this criminal investigation. That morning, you ordered your 
investigators not to proceed with the search warrant.
    Would you share, for the committees, why you did that?
    Mr. Cobb. Yes, sir. And from--and, as a background, and 
just in terms of philosophy, I think this is an example of how 
you'll find that when Allen Li of the Government Accountability 
Office said, ``I'm the most independent Inspector General that 
he's ever seen,'' this is an instance where I reflect that 
independence.
    I reviewed an affidavit, I believe, in support of the 
search warrant, which had been signed. Upon my review--read 
it--it was brought to me, I looked at it--I couldn't understand 
what crime had been committed with respect to the facts that 
were alleged to have occurred, and I asked whether and what the 
crime was that was occurred, and I did not get an answer. 
Nobody knew. I did not think that the facts that were alleged 
in that affidavit constituted a crime.
    I had a discussion with Ms. Herzog about that. She, as she 
testified earlier, indicated that that's, in effect, a matter 
for the defendant in a criminal case to litigate whether or not 
service of the search warrant is appropriate.
    I asked for the counsel to the IG to come in and join us in 
the conversation that we were having. My recollection of these 
circumstances was that the counsel came in, I asked him if he 
had seen the search warrant, and he said, ``Yes, I was 
wondering what the crime was that underpinned that search 
warrant.''
    So, what--and I'll go back, because there was something 
that I considered offensive. When I asked Ms. Herzog what the 
crime was, she asked--or she told me that I couldn't ask that 
question, that to ask that question was interfering with an 
investigation, or the service of a search warrant, and 
intimating what she said today, that it was an obstruction of 
justice.
    I had a question as to whether or not a search warrant, 
which was going to be served on a citizen of the United 
States--happened to be at a NASA center--whether it was a legal 
and valid search warrant, and I was told that I couldn't ask 
the question. I, again, had my counsel give me his opinion. He 
also questioned whether or not there had been--whether there 
was a suggestion of a crime in connection with that activity.
    We had a vigorous debate as to what we should do under 
those circumstances. The result of that debate was that my 
counsel, counsel to the IG, would personally communicate with 
the assistant United States attorney. He did, and was told that 
the assistant United States attorney was very comfortable with 
the service of the search warrant, and we did not take the 
matter any further.
    Senator Nelson. How many days was the search warrant 
delayed?
    Mr. Cobb. I don't believe it was delayed one day.
    Senator Nelson. So, in this situation, even though it had 
been investigated by the FBI, with the judgment of an assistant 
U.S. Attorney, and a Federal judge, you rendered their decision 
wrong, and yours right, to delay the process.
    Mr. Cobb. I wouldn't say that I--said that my view was 
right. I had a question as to what the crime was that was 
alleged to have occurred in connection with this activity, 
and--and I think that the--my recollection was that the answer 
was theft of proprietary information, and the problem was--from 
my standpoint, was that the information had been created by a 
government employee on government time, and my limited 
knowledge of that particular area was that information produced 
by a government employee on government time is not proprietary 
information, so, if someone took it and used it for another 
purpose, that would not be theft of proprietary information. 
So, I asked the question of whether or not this constitutes a 
crime. And that's the basis for this notion that I was somehow 
improperly interfering with an investigation.
    But, I must say, this is reflective of my independent 
attitude when it comes to asking questions that I think are 
appropriate under the circumstances.
    Senator Nelson. If that were the only time, that would be 
innocent enough. But that is just one of a pattern, because the 
situation repeated itself on June 30, 2005, in a criminal 
investigation at the Marshall Space Flight Center. Your agents, 
along with the agents of the FBI, were preparing to serve a 
search warrant that had been sworn by an assistant U.S. 
Attorney and signed by a magistrate judge. And, again, you 
halted the search warrant, moments before it was to be served. 
Why did you do that?
    Mr. Cobb. Well, again, I don't necessarily accept the 
premise--all the premises of the question that you pose. But I 
also admit that my recollection of exactly what occurred with 
respect to that particular search warrant, and whether it was 
even a search warrant at the time, or was it a contemplated 
search warrant--I'm not that familiar. I do remember having a 
question, and the fundamental question I was--I think I was 
getting into, in connection with that one, was whether we were 
better off serving a search warrant or going and gathering the 
evidence, which we would have been able to do at night without 
a search warrant.
    Senator Nelson. Well, Mr. Cobb, see, this is where you get 
into trouble, because this was a different assistant U.S. 
Attorney than the one in the Stennis case, it was a different 
Federal judge than the Stennis case, and, again, you inserted 
your opinion instead of an assistant U.S. prosecutor, the FBI, 
your agents, and a Federal judge. And that's where you start to 
get into trouble. And part of the execution of criminal law is 
the timeliness of the search warrants. Delay gives time for 
suspects to dispose of evidence.
    Now, how much of a delay was there in this particular time?
    Mr. Cobb. I don't recall, but I assure you that that's 
something that we would have discussed at great length at the 
time, and I do not believe that there was any negative impact 
associated with ensuring whether or not this was an 
appropriate--an appropriate use of NASA OIG resources in 
connection with this activity.
    Senator Nelson. There's where you get yourself in trouble. 
You are interfering with the judgment of the criminal law 
system of a series of people who, by law, are charged with the 
responsibility of carrying out that law. And if there is a 
delay in that search warrant, there is the distinct possibility 
of the loss of evidence.
    Now, in your testimony just a few minutes ago with regard 
to the Stennis case, you said the search warrant wasn't delayed 
more than one day. I want to call your attention to page 117 of 
the IC report. It says, ``Burnell stated Cobb called Haughton 
and allowed them to execute''--this is on the Stennis case ``to 
execute the search warrant at about 2 p.m. on December 9, 2004. 
After the search, Burnell recalled discussing with Haughton 
that the subjects may have been alerted, `the subjects of the 
search warrant,' may have been alerted to the impending search, 
and possibly removed the evidence being sought. The Radiance 
employees were not surprised when the warrant was executed. 
Burnell states that he believes the element of surprise was 
lost because of the delay.''
    People charged, in the criminal justice system, with 
carrying out the law. This is where you're getting yourself in 
trouble: imposing your judgment for that of the legal 
authorities.
    Let me ask you about the Command Destruct System. STS-111 
launched on June 5, 2002, and one of the two required range 
safety systems was malfunctioning. That's the Command Destruct 
System which can destroy the solid rocket boosters in case of 
going off track. Your office did an investigation into that 
incident. Is that correct?
    Mr. Cobb. There was consideration of issues by Mr. Carson 
and another gentleman on our audit staff.
    Senator Nelson. I don't understand your answer.
    Mr. Cobb. We have--we're divided, fundamentally, into two 
organizational--operational organizational elements: 
investigation and audit. This was not an investigation under 
our Office of Investigations. It was in our audit shop.
    Senator Nelson. Well, let me continue. It was determined 
that an Air Force general went through back channels to the 
Kennedy Space Center center director, telling him that the 
range was green for launch, when the range safety officers were 
actually reporting red, which means that both systems were not 
go for launch. And that's a launch criteria. Did your office 
complete an investigation in this incident?
    Mr. Cobb. I don't believe so.
    Senator Nelson. And why not?
    Mr. Cobb. I was briefed on these issues, I believe, in 
February of 2005, along with my deputy and other senior 
managers in the NASA Office of Inspector General. You must 
realize that Mr. Carson was, during the course of the time he 
worked in the NASA Office of Inspector General, three and four 
levels below me, down the chain of command. So, all of those 
people up the chain of command would have been present for the 
briefing.
    The fact was that, in this instance, the Air Force Office 
of Inspector General had, two and a half years previously, 
already considered the allegation that there was some 
impropriety associated with the conduct of the Air Force 
general, and had concluded, ``that the general''--excuse me--
that the general, ``acted within his authority for range and 
public safety when he made the risk assessment and determined 
the range was a `go for launch.' '' Since there was no 
violation, any further investigation into this incident is not 
warranted.'' That was two and a half years prior to the time 
that the matter was brought to my attention in a briefing.
    This was an Air Force general executing his authorities as 
an Air Force general, not on detail or assignment to NASA.
    It's interesting, I think, that, when I was asked by the 
HUD Office of Inspector General about this same incident, in 
the end of June of 2006, that Administrator Griffin had, in 
connection with a launch just prior to that interview down at 
the Space Center, had overruled and bypassed the recommendation 
of his chief safety officer and, I believe, chief engineer, to 
proceed with a launch, notwithstanding the fact that they 
indicated that there was a no-go.
    So, you know, people make command decisions and are 
responsible and accountable for them. And, to me, dedication of 
resources to find out whether or not this particular general, 
who had retired two and three-quarters years earlier, had 
exercised proper authority in a matter that was questionably 
under the jurisdiction of the NASA Office of Inspector General, 
did not, in my opinion, but also that of my senior staff, 
warrant additional examination.
    Senator Nelson. So, you felt that the Air Force had 
investigated this, and it was a matter that was taken care of.
    Mr. Cobb. Yes, as regards the actions of the general. There 
were other issues that were legitimate issues, that were 
relevant to this, that were being considered. And that was the 
communication between the range and NASA officials, and to what 
extent those communications were acting in a way that kept 
people informed of what they needed to be informed of. And 
there was a red team that had been--and, quite possibly, as a 
result of the inquiries that Mr. Carson and his colleague were 
making--there was a red team that had been established by the 
Air Force, a joint NASA/Air Force red team, to consider the 
issues. They made recommendations, they established new 
procedures, and the--the issue that was most concerning about 
communication between the Air Force and NASA as concerned the 
range, the safety of the range, the safety of the astronauts, 
that those issues were addressed. And we examined that, and we 
believe that they were addressed.
    Senator Nelson. And you did an investigation on that, on 
the issue of communication?
    Mr. Cobb. We conducted audit activities in connection with 
that communication, yes.
    Senator Nelson. If that were to occur again, what would you 
do?
    Mr. Cobb. If what was to occur again?
    Senator Nelson. Same thing. That they launch, and both of 
them aren't activated.
    Mr. Cobb. Well, one thing that I would do, that I don't 
know that the HUD Office of Inspector General did--in fact, I 
don't believe that they did--is, I would consult with those 
people who were intimately familiar with the range safety 
issues, and to the Integrity Committee and the HUD Office of 
Inspector General. I made--I made a fairly significant list of 
people who would be familiar with those issues, and I don't 
believe any of them were spoken to in connection with these 
activities.
    Senator Nelson. Let me tell you what the difference is 
between you drawing a parallel with Dr. Griffin making decision 
to launch. In the one case here, we have an Air Force general 
overriding his Air Force officer who has said that they are red 
for launch, and the Air Force general says they are go, or 
green for launch, and then using back channels to the KSC 
center director. That, by the way, was reminiscent of all of 
the misinformation in the loss of Challenger back in 1986. 
That's one set of circumstances.
    That is not parallel to the set of circumstances with which 
you just accused Dr. Griffin, where there is a flight readiness 
review with all the people present, all discussing their issues 
being on the table in front of everyone, and with the 
Administrator making the final decision in front of everybody, 
and then going back to the two that said no-go, and getting 
their approval to go. It's a totally different situation. One's 
secretive and back channels, the other is a recognized 
procedure in the launch operations, and is completely out in 
the open among all of the flight readiness team. Huge 
difference.
    Let's put up that chart again on the work product. Why 
don't you just give us some comments about that, in how you 
compare to your two predecessors. This is the work product of 
your shop, the IG's shop.
    Mr. Cobb. Well, I can see the graph from here, and, for 
purposes of discussion----
    Senator Nelson. Give him a copy of that, please.
    Mr. Cobb.--for purposes of discussion, let's assume that 
it's an accurate reflection of audit productivity.
    Thank you.
    To me--and maybe I could be criticized for this--the number 
of audits our office publishes is, to me, not necessarily the--
is not my indicia of whether or not we're successfully carrying 
out our mission. And, in fact, I'd say, when I joined as 
Inspector General at NASA, the metric that was utilized for 
analyzing whether or not our office was effectively carrying 
out its mission was the number of recommendations it was 
making.
    As a point of fact, I didn't think that that was an 
appropriate metric for our activities. And, furthermore, to me, 
the quality of the work was much more important. And, in that 
respect, there might, especially if you look at the chart, see 
that there were a substantial number of audits that were 
generated three-quarters of the way through Roberta Gross's 
tenure. Interestingly, there was a significant downward slope 
toward the end.
    But, in any event, the Office of Inspector General was 
generating many, many recommendations which were being accepted 
by the agency, and then not implemented. And to the--it became 
such a problem that the Internal Control Council at NASA 
identified it as an internal control weakness of the agency, 
that it had approximately 500 outstanding audit recommendations 
that it was not implementing. Office of Inspector General was 
issuing recommendations. Agency wasn't implementing them. That 
was a problem.
    And I think that that problem was caused by many things, 
and I don't know that you want me to go into great detail on 
that. But part of it was the quality of the recommendations and 
whether or not they were implementable, from the standpoint of 
doing right by NASA.
    So, from my perspective, when I became the Inspector 
General, first thing that I did was, I wanted--and I recognized 
that I did not have a substantial background in audit 
activities, so I hired a deputy who had, at that time, 28 years 
of audit experience, to help me in managing the audit activity 
of the office. And what we worked very hard to do was to make 
sure that our audit work was, as Mr. Carson indicated earlier--
well, that our work was top notch.
    Senator Nelson. But you would acknowledge that, on the 
number of audit reports, that your high of 19 is less than the 
average of the previous two IGs.
    Mr. Cobb. I acknowledge that the numbers here are less than 
what occurred under Bill Colvin and Roberta Gross.
    Senator Nelson. Well, let's talk about safety-related 
audits. In the past 6 months, the only safety-related audit 
product was not a report, but it was a memorandum on stair 
access trucks used at the Dryden Research Center. Is that 
correct?
    Mr. Cobb. I'm not sure exactly which audits that we've 
published. We've published some significant audits in safety in 
the last--in the last--in the recent period. Space Shuttle 
program--problem reporting corrective action process at Kennedy 
Center--Space Center--needs improvement. That was one. But----
    Senator Nelson. OK. I'm reading from Appendix B of the 
Office of the Inspector General's Semi-Annual Report, October 
1, 2006, to March 31, 2007. I think this is your report. 
``During the period April 1 through September 30, the Office of 
Audits issued 19 products.'' And then, in the audit area of 
safety, there is a final memorandum on the review of the access 
stair trucks located at the Dryden Flight Research Center. And 
that's the only thing under audit safety.
    Mr. Cobb. We have many ongoing projects that are safety-
related. You know, the idea that--you know, again, I'd say that 
the HUD Inspector General's report, as regards any safety-
related issue, is remarkably deficient insofar as I identified 
a substantial number of people with safety expertise at NASA as 
people who potentially should be considered as witnesses, and 
the HUD Office of Inspector General did not interview a single 
one of them.
    Senator Nelson. Well, it's a high-risk little agency where 
safety is absolutely key. This is one of the reasons you've got 
to have an independent IG. You've got to have an IG that's 
looking for those safety problems, other than access stair 
trucks at Dryden.
    Mr. Cobb. Senator, under my leadership, the NASA Office of 
Inspector General hired technical staff, safety experts. We've 
got somebody at the MMT meeting, going on today, regarding 
activities, keeping us apprised of issues that relate to 
Shuttle launch safety. We've got people now in the NASA Office 
of Inspector General who are engineering and technical experts, 
aerospace technologists, safety folks, that we didn't have when 
I started as NASA Inspector General. And it's because of my 
concern that we have competent, independent ability to 
ascertain what are real safety issues that we need to address, 
that we now have those people. There is no limit on the amount 
of attention, dedication of resources that my office has given 
to safety.
    And on the investigation side, I'd say that, recently--and 
I think that you'll see, in that semi-annual report--many of 
our criminal prosecutions are parts- and test-fraud related. We 
had a case recently involving the falsification of test data 
for spacesuit batteries. We had another case where several 
people went to jail, on significant prison sentences in 
addition to substantial fines, associated with making false 
statements relating to--and altered test results of metal 
materials received--relating to the Space Shuttle wings. And I 
would just say that there's been no lack of dedication to 
safety-related issues at NASA under my leadership.
    Senator Nelson. Well, I'm only looking at your report, and, 
of course, the question is begged, respectfully, audit area, 
financial management, you have four; audit area, procurement, 
you have two; audit area, space operations and explanation, 
one; audit area, other, one; audit area, quality control 
reviews, a couple; but under audit area, safety, the access 
stair trucks. So, I just simply point out from your own report, 
someone like me, in this committee, has got to raise these 
things, because safety is absolute. We can't afford the loss of 
another Shuttle, because you know what happens if that's the 
case.
    Let me ask you about another issue that I stated in my 
opening comments. This one really concerns me. This is the 
theft of a $1.9 billion set of rocket plans. And it was never 
reported. And who knows who has that. It's allegation number 
28, the theft of the ITAR-sensitive data from a computer at the 
Marshall Space Flight Center. The data involved was detailed 
design information on the Shuttle main engines, which are the 
most technologically advanced in the world, as well as design 
information for NASA's new advanced engine. The intellectual-
property value of that is almost $2 billion. And the 
investigation into that incident ultimately determined that the 
data was downloaded by a hacker in South America or France, 
and, for a period of time, posted on the Internet where anybody 
could have gotten it. Anyone and everyone could have gotten it. 
And Lord knows who got it. And there are some folks, I can tell 
you, sitting in my capacity as the chairman of the Strategic 
Systems Subcommittee of the Armed Services Committee, there are 
sure folks on Planet Earth that we don't want to have these 
kind of rocket designs that are very advanced. Namely, folks 
like North Korea and Iran.
    Now, 4 years after the incident, the Department of Defense 
was finally asked to evaluate the national security implication 
of the compromised data. The request didn't come from your 
office, but from the HUD investigators who were investigating 
your conduct. And the Pentagon's conclusions are shown in 
Senate Exhibit 3.
    Do you recall, anytime during 2002 or 2003, a member of 
your staff recommending that this incident be reported to the 
State Department, as is required under law?
    Mr. Cobb. Well, first, I don't accept your premise that 
this is required under law.
    Senator Nelson. The gravity of this situation, you don't 
think, requires the reporting of this to the United States 
State Department.
    Mr. Cobb. I don't--the premise is--of your question was 
that there's a requirement under law to report this to the 
Department of State.
    Senator Nelson. Well, you----
    Mr. Cobb. I have----
    Senator Nelson.--you may----
    Mr. Cobb.--to this day----
    Senator Nelson.--dispute it on the law. What is your 
opinion? Do you think it should have been reported to another 
agency?
    Mr. Cobb. Our office, as soon as we were informed of this 
activity, we worked in concert with the Defense Criminal 
Investigative Service, the FBI; the NIPC, the National 
Infrastructure Protection Center, was aware of it; we worked 
with international authorities. There was no act that our 
office did not take, that it should have, in connection with 
this activity. There was no serious discussion in our office, 
or presented to me, regarding a reporting requirement to the 
State Department. And, in fact, to this day, nobody has brought 
any specific indication of agency requirements to report this 
information.
    But I do understand that, in August 2002, there was a 
conversation between the director of the Export Control Office 
at NASA with the Department of State, who indicated that 
voluntary disclosure under the ITAR was not required.
    Senator Nelson. So, that's your position.
    Mr. Cobb. That's my position.
    Senator Nelson. All right. A senior member of your staff 
reports that you worked with NASA to have the data classified 
so that its loss wouldn't be publicly disclosed. Is that true?
    Mr. Cobb. I don't believe that that is the case. I believe 
that there might have been the discussion, back at the time, as 
to whether or not, for example, the kind of conversation that 
we're having here today is something that should be made 
public, when there are national security concerns--Is it 
national security information?--and a question about 
classification often rises and is dealt with, as every other 
issue is, intelligently, and disposed of.
    Senator Nelson. So, it's your position that you weren't 
required to report this to the State Department. You've stated 
that. Can't you see? You're getting into trouble with judgment 
here. Something of enormous defense importance to the United 
States, and you're not sharing it with another agency whose 
responsibility it is to protect the secrets of the United 
States. Can't you see where all of this controversy has stirred 
up, and the chain of these things?
    Mr. Cobb. Again, our office took every action that was 
appropriate under the circumstances. The National 
Infrastructure Protection Center--under Presidential Decision 
Directive 63, the NIPC was the interagency operation located at 
the FBI. It was created in 1998. It was the focal point for the 
Government's efforts to warn of, and respond to, cyber attacks, 
and served as the national critical infrastructure, threat 
assessment, warning, vulnerability, and law enforcement 
investigation, and response entity. To my knowledge, they knew 
about it. The FBI knew about it. The DCIS were aware of it. 
International authorities--appropriate international 
authorities were aware of it. You know, and so, there was no--
no limitation placed on any member of my staff, in terms of 
communication to any person about--and these communications 
were taking place not at my direction, but as a matter of 
normal course in the exercise of duties of staff members in our 
office.
    Senator Nelson. Chairman Miller?
    Representative Miller. Thank you. I just have a few more 
questions.
    Mr. Cobb, the finding of the PCIE was based predominantly 
on testimony and evidence given by employees of your office. 
And you have said that you are now reluctant to talk to your 
employees, that they twist your words, you think that they said 
unfavorable things about you because you came in and found an 
office that did not meet your standards, and you whipped them 
into shape, and you insisted that they improve, and that was 
why they resented you. You know, you do sound somewhat like 
Humphrey Bogart in The Caine Mutiny, when you describe your 
staff.
    But I have not heard an explanation for why you think your 
peers--why other Inspectors General have been so critical. In 
your testimony, there is a tone of grievance, and--with having 
given 11 hours of testimony, although, in hearing your 
testimony today, I think it might have been shorter if yes-or-
no answers--questions that contemplated a yes-or-no answer had 
gotten a yes-or-no answer. You obviously think you were treated 
unfairly. And it was an investigation conducted by the 
Inspector General of HUD, your peer. It was reviewed by other 
peers, other Inspectors General. Why do you think they treated 
you so badly? I cannot figure a motive for their treatment of 
you, if it is as bad as you believe is.
    Mr. Cobb. I can only say you request speculation on my 
part. I think that all I can say is, as regards the 
investigation, I've gone to great lengths in my statement and 
my attachment, Exhibit B, to reflect the falsities that are 
reflected in the Integrity Committee's report. And, you know, I 
think that you need to direct that question to them, on why 
they would conduct an investigation that would result in such 
falsities being published.
    I would go further, to say that you will find no work of 
the NASA Office of Inspector General that has those types of 
false statements included in it, in terms of the important work 
that we do, both on the investigation side and on the audit 
side, but particularly as regards administrative investigations 
of NASA employees or the addressing of whistleblower complaints 
of which we've received many. We go to great lengths to get our 
work right, and I can't say the same for what is reflected in 
the HUD OIG/Integrity Committee report.
    There's this notion that the NASA Office of Inspector 
General was the land of milk and honey until Inspector General 
Robert Cobb arrived. And let me suggest that, in this very 
difficult business, that IGs straddle barbed-wire fences that 
we heard about earlier, which doesn't sound particularly 
comfortable, but may be apropos--Bill Colvin who was an 
Inspector General at NASA, was forced out as a result of 
allegations made by staff. Roberta Gross--and this is--I'm not 
making any statement about Roberta Gross or Bill Colvin and 
their competency or ability to do the job, I'm just saying--
giving a little bit of insight into the NASA Office of 
Inspector General. Recently, there was a document from an--a 
year 2000 EEO case, which was 2 years before I came, and a 
footnote in that document--it's important to know that the 
complainant sought a class-action alleging that OIG employees 
over 40 years of age were being systematically discriminated 
against. The EEO counselor's report included statements from 
nine OIG employees who complained of discriminatory 
nonselections, and identified an additional 13 OIG employees 
who were interested in speaking with an EEO counselor regarding 
alleged discriminatory nonselections. That's 22 NASA OIG 
employees in the year 2000 concerned about discriminatory 
nonselections.
    And I don't suggest--present that for the truth of the 
matter, only that--again, that--and Roberta Gross had Integrity 
Committee complaints filed against her, as well. This is part 
of the territory with respect to being an Inspector General.
    What I stand for, whether you're talking about search 
warrants or you're talking about the work of the NASA Office of 
Inspector General, is that we get the work right based on the 
law and the facts. And there has not been any--and I credit, 
not myself, but the NASA OIG staff, for getting the work 
right--there has not been any suggestion that any work that 
we--that we've worked on, we didn't get right.
    Senator Nelson. OK. I want to thank you for your 
indulgence. I want to thank you for the time. It's with a heavy 
heart that we leave this hearing, after 24 complaints, 79 
allegations, a number of career law enforcement officials at 
HUD Office of Inspector General, and seven members of the 
Integrity Committee, and you have asserted that those people 
are all wrong and that you're all right.
    And so, I go back to the question that Senator Grassley 
asked us to propound, ``What are the honest answers to the 
questions that lead us to a decision about what's in the best 
interest of NASA, America's space program, and the American 
people?'' And that's a judgment that you're going to have to 
live with.
    The meeting is adjourned.
    [Whereupon, at 5:31 p.m., the hearing was adjourned.]

                            A P P E N D I X

              Prepared Statement of Hon. Chuck Grassley, 
                         U.S. Senator from Iowa

    Good afternoon. I would like to begin by thanking Senator Nelson 
and Congressman Miller for calling this important joint hearing 
concerning the investigation of the NASA Inspector General by the 
President's Council on Integrity and Efficiency (PCIE). I regret that I 
am unable to attend your hearing in person but would appreciate having 
this statement placed into the record.
    I have been a long-time advocate of government oversight. I am also 
not a newcomer to overseeing the overseers. For example, I conducted 
inquiries into the operation of the Offices of the Inspector General at 
the Department of Health and Human Services and the Postal Service.
    As Ranking Member of the Committee on Finance, I consider 
government oversight to be a critical role of Congress. This role is 
especially crucial when it relates to an office such as the NASA 
Inspector General, an office which plays an important role in 
protecting lives, guaranteeing the integrity of vital government 
assets, and defending a budget of over $13 billion against waste, 
fraud, and abuse. The dedicated staff of the NASA Inspector General 
office is one of the last lines of defense for the NASA mission, and I 
applaud the work of the Senate Committee on Commerce, Science, and 
Transportation, as well as House Committee on Science and Technology, 
for their oversight work on this important matter.
    Over a period of 14 months, the PCIE's Integrity Committee received 
eighteen complaints against NASA Inspector General Robert ``Moose'' 
Cobb. Then, in January 2006, the Integrity Committee referred the 
matter to the Office of the Inspector General in the Department of 
Housing and Urban Development (HUD). I also had a member of the HUD 
OIG's staff visit the Finance Committee staff to identify a number of 
concerns regarding the operation of the NASA OIG office.
    The HUD OIG office conducted an extensive, independent 
investigation into the complaints lodged against Mr. Cobb, including 79 
separate allegations. During the six-month investigation, staff in the 
HUD Inspector General office reviewed 26,259 e-mails, conducted 121 
interviews, and cataloged 199 exhibits relating to the allegations. 
They interviewed 50 NASA employees and former employees. In all, the 
HUD investigators prepared a 289-page report substantiating allegations 
that Mr. Cobb abused his authority as Inspector General, and that he 
had created at least the appearance of a lack of independence between 
the Office of Inspector General and NASA management.
    Created by the Inspector General Act of 1978, IG offices were 
intended to impartially investigate and audit programs and operations 
within their respective agencies to promote efficiency, and prevent 
waste, fraud, and abuse.
    I'm alarmed by the evidence uncovered by the PCIE investigation. In 
fact, it appears that Mr. Cobb did not act in a manner consistent with 
the spirit and intent of that statute. According to the evidence, he 
has used this important position to interfere in the activities 
conducted by the investigative and audit divisions within his office 
for reasons that appear, at the very least, improper. In fact, Mr. Cobb 
repeatedly told employees that one of his priorities was to avoid 
embarrassing NASA. Evidence also indicates that he shied away from 
bringing investigations against high-ranking NASA officials.
    From the evidence presented to me, Mr. Cobb hasn't simply tried to 
micromanage the activities of NASA IG staff; he has used the power of 
his office to insulate the agency from critical investigations and 
audits.
    One such investigation concerned the theft of approximately $1.9 
billion-worth of International Traffic in Arms Regulations data. This 
information, controlled by NASA, was illegally accessed by hackers and 
transmitted to locations in France. According to the PCIE 
investigation, Mr. Cobb dismissed worries over the theft of this data 
because, in his view, the data wasn't ``stolen,'' since NASA was still 
technically in possession of the accessed information. That kind of 
thinking doesn't make sense to this Senator. That sort of hair-
splitting suggests that Mr. Cobb would rather walk a mile to avoid 
embarrassing NASA than walk across the street to let the American 
people know what really happened.
    In another instance substantiated by the PCIE report, Cobb 
interfered with law enforcement activities initiated by his office. 
Specifically, he questioned the sufficiency of a search warrant sought 
by the Department of Justice and issued by a Federal magistrate. In 
fact, Mr. Cobb went so far as to say that the Federal judge had been 
``duped'' into signing the warrant. Although the search eventually took 
place, Mr. Cobb's interference caused the search to be delayed by more 
than a week in a matter that is characterized as ``very time 
sensitive.'' It also may have given the targets of the search a chance 
to receive advanced warning, which could create the opportunity to 
destroy evidence before it is seized.
    Another troubling allegation substantiated by the PCIE 
investigation concerned Mr. Cobb's discussion of potential audits and 
investigative findings with former NASA Administrator Sean O'Keefe and 
former NASA General Counsel Paul Pastorek. This included e-mail 
warnings on upcoming investigations. Mr. Cobb also sought the advice of 
NASA management about the timing and issuance of OIG findings. Those 
simply are not the sort of communications an independent inspector 
general ought to be having with officials at the agency he oversees.
    Time and time again, it appears that Mr. Cobb sought to protect 
himself and NASA's management at the expense of maintaining the 
integrity of the NASA Office of the Inspector General.
    The allegations against Mr. Cobb and the subsequent findings of the 
Integrity Committee all point to deep and systemic problems with 
Inspector General Cobb and how he managed his office. These problems in 
turn call into question his ability to investigate allegations no 
matter where they lead, whom they implicate, or what they uncover. 
Whether it embarrasses NASA or not, the Inspector General needs to do 
his job. Moreover, the deference demonstrated by Mr. Cobb to NASA 
management raises questions about how he views his own duties to be 
ethical, independent, and to serve with integrity.
    To paraphrase a quote attributed to Abraham Lincoln, if you want to 
test a man's character, give him power. By this test, Inspector General 
Cobb has not fared well.
    The evidence against Mr. Cobb goes beyond the appearance of a lack 
of independence between the Office of Inspector General and NASA 
management. The PCIE investigation also substantiated allegations that 
Mr. Cobb abused Inspector General staff members, creating an atmosphere 
of hostility and fear. According to the PCIE report, Mr. Cobb abused 
his staff with vile and degrading language. As a result of his 
management style, the bulk of his experienced audit staff left the 
administration. By his own admission he cannot, and will not, 
communicate with a significant portion of his staff because he does not 
trust them and they do not trust him. Nearly a quarter of the staff was 
interviewed in the independent investigation, and all of them had 
negative things to say about Mr. Cobb. In fact, his management style 
has proven so abrasive that the NASA Administrator hired an ``executive 
coach'' to help Mr. Cobb learn how to better manage his staff, and has 
had to send him to a management ``charm'' school.
    Additional concerns have also come to light regarding the process 
followed by the President's Council on Integrity and Efficiency that I 
am compelled to address. NASA management was provided with a completely 
unredacted copy of the PCIE report. This copy identified NASA employees 
by name. Specifically, it identified to NASA management those employees 
who cooperated with the PCIE investigation; who bravely spoke out about 
Mr. Cobb and other problems plaguing NASA. This effectively painted a 
target on the backs of NASA employees who provided information to PCIE 
investigators and to Congress. This is unconscionable. If we don't give 
a certain amount of protection to whistleblowers, if we can't ensure 
anonymity to those who speak with investigators about government 
wrongdoing, how can we expect anyone to cooperate with these 
investigations in the future? For this reason, I am requesting the 
Government Accountability Office to review the President's Council on 
Integrity and Efficiency and its procedures and operations.
    It is clear to me that our ability to trust Mr. Cobb to effectively 
manage the Office of Inspector General and the vital functions that it 
seeks to carry out is in question. It seems that Mr. Cobb may care more 
about protecting NASA from embarrassment than he does about performing 
the critical functions of his office. An Inspector General must possess 
temperance, high ethical standards, and a firm understanding of the 
independent nature of that office. From the evidence presented, Mr. 
Cobb does not appear to possess these attributes.
    So, in conclusion, I have some questions that I would like to pose 
to Mr. Cobb. In answering them, I hope he honestly places the mission 
of his office ahead of his self-interest. Mr. Cobb, do you believe that 
an Inspector General can continue to serve if he has lost the 
confidence of his staff and of Congress? Do you believe an inspector 
general can continue to serve who has been found by an independent 
investigation to have abused his authority? Do you believe an inspector 
general can continue to serve if he is perceived as in the pockets of 
the people he is supposed to investigate? Do you believe an inspector 
general can continue to serve if he has acknowledged verbally abusing 
staff on numerous occasions? These would be my questions to Mr. Cobb. 
The honest answering of those questions should lead him to make a 
decision as to what is best for NASA and the American people. Thank you 
again for this opportunity.
                                 ______
                                 
   Prepared Statement of Hon. Kenneth M. Donohue, Inspector General, 
              Department of Housing and Urban Development

    Mr. Chairmen and Ranking Members, and Members of the Committees, I 
am Kenneth Donohue, Inspector General of the Department of Housing and 
Urban Development (HUD OIG) having been confirmed to this position on 
March 25, 2002. Prior to becoming Inspector General, I spent twenty-one 
years in the United States Secret Service. After my retirement from 
that organization, I spent 7 years at the Resolution Trust Corporation 
as Assistant Director for Investigations, uncovering fraud and abuse 
among directors of failed savings and loans institutions.
    The HUD OIG is one the original twelve Inspectors General 
authorized under the Inspector General Act of 1978. We are committed to 
our statutory mission of deterring and preventing fraud, waste and 
abuse and promoting the effectiveness and efficiency of government 
operations. While organizationally located within the Department, the 
OIG operates independently with separate budget authority. This 
independence allows for clear and objective reporting to the Secretary 
and to the Congress.
    The HUD OIG conducts oversight on a Department that receives over 
$30 billion in annual appropriation for a myriad of programs including 
community development block grants, public housing, homeless and lead 
abatement, and nursing home and hospital mortgage insurance coverage. 
In addition to these areas, HUD also manages the Federal Housing 
Administration (FHA), a program that is the largest mortgage insurer in 
the world, providing coverage to over 34 million home mortgages and 
47,000 multifamily projects since 1934. In the last fiscal year, FHA 
had an outstanding insurance portfolio of about $395 billion. HUD also 
manages securitizations worth billions of dollars in the Ginnie Mae 
program as well as maintains oversight of the regulatory agency that 
oversees the Fannie Mae and Freddie Mac programs. As you can see, we 
have a busy portfolio that requires us to maintain a significant pool 
of talented Federal criminal investigators and auditors on staff. Our 
semi-annual reports reflect our audit and investigative work as well as 
impressive criminal statistics and significant taxpayer funds put to 
better use.
    On March 21, 1996, President William J. Clinton signed Executive 
Order 12993 that outlines procedures to be taken regarding 
administrative allegations against Inspectors General. This process is 
intended to mitigate the concern that Inspectors General, as designated 
by the Inspector General Act, are independent but can still be held 
accountable in the event that allegations of misconduct are valid. This 
process has been in place for years and has proven to be valuable in 
terms of maintaining credibility and integrity within the OIG 
community. The process is understood and accepted by the Inspectors 
General when they consent to their nomination and are confirmed by the 
U.S. Senate.
    In early 2006, the Integrity Committee (IC) of the President's 
Council on Integrity and Efficiency (PCIE), a council comprised of 
Presidentially-appointed Inspectors General, asked the HUD OIG to 
investigate allegations of administrative misconduct it had received 
regarding the Inspector General of the National Aeronautics and Space 
Administration (NASA). The Integrity Committee Executive Order charter 
states that it shall first determine if there is a substantial 
likelihood that the allegations presented to the Committee disclosed a 
violation of any law, rule, or regulation, or gross mismanagement, 
gross waste of funds, or abuse of authority. If the IC makes this 
preliminary determination, and further concludes that allegations 
cannot be referred to any agency with appropriate jurisdiction, it then 
refers the matter to the Chair who is to cause a thorough and timely 
investigation of allegations.
    The January 6, 2006 letter I received from the IC Chair (the 
Federal Bureau of Investigations' Assistant Director, Criminal 
Investigative Division) stated, in part, that ``at a December 15, 2005 
meeting, this matter was discussed and opined that due to the number of 
credible allegations, with a pattern of possible misconduct and/or 
wrongdoings by the NASA IG, the IC determined that an administrative 
investigation of the allegations is appropriate.'' It further stated, 
``It is requested that the investigators you appoint conduct a thorough 
investigation to determine whether the alleged misconduct did, in fact, 
occur and develop a comprehensive factual report concerning the 
allegations and any additional issues which may be uncovered during the 
investigation. That report will serve as the basis for further action 
to be taken by the IC.''
    In a prior meeting, your committee staff asked that I speak to the 
process of what we went through regarding the development and 
implementation of this investigation. The PCIE IC forwarded 22 
complaints that generated approximately 100 separate allegations. A 
team of HUD OIG Special Agents and Forensic Auditors conducted the 
investigation and completed the report. Each of the complainants was 
interviewed and more than 120 interviews were completed. Documents were 
obtained and analyzed, over 25,000 electronic mail messages were 
reviewed, and 199 exhibits were catalogued. The NASA IG was interviewed 
under oath and the interview was reported by a certified court 
reporter. The most significant of the allegations were grouped into the 
following general categories: lack of independence and impartiality; 
obstruction of justice; misconduct; safety issues; audit issues; and 
hostile/untenable work environment. The final Report of Investigation 
contained three sections; the first consisted of audit issues, the 
second of investigation issues, and the third of management issues.
    We had previously successfully conducted another investigation at 
the request of the IC of an agency of similar size to our organization. 
It had involved multiple allegations, some of a complicated nature, 
which had also been forwarded by external entities including 
Congressional chairman. I was asked to conduct this investigation of 
the NASA IG because of our prior experience and of our position as an 
objective outsider. I did not seek this task but did not take the 
request lightly as I feel the process must be respected if the 
community is to maintain respectable credibility with Congress and the 
American citizens we serve. Though I intimately knew how cumbersome 
such an investigation could be, I accepted it at the urging of the then 
IC Chair despite a confluence of events around that time that made it 
even more arduous.
    Shortly before this assignment, devastating hurricanes hit the Gulf 
Coast region and HUD became the primary agency for redevelopment 
activities. $17 billion in new HUD funding needed to be immediately 
overseen by the HUD OIG despite our having lost our office in New 
Orleans. This was in addition to the already underway, and also labor-
intensive, emergency-related task that we had been given regarding 
emergency appropriations for HUD redevelopment and revitalization funds 
for lower Manhattan following the attack of September 11th. 
Unfortunately, we had also lost our office at World Trade Center 7 on 
that day.
    Despite our previous experience performing IC work, this 
investigation, nevertheless, has taken a big toll on parts of my staff 
in terms of manpower and resources. At the time the HUD OIG was tasked 
in the early part of 2006, a Shuttle launch had been delayed for over 
two and a half years due to safety concerns in the aftermath of the 
explosion of the Shuttle Columbia and only one previous mission, a 
return to flight in the summer of 2005, had taken place. The next 
Shuttle launch was set for the summer of 2006. Though not in the 
initial IC direction to us, I felt strongly that, because there had 
been allegations relating to safety, I needed to complete our 
investigation and draft our Report of Investigation in time for this 
scheduled launch.
    Indeed, we kept the FBI cognizant of developments for this very 
reason (the Integrity Committee staff consists of detailees from the 
FBI owing to the fact that the IC Chair is the FBI Assistant Director, 
Criminal Investigative Division and these agents perform much of the 
duties associated with the IC and its process requirements) and I met 
with Senator Nelson's staff to let them know if any critical safety 
issues emerged. To keep this timetable and to address all of the 
numerous, and sometimes lengthy and complex, allegations caused a 
hardship on my staff. We have, however, as a result of our dealings 
with the Oklahoma City bombings in which we lost staff, the September 
11 attack, and the hurricanes become somewhat condition-hardened. On 
August 30, 2006, we turned over our Report of Investigation (ROI) to 
the Integrity Committee and briefed its members a short time later. Our 
time and resource commitment has not ended due to the extended 
deliberation of the IC into 2007 and to the continuing interest of 
entities such as the Congress and media. Accordingly, we have recently 
submitted a new request for a modest reimbursement of our expended 
funds.
    I am not a member of the Integrity Committee nor was I privy to its 
deliberations once we completed our investigation and briefed the IC. I 
placed great weight on our having been chosen as outsiders to be 
objective and on our designated role as ``finder of the facts.'' The 
IC's determinations, and the underlying process of how it arrived at 
its findings, were unknown to me. Only recently was I made aware of its 
conclusions but I have not had access to its deliberative activities.
    When I met with your staff previous to this hearing, I was asked 
specific questions relating to various aspects of an Inspector General. 
Being an Inspector General is one of the most difficult jobs in the 
Federal Government and remaining independent and objective is the 
benchmark of success. As Senator Grassley once characterized the 
position, ``you're like a skunk at a picnic.'' Or as another IG once 
testified, ``it is like straddling a barbed wire fence.'' I know that I 
am constantly striving to achieve a balance of what I believe it is to 
be a good public servant in this arena. It can be a challenging job to 
supervise a staff of disparate disciplines and to interact internally 
and externally with groups or individuals who do not always want to 
hear your sometimes controversial or painful findings. I do know, 
however, that I believe in the words that the Secretary that I work 
under has stated to me numerous times. He has said ``I know that we are 
going to definitely disagree, many times and on many different things, 
but we will always agree to never be disagreeable.''
    As I stated to your staff during their questioning, it is crucial 
that the department or agency must respect the independence of the OIG, 
must understand why this unusual organization needs to be insulated 
from political pressures, and will, hopefully, come to realization that 
a strong OIG will ultimately benefit the effectiveness of its 
operations. Unfortunately, this epiphany does not always manifest. When 
it does by those who run America's Federal programs, however, it works 
to the betterment of government efficiency and, ultimately, to the 
benefit of the American taxpayer and the recipients of the programs it 
manages.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Hon. Robert W. Cobb

    All answers are to the best of my recollection, after review of 
pertinent information.
    Question 1. Referring to the search warrant issued December 8, 
2004, related to an investigation at the Stennis Space Center: Did you 
communicate, or cause any other person to communicate, the existence of 
the search warrant to any persons associated with the target of the 
search warrant?
    Answer. No.

    Question 2. Related to the same matter as Question 1: Please list 
all persons outside the NASA Office of Inspector General (OIG) with 
whom you discussed the search warrant between its issuance and its 
execution. Please describe the nature and content of any such 
communications.
    Answer. On December 9, 2004, I believe I was conferenced into a 
conversation with Jay Golden, an Assistant United States Attorney 
(AUSA) regarding a question NASA OIG counsel had raised with him about 
whether the search warrant was supported by probable cause. In the 
context of my being the official ultimately accountable for the 
activities of the NASA OIG staff, I had raised a question as to whether 
the allegations, if true, were of conduct constituting a crime and, 
therefore, whether there was probable cause underpinning a warrant to 
be served by NASA OIG criminal investigators; the Counsel to the 
Inspector General believed that the affidavit in support of the warrant 
did not support a finding of probable cause, thereby inherently raising 
a question of legality of the warrant under the Fourth Amendment of the 
United States Constitution. The AUSA wished to proceed with the service 
of the warrant notwithstanding the question that had been raised. As 
the warrant was the AUSA's and the issuing Federal magistrate's 
responsibility and I believed the OIG had fulfilled its responsibility 
by raising the issue, I did not object to his decision to proceed with 
the warrant's execution. The warrant was served on the day planned.

    Question 3. Referring to the search warrant issued June 30, 2005, 
related to an investigation at the Marshall Space Flight Center: Did 
you communicate, or cause any other person to communicate, the 
existence of the search warrant to any persons associated with the 
target of the search warrant?
    Answer. No.

    Question 4. Related to the same matter as Question 3: Please list 
all persons outside the NASA OIG with whom you discussed the search 
warrant between its issuance and its execution. Please describe the 
nature and content of any such communications.
    Answer. I had no such discussions.

    Question 5. Please describe the history and nature of your 
relationship with the Deputy Director of the Office of Management and 
Budget, Clay Johnson.
    Answer. I would characterize my relationship with Mr. Johnson as 
professional.
    From January 2001 to April 2002, I was an Associate Counsel and 
Special Assistant to the President as a member of the Office of the 
Counsel to the President. I reported through the Deputy Counsel to the 
Counsel. Mr. Johnson, as head of the Office of Presidential Personnel, 
was an Assistant to the President, two levels higher than I on the 
organizational chart and at a level equivalent to the Counsel to the 
President, who was also an Assistant to the President. I was 
responsible for ethics issues and frequently dealt with staff of the 
Office of Presidential Personnel in connection with the processing of 
Financial Disclosure Reports of persons under consideration for 
nomination and appointment to Executive Branch positions requiring 
confirmation by the U.S. Senate. The carrying out of this 
responsibility brought me into occasional contact with Mr. Johnson.
    I also was responsible for the review of Financial Disclosure 
Reports of commissioned officers in the White House, including Mr. 
Johnson, providing briefings on ethics issues and answering questions 
related to compliance with certain laws and regulations, such as the 
Standards of Ethical Conduct for Employees of the Executive Branch. 
These responsibilities brought me into contact with most White House 
Office employees, including Mr. Johnson. Any contacts with him in 
carrying out these responsibilities were of a routine nature.
    During the summer of 2002, I had occasion to play in a Saturday 
golf game with Mr. Johnson which was arranged by the then NASA 
Administrator.
    After Mr. Johnson became the Deputy Director of the Office of 
Management and Budget, I came into contact with Mr. Johnson in his 
capacity as the Chairman of the PCIE. My contact with Mr. Johnson was 
generally limited to seeing and speaking to him occasionally at PCIE 
meetings.

    Question 6. Please describe any communications between you and Clay 
Johnson between January 6, 2006, and the present time that related in 
any way to the NASA OIG. Please describe the date and nature of the 
communication, who initiated it, and the content.
    Answer. I do not have records of contacts with Mr. Johnson, other 
than as disclosed below. My contacts with him during the period of the 
investigation by the Integrity Committee were initiated by me and were 
intended to keep Mr. Johnson informed of the actions I was taking in 
response to the investigation so that he would not be surprised. I 
believe I contacted Mr. Johnson prior to my sending my July 17, 2006, 
letters to the Director of the FBI and to the Integrity Committee to 
advise him of my plans to send those letters. Likewise, I may have 
called him prior to my sending my letters of August 23, 2006, and 
September 7, 2006, and I believe I called him in November of 2006 prior 
to sending my November 17, 2006, letter to the Director of the FBI 
about leaks of confidential information from the investigation to the 
Orlando Sentinel. In my communications to Mr. Johnson, I alerted him to 
the content of my letters (all of these letters were copied to Mr. 
Johnson, and are attached to my June 7 testimony as Exhibits) 
emphasizing that I had never received any honest notice of what I was 
accused of and that I was under an impression that I would not receive 
a copy of any ``findings'' or have an opportunity to respond to them 
and that the process defined in the governing Executive Order, 12993, 
was not being followed. In two instances, when I copied Mr. Johnson 
with my correspondence to the Integrity Committee, I wrote him notes of 
transmittal stating as follows:

8/24/06

Dear Clay:
    Enclosed are my August 23 letter to Burros and my letter to Mueller 
of July 17. I believe the IC process is broken.
    Aside from my letters, which are primarily focused on process, the 
500 page transcript of my testimony fully demonstrates the offensive 
nature of this.
    I understand the process, such as it is, will play out and patience 
is required.
            Sincerely,
                                                              Moose

9/13/06

Dear Clay:
    This is my submission In response to Burrus's letter of August 30. 
Note the first item on Exhibit A. The IC is broken and needs to be 
fixed. I will share some ideas on the subject after the wasteful and 
abusive investigation I have been subjected to comes to an end.
            Sincerely,
                                                              Moose

    On those occasions I spoke to Mr. Johnson, his consistent response 
was that there is a process in place and it would have to play out. I 
believe, during a conversation in the fall, presumably in connection 
with my contacting him about the reprehensible leak of information from 
the investigation and my intent to report it, Mr. Johnson conceded that 
there were problems with Integrity Committee processes and that he 
expected that there would be some changes to Integrity Committee 
procedures made.
    In January of 2007, I was informed by the Integrity Committee that 
it had forwarded a report to the Chair of the PCIE, Mr. Johnson. I 
called Mr. Johnson to see if I could obtain a copy of the Integrity 
Committee report. Mr. Johnson called me back and informed me that he 
would not be providing the report to me and that I would have to obtain 
it from the Integrity Committee. The Integrity Committee refused to 
provide me a copy of that report (which I subsequently obtained only 
after publication by a Congressional subcommittee on its website). In 
my conversation with Mr. Johnson about the Integrity Committee report, 
he read me one paragraph from the Integrity Committee's letter which 
summarized the conclusion of the Integrity Committee, he told me that 
he did not believe it was a White House matter, and he told me that he 
intended to send the report to the NASA Administrator for review. Mr. 
Johnson did not provide me with additional detail on the content of the 
Integrity Committee report. Subsequently, I copied Mr. Johnson on an e-
mail request to Mr. Burrus relating to a commitment Mr. Burrus made to 
provide me with the HUD OIG investigative report responsive to a FOIA 
request that I had filed several months earlier. (As I was never 
provided, during the course of the Integrity Committee process, any 
proposed or final findings or conclusions of the HUD OIG or the 
Integrity Committee, I was deprived of an opportunity to respond to the 
findings and conclusions or the factual and legal basis for them. As 
subsequently demonstrated in my testimony on June 7, the conclusions of 
the Integrity Committee were without legal and factual basis.)
    I sent Mr. Johnson by e-mail a copy of my prepared testimony for 
the June 7 hearing, possibly having called him prior to sending it to 
see if he wanted a copy of it. I do not recall any subsequent 
conversations with Mr. Johnson about the investigation. I did see him 
once socially (which was not prearranged) in the summer of 2007 and 
recall discussing in most general terms issues relating to IG reform 
legislation. I have communicated to him my recommendations for 
improvement to the Integrity Committee in the context of commenting on 
proposed legislation relating to Inspectors General. The e-mail 
exchange relating to this is attached, along with the attachment to the 
e-mail.

    Question 7. Have you at any time discouraged an employee of the 
NASA OIG from pursuing a criminal investigation of former NASA 
[employee] (name deleted).
    Answer. No.
    In the context of my carrying out my supervisory responsibilities 
and as the official ultimately accountable for the NASA OIG's work, I 
try to keep informed as to the status of major or sensitive 
investigative activity and to ensure that investigative activity is 
properly resourced and focused. In various conversations with Office of 
Investigations personnel, I inquired, as I frequently do with respect 
to significant matters pending in the office, as to what we were 
finding through investigation and to what extent we believed that 
possible criminal activity was involved.
    This case was no exception. In 2002, with respect to allegations 
concerning (name deleted) I raised a question of whether the 
allegations or facts known to the OIG, if true, constituted a crime. 
From the written summary provided to me by the Office of 
Investigations, the acts allegedly taken by (name deleted) occurred 
prior to his being a Federal employee, and it appeared that, as a legal 
matter, the theory of conflict of interest that was being investigated 
was a legal impossibility. The conclusion of the Office of 
Investigations, in coordination with the Department of Justice Public 
Integrity Section, was that there was no crime or other issue 
appropriate for further investigation and the investigation was closed.
    With regard to a subsequent matter, I referred a question about 
(name deleted)'s activities to the Office of Investigations. Based on 
this and, I believe, other information that was received by the Office 
of Investigations, an investigation was opened. As is the case in all 
matters of alleged crime, the NASA OIG coordinated the allegations with 
a United States Attorney's office and subsequently other components of 
the Department of Justice. I cannot comment further given the legal 
status of this matter, except to say that I did not take action to stop 
or discourage a criminal investigation. Further details can be provided 
by our Assistant Inspector General for Investigations.
                                 ______
                                 
              National Aeronautics and Space Administration
                            Office of the Inspector General
                                    Washington, DC, August 15, 2003
Hon. Sean O'Keefe,
Administrator,
National Aeronautics and Space Administration,
Washington, DC.

Subject: Observations on the Independence of the Columbia Accident 
                                                Investigation Board

Dear Mr. O'Keefe:

    Here are some observations I have about the Columbia Accident 
Investigation Board (CAIB), particularly as regards CAIB independence. 
These observations result from my role as an observer to CAIB 
activities, a role which I sought and you effected by letter dated 
February 2, 2003.
    Although NASA policy and the CAIB's original charter contained 
provisions that could have hindered an independent investigation, based 
on my observations, I believe the CAIB, under Admiral Harold Gehman's 
leadership, is and has been conducting its investigation independently 
and without undue influence from NASA. I say this while recognizing the 
reliance that any investigative body would have on obtaining 
information and analysis from NASA. I also note the time-sensitive 
nature of the Board's challenge in light of the status of the 
International Space Station.
    The CAIB has been diligently focused on determining the cause(s) of 
the accident and the remedies needed to prevent future mishaps. The 
CAIB, despite the breadth of its inquiry and expertise, has not been 
chartered to conduct a public policy debate on the merits of human 
space flight or to examine whether, from a public policy standpoint, 
return to flight best serves the public interest. However, to the 
extent the Board distinguishes between return-to-flight and long-term 
recommendations, it will facilitate NASA's return to flight. Overall, 
it is my expectation that CAIB recommendations will help shape any 
debate on the public policy issues.
    NASA and the public will be best served by the issuance of an 
accurate, constructive, and credible report by the CAIB. One possible 
impediment to the Board's ability to issue such a report would be a 
compromise of the CAIB's independence. Of course, ``independence'' is 
subjective. The CAIB has constituencies including NASA, Congress, the 
Administration, and the public. These constituencies and the media 
provide information, advice, requests, and expectations. The Board has 
been in contact with these constituencies and has sought to be 
responsive to their needs.
    My conclusion that the CAIB is acting independently and without 
undue influence is based on my view that the Board can address the 
challenging questions associated with the loss of the Space Shuttle 
Columbia in good faith and without material impediments from 
organizational or personal conflicts of interest. I have primarily 
focused on the question of CAIB independence from NASA--the 
organization in the best position to interfere in the CAIB's pursuit of 
its objectives and with the most at stake in terms of the Board's 
report and recommendations.
Appointment of the CAIB
    On February 1, 2003, at approximately 9 a.m., mission control at 
Johnson Space Center lost communication with Columbia during re-entry 
into Earth's atmosphere. At 9:15 a.m., NASA declared a mishap after 
determining that Columbia had experienced a critical failure in the 
atmosphere over eastern Texas. At 9:16 a.m., the Associate 
Administrator for Space Flight initiated the NASA Contingency Action 
Plan, a document that delineates the pre-planned contingency response 
to a space flight operations mishap. Within 24 hours of the Columbia 
accident, NASA had formally activated the CAIB and published its 
charter.
Independence of CAIB Questioned
    The initial implementation of the CAIB was not without its 
difficulties. During the fast few weeks after the Columbia accident, 
Members of Congress and the news media expressed concerns that the 
Board would operate at the direction of the NASA Administrator and that 
NASA's influence would prevent the CAIB from conducting an independent 
and objective investigation. CAIB members themselves expressed concerns 
about taking direction from the NASA Administrator.
Revisions to the CAIB Charter
    In connection with the issues regarding the CAIB's independence, I 
recommended that the Chairman consider four modifications to the 
Board's charter. These revisions addressed membership and staffing, 
direct supervision of the CAIB by the NASA Administrator, access to 
records, and review of NASA's management and fiscal environment 
relating to Shuttle crew safety. In a separate letter to the CAIB, I 
advised the Chairman that he should take steps to ensure its 
independence in connection with the participation of certain senior-
level NASA executives on the Board. (See Enclosures 1 and 2 for 
February 14, 2003, memoranda to the CAIB.) The CAIB was already 
contemplating independence issues, and it sought changes to the charter 
and took other actions to address these issues. NASA management was 
supportive of changes to the CAIB charter, which was revised several 
times.
    As a result of one of the charter revisions, the CAIB was no longer 
required to follow the NASA mishap policy. This change provided the 
Board the ability to alter the organization and composition of its 
membership. For example, the change to the charter that permitted the 
CAIB to determine its own policies gave it the flexibility to make 
changes that would eliminate the perception of conflicts of interest in 
Board proceedings. Specifically, the Chairman replaced an ex officio 
member of the Board who was a NASA senior official whose NASA duties 
would likely fall under the broad scope of the CAIB's review. Another 
NASA senior official, while nominally an ex officio member of the CAIB 
in an administrative capacity, returned to his NASA duties with very 
little association with the Board after mid-March. While the officials 
had proven invaluable in helping establish the CAIB, the need for their 
services lessened as the Board became fully staffed and supported.
    Ultimately, the CAIB Chairman added four new members with expertise 
in aeronautics, astronautics, physics, space science, and space policy. 
The changes to the charter, composition, and manner of operations were 
intended, in part, to address questions about CAIB independence.
Relationships Between NASA and Individual Board Members
    In my view, the CAIB has been composed and operated in a manner 
that strikes an appropriate balance between those with limited or no 
prior dealings with NASA and those with familiarity with the Agency. 
The military members of the Board and the FAA employee have had, for 
the most part, little or no association with NASA beyond participating 
in mishap activities. Their collective expertise lies primarily in 
safety and accident investigations. In contrast, other Board members 
have had greater prior exposure to NASA operations. For example, based 
on publicly available information, seven of the thirteen CAIB members 
worked as NASA contractors or received NASA grants in the past. Two of 
these seven members have served on the NASA Advisory Council, and two 
are former NASA employees (one worked on the Gemini and Apollo programs 
in the 1960s, and the other is a former astronaut and member of the 
Rogers Commission, which investigated the Challenger accident). Another 
CAIB member was a White House Fellow at NASA and worked as the NASA 
administrator's executive assistant and White House liaison at the time 
of the Challenger accident. Also, one CAIB member is a full-time NASA 
employee. The breadth of experience of CAIB members has enabled the 
Board to engage in a comprehensive and independent examination of the 
Shuttle disaster.
    The CAIB was criticized on the basis of independence because those 
persons who were added after the original composition of the Board were 
placed on the NASA payroll. Critics presumed that anyone receiving a 
paycheck from NASA would somehow be compromised. Without any exercise 
of supervision by NASA over these persons, there is no merit to a claim 
that NASA controls the actions of these persons or that they might be 
beholden to NASA because of the salaries' source. In some respect, 
making these persons NASA employees reduced the opportunity for 
conflicts of interest. In becoming Federal employees, these individuals 
became subject to conflict of interest laws that otherwise would not 
have applied.
CAIB Disclosure to the Public
    To address the public's interest in the proceedings, the CAIB began 
holding press conferences and public hearings. However, public 
disclosure was complicated because the CAIB was conducting a safety 
investigation that extended a limited privilege to certain witnesses. 
Limited privilege protects witness statements from public disclosure. 
The theory behind a safety investigation is that an accident's cause(s) 
can be best determined in an atmosphere where admissions of mistakes 
and criticisms of superiors or programs are free from reprisal or 
retribution. As the objective of the CAIB is to identify the cause(s) 
of the accident rather than to place blame on particular individuals, 
the limited privilege procedure seems reasonably designed to assist in 
this regard. In my role as observer, I respected the principle of 
limited privilege and, therefore, was not privy to the testimonies of 
those witnesses to whom limited privilege was extended. It is 
noteworthy that the privilege in no way protects information suggesting 
criminal activity.
    As a result of the limited privilege protection, some information 
obtained by the CAIB will be withheld from public release. Pursuant to 
an arrangement with oversight committees, the CAIB is permitting 
inspection of the privileged testimony of witnesses by Congressional 
members and staff, subject to certain limitations. Heightened attention 
is warranted for proceedings that have not been entirely transparent. 
Congress, the Office of Inspector General, the media, and the public 
will generate additional scrutiny.
Office of Inspector General (OIG) Continuing Role in Columbia-Related 
        Matters
    The conclusions presented in this memorandum are based solely on my 
observations. (The conclusions are not the product of a formal audit 
conducted in accordance with generally accepted government auditing 
standards.)
    Future activities are planned by the OIG to review the CAB's 
activities and the Agency's resulting implementation of the Board's 
findings and recommendations. We are currently conducting an audit of 
CAIB financial and procurement management. The audit is examining 
whether the CAIB established controls to ensure that cost expenditures 
were reasonable, necessary, and accounted for and whether the Board 
established contract agreements in accordance with the Federal 
Acquisition Regulation. We will also monitor the Agency's plans for 
implementing the Board's recommendations, including return-to-flight 
activities, and consider all referrals the Board makes to the OIG. In 
addition, the OIG will review NASA's contingency plans in the event one 
or more of the three remaining orbiters is subject to catastrophic loss 
or is otherwise out of service.
    Because of the importance of its work to NASA, I sought to be an 
observer to the Board's activities and to make recommendations 
regarding CAIB organization on an ongoing basis rather than waiting 
until after a report is issued, when any recommendations I might have 
would be too late to be of any value. I also believed that proximity to 
CAIB activities would strengthen the ability of my office to follow up 
on CAIB-identified issues and to promote the efficiency and 
effectiveness of NASA.
    I appreciate the opportunity to have served as an observer to the 
CAIB, which has permitted me to coordinate OIG activities with those of 
the CAIB and to make these observations.
            Sincerely,
                                            Robert W. Cobb,
                                                 Inspector General.
Enclosures
cc:

Admiral Harold W. Gehman, USN (Ret.)
Chairman
Columbia Accident Investigation Board

Hon. Ted Stevens
Chairman
Senate Committee on Appropriations

Hon. Robert C. Byrd
Ranking Member
Senate Committee on Appropriations

Hon. Christopher Bond
Chairman
Senate Subcommittee on VA, HUD, and Independent Agencies

Hon. Barbara Mikulski
Ranking Member
Senate Subcommittee on VA, HUD, and Independent Agencies

Hon. John McCain
Chairman
Senate Committee on Commerce, Science, and Transportation

Hon. Ernest Hollings
Ranking Member
Senate Committee on Commerce, Science, and Transportation

Hon. Sam Brownback
Chairman
Senate Subcommittee on Science, Technology, and Space

Hon. John Breaux
Ranking Member
Senate Subcommittee on Science, Technology, and Space

Hon. Susan Collins
Chairwoman
Senate Committee on Government Affairs

Hon. Joseph Lieberman
Ranking Member
Senate Committee on Government Affairs

Hon. C.W. Bill Young
Chairman
House Committee on Appropriations

Hon. David R. Obey
Ranking Member
House Committee on Appropriations

Hon. James T. Walsh
Chairman
House Subcommittee on VA, HUD, and Independent Agencies

Hon. Alan Mollohan
Ranking Member
House Subcommittee on VA, HUD, and Independent Agencies

Hon. Tom Davis
Chairman
House Committee on Government Reform

Hon. Henry Waxman
Ranking Member
House Committee on Government Reform

Hon. Todd Russell Platts
Chairman
House Subcommittee on Government Efficiency and Financial Management

Hon. Edolphus Towns
Ranking Member
House Subcommittee on Government Efficiency and Financial Management

Hon. Adam H. Putnam
Chairman
House Subcommittee on Technology, Information Policy, Intergovernmental 
            Relations and the Census

Hon. William L. Clay, Jr.
Ranking Member
House Subcommittee on Technology, Information Policy, Intergovernmental 
            Relations and the Census

Hon. Sherwood Boehlert
Chairman
House Committee on Science

Hon. Ralph Hall
Ranking Member
House Committee on Science

Hon. Dana Rohrabacher
Chairman
House Subcommittee on Space and Aeronautics

Hon. Bart Gordon
Ranking Member
House Subcommittee on Space and Aeronautics
                                 ______
                                 
                              Enclosure 1
              National Aeronautics and Space Administration
                            Office of the Inspector General
                                  Washington, DC, February 14, 2003
Admiral Harold W. Gehman, USN (Ret.),
Chairman,
Columbia Accident Investigation Board,
Houston, TX.

Dear Admiral Gehman:

    At the February 12, 2003, Congressional hearing on the Columbia 
accident, members of NASA's oversight committees expressed concern that 
the membership of the Board and its charter could limit the Board's 
ability to carry out its duties with independence and objectivity. In 
response to the concern expressed at the hearing, the NASA 
Administrator amended the Board's charter to expand your flexibility 
and remove any inference of NASA oversight.
    In order to assist you and the Administrator in ensuring that the 
Board's activities are independent, here are some general ideas for 
your consideration. These could be worked into the guidelines section 
of the charter, any further amendment of the responsibilities listed in 
the charter, or in a letter summarizing your interpretation of the 
Board's responsibilities under the charter.

  <bullet> The Board will add members and use independent technical 
        expertise as necessary to reach independent conclusions and 
        recommendations.

  <bullet> The Board will not be subject to supervision by the 
        Administrator or any, employee of NASA. Neither the 
        Administrator nor any delegate of the Administrator will 
        prevent or prohibit the Board from initiating, carrying out or 
        completing any task regarding the investigation of the Columbia 
        accident.

  <bullet> The Board shall have access to all records, reports, audits, 
        reviews, documents, papers, recommendations, or other material 
        available to NASA programs and operations that are relevant to 
        the investigation of the Columbia accident.

  <bullet> In considering all causes of the accident, the Board will 
        review NASA budgeting and management to determine whether an 
        environment could have existed that did not maximize human 
        space flight safety.

    I am prepared to discuss these suggestions or any other matter as 
the Board deliberates how it can effectively accomplish its mission in 
a technically sound and independent manner.
            Sincerely,
                                            Robert W. Cobb,
                                                 Inspector General.
cc: NASA Administrator
                                 ______
                                 
                              Enclosure 2
              National Aeronautics and Space Administration
                            Office of the Inspector General
                                  Washington, DC, February 14, 2003
Admiral Harold W. Gehman, USN (Ret.),
Chairman,
Columbia Accident Investigation Board,
Houston, TX.

              Re: Involvement in Board Activities by NASA Employees

Dear Admiral Gehman:

    The Board will need to be extraordinarily sensitive to the issue of 
NASA employees' involvement in Board activities. There is tremendous 
value in the information and views that these employees provide. On the 
other hand, these persons may appear to some to have loyalties to NASA 
and NASA programs that could impair their objectivity.
    In particular, the Board's ex officio member (Bryan O'Connor) and 
executive secretary (Theron Bradley) are NASA's Associate Administrator 
for Safety and Mission Assurance and Chief Engineer, respectively. The 
Board will delve into NASA's safety and mission assurance and 
engineering programs. The Board should take steps to ensure 
independence in its evaluation of program management in these two 
areas. More, the Board must strive to prevent even the appearance of 
conflict of interest in these areas.
    In addition, Scott Hubbard is the Center Director at the Ames 
Research Center. While Mr. Hubbard does not appear to have significant 
programmatic responsibilities relevant to the investigation, his status 
as a senior NASA official establishes the appearance of an 
organizational conflict that the other members of the Board need to be 
mindful of in the conduct of Board activities.
    The Board has already taken some helpful steps:

        1. The breaking of the Board into subgroups has taken the 
        initial consideration of issues out of the boardroom and into 
        smaller groups that do not include the executive secretary or 
        the ex officio member.

        2. The Board in at least one instance has had certain NASA 
        employees step out of the room in connection with a briefing to 
        assure the free flow of information to the Board and to 
        minimize any appearance of conflicts of interest.

        3. The Board has sought and obtained amendments to the charter 
        to provide it greater independence from NASA.

    The Board should consider taking the following steps:

        1. When the Board collectively evaluates the program management 
        of engineering and of safety and mission assurance, it should 
        request that the program officials in these areas step out of 
        the boardroom--except where those officials are answering 
        questions about their programs posed to them by the Board.

        2. The Board should treat any information obtained by witnesses 
        from within the engineering and safety and mission assurance 
        programs that is critical of program organization or management 
        as being privileged from release to these program heads so that 
        there is no organizational disincentive for witnesses from 
        within those particular programs to provide information. 
        Witnesses in these areas should be advised of the Board's 
        policies in this regard and specifically asked if they want the 
        information they have provided to be shielded from these 
        program managers. NASA employees who are witnesses should be 
        told that they might seek protection from reprisal by calling 
        the Office of Inspector General, which is by statute obligated 
        to protect whistleblowers.

    I also note that since the revised charter indicates that the Board 
is subject to its own policies rather than those of NASA, there is no 
limit on the Board's ability to reorganize its support in such a way as 
to eliminate appearances of conflicts of interest that may arise by 
virtue of provisions in NASA's policies concerning mishap 
investigation.
    I hope this is of assistance to you.
            Sincerely,
                                            Robert W. Cobb,
                                                 Inspector General.
                                 ______
                                 
  Policy and Procedures for Exercising the Authority of the Integrity 
    Committee of the President's Council on Integrity and Efficiency
Preface
    In January 1995, the President's Council on Integrity and 
Efficiency (PCIE) and the Executive Council on Integrity and Efficiency 
(ECIE) established an Integrity Committee (IC), pursuant to authority 
granted by Executive Order (EO) 12805.
    In EO 12993, signed on March 21, 1996, the IC was formally 
recognized and specifically tasked by the President to receive, review, 
and refer for investigation, where appropriate, allegations of 
wrongdoing against an Inspector General (IG) or, in the limited 
circumstances defined in EO 12993, allegations against a staff member 
in an IG office (OIG). However, the authority granted to the IC by EO 
12993 does not encompass the statutory IGs of the Legislative Branch.
    EO 12993 directs the IC to ``establish the policies and procedures 
necessary to ensure consistency in conducting investigations and 
reporting activities under [the] order.'' This document seeks to 
accomplish that goal.
    The policy and procedures provide a framework for the investigative 
function of the IC. The IC must consider a wide variety of allegations 
of wrongdoing and analyze conflicting information during its 
deliberations. Such deliberations require discretionary determinations. 
The standards and requirements set out in this document provide the 
structure in which that discretion can be exercised. However, policy 
and procedures cannot be read to dictate determinative outcomes in any 
particular matter before the IC.
    The IC policy and procedures were developed under the guidance of 
its Chairperson and were considered and accepted by the full IC. Drafts 
of the policy and procedures were vetted with the membership of the 
PCIE and ECIE. The IC policy and procedures also have the concurrence 
of the Chairperson and Vice Chairpersons of the PCIE/ECIE.
    After conducting itself under these procedures for a period of 
time, the IC may determine that amendments are desired. In that event, 
the IC shall vote on any proposed amendment, which must be endorsed by 
its Chairperson. The IC win notify the PCIE/ECIE Chairperson and Vice 
Chairpersons of the proposed change. Any substantive changes will be 
vetted with the membership of the PCIE and ECIE. Unless the Chairperson 
or Vice Chairpersons voice disagreement within thirty days, the 
proposed amendment will become final.
    The IC remains dedicated to building and ensuring integrity in the 
IG community by fulfilling its responsibilities under EO 12993 and by 
leading discussions of, and ongoing education on, integrity issues.
Table of Contents
I. Statement of Policy
II. Receipt and Initial Screening of Allegations
        A. Receipt of Complaints

        B. Screening of Complaints by the Working Group

        C. Determinations by the Public Integrity Section

        D. Definitions
III. Integrity Committee Meetings
        A. Administrative Details

        B. Review of Allegations

        C. Notification to Complainants, Subjects, and Subjects' Agency 
        Heads of Integrity Committee Decisions

        D. Review and Transmittal of Investigative Reports

        E. Disposition of Agency Head Reports
IV. Policy Review
        A. The Integrity Committee Chairperson

        B. The Chairperson and Vice Chairpersons of the PCIE/ECIE
V. Maintenance of Integrity Committee Records
        A. The Central Records System

        B. Disclosure of Information under the Freedom of Information 
        Act

        C. Privacy Act Protection

        D. Physical Maintenance of Records
I. Statement of Policy
    The IC serves as an independent investigative mechanism for 
allegations of administrative misconduct brought against IGs and, under 
certain circumstances, members of their staffs, as authorized by EO 
12993.
    Allegations against an agency OIG staff member, that implicate that 
agency's IC are within the jurisdiction of the IG.
    Allegations against certain staff members must be referred to the 
IC when an IG, unable to refer them to another Executive Branch agency 
with investigative jurisdiction over the matter, determines that an 
internal investigation would lack objectivity, or would appear to lack 
objectivity.
    The IC receives allegations, reviews them, and, where necessary, 
refers them for investigation either to an agency with jurisdiction 
over the matter or to an investigative team composed of selected 
investigators supervised and controlled by the IC's Chairperson.
    The procedures which follow describe how the IC, in implementing EO 
12993, will ensure timeliness, fairness, and consistency in conducting, 
and reporting, investigations and other activities.
II. Receipt and Initial Screening of Allegations
A. Receipt of Complaints
    The IC receives complaints containing allegations from a variety of 
sources, among them private citizens and government officials. The IC 
will respond to all named complainants in writing, advising them that 
the allegations have been received. In the IC's reply, complainants 
will generally be advised that the IC concentrates its efforts on 
allegations of serious misconduct by an IG or an OIG staff member under 
the circumstances described in EO 12993. Complainants will also be 
advised that the IC will refer cases to other investigative bodies, 
close cases, or take other actions consistent with its discretionary 
powers under EO 12993. Complainants may contact the IC in writing to 
learn the status of a pending case; however, details of pending 
investigations will not be provided.
B. Screening of Complaints by the Working Group
    1. Initial Review. The working group of the IC will conduct a 
timely, initial review of the complaint to determine whether the 
allegations made are credible and not frivolous, and fall within the 
IC's jurisdiction under EO 12993. Based on that review, a course of 
action for every allegation will be recommended to the IC for 
consideration at the next scheduled IC meeting. The working group may 
conduct, or cause to be conducted, administrative inquiries to obtain 
additional information.

        (a) Not Within Jurisdiction of the IC. If an allegation of 
        misconduct does not fall within the jurisdiction of the IC and/
        or is frivolous or lacks credibility, the working group will 
        recommend to the IC that a letter be sent to the complainant 
        advising of that determination and that no further action will 
        be taken concerning the complaint.

        (b) Within Jurisdiction of the IC. If a credible, nonfrivolous 
        allegation of misconduct falls within the jurisdiction of the 
        IC, the working group will refer the complaint containing the 
        allegation to the Public Integrity Section of the Criminal 
        Division of the Department of Justice for a determination of 
        potential criminality.

    2. Assignment of Case File Number. A document containing 
allegations will be assigned a file number as a record of the IC for 
indexing purposes in the FBI Central Records System.
C. Determinations by the Public Integrity Section
    The Public Integrity Section will review each complaint referred by 
the working group of the IC to determine whether it presents 
information sufficient to warrant a criminal investigation. The working 
group will maintain the case file containing the complaint in a pending 
status until the conclusion of the Public Integrity Section's review. 
When a criminal investigation has been conducted, the IC Chairperson 
may request that the investigative authority provide, for IC review, a 
summary report of the results of the investigation as it relates to the 
jurisdiction of the IC. If during, or after, IC review of the matter, 
the IC Chairperson determines that additional information should be 
considered by the Public Integrity Section, the IC Chairperson will 
refer such information to the Public Integrity Section and maintain the 
allegation in a pending status.
D. Definitions
    ``Frivolous allegations'' means those allegations that would not 
constitute criminal violations or administrative misconduct, even if 
they prove to be true.
    ``Administrative misconduct'' means noncriminal misconduct, or 
misconduct that the Public Integrity Section declines to pursue on a 
criminal basis, that evidences a violation of any law, rule, or 
regulation; or gross mismanagement; gross waste of funds; or abuse of 
authority, in the exercise of official duties or while acting under 
color of office.
    ``Working group'' means agency staff associated with the 
Chairperson of the IC, who is the FBI's representative to the PCIE. All 
IC correspondence is handled by the working group.
    ``Agency head'' means the head of a department, agency, or Federal 
entity; or an IG who has referred allegations against a subordinate to 
the IC for investigation.
III. IC Meetings
A. Administrative Details
    1. Membership. The IC is composed of the following members: a 
Chairperson, who is the FBI official designated by the Director of the 
FBI to serve on the PCIE; the Special Counsel of the Office of Special 
Counsel; the Director of the Office of Government Ethics; and three, or 
more, IGs, representing both the PCIE and the ECIE, appointed by the 
PCIE/ECIE Chairperson. The Chief of the Public Integrity Section of the 
Department of Justice, or his designee, attends the meetings in an 
advisory capacity.
    2. Frequency of Meetings. The IC will meet at least once each 
quarter to review the status of all pending cases. More frequent 
meetings may be called at the discretion of the IC's chairperson. It is 
expected that an IC member will miss no more than two meetings a year.
    3. Location of Meetings. IC meetings will be held at a location 
agreed upon by the members, usually at an IC member's agency.
    4. Records of Meetings. A written agenda of each meeting, and 
decisions made pursuant to each agenda item, will be made and retained 
as a record of the IC.
B. Review of Allegations
    1. New Allegations. The working group will provide a report to the 
IC describing allegations of administrative misconduct. The report will 
also list any new allegations unrelated to the allegations determined 
by the Public Integrity Section to warrant criminal investigation. In 
handling an allegation of administrative misconduct, the IC must:

        (a) determine whether the allegation is within its 
        jurisdiction;

                Allegations that may be outside the IC's review 
                authority include general, nonspecific complaints about 
                the effectiveness of a particular IG. Those issues can 
                be referred to other officials, as appropriate.

        (b) determine whether further investigation is necessary;

                Some allegations received by the IC may not warrant 
                further investigation and, therefore, the IC may choose 
                to take no further investigative action. The IC 
                Chairperson will notify the complainant in writing of 
                the IC's decision.

        (c) determine whether there is an Executive Branch agency with 
        appropriate jurisdiction over the matter to conduct an 
        investigation; and

                For example, equal employment opportunity complaints 
                are referred to the Equal Employment Opportunity 
                Commission, while allegations of illegal political 
                activity, whistleblower retaliation, or prohibited 
                personnel practices are referred to the Office of 
                Special Counsel, or another agency as provided by law. 
                In accord with Section 4(b) of EO 12993, the IC will 
                request a summary of the findings from the 
                investigative authority to which complaints have been 
                referred.

        (d) determine how to handle investigations that do not fall 
        within the investigative jurisdiction of another Executive 
        Branch agency.

                EO 12993 allows the IC to request that the FBI conduct 
                such investigations, or that such investigations be 
                conducted by uninvolved OIGs under the control and 
                supervision of the IC Chairperson. Should an 
                investigation by such an OIG be required, the IC 
                Chairperson, with the assistance of the PCIE/ECIE 
                Chairperson if necessary, will request the assistance 
                of IGs whose personnel have the requisite expertise. 
                OIG investigators will be assigned to the IC with 
                funding for the investigation provided in accord with 
                EO 12993.

    2. Allegations Currently Under Investigation. The IC may review the 
status of any investigations currently under way and will request 
expeditious and appropriate action, where necessary.
    3. Allegations for Which an Investigation Report Has Been Issued. 
When the IG receives an investigative report, it must determine whether 
the report establishes any misconduct on the part of the subject of the 
investigation. If the report does not establish misconduct, the IC will 
close the matter and so notify the PCIE/ECIE Chairperson. The IC may 
also choose to forward such a report to the PCIE/ECIE Chairperson and 
suggest that the Chairperson share the report with the subject's agency 
head, and/or the subject, where appropriate (for example, where the 
allegation has become generally known and is now disproved or was 
initially referred to the IC by the agency head). However, if, in the 
IC's opinion, the report does establish misconduct or otherwise 
requires action, the IC shall refer the report to the PCIE/ECIE 
Chairperson with recommendations for appropriate action.
C. Notification to Complainants, Subjects, and Subjects' Agency Heads 
        of IC Decisions
    Notice of the IC's decisions to close, refer, or initiate 
investigations of allegations will be provided to the complainant, the 
subject, and the subject's agency head, when, and if, appropriate. Each 
may request in writing from the IC a general status update while the 
case is open. However, the IC will not provide details on pending 
investigations.
D. Review and Transmittal of Investigative Reports
    EO 12993 requires that the IC forward to the PCIE/ECIE Chairperson 
investigative reports with IC recommendations for further action if the 
results of the particular investigation warrant such recommendations. 
The PCIE/ECIE Chairperson will then work with appropriate offices based 
on the investigative findings and recommendations of the IC. The PCIE/
ECIE Chairperson may, when he or she deems appropriate, forward these 
findings and recommendations to the appropriate parties, such as agency 
heads of the subjects of the reports.
E. Disposition of Agency Head Reports
    1. Receipt From PCIE/ECIE Chairperson. The PCIE/ECIE Chairperson is 
responsible for forwarding to the IC the agency heads reports on any 
actions taken in response to the investigative findings. In accord with 
section 4(d) of EO 12993, an agency head has sixty days to review an 
investigative report, take action or decide on a course of action, and 
to so notify the PCIE/ECIE chairperson. The PCIE/ECIE chairperson may 
choose to extend that time limit for another thirty days, if necessary.
    2. IC Review. The IC will review the course of action taken by the 
agency head concerning the investigative findings, and if the IC 
believes that the action was appropriate, it will close the matter. If 
the IC has concerns regarding the action, it may so advise the PCIE/
ECIE Chairperson and suggest an alternative. However, the IC has no 
power to compel any particular action.
IV. Policy Review
A. The IC Chairperson
    As Chairperson of the IC, the FBI representative to the PCIE/ECIE 
is the Federal official with primary responsibility for: (1) the 
effective conduct of the IC; and (2) responses to inquiries regarding 
allegations received from Executive, Legislative, and Judicial Branch 
officials, in a manner consistent with applicable law. The IC 
Chairperson oversees the working group, the quality of IC investigative 
reports, and discretionary determinations. The IC Chairperson is also 
responsible for the timeliness of IC actions; and IC (and/or IC-led 
FBI) investigations. The IC Chairperson may recommend changes to the IC 
procedures as he or she finds necessary. The IC Chairperson will also 
issue an annual report to the PCIE/ECIE Chairperson on the status of 
complaints received by the IC.
B. The Chairperson and Vice Chairpersons of the PCIE/ECIE
    The PCIE/ECIE Chairperson and Vice Chairpersons provide guidance 
and support to the Chairperson of the IC. After the completion of IC 
action on a matter within its jurisdiction, the PCIE/ECIE Chairperson 
and Vice Chairpersons may review with an IG, or with other appropriate 
parties, any allegations which appear to constitute a pattern of 
misconduct or gross mismanagement in a particular OIG.
V. Maintenance of IC Records
A. The Central Records System
    1. Content of Records. All documents received or transmitted by the 
IC in fulfilling its responsibilities under EO 12993 (including, but 
not limited to, written complaints making allegations against IGs; IC 
correspondence; reports of administrative misconduct investigations; 
reports of final actions taken with regard to proven allegations; and 
memoranda providing the final dispositions of allegations determined to 
be frivolous, outside the jurisdiction of the IC, or otherwise closed 
without further investigation) will be collected and maintained as IC 
records in the FBI's Central Records System. The Central Records System 
consists of a numerical sequence of subject matter files and an index.
    2. Criminal Investigative Files Not Included as Integrity Committee 
Records. The Integrity Committee records will not include any criminal 
investigative files with general investigative information arising out 
of Public Integrity Section referrals of criminal allegations to the 
FBI. However, Integrity Committee records may contain information from 
criminal investigative files when such information is the source of the 
alleged administrative misconduct. The FBI's criminal investigative 
files are maintained in the Central Records System under the subject 
matter of the criminal violation, and, therefore, will be separate from 
IC records.
B. Disclosure of Information Under the Freedom of Information Act
    Third party requests (requests by individuals other than the IG or 
OIG staff member, who is the subject of the allegation) for information 
will be processed pursuant to the Freedom of Information Act (FOIA) 
(Title 5, U.S.C., Section 562), in accord with applicable law; 
regulations implementing the FOIA at Title 28, C.F.R. Part 16, Subpart 
A; and FBI FOIA policy and procedures.
C. Privacy Act Protection
    1. Restrictions on Disclosure. The records of the IC will he 
maintained in accord with the Privacy Act of 1974 (Title 5, U.S.C., 
Section 552a), which restricts the disclosure of all records contained 
in a system of records maintained by an Executive Branch agency and 
retrieved by an individual's name or a personal identifier, such as a 
Social Security Number. The records may be disclosed only in response 
to the written request of, or with the prior written consent of, the 
individual, to whom the record pertains, or under the conditions 
specifically set forth in the Act at Section 552a(b).
    2. Access by Individuals to Their Own Records. Procedures for 
access by individuals to their own records have been established by the 
Privacy Act and in regulations implementing the Act at Title 28, 
C.F.R., Part 16, Subpart D. All disclosures of information requested 
from the IC records will be coordinated with the IC.
D. Physical Maintenance of Records
    1. Retention of Records The records of the IC will be maintained by 
the working group in a restricted area.
    2. Disposal of Records. FBI record disposition programs relevant to 
the Central Records System are conducted under the FBI Records 
Retention Plan and Disposition schedule approved by the Archivist of 
the United States and U.S. District Court, District of Columbia. 
Administrative records at Headquarters which meet the destruction 
criteria are destroyed after a period of 10 years or when 
administrative needs have expired, whichever is later.

Approved: William J. Esposito    Date: 4/24/97
Chairman
Integrity Committee of the President's Council on Integrity and 
            Efficiency
                                 ______
                                 
       Quality Standards for Federal Offices of Inspector General
President's Council on Integrity and Efficiency
Executive Council on Integrity and Efficiency; dated
October 2003
Foreword
    On the 25th anniversary of the enactment of the Inspector General 
Act of 1978, as amended, the members of the President's Council on 
Integrity and Efficiency (PCIE) and the Executive Council on Integrity 
and Efficiency (ECIE) have updated the Quality Standards for Federal 
Offices of Inspector General. To commemorate the anniversary, we are 
issuing this update with a silver cover. The standards in the Silver 
Book set forth the overall quality framework for managing, operating, 
and conducting the work of Offices of Inspector General and will guide 
the Inspector General Community's efforts into the future.

Gaston L. Gianni, Jr.
Vice Chair, PCIE
Barry Snyder
Vice Chair, ECIE
Contents
I. Introduction
        A. Purpose

        B. OIG Mission

        C. Relationship to Federal Legislation and Regulations, and 
        Federal and Professional Standards
II. Ethics, Independence, and Confidentiality
        A. General Standard

        B. Standards for Ethical Conduct for Employees of the Executive 
        Branch

        C. Independence

        D. Confidentiality
III. Professional Standards
        A. General Standard
IV. Ensuring Internal Control
        A. General Standard

        B. Efficient and Effective Operations

        C. Control Environment

        D. Risk Assessment

        E. Control Activities

        F. Information and Communication

        G. Monitoring
V. Maintaining Quality Assurance
        A. General Standard

        B. Quality Assurance Program

        C. Elements of an Internal Quality Assurance Program

        D. Elements of an External Quality Assurance Program
VI. Planning and Coordinating
        A. General Standard

        B. Elements of the Planning Process

        C. Coordination Considerations

        D. Prevention
VII. Communicating Results of OIG Activities
        A. General Standard

        B. Keeping the Head of the Agency Informed

        C. Keeping the Congress Informed

        D. Keeping the Congress and Agency Informed on Performance

        E. Keeping Program Managers Informed

        F. Keeping Ethics Officials Informed

        G. Keeping the Attorney General Informed

        H. Elements of Effective Reporting
VIII. Managing Human Capital
        A. General Standard

        B. Human Capital Processes

        C. Core Competencies

        D. Skills Assessment
IX. Reviewing Legislation and Regulations
        A. General Standard

        B. Elements of Legislative and Regulatory Review
X. Receiving and Reviewing Allegations
        A. General Standard

        B. Elements of a System for Receiving and Reviewing Allegations

        C. Feedback
Appendix I
    Legislation, Executive Orders, Standards, and OMB and Other 
Guidance Impacting the Inspector General Community
Appendix II
    Members of the PCIE/ECIE Advisory Committee to Revise the Quality 
Standards for Federal Offices of Inspector General
                                 ______
                                 
       Quality Standards for Federal Offices of Inspector General
I. Introduction
A. Purpose
    This document contains quality standards for the management, 
operation, and conduct of the Federal Offices of Inspector General 
(OIG). Executive Order 12805 gives the President's Council on Integrity 
and Efficiency (PCIE) and the Executive Council on Integrity and 
Efficiency (ECIE) \1\ the responsibility for developing professional 
standards for OIGs.\2\ The members of the PCIE and ECIE have formulated 
and adopted these standards. They are for OIG use to guide the conduct 
of official duties in a professional manner. These standards 
incorporate by reference the existing professional standards for audit, 
investigation, and inspection and evaluation efforts.
    Public office carries with it a responsibility to apply and account 
for the use of public resources economically, efficiently, and 
effectively.\3\ The OIGs have a special need for high standards of 
professionalism and integrity in light of the mission of the Inspectors 
General under the Act.\4\ Because of this special need, the PCIE and 
ECIE have adopted the general quality standards contained in this 
document.
B. OIG Mission
    OIGs have responsibility to report on current performance and 
accountability and to foster good program management to ensure 
effective government operations. The Inspector General Act of 1978 (IG 
Act), as amended, created the OIGs to: \5\

        1. Conduct, supervise, and coordinate audits and investigations 
        relating to the programs and operations of their agencies;

        2. Review existing and proposed legislation and regulations to 
        make recommendations concerning the impact of such legislation 
        and regulations on economy and efficiency or the prevention and 
        detection of fraud and abuse;

        3. Provide leadership for activities designed to promote 
        economy, efficiency, and effectiveness, and to promote efforts 
        to reduce fraud, waste, and abuse in the programs and 
        operations of their agencies;

        4. Coordinate relationships between the agency and other 
        Federal agencies, State and local government agencies, and non-
        government agencies to promote economy and efficiency, to 
        prevent and detect fraud and abuse, or to identify and 
        prosecute participants engaged in fraud or abuse;

        5. Inform their agency heads and Congress of problems in their 
        agencies' programs and operations and the necessity for and 
        progress of corrective actions; and

        6. Report to the Attorney General whenever the Inspector 
        General has reasonable grounds to believe there has been a 
        violation of Federal criminal law.

    In addition to audits and investigations referenced in item 1 
above, OIGs may conduct, supervise, and coordinate inspections, 
evaluations, and other reviews related to the programs and operations 
of their agencies.
C. Relationship to Federal Legislation and Regulations, and Federal and 
        Professional Standards
    OIG operations are subject to a variety of Federal legislation and 
regulations, and Federal and other professional standards, such as the 
IG Act, Single Audit Act, Standards of Ethical Conduct for Employees of 
the Executive Branch, the Government Auditing Standards, the PCIE 
Quality Standards for Inspections, and the PCIE/ECIE Quality Standards 
for Investigations. The standards contained in this document are 
derived from these and other requirements. However, these standards are 
not intended to contradict or supersede applicable standards or Federal 
laws and regulations. See Appendix I for a list of major laws, 
regulations, and standards that apply to OIGs.
    An OIG may be a component of an entity that is not legally defined 
as a ``Federal agency.'' For this reason, or other reasons, certain 
laws, regulations, or other guidance cited in this document may not be 
directly applicable to certain OIGs. Where a standard contained in this 
document is premised on law or other criteria that are not directly 
applicable to an OIG, OIGs are encouraged to adopt the underlying 
principles and concepts to their operations where appropriate and 
feasible.
II. Ethics, Independence, and Confidentiality
A. General Standard \6\
    The Inspector General and OIG staff shall adhere to the highest 
ethical principles by conducting their work with integrity.\7\
    Integrity is the cornerstone of all ethical conduct, ensuring 
adherence to accepted codes of ethics and practice. Objectivity, 
independence, professional judgment, and confidentiality are all 
elements of integrity.
    Objectivity imposes the obligation to be impartial, intellectually 
honest, and free of conflicts of interest.
    Independence is a critical element of objectivity. Without 
independence, both in fact and in appearance, objectivity is impaired.
    Professional judgment requires working with competence and 
diligence. Competence is a combination of education and experience and 
involves a commitment to learning and professional improvement. 
Professional standards for audits, investigations, and inspections and 
evaluations require continuing professional education (see the Managing 
Human Capital standard). Diligence requires that services be rendered 
promptly, carefully, and thoroughly and by observing the applicable 
professional and ethical standards.
    Confidentiality requires respecting the value and ownership of 
privileged, confidential, or classified information received and 
protecting that information, and safeguarding the identity of 
confidential informants. In some instances, legal or professional 
obligations may require an OIG to disclose information it has received.
B. Standards for Ethical Conduct for Employees of the Executive Branch
    The Inspector General and OIG staff shall follow the Standards for 
Ethical Conduct for Employees of the Executive Branch \8\ (Ethical 
Standards) and the Federal conflict of interest laws.\9\ These 
standards require the Inspector General and the OIG staff to respect 
and adhere to the 14 principles of ethical conduct, as well as the 
implementing standards contained in the Ethical Standards and in 
supplemental agency regulations.\10\ The first principle emphasizes 
that public service is a public trust, requiring employees to place 
loyalty to the Constitution, laws, and ethical principles above private 
gain.
    Executive Order 12993 (``Administrative Allegations Against 
Inspectors General'') \11\ provides an independent investigative 
mechanism to ensure that administrative allegations against IGs and OIG 
senior staff are expeditiously investigated and resolved. The Order 
establishes a PCIE/ECIE Integrity Committee to receive, review, and 
refer such allegations. OIGs should maintain policies and controls to 
ensure that allegations are handled consistent with the executive 
order. OIGs should also have in place policies and procedures to ensure 
that criminal allegations against the IG or senior OIG staff are 
appropriately referred to the Attorney General.
    Where a situation is not covered by a specific standard set forth 
in the Ethical Standards or in supplemental agency regulations, the 
Inspector General and OIG staff shall apply the principles underlying 
the standards in determining whether their planned or actual conduct is 
proper.\12\ OIG staff should also consult with the Designated Agency 
Ethics Official or similar official within their agency or organization 
regarding application of the Ethical Standards.
C. Independence
    The Inspector General and OIG staff must be free both in fact and 
appearance from personal, external, and organizational impairments to 
independence. The Inspector General and OIG staff have a responsibility 
to maintain independence, so that opinions, conclusions, judgments, and 
recommendations will be impartial and will be viewed as impartial by 
knowledgeable third parties. The Inspector General and OIG staff should 
avoid situations that could lead reasonable third parties with 
knowledge of the relevant facts and circumstances to conclude that the 
OIG is not able to maintain independence in conducting its work.
1. Statutory Independence
    The IG Act of 1978, as amended, established OIGs to create 
organizationally independent and objective units. This statutory 
independence is intended to ensure the integrity and objectivity of OIG 
activities. The IG Act of 1978, as amended, authorizes Inspectors 
General to:

        a. Conduct such audits and investigations, and issue such 
        reports, as they believe appropriate (with limited national 
        security and law enforcement exceptions).\13\

        b. Issue subpoenas for information and documents outside the 
        agency (with the same limited exceptions).\14\

        c. Have direct access to all records and information of the 
        agency.\15\

        d. Have ready access to the agency head.\16\

        e. Administer oaths for taking testimony.\17\

        f. Hire and control their own staff and contract resources.\18\

        g. Request assistance from any Federal, state, or local 
        governmental agency or unit.\19\

    Inspectors General report both to the head of their respective 
agencies and to the Congress.\20\ This dual reporting responsibility is 
the framework within which Inspectors General perform their functions. 
Unique in government, dual reporting is the legislative safety net that 
protects the Inspector General's independence and objectivity.
2. Personal Impairments
    Personal impairments of staff members result from relationships and 
beliefs that might cause OIG staff members to limit the extent of an 
inquiry, limit disclosure, or weaken or slant their work in any way. 
OIG staff are responsible for notifying the appropriate officials 
within their organization if they have any personal impairments to 
independence.
3. External Impairments
    Factors external to the OIG may restrict the work or interfere with 
an OIG's ability to form independent and objective opinions and 
conclusions. External impairments to independence occur when the OIG 
staff is deterred from acting objectively and exercising professional 
skepticism by pressures, actual or perceived, from management and 
employees of the reviewed entity or oversight organizations. OIGs 
should have policies and procedures in place to resolve or report 
external impairments to independence when they exist.
    These impairments could include, but are not limited to, the 
following: \21\

        a. external interference or influence that could improperly or 
        imprudently limit or modify the scope of OIG work or threaten 
        to do so, including pressure to reduce inappropriately the 
        extent of work performed in order to reduce costs or fees;

        b. external interference with the selection or application of 
        OIG procedures, the selection of transactions to be examined, 
        or access to records or personnel;

        c. unreasonable restrictions on the time allowed to complete 
        OIG work or reports;

        d. interference external to the OIG in the assignment, 
        appointment, promotion, or termination of OIG personnel;

        e. restrictions on funds or other resources provided to the OIG 
        organization that adversely affect the OIG's ability to carry 
        out its responsibilities;

        f. authority to overrule or to inappropriately influence OIG 
        judgment as to the appropriate content of reports;

        g. threat of replacement over a disagreement with the contents 
        of an OIG report, conclusions, or the application of an 
        accounting principle or other criteria; and

        h. influences that jeopardize the continued employment of the 
        IG or other OIG staff other than incompetence, misconduct, or 
        the need for OIG services.
4. Types of Services
    Auditors and audit organizations within OIGs have a specific 
independence standard \22\ required by Government Auditing Standards. 
This standard requires that, while auditors have the capability of 
performing a range of services for their clients, in some circumstances 
it is not appropriate for them to perform both audit and certain 
nonaudit services for the same client. The standard is based on two 
overarching principles:

        a. Auditors should not perform management functions or make 
        management decisions; and

        b. Auditors should not audit their own work or provide nonaudit 
        services in situations where the amounts or services involved 
        are significant/material to the subject matter of the audit.

    In addition to its application to OIG audit activities, the first 
overarching principle should be applied broadly to all OIG activities. 
Specifically, OIG staff, and others under OIG direction, should not 
perform management functions or make management decisions for their 
agency.
    OIG audit organizations should take steps to ensure that auditors 
under contract to the OIG do not have independence impairments.
5. Conflicting Financial Interests
    An OIG staff member's objectivity and independence may also be 
affected by personal financial interests that are held by the staff 
member or by certain family members, or by positions the staff member 
holds as a trustee, director, officer, or employee of an outside 
organization. OIG staff should notify appropriate officials within 
their organization if they have a potentially conflicting financial 
interest.
D. Confidentiality
    Each OIG shall safeguard the identity of confidential sources and 
protect privileged, confidential, and national security or classified 
information in compliance with applicable laws, regulations, and 
professional standards.
    Congress has provided specific authority for withholding the 
identities of agency employees who make complaints to the OIG. Under 
Section 7 of the IG Act of 1978, as amended, the OIG may receive and 
investigate complaints or information from employees concerning the 
possible existence of an activity constituting a violation of law, 
rules, or regulations; mismanagement; waste of funds; abuse of 
authority; or a substantial and specific danger to the public health or 
safety. The Inspector General shall not, after receipt of such 
complaint or information, disclose the identity of the agency employee 
without the consent of the employee, unless the Inspector General 
determines that such disclosure is unavoidable.
    The Freedom of Information Act, the Privacy Act, the Civil Service 
Reform Act, the Health Insurance Portability and Accountability 
Act,\23\ the Trade Secrets Act,\24\ and other Federal statutes and case 
law provide certain protections for the identities of sources and for 
sensitive information obtained. Additionally, the relevant professional 
standards provide guidance on the use, protection, and reporting of 
privileged and confidential information. OIGs must follow the guidance 
contained in these authorities.
III. Professional Standards
A. General Standard
    Each OIG shall conduct, supervise, and coordinate its audits, 
investigations, inspections, and evaluations in compliance with the 
applicable professional standards listed below.
    For audits: Government Auditing Standards, issued by the U.S. 
General Accounting Office (GAO).
    For investigations: Quality Standards for Investigations, accepted 
by the PCIE and ECIE and consistent with appropriate Department of 
Justice directives.
    For inspections and evaluations: Quality Standards for Inspections, 
accepted by the PCIE and ECIE, Government Auditing Standards, or other 
appropriate professional standards.
IV. Ensuring Internal Control
A. General Standard
    The Inspector General and OIG staff shall direct and control OIG 
operations consistent with the Standards for Internal Control in the 
Federal Government \25\ issued by the GAO. These standards require that 
internal control be part of an entity's management infrastructure to 
provide reasonable assurance that (1) operations are efficient and 
effective; (2) financial reporting is reliable; and (3) operations are 
in compliance with applicable laws, regulations, and professional 
standards.
    Internal control is a continuous built-in component of operations, 
effected by people, that provides reasonable but not absolute 
assurance, that the OIG's objectives will be met. Internal control 
considerations include the following:
B. Efficient and Effective Operations
    OIGs should strive to conduct their operation in the most efficient 
and effective manner. Each OIG should manage available resources at the 
least cost to produce the greatest results in terms of public benefit, 
return on investment, and risk reduction. OIGs derive much of their 
credibility to perform their work by demonstrating the ability to 
efficiently and effectively use and account for public funds.
C. Control Environment
    OIG management and staff should establish and maintain an 
environment throughout the organization that fosters a positive and 
supportive attitude toward internal control and conscientious 
management. Key factors affecting the control environment include the 
following:

        1. Integrity and ethical values maintained and demonstrated by 
        OIG management and staff, the organizational structure and 
        delegations of authority and responsibility, and OIG 
        management's philosophy and operating style.

        2. OIG management's commitment to competence and human capital 
        policies and practices (see the Managing Human Capital 
        standard).

        3. OIG management's relationship with the Congress, their 
        agency, and the Office of Management and Budget (OMB).
D. Risk Assessment
    The Inspector General should provide for an assessment of the risks 
the OIG faces from both external and internal sources. Risk assessment 
includes identifying and analyzing relevant risks associated with 
achieving the OIG's objectives, such as those defined in strategic and 
annual performance plans, and forming a basis for determining how risks 
should be managed. Risk assessment methodologies and the formality of 
their documentation may vary from OIG to OIG, depending on the OIG's 
size, mission, and other factors.
E. Control Activities
    The Inspector General should establish and implement internal 
control activities that ensure the OIG's directives are carried out. 
The control activities should be effective and efficient in 
accomplishing the OIG's control objectives.
    Control activities are the policies, procedures, techniques, and 
mechanisms that enforce management's directives. Control activities are 
an integral part of the planning, implementing, reviewing, and 
accountability activities. Control activities include supervisory 
reviews at all levels to ensure compliance with applicable professional 
standards, controls over information processing, physical control over 
vulnerable assets, establishing and reviewing performance measures and 
indicators, and segregation of duties.
F. Information and Communication
    The Inspector General should ensure that information is recorded 
and communicated to internal OIG management and others within the OIG 
who need it and in a form and within a time-frame that enables them to 
carry out their internal quality control and other responsibilities.
    For the OIG to control its operations, it must have relevant, 
reliable, and timely communications relating to internal and external 
events. Information is needed throughout the OIG to achieve all of its 
objectives.
G. Monitoring
    The Inspector General should ensure that monitoring assesses the 
quality of performance over time and ensures that the findings and 
recommendations of quality assurance and other reviews are promptly 
resolved.
    The monitoring standard discusses three different types of 
activities: ongoing monitoring, self-assessment evaluations, and 
quality assurance reviews. Ongoing monitoring occurs in the course of 
normal operations and is continuous. Self-assessment evaluations and 
independent external reviews can be useful in focusing directly on the 
controls' effectiveness at a specific time.\26\ The scope and frequency 
of these independent reviews should depend primarily on the assessment 
of risks and the effectiveness of ongoing control monitoring 
procedures.

        1. Ongoing monitoring occurs in the course of normal 
        operations. It is performed continually and is ingrained in the 
        agency operations. It includes regular management and 
        supervisory activities,\27\ comparisons, reconciliations, and 
        other actions employees take in performing their duties. 
        Ongoing monitoring should include policies and procedures for 
        ensuring that the findings of separate quality control 
        evaluations and quality assurance reviews are promptly 
        resolved.

        2. Self-assessment evaluations, conducted by the unit or 
        activity itself, include a reassessment of the risks associated 
        with a particular activity and can include periodic reviews of 
        control design and direct testing of internal controls, 
        depending on the risk associated with the activity.

        3. Independent external reviews are conducted by sources not 
        assigned to the unit being reviewed. These reviews are distinct 
        from ongoing management and supervision, and encompass the 
        entirety of internal control, including administrative 
        operations and professional services (audits, investigations, 
        inspections, and evaluations). Quality assurance is intended to 
        assess the internal controls of the entire OIG or specific OIG 
        components. The Quality Assurance Program is a type of 
        independent review that focuses on complying with professional 
        standards in conducting professional services (see the 
        Maintaining Quality Assurance standard).
V. Maintaining Quality Assurance
A. General Standard \28\
    Each OIG shall establish and maintain a quality assurance program 
to ensure that work performed adheres to established OIG policies and 
procedures; meets established standards of performance, including 
applicable professional standards; and is carried out economically, 
efficiently, and effectively.
    External quality assurance reviews provide OIGs with added 
assurance regarding their adherence to prescribed standards, 
regulations, and legislation through a formal objective assessment of 
OIG operations. OIGs are strongly encouraged to have external quality 
assurance reviews of audits, investigations, inspections, evaluations, 
and other OIG activities. Each OIG shall participate in the external 
quality assurance review programs required by the PCIE and ECIE.
B. Quality Assurance Program
    Because OIGs evaluate how well agency programs and operations are 
functioning, they have a special responsibility to ensure that their 
own operations are as effective as possible. The nature and extent of 
an OIG's quality assurance program depends on a number of factors, such 
as the OIG size, the degree of operating autonomy allowed its personnel 
and its offices, the nature of its work, its organizational structure, 
and appropriate cost-benefit considerations. Thus, the program 
established by individual OIGs could vary, as could the extent of their 
documentation. However, each organization should prepare appropriate 
documentation to demonstrate compliance with its policies and 
procedures for its system of quality assurance.

        1. The quality assurance program is an evaluative effort 
        conducted by reviewers external to the units/personnel being 
        reviewed to ensure that the overall work of the OIG meets 
        appropriate standards. The quality assurance program has an 
        internal and external component.

        2. The internal quality assurance program can include reviews 
        of all aspects of the OIG's operations. The reviews are 
        conducted by internal OIG staff that are external to the units 
        being reviewed. The internal quality assurance program is 
        distinct from regular management and supervisory activities, 
        comparisons, and other activities by OIG staff performing their 
        duties. Thus, an audit supervisor ensuring that audit reports 
        are properly referenced to working papers is an example of 
        regular supervision whereas an independent reviewer evaluating 
        the referencing process is an example of internal quality 
        assurance.

        3. External quality assurance reviews are conducted by 
        independent organizations not affiliated with the OIG being 
        reviewed.
C. Elements of an Internal Quality Assurance Program
        1. An internal quality assurance program must be structured and 
        implemented to ensure an objective, timely, and comprehensive 
        appraisal of operations. The internal quality assurance reviews 
        should be conducted by individuals who are not directly 
        involved in the activity or unit being reviewed and who do not 
        report to the immediate supervisor of that activity or unit.

        2. The same professional care should be taken with quality 
        assurance reviews as with other OIG efforts, including 
        adequately planning the review, documenting findings, 
        developing supportable recommendations, and soliciting comments 
        from the supervisor of the activity or unit reviewed.

        3. The Inspector General shall implement necessary improvements 
        on a timely basis.
D. Elements of an External Quality Assurance Program
        1. The purpose of the external quality assurance program is to 
        provide an additional and external level of assurance that the 
        OIG conducts its audits, investigations, inspections, and 
        evaluations in compliance with applicable professional 
        standards.

        2. The objective of the external quality assurance review is to 
        determine whether the internal control system is in place and 
        operating effectively to provide reasonable assurance that 
        established policies and procedures and applicable professional 
        standards are being followed.

        3. Organizations and individuals managing and conducting 
        external quality assurance reviews should be highly qualified 
        and comply with specific supplemental guidance issued by the 
        PCIE and ECIE to ensure the highest level of review quality. 
        Individuals conducting these reviews should have a thorough 
        knowledge of the applicable professional standards and the 
        environment relative to the work being performed.

        4. The reviewers should be independent of the organization 
        being reviewed, its staff, and the work selected for review.

        5. The reviewers should have knowledge related to performing an 
        external quality assurance review and use professional judgment 
        in conducting and reporting on the results of the review.

        6. The review should be sufficiently comprehensive to assess 
        whether the internal quality assurance program meets its 
        objectives.

        7. The external reviewers and the organization under review 
        should prepare and sign a Memorandum of Understanding regarding 
        fundamental aspects of the review. Possible topics include 
        scope; staffing and time-frames; discussion of preliminary 
        findings; reporting; handling of requests for reports, letters 
        of comment, and review documentation; and procedures to address 
        disagreements on findings and recommendations.

        8. OIGs should provide copies of final reports resulting from 
        external quality assurance reviews to the head of the agency or 
        department and to the Chair and the Vice Chairs of the PCIE or 
        ECIE, as appropriate. Upon request and subject to applicable 
        law, the reports and letters of comment should be made 
        available to the public in a timely manner.

        9. OIGs should have procedures in place to address findings and 
        recommendations contained in external quality assurance 
        reviews.

        10. The external quality assurance program can be extended to 
        cover other OIG operations.
VI. Planning and Coordinating
A. General Standard
    Each OIG shall maintain a planning system assessing the nature, 
scope, and inherent risks of agency programs and operations. This 
assessment forms the basis for establishing strategic and performance 
plans,\29\ including goals, objectives, and performance measures to be 
accomplished by the OIG within a specific time period.\30\
    The Inspector General and OIG staff shall coordinate their 
activities internally and with other components of Government to assure 
effective and efficient use of available resources.\31\
B. Elements of the Planning Process
    OIGs should develop an appropriate planning process, giving 
consideration to the following elements:

        1. Use a strategic planning process that carefully considers 
        current and emerging agency programs, operations, risks, and 
        management challenges. This analysis will identify the nature 
        of agency programs and operations, their performance measures 
        and anticipated outcomes, their scope and dollar magnitude, 
        their staffing and budgetary trends, their perceived 
        vulnerabilities, and their inherent risks.

        2. Develop a methodology and process for identifying and 
        prioritizing agency programs and operations as potential 
        subjects for audit, investigation, inspection, or evaluation. 
        The methodology should be designed to use the most effective 
        combination of OIG resources, including previous OIG work and 
        input from OIG staff. Also, the OIG should consider the plans 
        of other organizations both internal and external to the 
        agency.

        3. Use an annual performance planning process that identifies 
        the activities to audit, investigate, inspect, or evaluate and 
        translates these priorities into outcome-related goals, 
        objectives, and performance measures. As part of this planning 
        process, OIGs should consider agency actions to address 
        recommendations from prior OIG work. Because resources are 
        rarely sufficient to meet requirements, the OIG must choose 
        among competing needs.
C. Coordination Considerations
        1. In planning work, the OIG should coordinate, where 
        applicable, with agency management to ensure that OIG 
        priorities appropriately consider agency needs. The OIG should 
        take into consideration requests from the Congress, the OMB, 
        other external stakeholders, the PCIE, the ECIE, complaints 
        from employees and, as appropriate, private citizens. By using 
        this information, along with the OIG's knowledge of agency 
        objectives and operations, the OIG can plan its work based on 
        the relative costs and benefits.

        2. The OIG should minimize duplicative work. The OIG should 
        coordinate its work internally and with other groups (both 
        inside and outside the agency) performing independent 
        evaluations of agency operations and programs. This 
        coordination should identify the nature and scope of other 
        reviews, both planned and completed, to avoid duplicating 
        others' work. Coordinating with the GAO is particularly 
        important. As part of the planning process, each OIG should 
        coordinate as needed with GAO representatives to exchange and 
        discuss tentative plans for the next fiscal year.\32\ If 
        duplication is identified, every effort should be made to 
        resolve it.

        3. The OIG will closely coordinate, if applicable, with the 
        Department of Justice with respect to criminal and civil 
        investigations in compliance with investigative standards and 
        applicable deputations and accompanying Memoranda of 
        Understanding.

        4. When OIG staff identify problems that might affect other 
        offices, agencies, or arms of government, the OIG should 
        coordinate with them and their respective OIGs. Where 
        appropriate, joint or coordinated audits, investigations, 
        inspections, or evaluations may be performed to fulfill all the 
        interested parties' requirements.\33\

        5. Because of the close interrelationships among many Federal 
        programs, situations will arise where audit, investigation, 
        inspection, or evaluation activity by one OIG will require work 
        with another agency's program or administrative staff. In such 
        cases, the OIGs will coordinate in order to facilitate the 
        efficient accomplishment of the work.
D. Prevention
    OIG planning should develop a strategy to identify the causes of 
fraud, waste, abuse, and mismanagement in high-risk agency programs, 
and to help agencies implement a system of management improvements to 
overcome these problems.\34\ OIG prevention efforts may include the 
following:

        1. A routine procedure for OIG staff to identify and report 
        prevention opportunities as these may come up in their work, 
        and for OIG managers to refer these to agency management, as 
        appropriate;

        2. Special awareness and training initiatives designed to alert 
        agency employees to systemic weaknesses in the programs and 
        operations of their agencies;

        3. Review and comment on initial design of new agency programs 
        and operations;

        4. Analyses of audit, investigative, and other OIG reports to 
        identify trends and patterns;

        5. Education and training to ensure that appropriate OIG staff 
        have requisite abilities in the loss prevention area, as well 
        as fraud detection and prevention; and

        6. An effective means for tracking the implementation of 
        recommendations.
VII. Communicating Results of OIG Activities
A. General Standard
    Each OIG shall keep agency management, program managers, and the 
Congress fully and currently informed of appropriate aspects of OIG 
operations and findings. OIGs should assess and report to the Congress, 
as appropriate, on their own strategic and annual performance and the 
performance of the agency or department for which they have cognizance. 
Each OIG shall also report expeditiously to the Attorney General 
whenever the Inspector General has reasonable grounds to believe there 
has been a violation of criminal law.
B. Keeping the Head of the Agency Informed \35\
        1. Through periodic briefings and reports, the Inspector 
        General should keep the appropriate department and agency heads 
        advised of important undertakings of the OIG, its outcomes, and 
        any problems encountered that warrant the department or agency 
        head's attention.

        2. The Inspector General should timely advise department and 
        agency heads, consistent with requirements of confidentiality, 
        of any agency official who attempts to impede or fails to 
        require a contractor under his or her responsibility to desist 
        from impeding an audit, investigation, inspection, evaluation, 
        or any other OIG activity.\36\

        3. The Inspector General should timely alert department and 
        agency heads, consistent with requirements imposed by 
        confidentiality and the prosecutive system, to examples of 
        egregious misconduct and waste.
C. Keeping the Congress Informed \37\
        1. The Inspector General shall report to the Congress, as 
        required by the IG Act of 1978, as amended, and other 
        legislation, regulations, and directives.

        2. The Inspector General may also inform the agency head and 
        Congress through the 7-day letter (IG Act of 1978, as amended, 
        Section 5(d)), or other appropriate means of particularly 
        serious programmatic or administrative problems that contribute 
        to fraud, waste, abuse, or mismanagement in agency operations 
        and programs.

        3. If the results of an audit, investigation, inspection, or 
        evaluation indicate that deficiencies in Federal law contribute 
        to fraud, waste, or abuse, these matters may be brought to the 
        attention of the Congress, and may include recommendations for 
        statutory change.\38\

        4. The Inspector General shall also report to the Congress and 
        OMB on management challenges facing the agency or department 
        and progress in meeting the challenges.\39\
D. Keeping the Congress and Agency Informed on Performance \40\
        1. Each OIG should annually assess its own performance by 
        evaluating actual to planned performance.

        2. Each OIG should have sufficient information to conduct 
        performance evaluations, e.g., a history of past results to 
        show prior performance, a strategic and annual planning process 
        to show expected performance, and a management information 
        system to show actual performance.

        3. Each OIG should report annually on its actual performance as 
        compared to its performance goals, either as a contributing 
        part of their agency reporting under the Government Performance 
        and Results Act of 1993 (GPRA), if appropriate, or 
        independently to their agency and Congress.

        4. Inspectors General may also advise the Congress on the 
        performance goals, measurement process, and results of the 
        agencies and departments for which they have cognizance.
E. Keeping Program Managers Informed
    The OIG should make a special and continuing effort to keep program 
managers and their key staff informed, if appropriate, about the 
purpose, nature, and content of OIG activity associated with the 
manager's programs. These efforts may include periodic briefings as 
well as interim reports and correspondence.
F. Keeping Ethics Officials Informed
    The OIG should make a special and continuing effort to keep the 
Designated Agency Ethics Official or similar official informed about 
OIG activities, including the results of investigations and allegations 
of ethical misconduct where appropriate, that related to the ethics 
official's responsibilities for the agency's ethics program.
G. Keeping the Attorney General Informed \41\
    The OIG shall notify the Department of Justice and seek a 
prosecutive opinion whenever the OIG develops evidence of a Federal 
crime.
H. Elements of Effective Reporting \42\
        1. All products issued should comply with applicable 
        professional standards and conform to the OIG's established 
        policies and procedures.

        2. Whether written or oral, all OIG reports should be 
        objective, timely, and useful.

        3. All products should be adequately supported.
VIII. Managing Human Capital
A. General Standard \43\
    Each OIG should have a process to ensure that the OIG's staff 
members collectively possess the core competencies needed to accomplish 
the OIG mission.
B. Human Capital Processes
    Each OIG's process for ensuring that its staff members possess the 
requisite qualifications should encompass processes for recruiting, 
hiring, continuously developing, training, and evaluating their staff 
members, and succession planning to assist the organization in 
maintaining a workforce that has the ability to meet the OIG's mission.
C. Core Competencies
    Staff members must collectively possess the professional competence 
(i.e., teamwork, leadership, communication, technical knowledge, 
critical thinking skills, abilities, and experience) to perform the 
work assigned. In addition, staff must individually meet requirements 
established by the Office of Personnel Management for their respective 
job series and by applicable professional standards.
D. Skills Assessment
    To ensure that the OIG staff members collectively possess needed 
skills, the Inspector General and key managers should assess the skills 
of their staff members and determine the extent to which these skills 
match the OIG's requirements. OIG management is responsible for 
deciding the methods by which identified needs can be met by hiring 
contractors or outside consultants, using staff members who possess the 
requisite skills, developing staff members and providing training, or 
recruiting new staff. Each OIG must also ensure that staff members meet 
the requirements for continuing professional education contained in the 
applicable professional standards.\44\
IX. Reviewing Legislation and Regulations
A. General Standard
    Each OIG shall establish and maintain a system to review and 
comment on existing and proposed legislation, regulations, and those 
directives that affect either the programs and operations of the OIG's 
agency or the mission and functions of the OIG.\45\ The system should 
result in OIG recommendations designed to (1) promote economy and 
efficiency in administering agency programs and operations; (2) prevent 
and detect fraud and abuse in such programs and operations; and (3) 
protect the integrity and independence of the OIG.
B. Elements of Legislative and Regulatory Review
        1. OIGs should assure independent and timely formulation and, 
        to the extent within their control, transmission of OIG 
        recommendations so that authorities dealing with the matters 
        concerned can adequately consider the OIG comments. This 
        requires early identification of legislative, regulatory, and 
        those key administrative or directive issues of particular 
        interest to the OIG.

        2. OIGs should seek implementation of agency procedures that 
        routinely provide for OIG review or comment on legislative and 
        regulatory proposals of interest to the OIG and on agency-wide 
        directives.

        3. OIGs should have written procedures for and conduct 
        appropriate reviews, as necessary, of authorizing legislation, 
        regulations, and directives during investigations, internal 
        audits, inspections and evaluations, and other OIG activities, 
        particularly when it appears that a lack of controls or 
        deficiencies in law have contributed to fraud, waste, abuse, 
        and mismanagement.
X. Receiving and Reviewing Allegations
A. General Standard \46\
    Each OIG shall establish and follow policies and procedures for 
receiving and reviewing allegations. This system should ensure that an 
appropriate disposition, including appropriate notification, is made 
for each allegation.
B. Elements of a System for Receiving and Reviewing Allegations
    This system should ensure that:

        1. The OIG has a well-publicized vehicle through which agency 
        employees and other interested persons can submit allegations 
        of fraud, waste, abuse, and mismanagement, preserving anonymity 
        when possible.

        2. Each allegation is retrievable and its receipt, review, and 
        disposition are documented.

        3. Each allegation is initially screened to ensure that urgent 
        and/or high priority matters receive timely attention and 
        facilitate early determination of the appropriate courses of 
        action for those complaints requiring follow-up action.

        4. Based on the nature, content, and credibility of the 
        complaint, allegations are appropriately reviewed.
C. Feedback
    The OIG may establish a mechanism for providing feedback to parties 
who submit allegations. This feedback can be furnished in summary form 
through such vehicles as an employee newsletter, a semiannual report 
digest, or other means.
ENDNOTES
    \1\ Executive Order 12805, dated May 11, 1992, updated the charter 
for the President's Council on Integrity and Efficiency and created the 
Executive Council on Integrity and Efficiency.
    \2\ Executive Order 12805, Section 3(c), states that individual 
members of the Councils should, to the extent permitted under law, 
adhere to professional standards developed by the Councils. This 
section gives the Councils the authority to establish standards for 
quality.
    \3\ The Standards for Internal Control in the Federal Government, 
published by the U.S. General Accounting Office (GAO) in November 1999, 
require that ``Management and employees should establish and maintain 
an environment throughout the organization that sets a positive and 
supportive attitude toward internal control and conscientious 
management.'' The Internal Control Standards define internal control as 
an integral component of an organization's management that provides 
reasonable assurance that the following objectives are being achieved: 
(1) effectiveness and efficiency of operations, (2) reliability of 
financial reporting, and (3) compliance with applicable laws and 
regulations.
    \4\ The IG Act (Public Law 95-452), Section 2, established 
independent and objective units to review agency activities.
    \5\ IG Act, Sections 2 and 4.
    \6\ This standard was adapted from the Standards for Ethical 
Conduct for Employees of the Executive Branch and the American 
Institute of Certified Public Accountants' Code of Professional 
Conduct, Section ET 53-56, and the Institute of Internal Auditors' Code 
of Ethics.
    \7\ IG Act, Section 2, established independent units to review 
agency activities. Section 6(a)(2) gives the Inspector General 
responsibility for independently determining the nature and extent of 
the work necessary.
    \8\ Codified in 5 C.F.R. Part 2635 (January 1, 2002 Edition), as 
amended at 67 FR 61761-61762 (October 2, 2002).
    \9\ 18 U.S.C. Sections 202-209.
    \10\ 5 C.F.R. Section 2635.101(a). The 14 general principles 
restate the principles of ethical conduct set forth in Executive Order 
12674, as modified by Executive Order 12731.
    \11\ Executive Order 12993, Section 2, dated March 22, 1996, gives 
the PCIE and ECIE Integrity Committee the responsibility for receiving, 
reviewing, and referring for investigation allegations of wrongdoing 
against Inspectors General and certain OIG staff members.
    \12\ 5 C.F.R. Section 2635.101(b).
    \13\ IG Act, Section 6(a)(4).
    \14\ IG Act, Section 6(a)(4).
    \15\ IG Act, Section 6(a)(1).
    \16\ IG Act, Section 6(a)(6).
    \17\ IG Act, Section 6(a)(5).
    \18\ IG Act, Section 6(a)(7), (8), and (9).
    \19\ IG Act, Section 6(a)(3).
    \20\ IG Act, Sections 2(3), 4(a)(5), and 5(b).
    \21\ Government Auditing Standards, Section 3.19.
    \22\ Government Auditing Standards, Section 3.11-Section 3.25.
    \23\ 42 U.S.C. Section 1320d-2 and implementing regulations cover 
the privacy of individually identifiable health information.
    \24\ 18 U.S.C. Section 1905 prohibits OIGs from disclosing 
confidential proprietary data obtained during the course of conducting 
their work unless such disclosure is authorized by law.
    \25\ The Federal Managers' Financial Integrity Act of 1982 requires 
GAO to issue standards for internal control in government. The Office 
of Management and Budget issues implementing guidelines and specific 
requirements.
    \26\ The Standards for Internal Control in the Federal Government 
state that: ``Separate evaluations of control can also be useful by 
focusing directly on the controls' effectiveness at a specific time. 
The scope and frequency of separate evaluations should depend primarily 
on the assessment of risks and the effectiveness of ongoing monitoring 
procedures. Separate evaluations may take the form of self-assessments 
as well as review of control design and direct testing of internal 
control.''
    \27\ The Government Auditing Standards, the Quality Standards for 
Investigations, and the Quality Standards for Inspections all require 
that work be adequately supervised through higher level review and 
approval.
    \28\ This standard is based on the Standards for Internal Control 
in the Federal Government and the quality control and assurance 
standard in the Government Auditing Standards (Section 3.49).
    \29\ The Government Performance and Results Act of 1993, Section 
3(a), requires each agency to develop a 5-year strategic plan, and, in 
Section 4(a) and (b), to prepare annual performance plans and reports. 
A January 28, 1998 memorandum from OMB to the PCIE and the National 
Science Foundation OIG requires each OIG that has a separate line item 
account in the President's Budget Appendix to submit a performance 
plan. The OIGs can either include goals, objectives, and measures in 
their agency's strategic and performance plans or develop their own 
strategic and annual performance plans and performance reports.
    \30\ OMB Circular No. A-123, Management Accountability and Control, 
Section 2, states that management accountability is the expectation 
that managers are responsible for the quality and timeliness of program 
performance, increasing productivity, controlling costs and mitigating 
adverse aspects of agency operations, and ensuring that programs are 
managed with integrity and in compliance with applicable law.
    \31\ Throughout the IG Act, the IGs are given responsibility for 
coordinating their activities. In Section 4(a)(1), (3), and (4), the 
IGs are to coordinate the following: Section 4(a)(1) audits and 
investigations relating to the programs and operations of the agency; 
Section 4(a)(3) other activities carried out or financed by the agency 
for the purpose of promoting economy and efficiency or preventing and 
detecting fraud and abuse in its programs and operations; Section 
4(a)(4) relationships between the agency and other Federal agencies, 
State and local governments, and nongovernmental entities with respect 
to (A) all matters relating to promoting economy and efficiency or 
preventing and detecting fraud and abuse in programs and operations 
administered or financed by the agency; or (B) identifying and 
prosecuting participants in such fraud or abuse.
    \32\ IG Act, Section 4(c).
    \33\ According to Executive Order 12805, Section 3(a), the PCIE and 
ECIE shall continually identify, review, and discuss areas of weakness 
and vulnerability in Federal programs and operations to fraud, waste, 
and abuse, and shall develop plans for coordinated, Government-wide 
activities that address these problems and promote economy and 
efficiency in Federal programs and operations. These activities will 
include interagency and inter-entity audit and investigation programs 
and projects to deal efficiently and effectively with those problems 
concerning fraud and waste that exceed the capability or jurisdiction 
of an individual agency or entity. The Councils shall recognize the 
preeminent role of the Department of Justice in law enforcement and 
litigation.
    \34\ The IG Act of 1978, as amended, Section 2(2)(B), requires OIGs 
``to provide leadership and coordination and recommend policies for 
activities designed . . . to prevent and detect fraud and abuse. . . 
.'' Section 4(a)(3) reiterates the OIG's mission ``to recommend 
policies for, and to conduct, supervise, or coordinate other activities 
. . . for the purpose of . . . preventing and detecting fraud and 
abuse.''
    \35\ IG Act, Section 2(3), requires that OIGs keep the head of the 
establishment and the Congress fully and currently informed about 
problems and deficiencies relating to the administration of programs 
and operations and the necessity for and progress of corrective action. 
Section 4(a)(5) and Section 5(b) require semiannual reports.
    \36\ IG Act, Section 6(b)(2).
    \37\ See footnote 35.
    \38\ IG Act, Section 4(a)(2).
    \39\ 31 U.S.C., Section 3516(d), requires OIGs to summarize what 
the IG considers to be the most serious management and performance 
challenges facing the IG's agency and briefly assess the agency's 
progress in addressing those challenges. This requirement is triggered 
by the agency's consolidation of reports made to the Congress, OMB, or 
the President.
    \40\ See footnote 29.
    \41\ IG Act, Section 4(d).
    \42\ OMB Guidelines for Ensuring and Maximizing the Quality, 
Objectivity, Utility, and Integrity of Information Disseminated by 
Federal Agencies require agencies to adopt a basic standard of 
information quality (including objectivity, utility, and integrity) as 
a performance goal and take appropriate steps to incorporate 
information quality criteria into agency information dissemination 
practices. Quality is to be ensured and established at levels 
appropriate to the nature and timeliness of the information to be 
disseminated. Agencies shall adopt specific standards of quality that 
are appropriate for the various categories of information they 
disseminate, and, as a matter of good and effective agency information 
resources management, agencies are to develop a process for reviewing 
the quality (including the objectivity, utility, and integrity) of 
information before it is disseminated. The Government Auditing 
Standards, the Quality Standards for Investigations, and the Quality 
Standards for Inspections all address reporting standards for 
individual audit, investigative, and inspection or evaluation reports.
    \43\ The Standards for Internal Control in the Federal Government 
identifies one factor affecting the control environment as management's 
commitment to competence. All personnel need to possess and maintain a 
level of competence that allows them to accomplish their assigned 
duties, as well as understand the importance of developing and 
implementing good internal control. Management needs to identify what 
appropriate knowledge and skills are needed for various jobs and 
provide training as well as candid and constructive counseling, and 
performance appraisals. The Standards also discuss good human capital 
policies and practices as another critical environmental factor. This 
includes establishing appropriate practices for hiring, orienting, 
training, evaluating, counseling, promoting, compensating, and 
disciplining personnel. Executive Order 12805, Section 3(b), states 
that the PCIE and ECIE shall develop policies that will aid in the 
establishment of a corps of well trained and highly skilled Office of 
Inspector General staff members.
    \44\ The Government Auditing Standards, the Quality Standards for 
Investigations, and the Quality Standards for Inspections each require 
that the personnel collectively possess the skills and abilities to 
perform the assigned tasks and require continuing professional 
education.
    \45\ The IG Act, Section 4(a)(2), gives IGs the responsibility to 
review existing and proposed legislation and regulations and make 
recommendations in the semiannual reports on the impact of legislation 
or regulations on the economy and efficiency of administering the 
agency's programs and operations or in preventing and detecting fraud 
and abuse.
    \46\ IG Act, Section 7.
                               Appendix I

  Legislation, Executive Orders, Standards, and OMB and Other Guidance
                Impacting the Inspector General Community
------------------------------------------------------------------------
             Document a                          Description
------------------------------------------------------------------------
                               Legislation
------------------------------------------------------------------------
The Inspector General Act of 1978,   Establishes independent and
 as amended, 5 U.S.C. App. 3. (P.L.   objective Offices of Inspector
 95-452)                              General.
------------------------------------------------------------------------
Accounting and Auditing Act of       Requires the head of each executive
 1950, 31 U.S.C.  713, 714, 718,    agency to certify that the
 719, 3326, 3501, 3511-3514, 3521,    agency's systems for internal
 3523, 3524. (P.L. 97-258).           accounting and administrative
                                      control comply with standards
                                      prescribed by the Comptroller
                                      General.
------------------------------------------------------------------------
Budget and Accounting Act of 1921,   Assigns responsibilities for
 31 U.S.C.  501, 502, 521, 522,     government accounting, auditing,
 701-704, 711, 712, 716, 718, 719,    and financial reporting to improve
 731, 771-779, 1101, 1104-1108,       evaluations of Federal Government
 1111, 1113, 3301, 3323, 3324,        programs and activities by better
 3521, 3522, 3526, 3529, 3531,        identifying sources of funding and
 3541, 3702. (42 Stat. 20)            how the funding was applied.
------------------------------------------------------------------------
Federal Financial Management Act of  Requires all agencies covered by
 1994, 31 U.S.C.  331, 501 note,    the Chief Financial Officers Act
 3301 note, 3332, 3515, 3521. (P.L.   to prepare annual, agency-wide
 103-356)                             financial statements.
------------------------------------------------------------------------
Federal Financial Management         Provides for the establishment of
 Improvement Act of 1996, 5 U.S.C.    uniform Federal Government
 App.  5; 10 U.S.C. 113 note,      accounting systems, accounting
 2315; 15 U.S.C.  278g-3; 28         standards, and reporting systems.
 U.S.C.  612; 31 U.S.C.  3512,
 3512 note, 3521; 38 U.S.C.  310;
 40 U.S.C.  1401 notes, 1441
 note; 41 U.S.C.  251 notes. (P.L.
 104-208)
------------------------------------------------------------------------
Federal Managers Financial           Provides for establishment,
 Integrity Act of 1982, 31 U.S.C.     implementation, and evaluation of
  1105, 1113, 3512. (P.L. 97-255)   accounting and administrative
                                      controls regarding financial
                                      management activities.
------------------------------------------------------------------------
Government Performance and Results   Provides for the establishment of
 Act of 1993, 5 U.S.C.  306; 31      strategic planning and performance
 U.S.C.  1101 note, 1105, 1115,     measurement in the Federal
 1115 note, 1116-1119, 9703, 9704;    Government.
 39 U.S.C.  2801-2805. (P.L. 103-
 62)
------------------------------------------------------------------------
Government Management Reform Act of  Improves the efficiency of
 1994, 2 U.S.C.  31, 31 note; 3      Executive Branch performance by
 U.S.C.  104; 5 U.S.C.  5318,      enhancing reporting to the
 6304, 6304 note; 28 U.S.C.  461;    Congress through elimination and
 31 U.S.C.  331 note, 501 note,     consolidation of duplicative or
 1113 note, 3301 note, 3332, 3515,    obsolete reporting requirements.
 3521. (P.L. 103-356)
------------------------------------------------------------------------
Chief Financial Officers Act of      Improves the general and financial
 1990, 5 U.S.C.  5313-5315; 31      management of the Federal
 U.S.C.  501 notes, 502-506, 901,   Government.
 901 notes, 902, 903, 1105, 3511
 note, 3512, 3515, 3515 note, 3521,
 3521 note, 9105, 9106; 38 U.S.C. 
 201 note; 42 U.S.C.  3533. (P.L.
 101-576)
------------------------------------------------------------------------
E-Government Act of 2002, 5 U.S.C.   Provides for the independent review
  3111, 3701-3707, 4108, 8432       of Federal agency information
 note; 10 U.S.C.  2224, 2332; 13    technology security by Offices of
 U.S.C.  402; 15 U.S.C.  176a,     Inspector General.
 278g-3, 278g-4; 18 U.S.C.  207,
 209; 28 U.S.C.  1913 note; 31
 U.S.C.  503, 507; 40 U.S.C. 
 305, 502, 11331, 11332, 11501-
 11505, 11521, 11522; 41 U.S.C. 
 266a, 423; 44 U.S.C.  101 note,
 3501, 3504-3506, 3531, 3541-3549,
 3601-3606. (P.L. 107-347)
------------------------------------------------------------------------
Clinger-Cohen Act of 1996, 5 U.S.C.  Provides for OMB oversight of
  571 note, 5315; 5 U.S.C. App. 3    information technology development
  11, 11 note; 10 U.S.C.  1701     and acquisition, agency management
 note, 2220, 2249, 2302, 2304, 2304   of IT investments, and
 note, 2304e, 2305, 2305a, 2306a,     establishment of standards by
 2306 note, 2306b, 2315, 2323,        NIST.
 2324, 2350b, 2372, 2384, 2397,
 2397a-2397c, 2400, 2401 note,
 2405, 2409, 2410, 2410b, 2410d,
 2410g, 2424, 2431, 2432 note,
 2461, 2533, 2539b, 2662, 2702; 15
 U.S.C.  278g-3, 637, 644, 789;
 16 U.S.C.  799; 18 U.S.C.  281;
 22 U.S.C.  2761, 2761 note; 28
 U.S.C.  612; 29 U.S.C.  721; 31
 U.S.C.  1352, 1558, 3551-3554;
 38 U.S.C.  310; see 40 U.S.C. 
 11101-11103, 11301-11303, 11311-
 11318, 11331, 11332, 11501-11505,
 11521, 11522, 11701-11704; 41
 U.S.C.  10a note, 11, 15, 20a,
 20b, 22, 35 note, 43a, 43b, 44,
 45, 57, 251 note, 253, 253a, 253b,
 253l, 253m, 254b, 254d, 255, 257,
 264a, 265, 266, 401-434, 601, 605,
 612, 701; 42 U.S.C.  6392. (P.L.
 104-156)
------------------------------------------------------------------------
Reports Consolidation Act of 2000,   Encourages and authorizes report
 31 U.S.C.  3116, 3501 note,        consolidation; makes report
 3515, 3516, 3521. (P.L. 106-531)     formats more useful and
                                      meaningful; improves the quality
                                      of information reported; enhances
                                      the coordination and efficiency of
                                      such reports.
------------------------------------------------------------------------
Single Audit Act Amendments of       Requires that the Government
 1996, 31 U.S.C.  7501, 7501        Auditing Standards be followed in
 notes, 7502-7505. (P.L. 104-156)     audits of state and local
                                      governments and nonprofit entities
                                      that receive Federal financial
                                      assistance.
------------------------------------------------------------------------
Privacy Act, 5 U.S.C.  552. (P.L.   Places limitations on how Federal
 93-579)                              agencies collect, use, and
                                      disclose information about
                                      individuals (U.S. citizens and
                                      resident aliens). Gives
                                      individuals the right to have
                                      access to records maintained on
                                      them by agencies and the right to
                                      seek corrections to those records,
                                      subject to various exemptions.
------------------------------------------------------------------------
Freedom of Information Act, as       Holds the government accountable to
 amended, 5 U.S.C.  552. (P.L. 104-  the governed; it establishes a
 231)                                 statutory right, enforceable in
                                      court, for persons (individuals,
                                      corporations, etc.) to have access
                                      to Federal agency records, subject
                                      to certain exemptions.
------------------------------------------------------------------------
Whistleblower Protection Act, 5      Protects the rights of, and
 U.S.C.  1201, 1201 notes, 1202-    prevents reprisals against,
 1206, 1208, 1209, 1211, 1211 note,   Federal employees who disclose
 1212-1219, 1221, 1222, 2302, 2303,   governmental fraud, waste, abuse,
 3352, 3393, 5509 notes, 7502,        and other types of corruption or
 7512, 7521, 7542, 7701, 7703; 22     illegality.
 U.S.C.  4139.
------------------------------------------------------------------------
Health Insurance Portability and     Covers the privacy of individually
 Accountability Act. (PL 104-191)     identifiable information.
------------------------------------------------------------------------
Trade Secrets Act, 18 U.S.C.        Prohibits OIGs from disclosing
 1905.                                confidential proprietary data
                                      obtained during the course of
                                      conducting their work unless such
                                      disclosure is authorized by law.
------------------------------------------------------------------------
Federal Conflict of Interest Laws,   Establishes criminal prohibitions
 18 U.S.C. Sections 202-209.          for employees of the Executive
                                      Branch.
------------------------------------------------------------------------
                            Executive Orders
------------------------------------------------------------------------
Integrity and Efficiency in Federal  Establishes the PCIE and ECIE and
 Programs, Exec. Order No. 12805,     describes their functions and
 57 FR 20627 (May 11, 1992).          responsibilities.
------------------------------------------------------------------------
Administrative Allegations Against   The PCIE and ECIE Integrity
 Inspectors General, Exec. Order      Committee shall receive, review,
 No. 12993, 61 FR 13043 (March 21,    and refer for investigation
 1996).                               allegations of wrongdoing against
                                      IGs and certain staff members of
                                      OIGs.
------------------------------------------------------------------------
                                Standards
------------------------------------------------------------------------
Standards for Internal Control in    Establishes overall framework for
 the Federal Government, GAO/AIMD-    establishing and maintaining
 00-21.3.1 (November 1, 1999).        internal control and for
                                      identifying and addressing major
                                      performance and management
                                      challenges and areas at greatest
                                      risk of fraud, waste, abuse, and
                                      mismanagement.
------------------------------------------------------------------------
Government Auditing Standards: 2003  Establishes standards for
 Revision, GAO-03-673G (June 2003).   government audits.
------------------------------------------------------------------------
Quality Standards for                Establishes standards for
 Investigations, PCIE/ECIE            investigative efforts conducted by
 (September 1997).                    criminal investigators working for
                                      Federal Offices of Inspector
                                      General.
------------------------------------------------------------------------
Quality Standards for Inspections,   Establishes standards for
 PCIE (March 1993).                   inspections and evaluations
                                      conducted by Federal Offices of
                                      Inspector General.
------------------------------------------------------------------------
Standards of Ethical Conduct for     Establishes general principles for
 Employees of the Executive Branch,   ethical conduct of employees of
 5 C.F.R. Part 2635 (2003).           the Executive Branch.
------------------------------------------------------------------------
Statements of Federal Financial      Accounting principles for Federal
 Accounting Standards, Federal        Government reporting entities
 Accounting Standards Advisory        issued by the Federal Accounting
 Board (May 2002).                    Standards Advisory Board.
------------------------------------------------------------------------
Codification of Statements on        Auditing standards for financial
 Auditing Standards (Including        audits.
 Statements on Standards for
 Attestation Engagements), American
 Institute of Certified Public
 Accountants (2003).
------------------------------------------------------------------------
                OMB Circulars, Bulletins, and Guidelines
------------------------------------------------------------------------
Various OMB Circulars, Bulletins,    Establish requirements and
 and Guidelines                       guidelines for implementing:








------------------------------------------------------------------------
                             Other Guidance
------------------------------------------------------------------------
Guide for Conducting External        Provides guidance on conducting
 Quality Control Reviews of the       external quality control reviews
 Audit Operations of the Offices of   of OIG Offices of Audit.
 Inspector General, PCIE (February
 2002).
------------------------------------------------------------------------
Guide for Conducting Qualitative     Provides guidance on conducting
 Assessment Reviews for the           external qualitative assessment
 Investigative Operations of          reviews of OIG investigative
 Inspectors General, PCIE/ECIE        operations.
 (2002).
------------------------------------------------------------------------
GAO/PCIE Financial Audit Manual,     Provides guidance on conducting
 GAO-01-765G (July 2001).             financial statement audits.
------------------------------------------------------------------------
a Some OIGs are not components of an entity legally defined as a
  ``Federal agency.'' Therefore, some of the cited laws, regulations, or
  other guidance may not be directly applicable by law to all OIGs. In
  these cases, principles or concepts of the guidance may be adopted by
  the OIG entities as a matter of policy.

                              Appendix II
Members of the PCIE/ECIE Advisory Committee to Revise the Quality 
        Standards for Federal Offices of Inspector General
Robert McGregor, Chair
Federal Deposit Insurance Corporation

Emilie Baebel
Small Business Administration

David Berry
National Labor Relations Board

Patricia Brannin
Department of Defense

Helen Lew
Department of Education

David Long
Department of Health and Human Services

Peter McClintock
Small Business Administration

Jerome Persh
Department of Transportation
                                 ______
                                 
              National Aeronautics and Space Administration
                                Office of Inspector General
                                 April 1-September 30, 2004
                           Semiannual Report
From the Inspector General

    Since April 2002, when I became the NASA Inspector General, the 
Office of Inspector General (OIG) has undergone significant changes in 
its organizational structure and workforce. These changes are intended 
to improve our ability to root out crime, fraud, waste and abuse, and 
to promote economy and efficiency at NASA.
    Specifically, during this semiannual period the OIG has enhanced 
the management of the Office of Investigations by establishing a Deputy 
Assistant Inspector General for Investigations position at Headquarters 
and adding Resident Agents-In-Charge to our offices at NASA's larger 
Centers. In the Office of Audits we continued to implement the 
reorganization strategy created in April 2003 to improve and diversify 
the skill mix of the audit staff by hiring technical experts and 
management analysts. We also established an Office of Management and 
Planning to consolidate the management of our information technology 
services, strategic planning and development, budget, human resources, 
and administrative services.
    Throughout the transition, we have conducted meaningful work in 
both the Office of Audits and the Office of Investigations. This 
semiannual report reflects on some of our activities that resulted in 
published audit works, such as our assessment of the quality assurance 
process for the redesigned Solid Rocket Booster bolt catchers, and on 
results from our investigative work including indictments, 
prosecutions, and convictions for crimes relating to NASA.
    The semiannual report does not reflect some other work we are doing 
or have done to improve the Agency. For example, some of our Office of 
Audits activities this period have included monitoring various 
financial management, contract, and Return To Flight matters that do 
not necessarily fall within the parameters of announced audits and will 
not result in published reports. Also, investigative work often is not 
published due to privacy concerns and a desire to maintain 
confidentiality of sources and investigative techniques. We also 
frequently answer Congressional inquiries or provide information to 
Congressional oversight committees on matters of interest to the 
Legislative Branch, and these activities often do not involve the 
generation of public reports.
    Although our work may not always result in a published report, we 
do not hesitate to present our independent views to the Agency on a 
broad range of topics. The use of alternative communication strategies, 
such as formal and informal briefings, allows the OIG to inform the 
Agency of critical matters in real-time so management can take action 
before issues become problematic.
Allegations of Reprisal and Whistleblowing
    In this semiannual period, the OIG dedicated a significant amount 
of time and resources investigating allegations of reprisal against 
NASA and contractor employees for raising safety and other concerns. In 
fulfilling the office's overall mandate, the OIG can and does look at 
whatever matters it thinks most important to protect the taxpayers' 
investment in NASA, which may include examining whether management 
fairly addresses concerns raised by employees on myriad topics.
    In the wake of the Space Shuttle Columbia accident, a perception 
arose that NASA culture at times has muted the free flow of 
information. The OIG is trying to assist the Agency in ensuring that 
the NASA workplace encourages the free flow of information, especially 
pertaining to safety, and that those who conscientiously raise issues 
are protected from reprisal. While the OIG does not have the authority 
to undo personnel actions taken as reprisal, the OIG can be an advocate 
to the NASA Administrator to seek redress where appropriate and report 
to Congress on Agency activity. (The independent agency vested with the 
responsibility to protect civil service whistleblowers is the Office of 
Special Counsel [http://www.osc.gov].)
    Whistleblower matters are often difficult to untangle because they 
involve professional disagreements and personality conflicts. The OIG 
often relies on sources, including confidential and anonymous sources, 
to conduct its business. Sources may surface fraud, waste and abuse, 
violations of law, safety issues, and ways of improving the Agency. 
However, sometimes after conducting an investigation or audit, our 
office is unable to validate a source's statements. Notwithstanding the 
challenges associated with these matters, the OIG believes it plays an 
important check and balance to Agency action. To reflect our views, we 
published a white paper, Handling Disagreement with Superiors' 
Decisions and Whistleblowing, which can be found on our Website at 
http://www.hq.nasa.gov/office/oig/hq/whistleblower.pdf.
Peer Review
    During this semiannual report, under the purview of the President's 
Council on Integrity and Efficiency (PCIE), our Office of Audits 
completed a time-consuming and expensive review of the Department of 
Treasury OIG's Office of Audits, and the Department of Justice OIG 
finished its peer review of the NASA OIG Audit program. The peer 
reviews conducted were compliance audits that determined whether audit 
policies comply with government auditing standards and if audits are 
conducted in accordance with those policies, but did not determine 
whether the audits were meaningful or timely. The peer-review 
compliance audits, while useful for their intended purpose, are not 
designed to determine whether the taxpayers' money is being used 
economically or even appropriately.
    My office has made recommendations to the PCIE Audit Committee and 
its workgroup on peer-review standards that they revise the standards 
to include steps to assess the economy, efficiency, and timeliness of 
OIG audits. We will continue to advocate overall improvements in the 
OIG audit peer-review process.
    This report fairly summarizes the activities of the NASA Office of 
Inspector General during the reporting period.
                                            Robert W. Cobb,
                                                 Inspector General.
                                 ______
                                 
Excerpts From Transcript of Interview of Hon. Robert W. Cobb, Conducted 
    by Office of Inspector General, Department of Housing and Urban 
  Development, June 27, 2006 (pages 40, 44, 54, 78, 94, 98, 104, 106, 
                               114, 125)
Page 40
    A. I don't know.

    Q. You don't recall?
    A. Not me.

    Q. You don't know?
    A. I don't know. If I'm right in saying Jackie Arends was the 
person in the Office of Presidential Personnel whom I was dealing with, 
whether she or someone else made the arrangements, I do not know.

    Q. OK. The interview was with whom?
    A. Sean O'Keefe.

    Q. When did that interview take place?
    A. I have a date in mind. Whether it is right, I don't know. 
February 6, 2002.

    Q. Where did the interview take place?
    A. In his office.

    Q. And that would be NASA headquarters?
    A. Yes.

    Q. Other than--had you met Mr. O'Keefe prior to this interview at 
NASA headquarters?
    A. I do not believe that I had ever met him before that meeting. My 
recollection is that I don't--that I did not meet him before that 
meeting.

    Q. OK.
    A. I may have had a phone conversation with . . .
Page 44
    . . . for integrity, my reputation for having done a first class 
job in connection with my duties at the Office of Government Ethics for 
9 years, that all of my supervisory chain at the Office of. Government 
Ethics had found me to be an outstanding employee, and any one of them, 
whether it is Marilyn Glenn, Steve Potts, Gary Davis, any of the people 
I work for would have given me a complete recommendation that the 
counsel to the President, Al Gonzales, that Tim Flanigan, Deputy 
Counsel to the President, my colleagues in that office, the people in 
the Office of Presidential Personnel, the chief of staff----

    Q. I would like him to be allowed to finish his answer.
    A. That Mr. O'Keefe being a person who was working in the 
Administration when seeking a person who had the highest levels of 
integrity in questions with the execution of the job, that when he 
asked around, it might have been that many fingers pointed in my 
direction. He reached a conclusion based on that that I would be a 
perfect person to conduct the independent Office of Inspector General 
activities.
    Which I note with some frustration we have yet begun to talk about.

    Q. If I understand your response correctly, .  .  .
Page 54
    . . . I don't recall, if there was such a conversation, it was not 
one that I rated as memorable. In other words, I don't recall it. Am I 
saying it didn't happen? No. I'm not saying it didn't happen. I don't 
recall it.

    Q. You have no knowledge or recollection of Mr. Stadd approaching 
you at the behest of Mr. O'Keefe to ask whether or not you would be 
interested in the position as Inspector General of NASA?
    A. I don't remember that conversation. I'm not denying whether it 
ever happened or not.

    Q. How about Mr. Saleeba? Did you ever have any such conversation 
with Mr. Saleeba?
    A. I don't believe so. I mean, I--again, I met with the both of 
them. My recollection as to what the content of that meeting was, was 
about Roberta Gross, her execution, position, what the legal--the legal 
standard was for removal.

    Q. Did they state to you why she was being removed or what the 
reason for her removal was?
    A. They stated they had a number of concerns about her performance 
as Inspector General.

    Q. Do you recall what those concerns were?
    A. Not specifically. Other than the overall . . .
Page 78
    . . . than 3 years.
By Ms. Bahr:

    Q. OK.
    A. From April of 2002 to February of 2005.

    Q. I forgot to take into account that you came in after--all right. 
My mistake.
    A. I took--and with substantial discussion with my--again, I have a 
collaborative style of conducting business. I asked for Frank LaRocca's 
opinion. I asked for whoever my senior staff's opinions in connection 
with activities.
    I don't always do what they say. We talk about it. I do what I 
think is right and--you know--the--that's the way I conduct business. 
In terms of my relationship with Sean O'Keefe, you know, I'd say we had 
a very good, professional working relation where if I thought there was 
an issue that he had to be concern about, I had no difficulty or 
problem communicating to him.
    I tried to have as much contact with him as his schedule could 
tolerate. It made it so that I could be best informed as to what the 
issues of the day were at NASA.
    I was not a person who came to senior management meetings 
typically. I was not a regular . . .
Page 94
    A. If you have specific examples, it would be easier to talk about 
it.

    Q. I agree with you complete frequently. I think there will be 
points later in the interview here we'll be able to do that.
    Let's go back to the relationship between you as the Inspector 
General and the agency administrator.
    You noted that you on approximately two occasions recall golfing 
with Mr. O'Keefe?
    A. Yes.

    Q. That would have been at his home in Virginia, correct?
    A. Yes.

    Q. Leesburg, I believe, Belmont?
    A. Yes.

    Q. Aside from that, did you have any other contact outside of the 
office, outside of NASA headquarters or NASA center a NASA facility 
whether you want to characterize it as social or business, were there 
other contacts?
    A. In what time-frame.

    Q. During the period that--how about let's start with prior to you 
becoming the Inspector General . . .
Page 98
    . . . Understanding, going down, looking at every one of 
facilities, going to a launch.
    I went to a launch in Bykanor, Russia, and let me tell you I 
learned more about NASA and the manner in which it does business by 
going to Russia and attending a launch in Bykanor which is the rockets 
launched from the same facility that Sputnik went off in 1959 and 
looked to me like there hadn't been any improvement since then, you 
know----

    Q. What other functions outside of NASA do you recall attending 
with Mr. O'Keefe or where Mr. O'Keefe was in attendance?
    A. During the time that he was----

    Q. That he was the administrator, yes.
    A. Again, you know, I'd say there are any number of instances. He 
never came to my house. I went to his house after we played golf. I 
don't know if there were any instances where I went to his house. I 
can't recall any.
    You know----

    Q. Aside from your--I believe you said weekly lunches at NASA 
headquarters with Mr. O'Keefe, did you ever have lunch or dinner 
outside of NASA together?
    A. Alone with Sean O'Keefe, me and him again . . .
Page 104
    Ms. Bahr. I'm sorry to interrupt you, but there will be a line of 
questioning later where I think it would be more appropriate to address 
this. If for the moment we could go back to just what kind of 
interactions you had with Mr. O'Keefe, that would be most helpful.
    The Witness. Your last question was what prompted that instance 
where I can recall having a drink with Mr. O'Keefe. I think--I can 
recall one other instance where that happened. It wasn't with just 
O'Keefe. It was with other persons on his staff. That was where I had 
been told that I was going to be appointed as the Inspector General to 
the Coalition Provisional Authority.
    I think that--I'm not positive. I think that he might have invited 
me to have a drink relating to that at that time.
By Ms. Bahr:

    Q. Did he recommend you for that post?
    A. I have no idea.

    Q. Do you know how you came to be suggested for the post? Or---
    A. I believe it was because for all those reasons that I was 
appointed to be the NASA Inspector General, that the people that I had 
worked with in . . .
Page 106
    . . . that you recall having some contact outside of NASA in a 
social setting?
    A. Well, again, there were many times where there were--there were 
meetings that took place. I remember there was a--there was a Shuttle 
upgrade conference which I attended. While at the Shuttle upgrade 
conference, which was either at Stennis or Michaud, which is the tank 
production facility in eastern Louisiana----

    Q. How do you spell that?
    A. M-i-c-h-a-u-d. But I'm probably misspelling it because I haven't 
spelled it before.

    Q. Stennis would be S-t-e-n-n-i-s?
    A. Right.

    Q. OK.
    A. I remember running into O'Keefe. We went over to Stennis for an 
event over there. It was a crayfish bake that he attended. I remember 
going to that on the premises of the Stennis Space Flight Center.

    Q. But there were other NASA officials or senior staff members in 
attendance; is that correct?
    A. Yes. And it might be that when we were attending those types of 
events, that there was interaction, social interaction, in effect, 
after---- . . .
Page 114
    A. Ten. I'm guessing. Five. More than five. Less than 15 would be 
my guess.

    Q. OK. In reviewing the records primarily your calendar and other 
records, I think we came to the determination there were 13 instances 
during the period that he was NASA administrator?
    Mr. Sollers. Pretty good.
By Ms. Bahr:

    Q. Generally what was the purpose of flying aboard the NASA 
aircraft, official aircraft, and was it always with Mr. O'Keefe there? 
Were there occasions when he wasn't aboard the aircraft?
    A. I would say there would be a number of different reasons for why 
I might be on the NASA aircraft. But I'd say that fundamentally, I had 
an intent and whatever the reason for the intent was to, go to 
someplace that the NASA plane was going and took the opportunity either 
at my request or O'Keefe's request or whoever as an indication of 
availability to travel in that manner for a number of different 
reasons.
    After substantial discussion with, as I've mentioned before, I have 
a collaborative relationship with my direct reports. This would be the 
kind of thing I would talk with them about.
Page 125
    . . . going.

    Q. In every instance?
    A. Yes. I never requested that there be a NASA flight to take me 
someplace. In other words, never was the originator of a request for a 
flight that independent of something else that was going on. I might 
have asked whether or not I could go on a flight, which I believed 
would already be going to a certain locale.
    Is there space available on the plane for me to go?
    Yes, there is space available. Great. I'll go get on that plane. No 
cost. No additional cost to the government as far as I know. Now maybe 
there were instances where somebody was going on the plane but because 
I asked whether or not or was invited that they didn't get a seat on 
the plane and had to go commercial. That's a possibility.
    But my assumption is there can be plenty of instances where--you 
know--I occupied a seat and saved the government money by virtue of my 
occupying it.

    Q. OK.
    A. As far as the appearance issue, Steve Spratt, good guy be 
dedicated Federal servant, if he . . .
                                 ______
                                 
Excerpts from Record of Investigation of Hon. Robert W. Cobb, Office of 
Inspector General, NASA, August 30, 2006 (pages 49-54, 59, 140-142,195-
                  197, 206-217, 222-225, 231, 266-271)
Pages 49-54
    Allegation 8--Inspector General COBB squelched a finding on the 
Audit of Barters on the International Space Station Program after 
conferring with Paul Pastorek (Pastorek), former NASA Legal Counsel.
Investigative Findings
    Former Audit Director Dennis Coldren submitted a complaint to the 
Integrity Committee of the President's Council on Integrity and 
Efficiency (Exhibit 8). On February 22, 2006, Coldren was interviewed 
(Exhibit 25). During the interview, Coldren provided an e-mail sent 
June 7, 2002, from Pastorek, to COBB regarding the Barters on the 
International Space Station Program Audit (Barters Audit).
    In the e-mail, Pastorek tells COBB that there are two points in the 
Barters Audit about which he would discuss when they meet. 
Specifically, Pastorek noted in the e-mail that he wanted to discuss 
restricting the circulation of the Barters Audit because he had been 
advised by John Schumacher (Schumacher), NASA Associate Administrator 
for External Relations, that disclosure of the audit report findings, 
as was originally contemplated, would lead to showing foreign 
governments NASA's hand. Second, Pastorek stated he wanted to discuss 
his concern the audit report mentioned the possibility that NASA may 
have been in breach of their agreements with foreign countries if they 
took certain actions. Relative to that breach, Pastorek stated in his 
e-mail to COBB, ``I question the conclusion and I would like to see the 
analysis. I am doing my own analysis and so far cannot understand such 
a conclusion.''
    Coldren stated that ultimately, through their chain of command 
[Alan Lamoreaux, former Assistant Inspector General for Audit and Kevin 
Carson, former Audit Director] the auditors who worked on the audit, 
James Griggs, Auditor-in-Charge and Barbara Moody, Auditor, were 
instructed to remove all audit findings from the. Barters audit report, 
and include only the audit findings reported under the heading of 
``other matters of interest.'' This effectively removed four pages of 
audit findings, and left roughly one paragraph detailing the findings 
relative to other matters of interest.
    A review of the contents of April 2002 draft report's ``Other 
Matters of Interest'' section, which consisted of four pages, to the 
September 6, 2002 final report's ``Other Matters of Interest'' one 
paragraph, which was moved to the Executive Summary, was conducted to 
make a determination if there were substantive changes from the draft 
to the final report. In addition, work papers were reviewed.
Draft Report
    ``NASA risks noncompliance with its intergovernmental agreement and 
Memorandums of Understanding if the Agency does not deliver the 
Habitation Module and the Crew Return Vehicle. The intergovernmental 
agreement and Memoranda of Understanding require NASA to supply a 
Habitation Module to support four crewmembers and a crew rescue vehicle 
to support the rescue and return of a minimum of four crewmembers. NASA 
has complied with the International Space Station (ISS) bartering 
agreements. However, because of ISS cost overruns and budget 
constraints, NASA reduced the ISS crew capability from seven to three. 
If NASA retains the reduced crew configuration, the Agency would be in 
noncompliance with the international agreements. Therefore, the 
agreements may need to be renegotiated, and NASA would likely be forced 
to assume a greater share of costs.''
Final Report
    ``. . . As a result, NASA deferred certain elements considered high 
risk, such as the habitation module and the crew return vehicle. If no 
alternatives are provided, the absence of the deferred elements will 
limit the permanent ISS crew to three. NASA and the international space 
agencies negotiated two ISS bartering agreements based on a percentage 
of utilization rights contemplated with a seven-person crew 
configuration. To the extent that the two bartering agreements may be 
affected by a reduction in planned on-orbit resources, NASA should 
coordinate with the affected partner.''
    Result of Review: The finding in paragraph one of the Draft Report, 
``NASA risks noncompliance with intergovernmental agreements'' was not 
present in the final report.
    On May 31, 2006, Pastorek was interviewed (Exhibit 138). Pastorek 
fielded a number of questions regarding the sharing of IG Audit 
reports. Specifically, a pre-draft of the NASA OIG Audit report on 
International Agreements/Bartering for the Space Station that COBB may 
have shared with him. Pastorek stated the IG frequently advised the 
Administration about upcoming. audits but that Schumacher or Jason 
(Jay) Steptoe, Associate General Counsel, NASA, would have handled any 
details. His only concern with this audit was that if too much 
information was in the report, NASA might destroy their negotiating 
position with foreign countries. Furthermore, Pastorek said the IG used 
a hypothetical situation to criticize NASA rather than using facts and 
the took issue with that type of audit.
    Allegation 9--The substance of the audit report and recommendations 
was changed on an audit regarding the Independent Technical Authority 
and Safety and Mission Assurance.
Investigative Findings
    On March 10, 2006, [redacted] was interviewed (Exhibit 41) based on 
information he provided to Senator Bill Nelson [Florida], which was 
forwarded to HUD OIG by the Integrity Committee of the President's 
Council on Integrity and Efficiency (Exhibit 7). During the interview, 
[redacted] stated there are several examples where Inspector General 
COBB has directly changed the substance of a report.
    On April 18, 2006, a confidential source identified as T-6 was 
interviewed (Exhibit 57). Regarding the Independent Technical Authority 
(ITA) and Safety Mission Assurance (SMA) audit, assignment number A-04-
004-00, T-6 provided the following information. After the Columbia 
Accident Investigation Board (CAIB) report was issued, 14 of the 29 
recommendations made had to be addressed before NASA could ``fly 
again.'' [redacted] several recommendations to audit, and to ensure 
that NASA was making the corrective actions. Part of the issue was the 
SMA group reported to the Center Director, who reported to the Mission/
Program Director. Therefore, the very people that the SMA group was 
supposed to be overseeing were the same people they reported to and 
received funding from. T-6 stated that the bottom line was the safety 
staff was not independent, and NASA needed to change the organizational 
structure. GAO and an independent study found this issue as well. T-6 
stated the audit team cited this in their draft audit report, and made 
recommendations, however, Inspector General COBB changed the report and 
the recommendations. In April 2005, Michael Griffin (Griffin) became 
the NASA Administrator. The first thing Griffin did was realign the 
Center Directors. Griffin made the change the audit team had 
recommended; the same change the audit team had been trying to convince 
COBB of over the previous year.
    The first attempt to issue the above report was in December 2003. 
COBB sent a memo to NASA management, instead of an audit report with 
recommendations. Afterwards COBB [redacted] did not receive a response 
[redacted] COBB replied, ``Well then the next thing we issue will not 
be a willy-nilly memo.''
    The second attempt to issue a report was in March 2004. The audit 
team drafted a management letter with four recommendations. COBB 
reviewed the draft and made changes. Some of the changes the audit team 
did not know how to reference. Suddenly, COBB advised they had to issue 
something within the next day. On April 5, 2004, instead of issuing a 
management letter COBB sent an e-mail to NASA management. What had 
initially started as a management letter with four recommendations 
ended up as an e-mail with no recommendations.
    The third attempt to issue a report ``fizzled, and did not go 
anywhere.'' This was around August 2004. [redacted] were still trying 
to make the changes COBB wanted. At the same time they wanted to 
address the concerns the audit team had. T-6 stated nothing was issued 
this time.
    The fourth attempt to issue a report was in October 2004. NASA 
appointed Walt Cantrell (Cantrell), NASA Deputy Chief Engineer, to come 
up with a plan to implement the Columbia Accident Investigation Board's 
(CAIB) recommendations. On October 15, 2004, COBB sent Cantrell an e-
mail referencing the audit. COBB sent the e-mail without the audit 
team's review. This time, T-6 stated the audit team did not have 
concerns about the content of COBB's e-mail.
    In November 2004, NASA issued a new plan. COBB asked the audit team 
to review it. In January 2005, the audit team briefed Evelyn Klemstine 
(Klemstine), the new Assistant Inspector General for Audit. The audit 
team told Klemstine, ``At this point you might as well shut down the 
assignment because COBB is not going to issue anything.'' Klemstine did 
not close the assignment The audit team drafted a report in March 2005, 
titled ``NASA's Technical Authority and Safety and Mission Assurance 
Lack Total Autonomy.'' In May 2005, the discussion draft was issued 
with one recommendation. In August 2005, the final report titled 
``Risks Associated with NASA's Plan for Technical Authority and Safety 
and Mission Assurance'' was issued with no recommendation.
    During the interview with [redacted] on March 10, 2006, Carson 
specifically mentions this ITA and SMA audit (Exhibit 41). According to 
[redacted] COBB told [redacted] ``You guys have been on this for a year 
and have nothing to show for it.'' [redacted] was in this meeting and 
said nothing. [redacted] said they had written several reports, but 
COBB would not issue them. COBB told [redacted] ``was missing the 
message.'' One of the recommendations [redacted] draft report was to 
eliminate the warrant holders from having to report to the Center 
Directors. COBB told [redacted] ``You don't know what you are talking 
about in the recommendations.'' [redacted] recommendation was ``right 
on'' because when Griffin became the new NASA Administrator, Griffin 
made the change to NASA that [redacted] recommended in his audit 
report.
    On April 19, 2006, [redacted] was interviewed (Exhibit 62). 
[redacted] reported an audit was conducted on NASA's SMA and ITA. 
[redacted] said the team had an issue with how the ITA reported up the 
NASA chain of command. The audit team recommended moving the ITA out of 
the SMA Directorate and having ITA personnel report directly to the 
NASA respective Center Directors. [redacted] said COBB did not agree 
with the audit team's recommendation. [redacted] advised the audit was 
conducted prior to Griffin's appointment to the position of NASA 
Administrator. [redacted] stated shortly after Griffin became NASA's 
Administrator, be independently implemented the audit team's 
recommendations.
    On June 15, 2006, NASA OIG [redacted] was interviewed. (Exhibit 
157). [redacted] mentioned the ITA Audit [redacted] recalled that the 
``auditors were very frustrated that COBB was not using the normal 
techniques to report the results of the audit'' COBB would converse 
with NASA management and sometimes the findings and recommendations 
were not tracked. In his past experience with the NASA OIG, the process 
was a more ``rigid structure.'' [redacted] stated, ``Perhaps it's a 
better way to get quick responses or information to NASA, but if you 
don't keep track, how do you know if you are making a difference.''
    On June 19, 2006, [redacted] was interviewed (Exhibit 163). 
[redacted] stated that the ITA audit report was a good example of a 
report that COBB changed. She stated she would not have ``gone down the 
same route'' as COBB on this audit. She believes COBB's version of the 
report was ``wishy-washy'' and ``watered down.'' [redacted] stated that 
there was a clear articulation of the issues in the draft audit report. 
By the time the report was finally issued, the findings in the report 
were ``overcome by events.'' Meaning in this case, the audit was 
ongoing for years, and by the time they were finally ready to issue a 
report, Griffin became the NASA Administrator, and made the changes the 
audit team was trying to recommend in the audit report.
    A review of COBB's e-mails found an e-mail from COBB to Bryan 
O'Connor, Associate Administrator, Office of Safety and Mission 
Assurance, NASA, dated March 17, 2004. In the e-mail, Associate 
Administrator O'Connor thanks COBB for coming by last night and 
restates his thoughts on the draft audit report. The last paragraph in 
the e-mail states, ``Moose, in summary, I cannot agree with either of 
your two recommendations because I have such a problem with your three 
conclusions. Do we need to talk some more?'' The timing of this meeting 
corresponds with the second attempt to issue a draft audit report, as 
discussed above in the interview with T-6.
    On June 29, 2006, COBB was interviewed (Exhibit 182). COBB was 
asked about this audit, and his response to the allegation is located 
on page 403, line 14 through page 404, line 16 of his interview 
transcript. COBB stated:

        Q. How about on the independent technical authority audit 
        report? One of your senior staff members stated that it was a 
        good example of you changing a report, but they wouldn't have 
        gone down the same route as you. Subjective, but that your 
        version of the report was ``wishy washy'' and ``watered down''?

        A. I would say in connection with what I recall that staff 
        presented to me on a number of occasions, that the--their--what 
        their articulation of what was going on in connection with the 
        independent technical authority was inconsistent with the facts 
        and to such a point that that was a circumstance where the 
        communication by me to the agency in, I believe, it was 
        December of 2003 was a product generated mostly by myself with 
        some benefit of--and Tom Howard is not enthusiastic about the 
        front office generating, but it was an issue with which I had 
        substantial familiarity by virtue of my participation in the 
        Columbia Accident Investigation Board, my involvement in the 
        Aerospace Safety Advisory Panel, considerations of issues, my 
        personal discussions with a number of officials throughout NASA 
        on independent technical authority issues.

    So I had some comfort with what I articulated in that letter. As 
compared to the discomfort I had With the product that had been 
generated by staff.
    Allegation 10--Inspector General COBB stifled the publication of 
audit findings for an audit regarding Wind Tunnel Utilization.
Investigative Findings
    On March 15, 2006, a confidential source identified as T-3 was 
interviewed to obtain information regarding allegations HUD OIG 
received from the Integrity Committee of the President's Council on 
Integrity and Efficiency (Exhibit 44). During the interview, T-3 
stated, ``COBB stifled the publication of audit findings,'' and 
provided several examples.
    T-3 supervised audit assignment A-03-007-00, Wind Tunnel 
Utilization. Work was performed at Ames Research Center (ARC), Glenn 
Research Center, and Langley Research Center. The audit disclosed that 
ARC violated Office of Management and Budget policy by failing to bill 
private users the full cost of using the wind tunnels. Therefore, ARC 
was improperly subsidizing private industry, like Boeing. According to 
T-3, ``The front office told me to drop the finding from the report.'' 
There were several other findings included in the draft report, 
however, none of them were as important as the full cost/subsidy 
finding. T-3 believes a finding like this would have embarrassed the 
Bush Administration because subsidies have been an issue between the 
U.S. and Europe.
    T-3 recalled attending a meeting in which ``COBB became so angry, 
he was practically spitting.'' T-3 believed this meeting was in regards 
to the wind tunnel issues, and took place in June 2003, in the 
conference room at NASA Headquarters. T-3 recalled that he, Deputy 
Inspector General Thomas Howard, former Assistant Inspector General for 
Audits (AIGA) David Cushing, and COBB were all in attendance. T-3 
stated that COBB made unprofessional comments about the audit and the 
work that had been completed. COBB said that the audit staff had not 
done enough work to support the conclusions they were making in the 
audit.
    T-3 said that COBB then agreed to look into the subsidy/wind tunnel 
issue in a later audit. The audit was subsequently initiated in January 
2005 [Audit Assignment A-05-010-00]. T-3 stated this audit is currently 
in process, but it looks like COBB will not issue this report either.
    For this second wind tunnel assignment, Audit Assignment A-05-010-
00, a memorandum was issued on June 1, 2006, to NASA. The memorandum 
stated the OIG was closing the subject assignment because significant 
changes in the management of NASA's wind tunnels have invalidated the 
OIG's initial work.
    On June 19, 2006, AIGA Evelyn Renee Klemstine (Klemstine) was 
interviewed (Exhibit 163). Klemstine stated if certain auditors forward 
reports to Headquarters ``there is going to be problems.'' It would not 
matter whether the audit or the report was the best, it would never be 
good enough. For example, if she forwards a report from Supervisory 
Auditor David Gandrud (Gandrud), it will not go through. This happened 
on the ``Wind Tunnel'' audit report written by Gandrud [Audit 
Assignment A-05-010-00]. Klemstine thought the second version of the 
report was good, however, COBB kept re-writing it over the next 6 
months. By the time COBB was ready to issue the report, the report had 
no meaning because the findings were ``overcome by events.'' Klemstine 
stated had the second version been issued, the report would have been 
timely and relevant.
    Allegation 12--The number of audits has decreased and NASA OIG is 
not issuing as many reports as they used to.
Investigative Findings
    HUD OIG interviewed several current and former NASA OIG employees 
to obtain information regarding allegations received from the Integrity 
Committee of the President's Council on Integrity and Efficiency. 
During several of these interviews, the following allegation was 
raised: ``The number of audits have decreased and NASA OIG is not 
issuing as many reports as they used to.''
    A review of the number of audit reports and memorandums in NASA 
OIG's Semiannual Reports to Congress and the Office of Audits Central 
Information System (OACIS) from FY 2000 to FY 2006 was conducted 
(Exhibit 184). The results are indicated below:

------------------------------------------------------------------------
 Fiscal Year     Audit Reports        Memorandums       Audits  Closed
------------------------------------------------------------------------
2000                         62                   0                   1
2001                         40                   0                   8
2002                         30                   0                   0
2003                         29                   3                   8
2004                         26                   7                   6
2005                         29                   2                   7
  2006*                       7                   9                   2
------------------------------------------------------------------------
* As of 1st semiannual reporting period.

    On June 27 and 29, 2006, Inspector General Robert Watson (Moose) 
COBB was interviewed (Exhibit 182). COBB addressed the allegation 
during his interview, and his response begins at page 346, line 13 of 
his interview transcript. COBB stated, in part:

    Q. While you were inspector general, to the best of your knowledge, 
do you know if the number of audits and audit reports have increased, 
decreased, remained the same?
    A. I don't know, but I can tell you--

    Mr. Sollers. You mean like on an annual basis?
By Mr. Febles:

    Q. The semiannuals that you provide? Have they gotten thicker? 
Thinner?
    A. The thickness of a semiannual is separate from the issue that 
you articulate.
Pages 140-142
    Allegation 34--Inspector General COBB, in his e-mail correspondence 
with former NASA Administrator Sean O'Keefe (O'Keefe), might have 
inappropriately released law enforcement sensitive information.
Investigative Findings
    On January 31, 2006, and April 24, 2006, [redacted] was interviewed 
(Exhibits 19 & 75, respectively) regarding [redacted] complaint to the 
Integrity Committee of the President's Council on Integrity and 
Efficiency, which was forwarded to HUD OIG (Exhibit 1). [redacted] COBB 
does not conduct business independently or carry out his duties in an 
impartial manner. [redacted] heard that COBB and former NASA 
Administrator O'Keefe were close.
    A review was conducted of e-mails retrieved from the Microsoft 
Exchange government account of COBB (Exhibit 24). In one e-mail, it was 
determined COBB notified senior NASA management officials of impending 
search warrant executions and the existence of an undercover operation. 
The subject e-mail, dated June 16, 2004, was sent from COBB to O'Keefe. 
COBB's e-mail, titled ``Re: bad parts case,'' states in part:

        ``fyi. Working with FBI and Defense Criminal Investigative 
        Service and the Department of Justice, we have been involved in 
        an undercover operation targeting suppliers of bad parts to 
        NASA among others, including bad parts for Station, Shuttle and 
        NASA aircraft. Search warrants are going to be served on six 
        companies over the next couple of days. The names of the 
        suppliers are not household names, and typically involve 
        subcontractor suppliers. We have been involved in a number of 
        similar investigations and, unfortunately, suppliers often 
        represent that parts they are supplying meet specs when they do 
        not. Sometimes the misrepresentation is made knowingly and 
        intentionally. Serving of warrants is sometimes noticed by the 
        media. Please keep close hold. I have sent this message to 
        [redacted] and Pastorek.''

    Special Agent [redacted] reported the investigation mentioned in 
the subject e-mail referred to a joint NASA OIG investigation with the 
Federal Bureau of Investigation (FBI), on a government contractor, 
``Max's Marketplace'' (NFI) (Exhibit 125).
    On May 22, 2006, Special Agent [redacted] FBI, Huntsville Resident 
Agency, Alabama, and [redacted] FBI, Huntsville Resident Agency, were 
interviewed (Exhibit 125). [redacted] confirmed the subject of the case 
is Max's Marketplace and a number of other government contractors, 
involved in the production of substandard NASA parts. In June 2004, his 
office, together with NASA OIG, executed six simultaneous Federal 
search warrants throughout Alabama. [redacted] advised that 
approximately one-month prior to the execution of the search warrants, 
his office held a massive operations briefing at a hotel in Huntsville. 
Approximately 50 law enforcement officers involved in the executions 
were present. [redacted] stated neither O'Keefe, Paul Pastorek 
(Pastorek), former NASA General Counsel, nor Glen Mahone (Mahone) 
Assistant Administrator for Public Affairs, NASA, were invited to, or 
were present at, the operations briefing.
    The search warrants, as per Straub, were obtained in coordination 
with David Estes, Assistant United States Attorney (AUSA), Northern 
District of Alabama. Prior to seeking the search warrants, NASA OIG 
placed one of their agents undercover to order parts from the various 
contractors.
    Ponzo stated, ``As I recall O'Keefe was the guy in charge of NASA 
at the time we did the search warrants.'' Ponzo felt that notifying 
O'Keefe might have been a protocol in the ``NASA chain of command.'' 
Ponzo went on to state that in his estimation, NASA OIG making a 
notification to O'Keefe would be ``no different'' than his office 
notifying the FBI Director's Office in Washington, D.C.
    Ponzo stated he was not familiar enough with the reporting 
requirements between the two agencies to comment as to whether COBB's 
actions were inappropriate. However, Ponzo was ``definitely concerned'' 
with COBB's notification to Mahone, in the NASA Public Affairs office. 
According to Ponzo, his office is required to direct any press related 
inquiries to the assigned AUSA.
    On May 30, 2006, O'Keefe was interviewed (Exhibit 137). O'Keefe 
stated typically COBB would not brief him on criminal cases. It would 
be ``very unusual'' if COBB were to brief him on criminal matters. 
O'Keefe recalled one occasion when COBB briefed him on the status of 
criminal charges against a NASA employee who viewed pornographic 
material on a government computer. O'Keefe did not recall ever being 
briefed by COBB on the status of upcoming NASA OIG search warrants or 
undercover operations.
    On May 31, 2006, Pastorek was interviewed (Exhibit 138). Pastorek 
noted there were rare occasions when he received a telephone call from 
COBB advising him of the arrest of a NASA employee. He believes this 
was done in an effort to afford NASA the ability to prepare should they 
receive a query from the news media. Pastorek was not given details of 
the event; merely that it was going to take place later that day.
    On June 28, 2006, Deputy Inspector General Thomas Howard (Howard) 
was interviewed (Exhibit 185). Howard was asked about NASA OIG 
notifying NASA management in advance of search warrant operations. 
Howard's testimony is covered on pages 57 through 66 of the interview 
transcript, and he stated, in part:
    Special Agent Bahr. OK. His relationship, Mr. Cobb's relationship, 
with Mr. O'Keefe, did it affect Mr. Cobb's ability to maintain his 
independence and impartiality as the NASA OIG?
    Mr. Howard. No. None whatsoever.
    Special Agent Bahr. You never saw any indication of that? Never had 
any reason to question it?
    Mr. Howard. No. No.
    Special Agent Bahr. OK. Did Mr. Cobb brief Mr. O'Keefe on or NASA 
senior management on NASA OIG, ongoing NASA OIG audits or 
investigations?
    Mr. Howard. As I said, if during these meetings we thought there 
was something that warranted his attention, yes.
    Special Agent Bahr. OK. How about on the investigation side of the 
house, what information, if any, would Mr. Cobb ever share with Mr. 
O'Keefe or anyone else on the NASA senior management?
    Mr. Howard. If there were a search warrant executed, once we got 
word from the--through the investigative staff that the search warrant 
had been executed, if it was on NASA property, we would generally give 
Mr. O'Keefe a heads up and sometimes the affected----
    Special Agent Bahr. Center director or----
    Mr. Howard. Center director or mission head. Yes, it's a convoluted 
organization at NASA. So that was primarily--generally, in our policy, 
which I believe is still in writing was that essentially, the SAC would 
be responsible for notifying the Center director and that's a--that was 
a particularly sensitive issue because at the NASA Centers--I think at 
all, if not most--the guards are armed.
    And so the--you know, just from a safety standpoint, we felt that 
the need--if we were going to be armed and making arrests that we 
needed to have some, coordination so that they would understand what 
was happening.
    Special Agent Bahr. Between armed personnel and NASA OIG agents?
    Mr. Howard. Yes. Yes.
    Special Agent Bahr. And the security officers?
    Mr. Howard. Yes.
    Special Agent Bahr. These advisements of perhaps Mr. O'Keefe or any 
of the Center Directors or you referred to another----
    Mr. Howard. The mission directors. Essentially, the----
    Special Agent Bahr. Mission directors.
    Mr. Howard.--heads of the major groups in headquarters.
    Special Agent Bahr. So the advisements relative to the execution of 
search warrants this always took place after the warrants had been 
executed----
Pages 195-197
    Allegation 47--Inspector General COBB maintained a close, personal 
relationship with former NASA Administrator Sean O'Keefe and former 
NASA General Counsel Paul Pastorek.
Investigative Findings
    This allegation was predicated upon information obtained in eight 
interviews of current and former employees of the NASA OIG. These 
interviews were conducted to obtain information regarding various 
allegations HUD OIG received from the Integrity Committee of the 
President Council on Integrity and Efficiency. In those interviews, the 
employees alleged that COBB maintained a personal relationship with 
former NASA Administrator, Sean O'Keefe (O'Keefe) and former NASA 
General Counsel, Paul Pastorek (Pastorek). In addition, it has been 
alleged that this relationship has interfered with COBB's independence 
and may not have allowed him to remain impartial regarding audit and 
investigative findings.
    During the investigation, e-mails sent between O'Keefe and COBB 
during their tenure at NASA and. NASA OIG respectively were reviewed. 
In addition, e-mails sent between COBB and Pastorek were also reviewed.
    The following e-mails depict the type of relationship maintained 
(Exhibit 118).
1. E-mail Thread

``From: Sean O'Keefe
To: rcobb;
CC:
Subject: my apologies.
Date: Tuesday, June 15, 2004 1:53:04 PM
Attachments:

    Moose--my apologies for standing you up for lunch today--I 
completely lost track of the time and have been overrun with demands 
today. I owe ya one--many thanks for your patience and understanding. 
regards, Sean''
2. E-mail Thread

``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87d4c8cce2e2e1e2c7eff6a9e9e6f4e6a9e0e8f1">[email&#160;protected]</a>
To: Robert Cobb;
CC:
Subject: Apologies
Date: Tuesday, August 03, 2004 12:22:24 PM
Attachments:

    Moose--on further reflection, I owe you an apology for today's 
behavior. For lots of reasons I was in a foul mood--you didn't deserve 
that. Points made, but could have been more effectively conveyed--
thanks for not returning it in kind--''
3. E-mail Thread

``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="da899591bfbfbcbf9ab2abf4b4bba9bbf4bdb5ac">[email&#160;protected]</a>
To: Robert Cobb;
CC:
Subject: Departure
Date: Monday, December 13, 2004 8:18:45 AM
Attachments:

    Moose--Before the rumor mill runs too hot and heavy, I wanted to 
advise ypu [sic] of a personal development. LSU has advised that they 
are considering me to be Chancellor. The LSU Board plans to vote on the 
recommendation on Thurs. If they offer, as I expect they will, I intend 
to accept. With tuition bills for the first of three looming, it is 
only a question of months on how much longer I could keep up this 
public service addiction. Life on the bayou will improve the situation 
immeasurably. Since I've pressed you to service, I owed you a heads up. 
I'll make it through Feb in the hopes of a successor confirmed by then. 
Best regards, Sean''
4. E-mail Thread

``From: Robert Cobb
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90e3f5f1febefffbf5f5f6f5d0fef1e3f1bef7ffe6">[email&#160;protected]</a>
CC:
Subject: talk
Date: Friday, November 14, 2003 1:29:07 PM
Attachments:

    Yesterday I received a call from WH personnel about being on the 
list of candidates for the position of IG of the Coalition Provisional 
Authority. They said if I were the guy, I would be detailed for 6 
months, then back to NASA. I told them I would get back to them this 
afternoon to tell them if I am interested. I would like to discuss this 
with you; I will call you at 2:15 when, I understand, you may be 
between meetings.''
5. E-mail Thread.

``From: Cobb, Robert W. (HQ-WAH10)
To: `<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="34445541581a445547405b46515f7455465855431a575b59">[email&#160;protected]</a>';
CC:
Subject: Re:In DC today and tomorrow. Are you around? Will be at IMAX 
tonight too.
Date: Wednesday, September 21, 2005 10:40:18 AM
Attachments:

    I am out of the building until after lunch. Family to be at Imax 
tonight. Plan to give you a hug!
Sent from my BlackBerry Wireless Handheld''

``------Original Message------
From: Paul G. Pastorek <paul.pastorek@arlaw.com>
To: Robert `Moose' Cobb <rcobb@hq.nasa.gov>
Sent: Wed Sep 21 09:02:52 2005
Subject: In DC today and tomorrow. Are you around? Will be at IMAX 
            tonight too.''
6. E-mail Thread

``From: Paul Pastorek
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3361705c5151735b421d5d5240521d545c45">[email&#160;protected]</a>;
CC:
Subject: Jazzfest
Date: Thursday, April 15, 2004 9:31:31 AM
Attachments:

    Status of activities.
    I have a friend who is working on reservations at Commanders Palace 
for either Thursday or Friday night.
    I am also working on reservations at a place called Cuvee's which 
is terrific. I ate there for the first time last week. A relatively new 
place. If you want I can get you in at Emeril's instead. Let me know.
    We can go with you or you can go off by yourself. You call the 
shot.
    I also recommend you go to http://www.nojazzfest.com/ and determine 
whether you want to go to evening activities on Thursday or Friday. In 
addition to the official Jazzfest acts, there is music all over town at 
any time of the evening so you could still do dinner and skip the big 
acts and see the others. If you want to do a big act, we can skip 
dinner.
    Kathy would like to take your wife around town on Thursday while 
you are at the Conference. She can take her antique shopping, site 
seeing around town, or even to a Plantation home (or homes) outside the 
city.
    Let me know what you think. Also let me know your flight arrival 
and departure times and that of your wife, if different, so I can make 
other recommendations.''
Pages 206-217
    Allegation 48--Inspector General COBB. screened potential audit 
topics and investigative findings through former NASA Administrator 
Sean O'Keefe (O'Keefe) and former NASA General Counsel Paul Pastorek 
(Pastorek).
Investigative Findings
    [redacted] was interviewed regarding his complaint to the Integrity 
Committee of the President's Council on Integrity and Efficiency, which 
was forwarded to HUD OIG (Exhibit 8). On February 22, 2006, [redacted] 
was interviewed and provided the following allegation (Exhibit 25). 
[redacted] stated that he learned from [redacted] that COBB would meet 
with O'Keefe and/or Pastorek and ``screen'' potential audit topics, and 
audit findings. By doing this, COBB could determine O'Keefe's and/or 
Pastorek's ``acceptability'' of a potential audit topic, or an audit 
finding. [redacted] COBB used this same method to screen potential 
investigations, or investigative findings, to ensure they met with 
O'Keefe's or Pastorek's approval, and/or determine what audits and 
investigations the OIG would conduct.
    Based on this information, a review was conducted of e-mails sent 
to and from COBB. The following are e-mails where COBB discussed audit 
and investigative information with NASA officials (Exhibit 118).
1. E-Mail Thread

``From: Robert COBB [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="daa8b9b5b8b89ab2abf4b4bba9bbf4bdb5ac">[email&#160;protected]</a>]
Sent: 12/20/2002 12:45 PM
To: [redacted]
Cc: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e3908c8886868586a38e828a8fcd8b92cd8d829082cd848c95">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e242d3c2b2b2a21200e232f272260263f60202f3d2f60292138">[email&#160;protected]</a>; 
            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="186868796b6c776a7d7358757971743670693676796b79367f776e">[email&#160;protected]</a>; [redacted]
Subject: facilities issues

    We are looking into a couple of facilities issues;

    1. NASA-wide wind tunnel use and efficiencies associated with that 
use;
    2. NASA Research park at Ames.

    I'd like to discuss with you these projects so we can take your 
views into account in designing our activities.''
Followed by:

``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="14475b5f51515251547c653a7a7567753a737b62">[email&#160;protected]</a>
Sent: Thursday, December 26, 2002 3:11 PM
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b49585459597b534a15555a485a155c544d">[email&#160;protected]</a>
Subject: Re: facilities issues

    Sounds good--thanks for the heads up--regards, Sean''
2. E-Mail Thread

``------Original Message------
From: Robert Cobb [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdbfaea2afaf8da5bce3a3acbeace3aaa2bb">[email&#160;protected]</a>]
Sent: 06/25/2003 01:32 PM
To: R CABANA <rcabana@ems.jsc.nasa.gov>; 
            <robert.d.cabanal@jsc.nasa:gov>; 
            <robert.d.cabana@nasa.gov>; Bill Readdy 
            <william.f.readdy@nasa.gov>
Cc: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdbea2a6a8a8aba88da0aca4a1e3a5bce3a3acbeace3aaa2bb">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a2a3b6a1a3abb6bd84a9a5ada8eaacb5eaaaa5b7a5eaa3abb2">[email&#160;protected]</a>; 
            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d092c3b24296300630e383e2524232a0d232c3e2c632a223b">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="73071b1c04120117331d1200125d141c05">[email&#160;protected]</a>
Subject: astronaut report

    My office was close to issuing a report on the astronaut corps at 
the time of the Columbia accident. I stopped release of the report 
because the message was not appropriate at the time. Given that NASA is 
contemplating a new astronaut class, I believe. the circumstances have 
changed and the report should surface. My staff is coordinating with 
Code M audit liaison officials on this matter.''
Followed by:

``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1829e9ab4b4b7b491b9a0ffbfb0a2b0ffb6bea7">[email&#160;protected]</a>
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deacbdb1bcbc9eb6aff0b0bfadbff0b9b1a8">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c7b7e696d6868754c647d22626d7f6d226b637a">[email&#160;protected]</a>;
CC:
Subject: Re: astronaut report
Date: Thursday, June 26, 2003 10:01:36 AM
Attachments:

    Thanks for the heads up, Moose. We'll watch it carefully and 
respond promptly.''
3. E-mail Thread

``------Original Message------
From: Robert Cobb [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3d1c0ccc1c1e3cbd28dcdc2d0c28dc4ccd5">[email&#160;protected]</a>]
Sent: 06/27/2003 05:44 PM
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bdced2d6d8d8dbd8fdd0dcd4d193d5cc93d3dccedc93dad2cb">[email&#160;protected]</a>
Subject: Fwd: CAIB Observations Letter and Enclosures

    Here is the draft of my observations on CAIB independence, with 
attachments. My expectation would be to issue the letter sometime 
before the CAIB issues its report. Please review and let me know what 
you think. I will be out the week of July 4, but will be receiving e-
mail.''
Followed by:

``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92c1ddd9f7f7f4f7d2fae3bcfcf3e1f3bcf5fde4">[email&#160;protected]</a>
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dba9b8b4b9b99bb3aaf5b5baa8baf5bcb4ad">[email&#160;protected]</a>;
CC:
Subject: Re:Fwd: CAIB Observations Letter and Enclosures
Date: Sunday, June 29, 2003 10:44:16 AM
Attachments:

    Thnks Moose--will advise/comment soonest.''
4. E-mail Thread

``From: Sean O'keefe
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a5865686f787e24496568684a627b24646b796b246d657c">[email&#160;protected]</a>;
CC:
Subject:
Date: Monday, July 07, 2003 10:27:35 AM
Attachments:

    Moose--I've reviewed your paper on the Board independence issue. 
This is very timely and will likely be helpful input as the Board 
prepares to release its findings. We've tried to be responsive in the 
establishment and conduct of this investigation and your observations 
verify my impressions on that score thanks for the opportunity to 
comment. regards, Sean''
5. E-mail Thread

    ``At 04:43 PM 7/30/2003--0400, you wrote:

    FYI. OIG may look into procedures for issuing bonuses to NASA's 
political >appointees. This is an issue Executive Branch wide and has 
received press >attention.>''
Followed by:

``From: Sean O'keefe
To: Robert Cobb;
CC:
Subject: Re: bonus issue
Date: Wednesday, July 30, 2003 6:57:24 PM
Attachments:

    sure''
6. E-mail Thread

``------Original Message------
From: Robert Cobb [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b69787479795b736a35757a687a357c746d">[email&#160;protected]</a>]
Sent: 04/26/2004 04:26 PM
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1472736671737b666d547a7567753a737b62">[email&#160;protected]</a>
CC: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="285b4d49460647434d4d4e4d6846495b49064f475e">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="254252404b414a495c4b0b47574a524b0814654b4456440b424a53">[email&#160;protected]</a>
Subject: financial management hearing

    FYI. I have been asked to testify on financial management at NASA 
on May 12 before the House Govt Reform Subcommittee on Government 
Efficiency and Financial Management. I plan to comply with the 
request.''
Followed by:

``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3e0fcf8d6d6d5d6f3dbc29dddd2c0d29dd4dcc5">[email&#160;protected]</a>
To: Robert Cobb; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7a1a0b5a2a0a8b5be87a9a6b4a6e9a0a8b1">[email&#160;protected]</a>;
CC: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddbaaab8b3b9b2b1a4b3f3bfafb2aab3f0ec9db3bcaebcf3bab2ab">[email&#160;protected]</a>; Paul Pastorek; John Schumacher;
Subject: Re: financial management hearing
Date: Monday, April 26, 2004 5:33:12 PM
Attachments:

    Of course--that's during your retreat?''
7. E-mail Thread

``------Original Message------
From: Robert Cobb [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a48595558587a524b14545b495b145d554c">[email&#160;protected]</a>]
Sent: 06/16/2004 02:11 PM
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1d2c4c0cf8fcecac4c4c7c4e1cfc0d2c08fc6ced7">[email&#160;protected]</a>
Subject: bad parts case >fyi.

    Working with FBI and Defense Criminal Investigative Service and the 
>Department of Justice, we have been involved in an undercover 
operation >targeting suppliers of bad parts to NASA among others, 
including bad parts >for Station, Shuttle and NASA aircraft. Search 
warrants are going to be >served on six companies over the next couple 
of days. The names of the >suppliers are not household names, and 
typically involve subcontractor >suppliers. We have been involved in a 
number of similar investigations >and, unfortunately, suppliers often 
represent that parts they are >supplying meet specs when they do not. 
Sometimes the misrepresentation is >made knowingly and intentionally. 
Serving of warrants is sometimes >noticed by the media. Please keep 
close hold. I have sent this message >to Mahone and Pastorek.''
Followed by:

``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d3e222608080b082d051c43030c1e0c430a021b">[email&#160;protected]</a>
To: Robert Cobb;
CC:
Subject: Re: bad parts case
Date: Thursday, June 17, 2004 10:58:12 AM
Attachments:

    OK--keep me posted--more incoming cowpies I suspect''
8. E-mail Thread

``------Original Message------
From: Robert Cobb [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e1c0d010c0c2e061f40000f1d0f40090118">[email&#160;protected]</a>]
Sent: 01/12/2005 01:42 PM
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5a6b0b4bbfbbabeb0b0b3b095bbb4a6b4fbb2baa3">[email&#160;protected]</a>
Subject: Strategic Planning

    Sean: After receiving some inquiries from the Hill, we have been 
looking at the role of Dr. Elachi in connection with Strategic Planning 
activities. Quite obviously, the concern is about conflicts; we have 
found nothing illegal about it, and the question is do we have an 
opinion about the appearances. In connection with this, I am going to 
send an e-mail to Shoe requesting documents that reflect on Dr. 
Elachi's role. I wanted to give you a heads up. I have not had a 
discussion with Charles about this, although his folks know we are 
interested as we have been rummaging around in the contract and talking 
to his counsel's office and others. Of course, we are aware of NASA's 
counsel's approval of the arrangement and et cetera. I will be sure to 
discuss this with you and Charles before we report out.
    Regards,
    Moose''
Followed by:
``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4714080c22222122072f36692926342669202831">[email&#160;protected]</a>
To: Robert Cobb;
CC:
Subject: Re: Strategic Planning
Date: Thursday, January 13, 2005 1:13:35 PM
Attachments:

    Thanks Moose--I think we touched all the right bases here and did 
it by the book in setting this up. As for appearances--Charles brings a 
lot to the equation and he is probably the most objective of all the 
scientists given that he doesn't represent any one discipline and he 
has mgt responsibilities that injects a sense of realism into our 
planning. As evidence, just look at how the road map teams have been 
assembled (in accord with FACA etc) and are operating vs the endless 
circular motion of the JSAC? I rest my case.''
9. E-mail thread
``From: Robert Cobb
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="512130243d7f367f213022253e23343a113f3022307f363e27">[email&#160;protected]</a>;
CC:
Subject: Fwd: KSC Case
Date: Wednesday, November 05, 2003 2:45:53. PM
Attachments:

    FYI on Hi-Shear case. If you forward to others, please let them 
know that it is sensitive information about an ongoing investigation, 
not for general release.

X-Sender: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="234f404251514a4d4463121a1b0d1212150d15170d15">[email&#160;protected]</a>
X-Mailer: QUALCOMM Windows Eudora Version 6.0.0.22
Date: Wed, 05 Nov 2003 14:26:30-0500
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f0d303d3a2d2b7108711c303d3d1f313e2c3e71383029">[email&#160;protected]</a>, thoward @nasa.gov
From: `Lance G. Carrington' <lcarring@nasa.gov>
Subject: KSC Case

    Moose,
    Here's a summary that can be shared with Code G regarding our 
ongoing investigation. This case pertains to the letters sent from KSC 
to Mr. Pastorek where USA asks KSC for access to the center to prepare 
for their civil case against High Shear.
    Thanks, Lance
Hi-Shear Technology Corporation
Case Number: O-KE-00-0107-O
    This investigation was initiated based on information provided by 
United Space Alliance (USA), Cape Canaveral, FL. It was alleged that 
Hi-Shear President George Trahan and Vice President Herb Salit were 
attempting to extort contracts from USA. USA operates as the Space 
Flight Operations Contractor (SFOC) under NASA contract #NAS9-20000. 
USA awarded Purchase Order (PO) #300531, valued at $596,539, to Hi-
Shear for the production of 17-Second Delay Cutters, which are 
considered Launch Critical Hardware. After numerous delays caused by 
both USA and Hi-Shear, a new delivery date was being negotiated. The 
Cutters were complete, pending a final quality inspection by USA. 
Approximately $395,035 was paid to Hi-Shear under the PO. According to 
USA, on at least three occasions between December 28, 1999 and present, 
Salit attempted to extort the award of another USA PO that was in the 
pre-award phase, in exchange for the delivery of the Cutters. Hi-Shear 
also attempted to extort USA by tying the receipt of the bonnet 
thruster award to the delivery of forward and aft separation bolts.
    The investigation was accepted by the U.S. Attorney's Office 
(USAO), Middle District of Florida. Several conversations between 
Salit, Trahan and a USA representative regarding the alleged extortion 
attempt by Hi-Shear were recorded. USA later terminated its contracts 
with Hi-Shear and qualified another firm to manufacture the separation 
bolts. As a result, Hi-Shear filed suit against USA.
    Subsequently a target letter was issued to Salit. Salit initially 
agreed to plead guilty and cooperate in both the civil and criminal 
cases; however that agreement has not materialized due to Salit's 
demands. The USAO recently released copies of the recordings and 
transcripts to USA and Hi-Shear counsel for use in the civil trial, 
which was scheduled to begin October 27, 2003, but has been continued 
to address discovery issues.
    Update: A draft OIG report of investigation is being prepared at 
the request of the USAO who intends to seek an indictment of Salit and 
Hi-Shear for violations of Title 18 U.S.C.  1951 (Interference with 
commerce by threats or violence). A final decision has not been made on 
seeking an indictment of Trahan.
    Further examples of e-mails between COBB and O'Keefe may be found 
in (Exhibit 113).
    On May 30, 2006, O'Keefe was interviewed (Exhibit 137). Asked, 
``How often did COBB brief you on audits and investigations prior to 
drafts being available, or before charges were filed?'' O'Keefe stated 
that he would generally meet with COBB once a month (or more) on audit 
issues. For example, O'Keefe reported a major NASA OIG audit that 
received more of his attention than any other issue was the audit of 
``NASA financial statements.'' However, O'Keefe advised COBB had an 
``open door'' to visit with him at any time concerning essential 
matters. With regard to NASA OIG audits, O'Keefe stated he always told 
COBB, ``On anything, come to your judgments and let me know your 
recommendations.'' O'Keefe characterized COBB's involvement with the 
audit function as ``proactive.'' As an example, O'Keefe stated COBB 
hired Deputy Inspector General Thomas Howard (Howard), an experienced 
audit manager from the Government Accountability Office, to further 
enhance NASA OIG's audit capabilities. O'Keefe advised NASA OIG audits 
generally centered on process and procedural issues, not specific NASA 
programs or missions. O'Keefe and COBB would regularly ``collaborate'' 
prior to audit activities, to determine which inquiries could most 
benefit the agency [NASA] and ``the American people.''
    Mr. O'Keefe stated typically COBB would not brief him on criminal 
cases. It would be ``very unusual'' if COBB were to brief him on 
criminal matters. O'Keefe recalled one occasion when COBB briefed him 
on the status of criminal charges against a NASA employee who viewed 
pornographic material on a government computer.
    COBB was interviewed on June 27 and 29, 2006. His response to 
questions associated with this area start on Page 72, line 19 through 
Page 78, line 23, and Page 87, line 17 through Page 94, line 8 of his 
interview transcript (Exhibit 182). COBB stated, in part:
    Q. Do I understand correctly that Mr. O'Keefe was concerned about 
the audit function; and you had conversations about that, and not so 
much about the investigations function of NASA OIG; is that correct? He 
felt as if there were problems with the audit function?
    A. You'd have to talk to him about what his recollection is and all 
that. It is difficult for me to characterize what he thought.

    Q. Is that what he communicated to you?
    A. My recollection of the conversation would be that we didn't get 
into specific activities or whatever but that just as a philosophy, 
that an Office of Inspector General has an opportunity to add value to 
an organization. And it should work hard to do that;
    That's essentially it. I don't recall anything specific from the 
conversation, but I do remember him thinking--you know--and me being in 
full agreement that that is the nature. We might have talked about a 
consultative role, that in effect an Office of Inspector General can 
provide a consultation in connection.
    You know, I'm aware and he is fully aware having been around 
government a long time of what the independent element is in connection 
with the activities after Office of Inspector General; and I can say 
that he and his staff accorded complete respect for that independence.
    I never felt a circumstance where he articulated that I should--I 
should have some opinion or should--if he wanted us to do some kind of 
work, I told him the same thing I told every other senior manager in 
the agency.
    Hey, we'd be happy to consider whether or not you thought there was 
a fertile ground for us to audit in connection with an activity, 
whether or not I can tell you not too many takers in that department of 
saying bring in your auditors and conduct an audit of our particular 
activity, but----

    Q. All right. You touched on this in your last response. Your 
philosophy and/or understanding in regard to how an agency IG and the 
agency head should interact. You have made reference to a consultative 
relationship. Can you explain that and then what your philosophy under 
Mr. O'Keefe and under Mr. Griffin is as your role and Inspector General 
in your interaction with the agency head?
    A. This is the kind of conversation we have in the office all the 
time. I'm collaborative in terms of my direct reports. When you get to 
the independence issue, you can have a group of people that are the 
most independent people in the world, and they never talk to anyone, 
because once you get out of the box and start talking to people, that's 
an incursion on your independence.
    I can tell you in connection with audits that we've had. I've 
worried about whether or not our auditors at times were independent in 
connection with projects because there would be people who would come 
and in effect push an issue at auditors that suggest, gee, this 
program, my program should get more money than that one over there, it 
shouldn't. I can tell you. I've seen audit work where it felt like, 
gee, the program could have written the audit work.
    We've had those. In terms of the consultative role, I think that 
might have been a word that O'Keefe used in that conversation. I don't 
recall specifically it would not be inconsistent with my impression of 
what he'd have said. Or there is a document that Clay Johnson in 
connection with the IG community has circulated with the assistance of 
the IG community that talks about in effect supposed to be a suggestive 
governance document between IGs and their agencies.
    It is those types of things I'm talking about as being, in effect, 
at least from the O'Keefe side what they were looking for in connection 
with a role of an Inspector General.

    Q. What did Mr. O'Keefe say he was looking for in his Inspector 
General?
    A. My guess that he would have talked , about something, whether he 
used the word consultative or, that in effect you can go and obtain an 
independent analysis of issues and provide that to the agency, that 
that is a valuable--that is a valuable commodity, and that--you know--
again getting it before--getting it early, getting advice early when 
the agency can take advantage of that information rather than after 
there has been a problem and a--you know, of note.

    Q. So getting advice from the Inspector General as to an issue 
within the agency before as opposed to after the fact, after the milk 
is spilt, so to speak?
    A. You go ask him what we talked about. It wouldn't surprise me if 
he had a completely different recollection. I'm walking away in that 
meeting with one impression. I don't know his impression. I'd say 
everything I said here is impressionistic of a conversation that may 
have lasted 45 minutes that took place four-and-a-half years ago.

    Q. But you spent 4 years as the Inspector General under the O'Keefe 
administration, correct?
    The Witness. Right. Unless my math is wrong, I think the overlap of 
our service was less than 3 years.
By Ms. Bahr.
    Q. OK.
    A. From April of 2002 to February of 2005.
    I took--and with substantial discussion with my--again, I have a 
collaborative style of conducting business. I asked for Frank LaRocca's 
opinion. I asked for whoever my senior staffs opinions in connection 
with activities. I don't always do what they say. We talk about it. I 
do what I think is right and--you know--the--that's the way I conduct 
business. In terms of my relationship with Sean O'Keefe, you know, I'd 
say we had a very good, professional working relation where if I 
thought there was an issue that he had to be concern about, I had no 
difficulty or problem communicating to him.
    I tried to have as much contact with him as his schedule could 
tolerate. It made it so that I could be best informed as to what the 
issues of the day were at NASA.

    Q. If we could go back to the original question. In terms of what 
information did you share either with Mr. O'Keefe or with the center 
directors or any other senior staff members within NASA related to what 
was going on on the investigative side of the House?
    A. On that, I was giving security as a coordinating point. I might 
ask a question, have we coordinated in security in connection with the 
search warrant that's going to be served at a certain center. That 
would be something that the staff level.
    There might be certain investigations like a safety investigation. 
We get--give an example, prior to the launch of STS 114 last summer, we 
got an allegation there was a piece on the external tank that's a bad 
piece and this is about a month or 3 weeks before launch is supposed to 
take place. The fact that we're going to have a criminal investigation 
possibly arising out of this allegation, there's a weighing balance on 
how to handle it. I would talk with staff on what is our vehicle for 
communicating what we need--what limited information we need to 
communicate to the agency.
    And typically, if we had, for example, a member of senior staff who 
was under investigation, I would sit down with my assistant Inspector 
General for investigations, my counsel, my deputy, Tom Howard, and we 
would sit and talk about what is the best time to communicate to the 
agency this sensitive information that we have so that it, for example, 
can take, in the instance of safety, a remedial action to make sure we 
don't blow up seven astronauts on launch or alternatively, I can give 
you an example.
    After getting an OK from whoever my IT was in questions with the 
administrator Griffin, our office in conjunction with DCIS was going to 
serve search warrants on orbital scientists. Griffin used to work 
there. I think he'd rather hear it from his Inspector General than see 
it on TV or read about it in the newspaper. Roughly simultaneous with 
the execution of the search warrants, by prearrangement with my 
investigative team, I would communicate to Griffin, hey, here's a heads 
up. We're going to be serving a search warrant in 15 minutes or 5 
minutes. I don't know the articulation of time. It was close, worked 
out with my staff that. Would be my modus operandi on sensitive 
investigative matters whether O'Keefe, center directors, general 
counsel, anybody else.
    I would just go and say, hey, we got an investigation going on such 
and such. Thought you ought to know. That would not be my--the manner 
in which I would deal.

    Q. OK. What about search warrants? You spoke about communicating 
with the center directors relative to search warrants. How would that 
be communicated and in what time-frame?
    A. Well, typically----

    Q. Or arrests? Search warrants or arrests?
    A. Typically, those types of things would be coordinated by my 
staff and would not involve a phone call by me in questions with the 
issue. How exactly to execute them. I would want--I would not want our 
armed agents going into a facility with other armed agents who were not 
under my employ without giving a notice to, for example, security. 
There are certain protocols that have been established of communicating 
with security, maybe communicating with chief counsel, or whatever, 
where we're going to be doing this.

    Q. What about the center directors?
    A. I typically would not be involved in picking up the phone and 
telling them that something was about to happen. There might be 
instances where we sent e-mails to some people, but that would not be a 
normal thing. Whatever I would do, again my modus operandi is whether 
it was Kevin Winters, Lance Carrington, it would be I'm thinking this 
person needs to know this certain information for the following reason. 
When would be an appropriate time to communicate that information?
    And taking the lead from the investigators in terms of obviously 
you don't want to do anything that in any way, shape, or form can 
negatively impact an investigation.
    And so I'm sensitive to that, and that's why I had a protocol that 
for myself was in effect. I'm not going to go tell somebody about an 
investigation unless people in my office are on board with the 
communications.
    Let me tell you. We have a number of very serious and sensitive 
investigations that have been conducted throughout my tenure but right 
now, and this protocol and how we communicate with the agency, the 
agency--if you go and talk to--if you conduct an investigation 
involving a senior agency official and talk to five people, the 
likelihood, it is going to get back to them.
    So how can you control that? You do the best you can. And--but you 
do it working with an eyes toward the prize in terms of what we're 
doing, how we do it, how we communicate the information we need to.
    I wouldn't go off by my loan some and wing it in terms of what 
types of things we're looking at.

    Q. If I understand you generally; it would be your staff that would 
make the contacts or communications to either the security personnel on 
centers or perhaps the center directors that was not generally 
something you did but were there occasions when that occurred 
specifically with the center directors when you would communicate 
directly with them as to either a search warrant or an arrest that was 
eminent?
    A. I'm not coming up with examples to give you of where I made 
those calls. I cannot say definitively it didn't happen. I would say 
typically staff would handle those communications.

    Q. What staff members?
    A. The special agents in charge, or the resident agent in charge 
would, in effect, have the responsibility for making sure that the 
people that needed to know--especially, you can have a lot of safety 
issues in connection with a search warrant--that the people that needed 
to know about it would know.

    Q. Was that protocol within the Inspector General's office, NASA 
Inspector General's office that one of the people that needed to know 
was the center director or the center directors?
    A. I don't know what the paper says.

    Q. What paper? Are you referring to NASA regulations?
    A. Yes. What our internal guidance articulates in connection with 
this.

    Q. What was the practice?
    A. My guess is the practice was not consistently applied. That in 
effect it requires a judgment in every case as to what the 
sensitivities are in terms of carrying out the particulars. So it may--
you know; it may involve a call to security office might involve a call 
to the facility people to get access to a particular portion of the 
building that would not otherwise be accessible.
    But you wouldn't always call the people in a facility. Whether it 
involved a conversation with the chief counsel, I can tell from you my 
perspective, and what I would generally have communicated about this 
topic is we need to let the people know. We do not do our work in a 
vacuum. We need to let the people who need to know about certain 
activity know.
Pages 222-225
    Allegation 50--Inspector General COBB frequently had lunch with 
former Administrator Sean O'Keefe and former General Counsel Paul 
Pastorek, which may have caused an appearance of lack of independence 
and impartiality.
Investigative Findings
    On February 22, 2006, and March 10, 2006, [redacted] (Exhibit 25) 
[redacted] (Exhibit 41) were interviewed regarding complaints and 
information they submitted to the Integrity Committee of the 
President's Council on Integrity and Efficiency, which was forwarded to 
HUD OIG (Exhibits 8 & 7, respectively). In their interviews, [redacted] 
stated that COBB frequently had lunch with former Administrator Sean 
O'Keefe (O'Keefe) and former General Counsel Paul Pastorek (Pastorek), 
which may have caused an appearance of lack of independence and 
impartiality.
    Based on these allegations, a review of COBB's e-mails was 
conducted. The following are e-mails between COBB, O'Keefe, and 
Pastorek that identify instances where they discussed having lunch:
1.
``From: Sean O'Keefe
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e0c313c3b2c2a701d313c3c1e362f70303f2d3f70393128">[email&#160;protected]</a>;
CC:
Subject:
Date: Tuesday, May 06, 2003 3:09:48 PM
Attachments:

    Moose--sorry I stiffed ya for lunch today. I spent quality time 
waiting for the House Govt Reform Cmte to fire up the hearing on human 
capital legislation. But I was in good company with the SEC Chairman--
upon learning who I was holding up, his legis affairs rep advised as 
how I should tell our IG to cool his jets and get a life. just 
repeating the comment, clearly from someone who believes she knows you 
. . . too well, it would appear! t'was a pleasure talking with your 
better half. regards and apologies, Sean''
2.
``From: Robert Cobb
To: Paul Pastorek;
CC:
Subject: Re: lunch
Date: Tuesday, September 02, 2003 12:26:27 PM
Attachments:

    Thank you, sir.
    At 11:03 AM 9/2/2003--0400, you wrote:

    Looks like Sean may be around after all, so I had [redacted] 
reserved a table at Columbia Cafe.
    I think it is just you and me. Do you want to eat upstairs at noon 
or so or do something different?

Robert W. Cobb
Inspector General
National Aeronautics and Space Administration
Washington, D.C.
Paul G. Pastorek
General Counsel
National Aeronautics and Space Administration
Washington, D.C.''

    On April 20, 2006, [redacted] was interviewed (Exhibit 67). 
According to [redacted] COBB and O'Keefe, along with other NASA senior 
staff, ate together every Tuesday. The lunches took place either in 
O'Keefe's office or sometimes in the Columbia Cafe, which is located 
next to O'Keefe's office. These lunches are reflected on COBB's 
calendar [redacted] provided the interviewing agents with printed 
copies of COBB's calendar covering the time period July 2004 through 
April 2006. [redacted] The lunch meetings were sometimes referred to by 
COBB as being at the ``Administrator's hideaway.'' [redacted] stated 
the Administrator's hideaway was either O'Keefe's office or a reserved 
corner of the Columbia Cafe. According [redacted] COBB sometimes puts 
other lunch dates on the calendar and he sometimes puts down whom he 
was meeting for lunch, but sometimes he does not. [redacted] recalled 
that O'Keefe and COBB had lunch alone together on one occasion.
    [redacted] advised COBB does not have lunch with the current NASA 
Administrator, Michael Griffin (Griffin). COBB and Griffin may have had 
a total of five meetings since Griffin became Administrator. Lately 
COBB has attempted to schedule meetings with Griffin and, Griffin has 
continually postponed the meetings to the point where they are 
ultimately not rescheduled.
    A review was conducted of COBB's OIG official calendar for the 
period April 2002 to April 2006. This review showed that COBB met with 
O'Keefe for lunch at a minimum of two times per month from April 2002 
through February 2005, the time period when COBB and O'Keefe were at 
NASA together. The lunches were called ``Tag-Up'' or ``Administrator's 
Hideaway.'' Some of those lunches included [redacted] and Paul 
Pastorek. In addition, in some months the lunches exceeded two times 
per month.
    COBB's schedule did not show evidence he continued those lunches 
with current Administrator, Michael Griffin.
    On May 30, 2006, O'Keefe was interviewed (Exhibit 137). O'Keefe was 
asked how often he held ``Director's luncheons'' with COBB. O'Keefe 
stated, ``I'm not sure. Once or twice a month I suppose, or more 
often.'' O'Keefe stated others often present at the luncheons included: 
Fred Gregory, Deputy Administrator, NASA; John Schumacher (Schumacher), 
Chief of Staff, NASA; and Courtney Stadd, Chief of Staff prior to 
Schumacher. O'Keefe stated the luncheons always had a working 
atmosphere.
    On June 27 and 29, 2006, Inspector General Robert Watson (Moose) 
COBB was interviewed (Exhibit 182). His response to questions 
associated with this area start on Page 79 line 5 and Page 98 line 22 
of his transcript, and states, in part:
    A. But what I was part of was as his schedule would dictate, we--I 
tried to have a weekly luncheon with Mr. O'Keefe; and again his 
schedule was extraordinarily busy. If he wanted to talk to me at any 
time, I was available to talk to him. And to me, as a consequence of 
this interaction with Mr. O'Keefe, our office was able to get involved 
and make contributions and establish credibility that it formerly did 
not have.

    Q. What credibility?
    A. Well, for example, when we made an audit recommendation, the 
agency would implement it. That was something that did not--was not 
occurring as far as I can tell at least from a statistical review of 
what was going on under my predecessor.

    Q. OK. You said that you would have weekly lunches with Mr. 
O'Keefe. You would attend staff meetings on not a regular basis, on 
average how often would you attend a senior staff meeting?
    A. That would be a very exceptional circumstance that I would 
attend any kind of senior staff function. There were instances where it 
happened.

    Q. Aside from your--I believe you said weekly lunches at NASA 
headquarters with Mr. O'Keefe, did you ever have lunch or dinner 
outside of NASA together?
    A. Alone with Sean O'Keefe, me and him again I went to events 
attended by senior staff. At least one. I typically was not invited to 
those types of things.

    Q. Why did you attend that particular one?
    A. Because O'Keefe asked me to come to a particular event which was 
at the Stennis Space Flight Center in Mississippi there. Was a dinner 
afterward and I attended both of those at his request.

    Q. Was there a specific reason why he requested you to attend?
    A. Yes. There was a presentation that was going to be given by a 
contractor who had come in to analyze NASA culture and, in effect, a 
consulting firm. It was going to communicate about its finding and 
provide a status report. Because of my interest in all of the Columbia 
accident investigation activities, including NASA culture, I had been 
involved in a lot of different aspects of that. O'Keefe thought it 
would be worthwhile for me to attend the presentation that those people 
were given and I did so.

    Q. OK. Outside of that kind of lunch or dinner that obviously 
appears to be directly related to business, were there any lunches or 
dinners?
    A. There may have been.

    Q. Either one-on-one or with others in attendance? I'm generally 
talking about more of a social setting, smaller group?
    A. I understand. We're. talking about a person where there'd be 
events at the Smithsonian. I would attend those for the same reason I 
articulated as attending other things so people can see who you are, so 
you can get information from people and pass it on to staff.

    Q. That's more business related?
    A. I understand. I'm seeing O'Keefe a fair amount. Not every week. 
But a fair amount. I'm Just trying to articulate. I cannot remember 
whether or not I ever went out to dinner. I think I would remember if I 
had a personal one-on-one dinner or one on two lunch or dinner with 
him. I don't recall it. Not while he was NASA administrator. It may 
have happened. I'm just trying to think. Whether there was a time where 
he called me up and said, Moose, we ought to go spend time together. I 
can't remember that happening. But. I'm not saying it didn't because 
I'm just saying I can't remember it.
Page 231
    . . . their (yellow book) standards and hide behind their 
pencils.'' [redacted] stated that COBB ends his meetings by saying, 
``Everyone is in agreement now, right?'' [redacted] said; ``Who is 
going to question him or raise issues?'' [redacted] noted that it was 
very clear to all the staff that you do not question what COBB states.
    [redacted] recalled that in June or July 2005, COBB and [redacted] 
appeared at an Audit Liaison Representative (ALR) Conference. Somebody 
there asked COBB why so many people have departed NASA OIG. COBB 
replied that he, ``wears them leaving like a badge of honor.'' 
[redacted] stated that over 100 employees have departed NASA OIG since 
COBB arrived. [redacted] advised NASA was once voted the best place to 
work, and now it is one of the worst.
    [redacted] said the statement, ``There are 1,000 people to take 
your place,'' was a commonly used saying by COBB. [redacted] recalled 
when one of the auditors who departed NASA OIG was staring out of the 
office window on his last day at work. When [redacted] asked him what 
he was doing, the auditor replied, I'm looking for the 1,000 people who 
are lined up waiting to take my place.''
    [redacted] stated that COBB is ``a mean, vicious and arrogant man 
who needs to go.'' [redacted] believed COBB has ``wrecked many 
careers,'' but feels he [redacted] got lucky and found another 
employment opportunity. [redacted] thought that he would end his career 
at NASA OIG and not be forced to go somewhere else. [redacted] 
explained NASA OIG staff went through a lot by saying, ``reorganization 
after reorganization, foul language and intimidation, COBB misusing his 
investigative powers and having employees forced out and replaced with 
unqualified cronies.''
    On March 15, 2006, a confidentia1 source identified as T-3 was 
interviewed (Exhibit 44). T-3 stated there was a meeting of all staff 
at the Marshall Space Flight Center and ``COBB humiliated and insulted 
the audit staff by stating that the auditors were incompetent.'' T-3 
directly heard COBB say that he wanted the Audit Program Directors to 
be relocated to Headquarters so they ``would be within choking 
distance.'' T-3 stated, ``I thought this was a stupid thing to say.'' 
T-3 felt humiliated and insulted by COBB.
    On July 23, 2004, COBB sent an e-mail to all OIG staff and referred 
to all the GS-15 Audit Program Directors in the field as ``surplus.'' 
T-3 stated, ``I've always had a good record, and it's how I became a 
15; to be referred to as surplus is insulting and humiliating.'' T-3 
stated ``the staff here are highly demoralized.'' In discussions T-3 
has had with NASA OIG auditors, more staff would have responded 
``disagreed,'' however, they feared the responses could be attributed 
back to them. T-3 also stated that there has been an ``extremely high 
turnover,'' and believes at least 30 employees left last year alone.
    In 2005, at a conference held at the Goddard Space Flight Center 
(GSFC) with all the NASA audit liaison representatives, someone raised 
the question to COBB as to the reason for the high turnover rate within 
NASA OIG. T-3 stated that COBB said he was ``proud of the high turnover 
rate,'' and referred to the people who had left as ``trash.'' 
[redacted] who once worked in NASA OIG and now is an audit liaison 
representative at the [redacted], told T-3 that he ``was shocked'' to 
hear that from COBB.
    On March 20, 2006, [redacted] was interviewed (Exhibit 45). 
[redacted] described COBB's management style as ``kind of strange,'' 
and stated that you ``never knew where you stood with him.'' [redacted] 
noted that to his knowledge, COBB did not have a background in 
management prior to . . .
Pages 266-271
    Allegation 67--Inspector General COBB, former NASA Administrator 
Sean O'Keefe (O'Keefe), and former NASA General Counsel Paul Pastorek 
(Pastorek) would drink alcohol together.
Investigative Findings
    [redacted]
    Special Agent Bahr. OK. Generally, who was present at these 
meetings in Mr. O'Keefe's office at the end of the day?
    Mr. Howard. Who--it varied. Whoever happened to have any business 
to be tip there at the time.
    Special Agent Bahr. You mentioned the chief of staff?
    Mr. Howard. Right.
    Special Agent Bahr. Who was that at the time?
    Mr. Howard. It was--well, there were a couple. First, it was 
Courtney Staid, and then later it was John Schumacher.
    Special Agent Bahr. OK. How about the General Counsel for NASA?
    Mr. Howard. Yes, he would be there on occasion, Paul Pastorek.
    Special Agent Bahr. All right. Are you aware of--did--would they 
share in drinking within Mr. O'Keefe's office? Was there alcohol 
served?
    Mr. Howard. On some occasions I believe there was. Yes.
    Below is an excerpt from the transcript of COBB's interview 
conducted on June 27, 2006, where he addresses the issue of drinking 
alcohol with O'Keefe, beginning at Page 102, line 12 (Exhibit 182).

    Q. Was there ever an occasion when you had drinks with Mr. O'Keefe 
at NASA headquarters within his office or anywhere--perhaps within your 
office or anywhere else within NASA headquarters?
    A. I can remember one instance where I had--O'Keefe had social 
functions that took place up when there was a retiring employee or some 
type of event like that. There would be social functions and there 
would occasionally be alcohol there. I didn't go pull the GSA permit 
for whether or not they had obtained permission in connection with 
that.
    I can recall an incident--not an incident, an instance where 
O'Keefe gave me a drink in his office.

    Q. OK. Could you give us some background on what the occasion was, 
why were you meeting with him? How did it come about that you were 
sharing--were you having a drink as well?
    A. I think he said to me that you look like you could use a drink, 
and I articulated that, OK. I don't know what he said. But I had a 
drink.
    The specific instance there was again the Columbia accident in 
terms of the impact on the agency, like the Challenger, there were 
tremendously sensitive issues associated with--for example, I bet you 
no one here at this table even though they're fairly familiar with the 
Challenger incident has any understanding of what happened to the seven 
astronauts that were on that vessel.
    The reason is that NASA is extraordinarily protective of that 
information, the well-being of the program, and the families of those 
who died. They know what happened. It is not like it's a secret. It is 
known. But it is kept secret.
    Same thing is true in connection with Columbia. What happened with 
respect to each of the dead astronauts is something that is well known. 
We had an instance in February of 2004, where our service working with 
the Texas Rangers, this is one or----
    Ms. Bahr. I'm sorry to interrupt you, but there will be a line of 
questioning later where I think it would be more appropriate to address 
this. If for the moment we could go back to just what kind of 
interactions you had with Mr. O'Keefe, that would be most helpful.
    The Witness. Your last question was what prompted that instance 
where I can recall having a drink with Mr. O'Keefe. I think--I can 
recall one other instance where that happened. It wasn't with just 
O'Keefe. It was with other persons on his staff. That was where I had 
been told that I was going to be appointed as the Inspector General to 
the Coalition Provisional Authority.
    I think that--I'm not positive. I think that he might have invited 
me to have a drink relating to that at that time.
    Allegation 68--Inspector General COBB played golf with former NASA 
Administrator Sean O'Keefe (O'Keefe).
Investigative Findings
    This allegation was received through interviews of nine individuals 
who alleged that COBB and O'Keefe played golf together. Based on those 
allegations a review of COBB's e-mails was conducted. The following are 
e-mails that identify instances where COBB discussed playing golf with 
O'Keefe:
1. E-mail Thread
``From: Robert Cobb
To: Sean O'Keefe;
CC:
Subject: Re:
Date: Tuesday, July 02, 2002 2:45:20 PM
Attachments:

    I would love to, although kids and work have wrecked an at one time 
not embarrassing game. If the spot is still open, let me know details.

    At 10:38 AM 7/2/2002--0400, you wrote:
    Moose--don't recall if you are a golfer--I'm pulling together a 
foursome for this Friday AM, Clay Johnson and Alphonso Jackson (Deputy 
Secy at HUD). if you're interested, I'll send along particulars. best 
for the 4th--Sean''
2. E-mail Thread
``From: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d7e626648484b486d455c03434c5e4c034a425b">[email&#160;protected]</a>
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3341505c5151735b421d5d5240521d545c45">[email&#160;protected]</a>;
CC:
Subject: Re:
Date: Friday, July 11, 2003 2:13:24 PM
Attachments:

    Fabulous--let's plan to meet Sat around 11:30 or so at the pro shop 
or around the practice tee/putting green. Do recall how to get there?

------Original Message------
From: Robert Cobb [<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="235151404c4141634b520d4d4250420d444c55">[email&#160;protected]</a>]
Sent: 07/10/2003 05:48 PM
To: ``Sean O'keefe' <sean.okeefe.nasa.gov>
Cc: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a19151818103a091f19541d150c">[email&#160;protected]</a>
Subject: Re:

    yes--
    At 05:10 PM 7/10/2003--0400, you wrote:
    >Moose--you up for golf Sat around noon?>''
3. E-mail Thread
``From: Robert Cobb
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6d5c3c7c888c9cdc3c3c0c3e6c8c7d5c788c1c9d0">[email&#160;protected]</a>
CC:
Subject: golf buddy
Date: Monday, December 15, 2003 9:24:19 AM
Attachments:

    What was the name of the guy who worked at the Naval Criminal 
Investigative Service that we played golf with at Belmont?''
    On May 30, 2006, O'Keefe was interviewed and provided the following 
information (Exhibit 137). O'Keefe was asked, ``Did you and COBB ever 
meet outside of work for drinks, golf, or other activities?'' O'Keefe 
stated, ``We did not socialize.'' However, he and COBB played golf 
together once or twice. O'Keefe could not recall when or where they 
played golf. Asked, ``Did you golf together here [Belmont Country 
Club]?'' O'Keefe stated, ``I don't recall.'' Asked if he and COBB ever 
traveled together onboard NASA aircraft, O'Keefe stated he traveled in 
such a capacity with COBB once or twice, but could not recall any 
specific flight information. Asked if he ever traveled to Bermuda 
aboard a NASA aircraft, with COBB for the purpose of golfing, O'Keefe 
stated he has never traveled onboard NASA aircraft and engaged in golf 
activities following the official trip.
    COBB was interviewed on June 27 and 29, 2006 (Exhibit 182). His 
response to questions associated with this area start on Page 81, line 
20 and Page 94, line 9 of the transcript dated June 27, 2006.

    Q. Did you have any social relationship?
    A. I don't--I guess these kinds of questions ask for me to expand 
on the nature of my relationship with Mr. O'Keefe. I had a business 
relationship with him. Did we personally enjoy each other's company? I 
don't know let [sic] enjoyed my company. To me it was advantageous to 
me and my office that I spend a lot of time as much time, in effect, as 
I could with O'Keefe. When he asked me to come out to where he plays 
golf, I accepted that invitation. And I did that I think twice, to go 
out and play golf with him. Whether that's a social relationship or a 
business relationship, I can tell you that--you know--did I tell him I 
had kids? Probably. I tell him you know--about my wife? Probably. Where 
she worked. But from my standpoint--you know--that relationship was 
defined by--you know--my carrying out the job as Inspector General of 
the agency and being able to get access to the person who's chiefly 
responsible for policy and execution of the agency mission.

    Q. I agree with you complete frequently. I think there will be 
points later in the interview here we'll be able to do that. Let's go 
back to the relationship between you as the Inspector General and the 
agency administrator. You noted that you on approximately two occasions 
recall golfing with Mr. O'Keefe?
    A. Yes.

    Q. That would have been at his home in Virginia, correct?
    A. Yes.

    Q. Leesburg, I believe, Belmont?
    A. Yes.
                                 ______
                                 
                                        Integrity Committee
            President's Council on Integrity and Efficiency
              Executive Council on Integrity and Efficiency
                                   Washington, DC, January 22, 2007

Hon. Clay Johnson III,
Chairman,
President's & Executive Councils on Integrity and Efficiency,
c/o United States Office of Management and Budget (OMB),
Washington, DC.

Dear Mr. Johnson:

    The purpose of this letter is to inform you of the determinations 
made by the Integrity Committee (IC) at its meeting on December 13, 
2006, regarding allegations of misconduct on the part of Inspector 
General (IG) Robert Cobb, National Aeronautics and Space Administration 
(NASA). In summary, the IC determined that certain actions on the part 
of IG Cobb, described in detail below, amounted to an abuse of 
authority. Other actions taken by Cobb were viewed as creating the 
appearance of a lack of independence and as not adhering to the Quality 
Standards for Federal Offices of Inspector General promulgated by the 
PCIE and ECIE. I will first outline the procedural history of the case, 
follow with a discussion of the particular conduct on the part of IG 
Cobb which the IC found troubling, and conclude with comment about some 
of the matters raised in the correspondence received from IG Cobb 
regarding the process.
Case Initiation and Investigation
    Executive Order (EO) 12993 is the IC's charter for review of 
allegations of administrative misconduct made against an IG. The EO 
provides that on receipt of allegations, the IC shall first determine 
if there is a substantial likelihood that the allegations disclose a 
violation of any law, rule, or regulation, or gross mismanagement, 
gross waste of funds, or abuse of authority. If the IC makes this 
preliminary determination, and further concludes that allegations 
cannot be referred to an agency of the Executive Branch with 
appropriate jurisdiction over the matter, it refers the matter to the 
IC Chair who is to cause a thorough and timely investigation of 
allegations to be conducted.
    During its meeting on December 12, 2005, the IC reviewed several 
new complaints against IG Cobb and concluded there was a need for an 
administrative investigation. The IC also reevaluated other allegations 
regarding IG Cobb that it previously reviewed but which had not been 
the subject of an investigation. These were reevaluated because the IC 
wished to consider the full picture and determine whether the pattern 
of activity disclosed violation of law, rule, or regulation, or 
amounted to gross mismanagement, gross waste of funds, or abuse of 
authority. Following the IC decision to initiate the investigation, as 
IC Chair, I requested the Housing and Urban Development (HUD) Office of 
Inspector General (OIG) to conduct the investigation.
    The IC forwarded complaints received against IG Cobb to the HUD OIG 
and their investigators organized the case into 79 separate 
allegations. The HUD OIG conducted a thorough investigation of 69 
allegations and submitted its Report of Investigation (ROI) to the IC 
on August 30, 2006. The remaining 10 allegations were not investigated 
by the HUD OIG based on their conclusion that the information 
supporting the allegations was too vague or insufficient to justify 
continuing the inquiry. The IC concurred with that assessment. The ROI 
prepared by the HUD OIG is enclosed for your review. IG Cobb cooperated 
with this investigation and was interviewed, with legal counsel 
present, by HUD OIG investigators for more than 10 hours during 
sessions on June 27 and 29, 2006. At the conclusion of his interview, 
IG Cobb was allowed to both review and supplement his deposition. The 
IC also received correspondence from IG Cobb during its review of the 
matter that is also enclosed for your review.
Integrity Committee Review of the Report of Investigation
    Over the course of three IC meetings, the allegations and the HUD 
OIG ROI were reviewed and discussed. Utilizing the ROI, the IC placed 
the allegations into four categories, as follows:

        1. Abusive work environment.
        2. Lack of independence.
        3. Audit Division reorganization.
        4. Other Matters.

    The identifying numbers used below are those assigned by the HUD 
OIG. They are referred to in this letter as a matter of convenience but 
they have no other significance.
Abusive Work Environment
    The IC evaluated nine allegations, appearing as numbers 52, 53, 57, 
58, 59, 60, 61, 62, and 63 in the ROI, which fell under the broad 
category of abusive work environment. The IC determined that ``abusive 
work environment'' fit under the EO for jurisdiction purposes through 
the ``abuse of authority'' clause. The term ``abuse of authority'' is 
defined in the IC Policies and Procedures as:

        arbitrary or capricious exercise of power by a Federal official 
        or employee that adversely affects the rights of any person or 
        that results in personal gain or advantage to himself or to 
        preferred other persons. There is no de minimis standard for 
        abuse of authority.

    Allegation 53 was made by: [redacted] allegations are confirmed by 
interviews of two witnesses. According to the ROI, IG Cobb berated the 
[redacted] using a loud and nasty tone that included profanity in front 
of the [redacted] to the point of causing tears and her departure from 
the meeting. When the staff member returned to the meeting at which 
this occurred, she informed IG Cobb that profanity in the workplace was 
not acceptable; IG Cobb did not apologize for his behavior. On other 
occasions, he screamed at the same individual over the issuance of a 
search warrant and called the staff member's work a ``fucking piece of 
shit'' as he slammed his fist on the table next to the staff member. A 
witness confirms that IG Cobb's treatment of [redacted] was 
condescending, berating, and demeaning. IG Cobb's treatment of 
[redacted] was similar in that he routinely yelled and screamed at the 
individual as part of disagreements on positions taken by the 
individual in investigative matters.
    Three other witnesses confirm IG Cobb's habitual use of profanity 
in the office while another, [redacted] confirms that IG Cobb referred 
to his staff as ``fucksticks.'' According to the witness, under IG Cobb 
there were constant threats and intimidations creating in the witness' 
view a ``hostile work place.'' Another witness describes IG's Cobb's 
lack of respect for NASA OIG employees by his referring to Special 
Agents in the field as ``knuckle draggers.'' According to this senior 
employee, morale among NASA OIG staff was ``horrible.''
    IG Cobb confirmed use of the F-word in his office and indicated he 
is ``passionate when people are insubordinate to my face,'' but denies, 
``cursing'' at employees.
    The IC determined IG Cobb engaged in an abuse of authority as 
defined by the EO. IG Cobb's treatment of [redacted] detailed in 
allegation 53 was inconsistent with the high standards of conduct 
expected of senior executives. The IC viewed this as more than an 
aggressive management style or a way of expressing dissatisfaction with 
employee performance but as arbitrary or capricious conduct, which 
affected the rights of senior employees to a non-hostile and abusive 
workplace.
    The IC further determined that other conduct on the part of IC 
Cobb, as described in allegations 59 and 61 did occur. This conduct 
involved regular belittlement of the audit staff and putting his feet 
on the desk in the face of those sitting opposite as a sign of 
disrespect. The IC further determined the conduct did not rise to a 
level of abuse of authority.
Lack of Independence
    The IC considered eighteen allegations, appearing as numbers 9, 10, 
28, 29, 30, 31, 32, 34, 35, 37, 47, 48, 49, 50, 51, 66, 67, and 68 in 
the ROI, which fell under the broad category of lack of independence. 
The starting point for the ICs analysis is EO 12805 which established 
the President's Council on Integrity and Efficiency (PCIE) and the 
Executive Counsel on Integrity and Efficiency (ECIE). Section 3(c) of 
the EO provides that ``[t]he individual members of the Councils should, 
to the extent permitted under law, adhere to the professional standards 
developed by the Councils and participate in the plans, programs, and 
projects of the Councils.''
    In October 2003, the PCIE and ECIE promulgated the Quality 
Standards for Federal Offices of Inspector General, which sets out 
quality standards for the management, operation, and conduct of the 
Federal Offices of Inspector General. Section II.A. of the Quality 
Standards establishes general standards for ethics, independence, and 
confidentiality, indicating that ``[i]ndependence is a critical element 
of objectivity. Without independence, both in fact and in appearance, 
objectivity is impaired.'' Section II.C. describes the independence 
standard with more detail:

        The Inspector General and OIG staff must be free both in fact 
        and appearance from personal, external, and organizational 
        impairments to independence. The Inspector General and OIG 
        staff have a responsibility to maintain independence, so that 
        opinions, conclusions, judgments, and recommendations will be 
        impartial and will be viewed as impartial by knowledgeable 
        third parties. The Inspector General and OIG staff should avoid 
        situations that could lead reasonable third parties with 
        knowledge of the relevant facts and circumstances to conclude 
        that the OIG is not able to maintain independence in conducting 
        its work.

    Six of the eighteen allegations within the subset labeled as ``lack 
of independence'' indicate that IG Cobb sought to develop and maintain 
a close relationship with former NASA Administrator Sean O'Keefe and 
that this effort contributed to an appearance that his independence was 
being compromised. The ROI and IG Cobb's interview documents these 
efforts:

  <bullet> IG Cobb frequently joined Administrator O'Keefe in lunches 
        intended for senior staff at NASA Headquarters.

  <bullet> IG Cobb played golf on two occasions with Administrator 
        O'Keefe.

  <bullet> IG Cobb used the NASA aircraft for official travel on 
        several occasions when Administrator O'Keefe was also 
        traveling.

  <bullet> IG Cobb referred to the Administrator as ``his boss.''

  <bullet> IG Cobb sought guidance from Administrator O'Keefe on the 
        audit design for at least two audits.

  <bullet> IG Cobb sought Administrator O'Keefe's review of a draft OIG 
        opinion regarding the independence of the Columbia Accident 
        Investigation Board.

  <bullet> IG Cobb advised Administrator O'Keefe about search warrants 
        to be issued in a significant criminal investigation before 
        those search warrants were executed.

    An IG is required to keep the head of the agency fully and 
currently informed about fraud and other serious problems, abuses, or 
deficiencies relating to the programs and operations administered or 
financed by the agency. He has a responsibility to communicate with the 
Administrator. IG Cobb concedes his activities and responds that he has 
a ``collaborative approach'' with senior management and specifically 
agrees with the policy laid out by Administrator O'Keefe that an OIG 
has an opportunity to add value to an organization. None of these 
instances, standing alone, is sufficient to create an ``appearance'' 
problem, but it is the responsibility of the IG to consider how the 
combined affect of his interaction with the Agency head might cloud or 
be perceived to cloud his independence. Against this backdrop, the IC 
found two specific allegations warranting its detailed comment.
    The fact pattern of allegation 28 involved a June 2002 computer 
intrusion and theft of International Traffic in Arms Regulation (ITAR) 
designated files from a NASA server worth about $1.9 billion. The 
matter was brought to the attention of NASA by a news reporter. The 
theft of ITAR data must be reported to the State Department. The HUD 
OIG investigation revealed the primary responsibility to report the 
theft/compromise of ITAR data was the responsibility of NASA's Office 
of Security and Program Protection, known as ``Code X.'' However, the 
investigation revealed that IG Cobb was aware that Code X was not 
reporting the theft/compromise and IG Cobb took no action to ensure the 
reporting was made to the State Department. The complainant believes 
that IG Cobb failed to report the matter to the Department of State and 
Congress to avoid embarrassment for NASA management.
    Two witnesses, one of whom was [redacted] opined that if the 
appropriate NASA entity failed to report the loss, the reporting 
requirement would fall onto whoever had oversight over NASA, which 
would include the OIG. Under an OIG's oversight role, IG Cobb should 
have recognized Code X's misinterpretation of the reporting requirement 
and ensured that the proper parties were alerted. This is incumbent 
upon the IG by virtue of his position. Both witnesses questioned the 
independence of IG Cobb's decision to not report the theft/compromise 
or work to ensure Code X reported the theft/compromise. One of the 
witnesses opined that IG Cobb prevented the reporting of the matter 
because he was attempting to prevent public disclosure that would have 
embarrassed NASA. Another witness said IG Cobb viewed Code X as a 
``source of grief'' and that the easiest way to handle matters 
involving Code X was to ``acquiesce'' to the Code X Director. Another 
senior NASA OIG official prepared a Memorandum for Record (MFR), dated 
02/23/2006, concerning the ITAR matter. The MFR states in part:

        It took over a year for the loss [referring to the Marshall 
        Space Flight Center case] to be assessed by DOD, who opined the 
        stolen ITAR had national security implications (no further 
        information). For whatever reason, NASA senior management [Code 
        X] failed to report the loss. By definition and purpose the 
        OIG's oversight role, the IG [Cobb] should have recognized the 
        Code X's misinterpretation and misplaced emphasis and ensured 
        the proper parties were alerted. Even after being coached by 
        experienced OIG staff, the IG failed to act.

    IG Cobb said he directed his staff to prepare a report regarding 
the compromise that was sent to the Marshall Space Flight Center and a 
copy provided to NASA management in April 2003. In his supplemental 
letter IG Cobb indicates that any delay in preparing that report was a 
result of his insistence that the NASA OIG staff do the grinding work 
to produce an accurate and relevant report. IG Cobb maintains that 
there was no clear legal requirement for the loss to be reported to the 
Department of State by Code X and that the matter was discussed 
informally with the Department of State upon learning of the intrusion.
    Allegation 35 involves IG Cobb's actions in the investigation of an 
alleged theft of jewelry from the remains of a Columbia Space Shuttle 
Astronaut. The Columbia Space Shuttle exploded on February 1, 2003, 
during re-entry to the Earth's atmosphere. The explosion initiated over 
Texas en route to the planned landing at Kennedy Space Center. The 
remains of deceased Astronaut Laurel Clark were recovered shortly after 
the Columbia accident and a ring was allegedly present on, and then 
stolen from, her recovered remains. NASA OIG, in partnership with the 
Texas Rangers, pursued a joint investigation into the theft. As part of 
the investigative process, the Texas Rangers planned to release a 
``Crime Stoppers Report'' to the public to assist in the recovery of 
the stolen ring.
    [Redacted] the deceased Astronaut, and a NASA employee, supported 
the request for public assistance to find his wife's ring. [Redacted] 
said he met personally with IG Cobb who told him he would not issue a 
report on the investigation of the stolen ring. The meeting was tape 
recorded by [redacted]. At one point during the meeting, IG Cobb asked 
[redacted] to turn off the tape recorder. According to [redacted] IG 
Cobb said the whole NASA Columbia investigation was not going well, 
NASA wanted it finished, and for the outcome to reveal nothing that 
would make NASA look bad or shake the public's trust in NASA.
    Two witnesses interviewed by the HUD OIG suggest that IG Cobb 
inserted himself in the investigation with the intent of ensuring NASA 
would not be embarrassed. [Redacted] states that when IG Cobb saw the 
Crime Stoppers Report, he (IG Cobb) went ``ballistic.'' He recalled 
that IG Cobb, when discussing the report, stated, ``how can you even 
think of allowing this to go out'' and ``I am going to have to resign 
if this report gets out.'' [Redacted] stated that at the time he did 
not understand IG Cobb's response, but later learned that NASA 
Administrator O'Keefe instructed everyone at NASA not to contact any 
Astronaut or their families. He opined that IG Cobb believed O'Keefe 
was his ``boss'' and IG Cobb would do whatever O'Keefe wanted.
    Another NASA employee who requests confidentiality recalls IG Cobb 
saying, ``Can you believe how embarrassing that would have looked for 
the agency [NASA] if that [crime stoppers report] went out?'' The Texas 
Ranger involved in the investigation informed HUD OIG that he believed 
someone at NASA wanted the investigation shut down because if it got 
out that the ring was stolen, questions would be asked as to the 
conduct of the whole NASA investigation into the Columbia accident.
    IG Cobb responds that the decision he made regarding the matter was 
that his office needed to conduct additional investigation to see if 
what was articulated in the draft crime stopper notice was right or 
wrong. He questioned the evidence that was being relied on to conclude 
that a ring had been stolen and directed further investigation be 
conducted before consenting to NASA OIG involvement in issuance of any 
public notice of a criminal act. In IG Cobb's view, publication of the 
notice based on the information would have been irresponsible. IG Cobb 
evaluated the evidence as not supporting the contention that the ring 
was stolen from recovered remains but was lost along with millions of 
pieces of Columbia and all other personal effects of the astronauts 
over thousands of miles of Texas and Louisiana.
    The IC determined that neither allegation 28 or 35 substantiated an 
actual lack of independence on the part of IG Cobb that could be 
characterized as gross mismanagement, gross waste of funds, abuse of 
authority, or a violation of any law, rule, or regulation under EO 
12993. The facts set out in allegations 28 and 35 did substantiate two 
specific instances in which IG Cobb's performance caused the appearance 
of a lack of independence not in keeping with the Quality Standards for 
Federal Offices of Inspector General. IG Cobb's decision not to act to 
ensure the ITAR theft/compromise was reported in a timely manner 
created the appearance of a lack of independence. This determination 
augments the IC's review of the matter in 2004 in which it relied only 
on the allegation and a response from IG Cobb. In that review the IC 
determined that IG Cobb had not engaged in any wrongdoing. In addition, 
IG Cobb's actions associated with allegation 35, including his 
statements to [redacted] and a confidential witness, created the 
appearance of lack of independence not in keeping with the Quality 
Standards for Federal Offices of Inspector General. While the Quality 
Standards do not have status of law, rule, or regulation, the IC views 
these standards as a benchmark for IG performance and applicable to all 
IGs through EO 12805, Integrity and Efficiency in Federal Programs.
Audit Division Reorganization
    The IC considered six allegations, appearing as numbers 12, 14, 15, 
17, 18, and 19 in the ROI, concerning IG Cobb's handling of audits and 
staffing for the auditing function of the OIG. The thrust of these 
allegations was that IG Cobb reorganized the office several times, 
decreased the number of audit reports and changed their format making 
it difficult for auditors to know which format to follow, and generally 
slowed the audit reporting process to a substantial degree. IG Cobb's 
actions were within the discretion of an IG. The IC determined that the 
ROI did not substantiate actions by IG Cobb that amounted to gross 
mismanagement, gross waste of funds, abuse of authority, or a violation 
of any law, rule or regulation as it relates to his handling of audit 
division reorganization matters.
Other Matters
    The IC placed all remaining allegations in a general category 
referred to as ``Other.'' In its review of theses allegations, the IC 
determined that they were not substantiated by information in the ROI, 
indicated no wrongdoing by IG Cobb, were outside the purview of the IC, 
or did not warrant further investigation. It is important to note that 
within this category there were some allegations involving 
whistleblower retaliation which is an area outside the purview of the 
IC. The whistleblower retaliation allegations were referred to the 
Office of Special Counsel, the agency with the appropriate authority to 
conduct inquiries on such matters.
Conclusion
    The IC concludes that IG Cobb engaged in abuse of authority as an 
Inspector General by creating an abusive work environment. In addition, 
IG Cobb's actions created an appearance of a lack of independence 
outside the quality standards expected of an IG when he did not report 
the theft of NASA ITAR files and prevented the dissemination of a Crime 
Stoppers Report.
Issues of Due Process
    During the course of the IC inquiry, IG Cobb expressed 
dissatisfaction with the IC process in multiple letters. He questioned 
the methodology by which IC directed an investigation, the degree of 
due process for him in that methodology, his inability to review the 
report prepared by the HUD OIG before it was presented to the IC, and 
what he perceives as a lack of fairness to him during the course of the 
investigation and the IC review.
    The decision to investigate was made by the IC. IG Cobb received 
notice that an outside investigation would ensue. The letter did not 
purport to identify all of the matters to be investigated, but as IG 
Cobb was later informed, this letter was not intended to limit the 
authority of the IC to review other allegations of wrongdoing. IG Cobb 
was generally cognizant of the matters under investigation and answered 
extensively in the questioning during his interview. He was provided a 
copy of his interview transcript and given the opportunity to comment 
on the accuracy of the transcription or submit additional matters for 
consideration by the IC prior to IC's review of the report. His 
interview regarding allegations 28, 35, and 53 was extensive and he 
responded with seemingly clear knowledge of the matters about which he 
was being questioned.
    In subsequent correspondence to the IC, IG Cobb did not question 
the accuracy of the transcription and did submit additional matters to 
the IC that went to the substance of allegations. IG Cobb's materials 
dealt generally with the matter of lack of independence and 
specifically with the substance of allegations 28 and 35, the 
compromise of ITAR data and Astronaut Clark's missing ring 
respectively. The additional information submitted by IG Cobb was 
provided to IC members shortly after it was received. While IG Cobb may 
not have been sent a letter detailing the specific allegations being 
investigated, he was more than able to respond to the allegations which 
ultimately form the basis for the IC's determinations in this case. IG 
Cobb also offered the names of witnesses to be interviewed by the HUD 
OIG and later suggested questions for those interviews. Some of those 
individuals had been interviewed by the HUD OIG but others, including 
many from outside the agency, were not.
    IG Cobb did not receive a copy of the ROI prepared by the HUD OIG 
at the conclusion of the investigation under the Policy and Procedures 
of the IC. The ROI is available to him under the Privacy Act and 
implementing regulations of the Department of Justice. He has already 
submitted a request for the ROI which will be provided to him through 
that mechanism. The copy he receives will be redacted of personal 
information and other information as allowed by the Privacy Act and 
implementing regulations.
    IG Cobb will be notified that the IC has concluded its review and 
is forwarding the matter for your consideration. He has not been 
informed about the IC's determinations or provided a copy of this 
letter.
Outside Inquiries
    The IC has received both media and Congressional inquiries 
concerning this investigation. As part of the PCIE/ECIE, the IC 
considers its review a component of the overall process which you, as 
Chairman, have ultimate authority. Neither the IC, nor its members will 
provide any information or briefing on this matter unless it is 
specifically approved by your office. Until advised otherwise, as IC 
Chair, I will refer all media and Congressional requests on this matter 
to your office.
    Please contact me if I can be of any further assistance in this 
matter.
            Sincerely,
                                       James H. Burrus, Jr.
                                        Chair, Integrity Committee.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
